<html>
<title> - CRUISE INDUSTRY OVERSIGHT: RECENT INCIDENTS SHOW NEED FOR STRONGER FOCUS ON CONSUMER PROTECTION</title>
<body><pre>[Senate Hearing 113-642]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-642
 
                   CRUISE INDUSTRY OVERSIGHT: RECENT
                    INCIDENTS SHOW NEED FOR STRONGER
                      FOCUS ON CONSUMER PROTECTION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2013

                               __________

Printed for the use of the Committee on Commerce, Science, and Transportation


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                          U.S. GOVERNMENT PUBLISHING OFFICE
94-526                        WASHINGTON : 2015                          

________________________________________________________________________________________      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  

 
      
      
      
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
MARTIN HEINRICH, New Mexico          RON JOHNSON, Wisconsin
EDWARD MARKEY, Massachusetts         JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 24, 2013....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................    24
Statement of Senator Nelson......................................    32
Statement of Senator Schatz......................................   125
Statement of Senator Begich......................................   128
Statement of Senator Blumenthal..................................   131
Statement of Senator Markey......................................   133

                               Witnesses

Rear Admiral Joseph Servidio, Assistant Commandant for Prevention 
  Policy, United States Coast Guard..............................    25
    Prepared statement...........................................    27
Ross A. Klein, Ph.D., Professor, Memorial University of 
  Newfoundland in St. John's, Newfoundland, Canada...............    33
    Prepared statement...........................................    35
Hon. Mark Rosenker, Former Chairman, National Transportation 
  Safety Board and Member, Cruise Line International 
  Association's ``Panel of Experts''.............................    92
    Prepared statement...........................................    94
Gerald Cahill, President and Chief Executive Officer, Carnival 
  Cruise Lines...................................................   114
    Prepared statement...........................................   114
Adam M. Goldstein, President and Chief Executive Officer, Royal 
  Caribbean International........................................   118
    Prepared statement...........................................   120

                                Appendix

Letter dated August 19, 2013 to Senator John D. Rockefeller IV 
  from Kathy A. Notarianni, Ph.D., P.E., Head, Department of Fire 
  Protection Engineering; Associate Professor, Fire Protection 
  Engineering and Associate Professor, Mechanical Engineering and 
  Chemical Engineering, Worcester Polytechnic Institute..........   147
Response to written questions submitted to Rear Admiral Joseph 
  Servidio by:
    Hon. John D. Rockefeller IV..................................   148
    Hon. Barbara Boxer...........................................   150
Response to written questions submitted to Gerald Cahill by:
    Hon. John D. Rockefeller IV..................................   151
    Hon. Barbara Boxer...........................................   154
    Hon. Maria Cantwell..........................................   154
Response to written questions submitted to Adam M. Goldstein by:
    Hon. John D. Rockefeller IV..................................   156
    Hon. Maria Cantwell..........................................   158
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Ross A. Klein, Ph.D..........................   159


                   CRUISE INDUSTRY OVERSIGHT: RECENT



                    INCIDENTS SHOW NEED FOR STRONGER


                    FOCUS ON CONSUMER PROTECTION

                              ----------                              


                        WEDNESDAY, JULY 24, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I thank all of you for being here. And I will 
proceed with an opening statement, followed by Senator Thune, 
and then we will go directly to testimony, and then we will 
have a lively discussion.
    Millions of Americans enjoy taking cruises every year. I 
completely understand why. Cruise lines sell people a fun-
filled, once-in-a-lifetime dream vacation. Probably with that 
in mind, I guess, two my children have taken cruise line ships. 
And sometimes they get that dream. Sometimes they get that 
dream. But, as we all know, sometimes cruises hit rough waters 
and that dream can turn into a nightmare.
    In March 2012, after several very troubling safety 
incidents occurred on cruise ships, I held a hearing in this 
room to get answers about why passengers sometimes find 
themselves in harm's way. It was a serious attempt to get 
answers. The leader of the Cruise Industry Trade Association 
sat right there and told me, basically, to trust her--that 
doesn't come easily in the Senate, right?--to trust that the 
industry was engaged in a rigorous review of safety procedures 
that would fix everything. I did not entirely believe her at 
the time, but I felt like the industry needed a fair chance to 
correct their course. It has now been 16 months since that 
hearing, and I have not seen much evidence that things have 
changed.
    Since that hearing, since those empty promises, serious 
incidents continue to plague cruise ships. And I'm sorry about 
that. This conduct should make us all very angry. If the 
industry is seriously working to improve the safety and 
security of its ships, why have we witnessed so many serious 
incidents in the last 16 months? Is the industry really trying 
to adopt a culture of safety or are these safety reviews and 
temporary investments a cynical effort to counter bad 
publicity? That happens.
    I seriously worked to improve the safety and security of 
these ships. Why have we witnessed so many serious incidents in 
the last 16 months? I believe the culture of safety that 
Americans expect, as they should, is clearly not always a 
priority for cruise lines. That's not necessarily restricted to 
cruise lines, I might say. I can think of a number of American 
industries where I might make the same comment.
    Cruise ships on fire and drifting at sea tend to make 
headlines, and we know how they impact passengers. But, cable 
news doesn't cover the many crimes committed against individual 
passengers on cruise ships, which are just as concerning to me.
    We have been reviewing the industry for a while now, for 
quite a long while, and have found some sobering details. 
Consumers have the right to know what we have learned before 
they book their first or next dream vacation. For instance, if 
somebody steals your property or assaults you on a cruise ship, 
you cannot, obviously, call 911 and have the police there in a 
few minutes; you can only call the ship's security officer, 
who, I think, predictably, happens to be an employee of the 
cruise line. That's not a criticism, it's just a fact. The 
cruise industry has fought to limit when and where passengers 
can file lawsuits, so it becomes incredibly difficult, if not 
impossible, to right these wrongs.
    I have placed, for your reading enjoyment, in front of you, 
this. I went to the ophthalmologist, 2 days ago, and, in spite 
of my very best efforts last night and this morning, I can't 
read a word of this.
    [Laughter.]
    The Chairman. And, at one hearing, we were told that, when 
you are sold a ticket, that, after the ticket sale is made, 
then you peel off, and then you run into this. What this is are 
many pages, in absolutely the smallest type that I have ever 
seen in my entire life. It's all about liability limitations. 
Not all of it, but a lot of it. It's stunning. And what is most 
important to me, I guess, is that it isn't readable. So, if it 
isn't readable, is it, in fact, like it's not there and that 
they're not being warned?
    I don't think people go on cruise ships with the idea of 
wanting to sue, but, after some of these incidents recently, it 
may be that people do have that in mind.
    Anyway, to make things worse, under current law, cruise 
ship crime report data is not available to the public. That's 
crime data. That means consumers have no way to find out what 
their real risks are before they take a cruise. Now, granted, 
these are huge ships. I guess the largest one is now, what, 
5,000-plus people and 2,000 employees. And I'm not criticizing 
that. It's a stunning sight to see, in the Virgin Islands or 
the Bahamas or somewhere. But, I'm--I can't criticize that--
but, implicit in 7,000 people on a ship in such tight quarters 
over a fairly long period of time, the possibility of predators 
and criminal activities, whether it be on persons or on 
property, is obviously large.
    During the last few months, my staff has been analyzing the 
FBI crime report. And that's this. It's the FBI crime report 
data that does not get publicly released. And I'm not doing it. 
They recently submitted a report to me on cruise ship crimes. 
That's that.
    I ask unanimous consent to put this staff report in the 
record of this hearing.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ______
                                 
                           Table of Contents
Executive Summary

I. The Commerce Committee's Review

II. Background on Cruise Passenger Resources and Recourse Following a 
Crime Onboard

        A. Calling for Help

        B. Onboard Investigation

        C. Jurisdictional Issues

        D. Ticket Contracts Limit Passenger Rights

        E. Impact of Differences

III. The CVSSA Crime Reporting Requirements

IV. Analysis of Cruise Crime Statistics Since CVSSA

V. Conclusion

Appendices

I. Alleged Crime Incident Data for 2011 and 2012

II. Alleged Crime Victim Data for 2012

III. U.S. Coast Guard Publicly Reported Cruise Crime Data for 2010, 
2011, and 2012
Executive Summary
    For many passengers, a cruise is a dream vacation: a floating city 
full of exciting attractions and adventure for the whole family. 
However, crime on a cruise ship can turn a dream vacation into a 
nightmare. While crimes occur infrequently on cruise ships,\1\ when 
crime does occur onboard the victim often lacks the same access to law 
enforcement and emergency services--as well as avenues for recourse--
that are available in the United States. Particularly given these 
differences, it is important that passengers are informed about crime 
on cruises before they travel.
---------------------------------------------------------------------------
    \1\ Cruise Line I A, CLIA Statement: Congressional Hearing (Mar. 
27, 2001) (online at http://www.cruising.org/vacation/node/316).
---------------------------------------------------------------------------
    To increase transparency regarding crime on cruise vessels,\2\ 
Congress included in the Cruise Vessel Security and Safety Act of 2010 
(CVSSA) public reporting requirements regarding cruise ship crime. 
Under the CVSSA, cruise lines must report to the Federal Bureau of 
Investigation (FBI) any allegation of a crime \3\ as soon as possible 
and the United States Coast Guard (Coast Guard)\4\ must maintain and 
publicly post on a website a statistical compilation of the alleged 
crimes. Unfortunately, the public reporting process established under 
this language is not providing consumers a complete view of crimes 
reported on cruise vessels.
---------------------------------------------------------------------------
    \2\ Congress found that ``Passengers on cruise vessels have an 
inadequate appreciation of their potential vulnerability to crime while 
on ocean voyages, and those who may be victimized lack the information 
they need to understand their legal rights or to know whom to contact 
for help in the immediate aftermath of the crime.'' Pub. L. No. 111-
207, Sec. 2, (2010).
    \3\ CVSSA classifies as crimes required to be reported to the FBI 
as all homicide, suspicious death, a missing United States national, 
kidnapping, assault with serious bodily injury, any offense to which 
section 2241, 2242, 2243, or 2244(a) or (c) of title 18 applies, firing 
or tampering with the vessel, or theft of money or property in excess 
of $10,000. Pub. L. No. 111-207.
    \4\ CVSSA requires the Secretary of Homeland Security to maintain 
and publicly post a statistical compilation of alleged crimes reported 
and no longer under investigation by the Federal Bureau of 
Investigation. These statistics are published on the Coast Guard's 
website. Pub. L. No. 111-207.
---------------------------------------------------------------------------
Actual Cruise Crime Data is Higher than Publicly Reported
    Unlike with crimes reported on land in the United States,\5\ the 
public database established pursuant to CVSSA discloses only those 
crimes that are no longer under investigation by the FBI. The law also 
requires only a subset of the types of crimes reported to the FBI to be 
reported publicly.\6\ Data the Committee on Commerce, Science and 
Transportation obtained from Coast Guard and the FBI shows that, since 
passage of the CVSSA, the number of alleged crimes cruise lines 
reported to the FBI--including crimes reported voluntarily by cruise 
lines--is 30 times higher than the number of alleged crimes reported 
publicly. Since 2011, cruise lines have reported 959 alleged crimes to 
the FBI, while the Coast Guard reported only 31 alleged crimes 
publicly.
---------------------------------------------------------------------------
    \5\ Federal Bureau of Investigations, Crime Statistics, Uniform 
Crime Reports Web Site (online at http://www.fbi.gov/about-us/cjis/ucr/
ucr-publications#Crime) (accessed June 10, 2013).
    \6\ The owner of a cruise vessel is required to keep logs of all 
allegations of crime but is only required to report certain types of 
crime incidents to the FBI. The owner of a cruise vessel may voluntary 
report other alleged crimes to the FBI. CVSSA provides that only the 
crimes that are required to be reported to the FBI must be reported 
publicly. These crimes include all homicide, suspicious death, a 
missing United States national, kidnapping, assault with serious bodily 
injury, any offense to which section 2241, 2242, 2243, or 2244(a) or 
(c) of title 18 applies, firing or tampering with the vessel, or theft 
of money or property in excess of $10,000. Pub. L. No. 111-207. The FBI 
records crimes reported to the Bureau, but not required to be reported 
or publicly listed by the Coast Guard, as ``Other Crimes.''
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Further, with respect to the categories of crimes for which the 
CVSSA specifically requires cruise lines to report alleged incidents to 
the FBI, the number of alleged crimes that cruise lines reported is 
over four times higher than the number of alleged crimes reported 
publicly. Since 2011, cruise lines have reported 130 of such alleged 
crimes to the FBI, while only 31 alleged crimes were reported publicly.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Crimes Committed Against Minors are Unrepresented in Official 
        Statistics
    The Committee's review of cruise crime statistics also identified 
that crimes committed against minors are unrepresented in publicly 
available statistics. In cases of sexual assault, cruise crime data 
that is not publicly reported indicates minors are the victim in a 
significant percentage of total alleged sexual assaults.
I. The Commerce Committee's Review
    In March 2012, the Senate Committee on Commerce, Science, and 
Transportation held a hearing on the cruise industry and its ability to 
protect its passengers. The Committee received testimony raising 
concerns that the public was receiving incomplete information regarding 
alleged cruise crimes.\7\ At the hearing Ross Klein, a professor at 
Memorial University of Newfoundland, testified about his Freedom of 
Information (FOIA) request to the FBI for cruise crime data after the 
passage of CVSSA:
---------------------------------------------------------------------------
    \7\ Testimony of Professor Ross Klein, Senate Committee on 
Commerce, Science, and Transportation, Oversight of the Cruise Ship 
Industry: Are Current Regulations Sufficient to Protect Passengers and 
the Environment?, 112th Cong. (Mar. 1, 2012).

        The material returned in response was totally unhelpful. All 
        useful information was redacted. As well, the FBI says they are 
        not required to keep track of or report crimes committed on 
        cruise ships unless they have opened a file of investigation 
        and subsequently closed the file. That means that allegations 
        of crime are no longer available for analysis . . . [This 
        absence of data] is not in the interest of the public or in the 
        spirit of the Cruise Vessel Security and Safety Act of 2010.'' 
        \8\
---------------------------------------------------------------------------
    \8\ Id. at p. 47.

    To further examine these concerns, Committee Chairman John D. 
Rockefeller IV requested that the FBI provide the Committee the crime 
data that the cruise lines reported to the FBI since passage of CVSSA. 
Using the crime data provided by the FBI,\9\ Committee staff then 
compared this data to the publicly reported cruise crime data that is 
posted on the Coast Guard's website.\10\
---------------------------------------------------------------------------
    \9\ Letter from Stephen D. Kelly, Assistant Director, Office of 
Congressional Affairs, Federal Bureau of Investigation, to Senate 
Commerce Committee Chairman Rockefeller (July 16, 2012); Letter from 
Stephen D. Kelly, Assistant Director, Office of Congressional Affairs, 
Federal Bureau of Investigation, to Senate Commerce Committee Chairman 
Rockefeller (Apr. 4, 2013).
    \10\ The Coast Guard Cruise Crime Website (online at http://
www.uscg.mil/hq/cg2/cgis/CruiseLine.asp) These statistics can be found 
attached to this report as Appendix III.
---------------------------------------------------------------------------
II. Background on Cruise Passenger Resources and Recourse Following a 
        Crime Onboard
    According to the cruise industry, a cruise is as safe as ``your 
average community in the United States,'' \11\ and ``the incidence of 
crime onboard is very small given the large number of guests carried.'' 
\12\ However, there are significant differences between how crimes that 
occur on land in the United States are responded to as compared to 
crimes that occur on cruise vessels.
---------------------------------------------------------------------------
    \11\ Mystery at Sea: Who Polices the Ships?, New York Times (Feb. 
26, 2006) (online at http://www.nytimes.com/2006/02/26/travel/
26crime.html?pagewanted=all&_r=1&).
    \12\ Carnival Cruise Line Website (online at https://
secure.carnival.com/cms/fun/cruise_
control/security_safety_act.aspx) (accessed June 10, 2013).
---------------------------------------------------------------------------
A. Calling for Help
    In the United States, when a crime occurs, a victim or a witness to 
the crime generally can call 911 to access police, medical, and other 
services.\13\ Often, within minutes, law enforcement trained to 
investigate and eventually help prosecute criminals is on the 
scene.\14\ Law enforcement called to the scene is an impartial party to 
the investigation;\15\ they must protect the scene, take statements, 
and collect and preserve evidence in accordance with the law.\16\
---------------------------------------------------------------------------
    \13\ The National 911 Program (online at http://www.911.gov/
about.html).
    \14\ See, e.g., Department of Justice, Crime Scene Investigation: A 
Guide for Law Enforcement (Jan. 2000) (online at http://www.nij.gov/
nij/topics/law-enforcement/investigations/crime-scene/guides/
generalscenes/welcome.htm).
    \15\ See, e.g., Florida Department of Law Enforcement, Officer 
Requirements page (online at http://www.fdle.state.fl.us/Content/CJST/
Menu/Officer-Requirements-Main-Page/LE-Ethical-Standardsof-
Conduct.aspx); FBI, Quick Facts (noting FBI core values include 
fairness) (online at http://www.fbi.gov/about-us/quick-facts) (accessed 
June 28, 2013).
    \16\ Department of Justice, Crime Scene Investigation: A Guide for 
Law Enforcement (Jan. 2000), pp.iii, 1, and 10.
---------------------------------------------------------------------------
    When a crime occurs on a cruise vessel, it can be an entirely 
different story for the victim. Victims generally report crimes to 
cruise vessel security officers, who are employees of the cruise 
company.\17\ These employees do an initial investigation and determine 
when and whether to report a crime to law enforcement.\18\ As employees 
of the cruise lines, these security officers do not have the same arm's 
length relationship with the cruise lines as do local and Federal law 
enforcement officials.\19\ Rape, Abuse & Incest National Network 
(RAINN) testified before the Commerce Committee about the inherent 
difficulties victims face when reporting a crime that occurred onboard 
to security officers who work for the cruise company:
---------------------------------------------------------------------------
    \17\ House Subcommittee on Coast Guard and Maritime Transportation 
of the Committee on Transportation and Infrastructure, Hearing on 
Crimes Against Americans on Cruise Ships, 110th Cong. (Mar. 27, 2007), 
p. 30.
    \18\ Senate Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety, and Security of the Committee on 
Commerce, Science, and Transportation, Hearing on Cruise Ship Safety: 
Examining Potential Steps for Keeping Americans Safe At Sea, 110th 
Cong. (June 19, 2008), pp. 55-56.
    \19\ House Subcommittee on Coast Guard and Maritime Transportation 
of the Committee on Transportation and Infrastructure, Hearing on 
Crimes Against Americans on Cruise Ships, 110th Cong. (Mar. 27, 2007), 
p. 30.

        You won't have any rape crisis personnel onboard to support 
        you, let alone law enforcement officials to come to your aid. 
        You might turn to cruise ship employees for help, only to later 
        find that the cruise line has a vested interest in shielding 
        themselves against negative publicity or legal jeopardy. And 
        you might wonder how any security personnel hired by the cruise 
        line will react if presented with any situation that might give 
        rise to a potential conflict of interest between their employer 
        and yourself.\20\
---------------------------------------------------------------------------
    \20\ Senate Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety, and Security of the Committee on 
Commerce, Science, and Transportation, Senate Committee on Commerce, 
Science, and Transportation, Hearing on Cruise Ship Safety: Examining 
Potential Steps for Keeping Americans Safe At Sea, 110th Cong. (June 
19, 2008), p. 13.
---------------------------------------------------------------------------
B. Onboard Investigation
    Since law enforcement generally is not immediately present when a 
crime occurs on a cruise ship, the cruise ship security officers and 
sometimes the victims themselves are responsible for preserving the 
scene of the crime and any evidence.\21\ According to Congressional 
testimony, cruise lines have taken the position that they have no duty 
to investigate crimes.\22\ Victims groups and others have raised 
concerns that cruise lines have omitted basic steps such as taking 
witness statements and have lost, destroyed, or mishandled 
evidence.\23\ The International Maritime Organization \24\ (IMO) is 
developing draft guidelines to help guide cruise line crew in crime 
scene preservation.\25\
---------------------------------------------------------------------------
    \21\ Id. p. 12.
    \22\ See Testimony of International Cruise Victims Association, 
Inc. President Kendall Carver, Cruise Ship Safety: Examining Potential 
Steps for Keeping Americans Safe at Sea (June 19, 2008) (discussing 
cruise lines' legal position and attaching legal memo by a leading 
cruise line taking this position) (online at http://
www.internationalcruisevictims.org/files/Total-testimoney
1a-1-with_titles.pdf) (accessed July 15, 2013).
    \23\ See, e.g., The World Today--Brimble inquest hears staff 
disturbed crime scene, ABC Online (June 15, 2006) (online at http://
www.abc.net.au/cgibin/common/printfriendly.pl?http://www.abc.net.au/
worldtoday/content/2006/s1663754.htm); Testimony of Professor Ross 
Klein, Senate Committee on Commerce, Science, and Transportation, 
Oversight of the Cruise Ship Industry: Are Current Regulations 
Sufficient to Protect Passengers and the Environment?, 112th Cong. 
(Mar. 1, 2012), pp. 39 and 43 (stating that crew training for crime 
scenes is inadequate); Testimony of RAINN (Rape, Abuse, and Incest 
National Network), Senate Subcommittee on Surface Transportation and 
Merchant Marine Infrastructure, Safety, and Security, of the Committee 
on Commerce, Science, and Transportation, Cruise Ship Safety: Examining 
Potential Steps for Keeping Americans Safe at Sea, 110th Cong. (June 
19, 2008), p. 12, 18 (discussing issues concerning contaminated 
evidence).
    \24\ IMO is a United Nations agency that sets international 
standards for ship safety, security, and pollution. IMO, See About IMO 
page (on line at http://www.imo.org/About/Pages/Default.aspx).
    \25\ International Maritime Organization, Collation and 
Preservation of Evidence Following an Allegation of a Serious Crime 
Having Taken Place on Board a Ship or Following a Report of a Missing 
Person from a Ship, and Pastoral and Medical Care of Victims, Legal 
Committee 100th session, Agenda item 7 (I:/LEG/100/7.doc) (Feb. 8, 
2013).The International Cruise Victims Association has raised concerns 
about the adequacy of these draft guidelines. See CDR. Mark Gaouette, 
USNR (Ret.), Unpublished paper entitled ICV Discussion on the IMO Legal 
Committee Guidelines: ``Collation and Preservation of Evidence 
Following an Allegation of a Serious Crime'' 2013; Mark Gaouette, 
Campaigners and industry clash over crime guidelines, Fairplay (June 6, 
2013).
---------------------------------------------------------------------------
C. Jurisdictional Issues
    Because of complex jurisdictional rules governing cruise line 
activities, in some cases passengers may not have the same legal 
protections on cruise vessels as they do in the United States.\26\ U.S. 
laws and protections only govern in certain circumstances and there are 
instances where U.S. law enforcement has limited jurisdiction over 
crimes.\27\ For example, a U.S. citizen can report a cruise crime to 
the FBI, but if the ship has left U.S. port the FBI is not typically in 
a position to act as an onboard police force immediately after the 
crime happens.\28\ Law enforcement may be located thousands of miles 
away \29\ and may have to work through a myriad of jurisdictional 
issues with other countries that share jurisdiction over the 
incident.\30\
---------------------------------------------------------------------------
    \26\ Myers, Rosie, Cruise Industry Regulation: What Happens on 
Vacation Stays on Vacation, A&NZ Mar LJ (2007) (online at http://
heinonline.org/HOL/LandingPage?collection=journals
&handle=hein.journals/ausnewma21&div=11&id=&page=), pp. 109 and 114.
    \27\ Senate Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety, and Security of the Committee on 
Commerce, Science, and Transportation, Crimes Against Americans on 
Cruise Ships, 110th Cong. (Mar. 27, 2007), p. 1.
    \28\ Senate Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety, and Security of the Committee on 
Commerce, Science, and Transportation, Cruise Ship Safety: Examining 
Potential Steps for Keeping Americans Safe At Sea, 110th Cong. (June 
19, 2008), p. 13.
    \29\ Rosie Myers, Cruise Industry Regulation: What Happens on 
Vacation Stays on Vacation, 21 Australian and New Zealand Maritime Law 
Journal (2007), pp. 106-107.
    \30\ Id. at pp. 114-117.
---------------------------------------------------------------------------
    Further, only certain crimes meet the threshold for the FBI to 
intervene. Theft of items valued under a certain amount \31\ or lack of 
evidence \32\ may result in the FBI declining to investigate an alleged 
crime. Even if the FBI does investigate, another country's law 
enforcement agency may play the lead role in investigating and 
prosecuting the crime.\33\
---------------------------------------------------------------------------
    \31\ Asia N. Wright, High Seas Ship Crimes, Loyola Maritime Law 
Journal 1 (2009), p. 8.
    \32\ House Subcommittee on Coast Guard and Maritime Transportation 
of the Committee on Transportation and Infrastructure, Hearing on 
Crimes Against Americans on Cruise Ships, 110th Cong. (Mar. 27, 2007), 
p. 12.
    \33\ House Subcommittee on Coast Guard and Maritime Transportation 
of the Committee on Transportation and Infrastructure, Hearing on 
Crimes Against Americans on Cruise Ships, 110th Cong. (Mar. 27, 2007), 
pp. 11-12; Asia N. Wright, High Seas Ship Crimes, Loyola Maritime Law 
Journal 1 (2009), p. 19.
---------------------------------------------------------------------------
D. Ticket Contracts Limit Passenger Rights
    Passengers may also find their ability to pursue legal action 
limited by clauses in the passenger contract that provides the terms 
and conditions of a cruise.\34\ For example, ticket contracts may 
require that a passenger has to file a lawsuit in a much shorter period 
than if the crime had occurred on land.\35\ Contracts also may include 
restrictions on the location of where an aggrieved passenger can file a 
lawsuit--typically requiring actions to be brought in Florida, where 
the major cruise lines are based.\36\ Further, cruise contracts often 
require mandatory arbitration \37\ or limit class action lawsuits.\38\
---------------------------------------------------------------------------
    \34\ Christopher Elliott, Can you trust the cruise lines' new 
passenger ``bill of rights''?, Chicago Tribune (June 18, 2013) and 
Princess Cruises, Passage Contract (online at http://www.princess.com/
legal/passage_contract/index.jsp).
    \35\ Justice Thomas A. Dickerson, The Cruise Passengers' Rights and 
Remedies: 2013 (June 10, 2013) pp. 120-123. (online at http://
www.nycourts.gov/courts/9jd/TacCert_pdfs/Dickerson
_Docs/CRUISEPASSENGERSRIGHTS&REMEDIES2013ONLINE.pdf).
    \36\ Michael D. Eriksen, U.S. Maritime Public Policy Versus Ad-hoc 
Federal Forum Provisions in Cruise Tickets, The Florida Bar Journal 
Volume 80, p.11 (Dec. 2006) (online at http://www.floridabar.org/
DIVCOM/JN/JNJournal
01.nsf/c0d731e03de9828d852574580042ae7a/
78faff425fc6f9e48525723300561ebf!OpenDocument&Highlight=0,*).
    \37\ Justice Thomas A. Dickerson, The Cruise Passengers' Rights and 
Remedies: 2013 (June 10, 2013) (online at http://www.nycourts.gov/
courts/9jd/TacCert_pdfs/Dickerson_Docs/CRUISE
PASSENGERSRIGHTS&REMEDIES2013ONLINE.pdf), pp. 127-128.
    \38\ E.g., Princess Cruise Lines Passage Contract, p. 14 (online at 
http://www.princess.com/legal/passage_contract/index.jsp) (accessed 
July 1, 2013).
---------------------------------------------------------------------------
E. Impact of Differences
    The vast majority of cruise passengers are not victims of onboard 
crime. However, where a crime does occur, the difference between 
passenger resources and recourse available on a cruise vessel versus on 
land can be the difference between justice and injustice for a crime 
victim. A case in point is the account of Laurie Dishman, who testified 
to Congress that while she was traveling on a cruise to Mexico, a 
janitor who was ``filling in'' for a security guard raped her, leaving 
ligature marks on her neck and other physical evidence.\39\ According 
to Ms. Dishman's testimony, following this incident, the cruise line 
personnel contaminated the scene, mishandled evidence, destroyed or 
``re-used'' closed circuit television camera tapes, delayed notifying 
the FBI, delayed providing medical treatment, did not immediately seal 
the crime scene, and provided limited information to Ms. Dishman.\40\ 
Further, she stated that the FBI was not able to access the crime scene 
for several days. At the time, the FBI indicated they did not have 
enough evidence to further investigate the crime. The accused crew 
member was not arrested, and he was allowed to return to his home 
country.\41\
---------------------------------------------------------------------------
    \39\ House Subcommittee on Coast Guard and Maritime Transportation 
of the Committee on Commerce, Science, and Transportation, Crimes 
Against Americans on Cruise Ships, 110th Cong. (Mar. 27, 2007) pp. 158-
159.
    \40\ Id.
    \41\ Id.
---------------------------------------------------------------------------
    Stories like this and others provided impetus for Congress to enact 
a number of provisions addressing crime on cruise ships in the 2010 
CVSSA.\42\
---------------------------------------------------------------------------
    \42\ Id.; Senate Subcommittee on Surface Transportation and 
Merchant Marine Infrastructure, Safety, and Security of the Committee 
on Commerce, Science, and Transportation, Hearing on Cruise Ship 
Safety: Examining Potential Steps for Keeping Americans Safe At Sea, 
110th Cong. (June 19, 2008).
---------------------------------------------------------------------------
III. The CVSSA Crime Reporting Requirements
    In 2007, the FBI, Coast Guard, and the cruise lines agreed that 
cruise lines would voluntarily report to the FBI incidents involving 
serious violations of U.S. law: homicide, suspicious death, missing 
U.S. nationals, kidnapping, assault with bodily injury, sexual 
assaults, firing or tampering with vessels, and theft greater than 
$10,000.\43\
---------------------------------------------------------------------------
    \43\ House Subcommittee on Coast Guard and Maritime Transportation 
of the Committee on Transportation, Crimes Against Americans on Cruise 
Ships (110-21) (Mar. 27, 2007), pp. 2, 15-16.
---------------------------------------------------------------------------
    According to U.S. Coast Guard testimony, under this agreement, the 
FBI would annually compile this data and prepare a comprehensive report 
to share with the Cruise Lines International Association (CLIA). The 
Coast Guard encouraged CLIA to disclose this information to potential 
cruise ship passengers.\44\ A victims group indicated it had been able 
to obtain these statistics through FOIA requests.\45\ However, this 
information was not readily available to the public.
---------------------------------------------------------------------------
    \44\ Id.
    \45\ Kendall Carver and Jamie Barnett, International Cruise Victims 
Challenges Cruise Crime Statistics Provided by FBI (June 10, 2012) 
(online at http://internationalcruisevictims.active
board.com/t49559394/icv-update-june-102012/?w_r=1354674534)
---------------------------------------------------------------------------
    One of the ways Congress sought in the CVSSA to improve the safety 
of cruise passengers was to provide for greater transparency in 
reporting crimes that occur on cruise ships.\46\ In most major U.S. 
localities and foreign countries, the public can view local crime 
statistics based on crimes reported.\47\ The FBI views these crime 
statistics as an important and helpful tool.\48\ The public can use 
information regarding the occurrence of crimes to make more informed 
decisions about their travel and actions.\49\
---------------------------------------------------------------------------
    \46\ Pub. L. No. 111-207.
    \47\ The Federal Bureau of Investigations, Uniform Crime Reporting 
Program page (online at http://www.fbi.gov/about-us/cjis/ucr); the 
State Department, International Travel Page (online at http://
travel.state.gov/travel/cis_pa_tw/cis/cis_4965.html).
    \48\ See Federal Bureau of Investigation, Uniform Crime Reports, 
Crime in the United States, Statement of FBI Director Robert S. Mueller 
(noting: ``The significant challenge of protecting life and property 
requires many different kinds of resources, including data such as the 
information found in this report. The highest mission of the FBI's UCR 
Program is to provide information to help law enforcement and other 
community leaders better understand the issues they face and more 
effectively prepare to meet them each day'') (online at http://
www.fbi.gov/about-us/cjis/ucr/crime-in-the-u.s/2010/crime-in-the-
u.s.2010/message-from-the-director).
    \49\ For example, numerous travel articles discuss crime as a 
factor for consumers considering tourist destinations. See, e.g., Komal 
Bakhru, Safest Vacation Destinations in the Caribbean (July 2011) 
(online at http://www.buzzle.com/articles/safest-vacation-destinations-
in-the-caribbean.html).
---------------------------------------------------------------------------
    The CVSSA includes language providing for public access to crime 
reports for cruise lines similar to reports the public can access 
regarding communities across the country. Toward that end, the law 
requires cruise lines to report a specific set of crimes to the FBI 
that (1) occur on a vessel owned by a U.S. person, (2) involve a U.S. 
national, (3) that occur in U.S. waters, or (4) will depart from or 
arrive at a U.S. port.\50\ Additionally, the Coast Guard must make 
these crime statistics publicly available online.\51\ However, unlike 
crime reporting on land in the United States,\52\ the FBI interprets 
the CVSSA to require public reporting of only those incidents that are 
no longer under investigation by the FBI.\53\
---------------------------------------------------------------------------
    \50\ The CVSSA requires cruise lines to report to the FBI all 
incidents of homicide, suspicious death, a missing United States 
national, kidnapping, assault with serious bodily injury, any offense 
to which section 2241, 2242, 2243, or 2244(a) or (c) of title 18 
applies, firing or tampering with the vessel, or theft of money or 
property in excess of $10,000. Pub. L. No. 111-207.
    \51\ Id.
    \52\ Federal Bureau of Investigations, Crime Statistics, Uniform 
Crime Reports Web Site (online at http://www.fbi.gov/about-us/cjis/ucr/
ucr-publications#Crime) (accessed June 10, 2013).
    \53\ Under the CVSSA, the incidents of homicide, suspicious death, 
a missing United States national, kidnapping, assault with serious 
bodily injury, any offense to which section 2241, 2242, 2243, or 
2244(a) or (c) of title 18 applies, firing or tampering with the 
vessel, or theft of money or property in excess of $10,000, that are 
reported and are no longer under investigation by the Federal Bureau of 
Investigation must be maintained on an Internet site that provides a 
numerical accounting of each of these incidents. Pub. L. No. 111-207 
(2010).
---------------------------------------------------------------------------
    The CVSSA also requires cruise lines to keep logs of all complaints 
of crimes committed on any voyage that embarks or disembarks passengers 
in the United States.\54\ This requirement covers a broader range of 
crimes than those required to be reported to the FBI. Under the CVSSA, 
cruise lines may voluntarily report any of the alleged incidents that 
do not fall under the category of incidents required to be reported, 
and many cruise lines have voluntarily provided this information to the 
FBI.\55\
---------------------------------------------------------------------------
    \54\ Pub. L. No. 111-207.
    \55\ Id.
---------------------------------------------------------------------------
    While CVSSA attempted to improve public access to reported cruise 
crime data, today complete information is still not publicly released.
IV. Analysis of Cruise Crime Statistics Since CVSSA
    Cruise crime data reviewed by Commerce Committee staff \56\ shows 
that since enactment of CVSSA, the public has not been able to access 
complete information regarding reported crimes aboard cruise vessels. 
Since passage of the CVSSA, the total number of alleged crimes cruise 
lines reported to the FBI--including both incidents reported 
voluntarily and those required to be reported to the FBI by cruise 
lines--is 30 times higher than the number of alleged crimes reported 
publicly. Since 2011, cruise lines have reported 959 alleged crimes to 
the FBI, while the Coast Guard reported only 31 alleged crimes 
publicly.
---------------------------------------------------------------------------
    \56\ To conduct this analysis, Committee staff reviewed publicly 
available cruise crime statistics and those requested by the Chairman, 
and by victim advocate groups through Freedom of Information Requests 
(FOIA). Letter from Stephen D. Kelly, Assistant Director, Office of 
Congressional Affairs, Federal Bureau of Investigation, to Senate 
Commerce Committee Chairman Rockefeller (July 16, 2012); Letter from 
Stephen D. Kelly, Assistant Director, Office of Congressional Affairs, 
Federal Bureau of Investigation, to Senate Commerce Committee Chairman 
Rockefeller (Apr. 4, 2013); Letter from David M. Hardy Section Chief, 
Record/Information Dissemination Section, Records Management Division, 
Federal Bureau of Investigation, to Mr. Kendall Carver, International 
Cruise Victims Association (June 14, 2013) regarding FOIA request for 
2012 cruise crime data submitted to the FBI. Appendix I includes the 
incident data analyzed to determine total alleged crimes reported to 
the FBI versus total alleged crimes reported publicly in 2011 and 2012. 
The FBI provided such incident data for 2011 and the incident data for 
2012 was drawn from an FBI response to a FOIA request. The FBI also 
provided the Committee data for 2012 that tallies victims of alleged 
crimes--as opposed to incidents of alleged crimes--and this data is 
shown in Appendix II.
---------------------------------------------------------------------------
Figure I: Discrepancies Between Publicly and FBI Reported Cruise Crime 
        Data
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    There is also a significant discrepancy between the total crimes in 
the categories of crime for which CVSSA mandates reporting to the FBI, 
and total crimes in these categories that are reported publicly. 
According to the FBI, for the years 2011 and 2012, the total alleged 
crimes that cruise lines reported to the FBI, in categories where 
reporting is required, was 130--over four times the total reported 
publicly by the Coast Guard. Figure II shows this difference.
Figure II: Cruise Crime Statistics Reported to the FBI and by the Coast 
        Guard, Excluding Crimes Voluntarily Reported to the FBI
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Figure III provides additional detail, displaying by categories of 
crime the difference between the number of alleged crimes reported to 
the FBI by cruise lines and the number of alleged crimes reported 
publicly.
Figure III: Detailed Cruise Crime Statistics as Reported by the FBI and 
        Coast Guard \57\
---------------------------------------------------------------------------
    \57\ Id.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    In some cases, as with assaults with serious injury reported in 
2011, the number of crimes publicly reported matches the number of 
crimes reported to the FBI. In most cases, however, the number of 
crimes reported to the FBI differs significantly from the number 
reported publicly. For example, with respect to alleged sexual assault 
crimes, the 13 alleged crimes publicly reported in 2011 represented 
only 31 percent of the 42 alleged crimes reported to the FBI, and in 
2012 the 11 alleged crimes publicly reported represented only 38 
percent of the 28 alleged crimes reported to the FBI. Figure III also 
shows that the FBI receives cruise line data on ``other crimes'' that 
is not shared publicly.
    In addition to the discrepancy between total alleged crimes 
reported to the FBI and total alleged crimes reported publicly, the FBI 
also receives additional victim detail not reported publicly concerning 
the age of victims of reported crimes. According to the FBI, of the 29 
alleged reported sexual assault victims in 2012, 10--or 34 percent--
were minors. Figure IV depicts this added detail that the FBI obtains 
when gathering cruise crime data with specific regard to alleged sexual 
assaults.
Figure IV--2012 Sexual Assault Data as Reported by the FBI \58\
---------------------------------------------------------------------------
    \58\ Letter from Stephen D. Kelly, Assistant Director, Office of 
Congressional Affairs, Federal Bureau of Investigation, to Senate 
Commerce Committee Chairman Rockefeller (Apr. 4, 2013).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Two recent media accounts of alleged sexual assaults on board 
cruise ships, one involving an alleged groping of a 12-year-old girl by 
a passenger,\59\ and one involving an alleged groping of an 11-year-old 
girl by a crew member,\60\ are reminders that minors as well as adults 
can be victims of crimes onboard cruise ships.
---------------------------------------------------------------------------
    \59\ KTOO, Ketchikan DA Investigating Alleged Cruise Ship Sexual 
Assault (July 12, 2013).
    \60\ USA Today, Watchdogs Urge Better Reporting of Cruise Ship 
Crime (June 10, 2013).
---------------------------------------------------------------------------
V. Conclusion
    Since the enactment of CVSSA, the number of alleged crimes reported 
by cruise lines to the FBI have been substantially higher than the 
number reported publicly. Further, the public does not currently have 
the ability to assess the extent to which minors are victims of cruise 
crime because this information is not currently publicly released.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 

    The Chairman. Our exhaustive oversight of the cruise 
industry and the recent events that have left thousands 
stranded at sea make it absolutely clear that more needs to be 
done. So, this week I took action. I introduced new legislation 
to make the common sense consumer protection improvements the 
cruise lines have not been willing to make on their own.
    At this point, incidentally, I should thank the Royal 
Caribbean CEO for coming. He was the most cooperative. And I 
don't know what he's going to say, but he came, and it was his 
own decision, and I want to thank him for that.
    Consumers deserve to know what rights and protections they 
have, and, more importantly, that they do not have, on their 
cruise. I have been assured repeatedly by the industry, that 
things will get better.
    Take a look at the events over the past 16 months and tell 
me if this is what you think ``better'' looks like. Cruise 
lines are on notice that the safety and protection of 
passengers is now their number one priority, whether they like 
it or not.
    That is the conclusion of my statement, and I turn now to 
Senator John Thune, the Ranking Member, whom I'm very fortunate 
to be able to work with.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Likewise. Thank you, Mr. Chairman, for 
holding this hearing today. And I want to thank our witnesses 
for being here to testify.
    Ensuring safety across all modes of transportation is one 
of this committee's most important functions. And recent 
events, in several modes, whether by air, rail, or sea, have 
demonstrated how challenging this can be. This task can be made 
even more difficult when a vessel like a cruise ship must 
travel through several jurisdictions during a single voyage.
    For instance, when a cruise ship embarks from a U.S. port, 
the cruise line must ensure compliance with safety regulations 
through coordination with the industry, the U.S. Coast Guard, 
and with foreign governments in countries through which the 
cruise ship is passing, either by sailing in foreign 
territorial waters or docking at a port within a foreign 
government's jurisdiction.
    While the cruise ship industry's safety record is generally 
good, there have been a few troubling incidents in recent 
years. The most tragic of these was the fatal accident 
involving the Costa Concordia, which ran aground off the coast 
of Italy in 2012. Thankfully, other incidents, other recent 
incidents, including those involving ships departing from U.S. 
ports, have not resulted in fatalities or significant injuries. 
Nevertheless, these particular incidents, which received 
significant media attention, did underscore the challenges and 
discomfort that passengers can be subjected to, including days 
without power or plumbing, and raise questions about the 
protections afforded to U.S. passengers.
    In the wake of these incidents, the cruise ship industry 
has taken several noteworthy steps to further ensure the safety 
and comfort of its customers and crews. The industry should be 
commended for its adoption of the Cruise Industry Passenger 
Bill of Rights, which includes the right to disembark from a 
ship if essential provisions cannot be provided; the right to a 
refund for a trip canceled due to mechanical failures; and the 
right to an emergency power source in the case of a generator 
failure. As the Chairman has noted, however, the Committee has 
an interest in ensuring that these commitments are translating 
into better experiences for passengers.
    So, I look forward to hearing more from our witnesses about 
these and other steps the cruise industry has taken to improve 
safety.
    Additionally, I am interested in hearing from the Coast 
Guard about any recommendations stemming from their 
investigations of recent cruise ship incidents and the work 
that they're doing at the Cruise Ship National Center of 
Expertise, in Everglades, Florida.
    Mr. Chairman, thank you again for holding this hearing, and 
I want to thank our witnesses for being here and for their 
willingness to testify.
    The Chairman. Thank you, Senator Thune.
    I think we should just move right into the witnesses. 
That's not pleasing to three distinguished colleagues of mine 
over there, but they'll have a lot of time to ask questions and 
to engage.
    Why don't we just start the way it is here: Rear Admiral 
Joseph Servidio, Assistant Commandant for Prevention and 
Policy, United States Coast Guard.

           STATEMENT OF REAR ADMIRAL JOSEPH SERVIDIO,

          ASSISTANT COMMANDANT FOR PREVENTION POLICY,

                   UNITED STATES COAST GUARD

    Admiral Servidio. Chairman Rockefeller, Ranking Member 
Thune, members of the Committee, good afternoon. On behalf of 
the Commandant and the men and women of your Coast Guard who 
perform our challenging safety, security, and environmental 
stewardship missions each day, including our response to the 
blowout well going on in the Gulf right now, sir, I thank you 
for your continuing strong support of our service. And, Mr. 
Chairman, thank you for your oversight.
    Today, I look forward to telling you how the Coast Guard 
regulates foreign-flagged cruise ships to ensure they are as 
safe as possible for the U.S. passengers who embark them. I 
want to leave you with three messages, sir: that we have a 
robust inspection regime for foreign-flagged cruise ships; I 
believe, the strongest port state control program in the world; 
that we have trained vessel inspectors and a National Center 
for Expertise to provide consistency in identifying risks and 
enforcing compliance; and that we have an assertive 
investigations process, a feedback loop informing our 
inspectors and our inspections, as well as our forward-leaning 
standards development process. We're looking to address today's 
and tomorrow's potential risks.
    Our regulatory oversight of cruise ships starts when they 
are still on the drawing board. Coast Guard naval architects 
review design drawings with a focus on critical elements, like 
fire- and life-safety plans, including structural fire 
protection and emergency escape routes. Once the design 
drawings are reviewed, we send our inspectors overseas to 
conduct onsite inspections and see if the vessels are 
constructed as they are designed. Once the ship is complete, it 
must pass the rigorous inspection initial exam before we allow 
it to embark passengers in U.S. ports. Finally, once in 
service, the ship is regularly inspected and will be examined 
on a risk-based schedule at least semiannually.
    If we have any concerns about a ship's safety, we will not 
permit it to embark passengers until our concerns are 
addressed. For example, several weeks ago, the Carnival Triumph 
was attempting to return to service after suffering an engine-
room fire. Before we would allow it back into service, Triumph 
had to pass an initial inspection, which included Coast Guard 
inspectors examining fire-detection, firefighting, and 
lifesaving systems and observing the crew conduct safety 
drills. Triumph did not initially pass, the captain of the port 
formally detained the vessel. Triumph eventually did pass, but, 
because it was detained, we'll be conducting more frequent 
inspections on the vessel.
    Inspecting these vessels is difficult, sir. Modern cruise 
ships are some of the most sophisticated vessels on the water 
today, due to their size and their complexity. To ensure our 
Coast Guard inspectors are experts, we leverage our National 
Cruise Ship Center of Expertise, in Fort Lauderdale. The NCOE 
collects studies and applies lessons learned from inspections 
and casualty investigations, and uses them to update our cruise 
ship inspection procedures, courses, and job aids.
    As an example, the Coast Guard was, and is, actively 
involved in a number of investigations. We've learned that our 
attention to detail on structural fire protection has worked. 
Systems generally performed well; they protected passengers and 
they likely saved lives. However, we also learned, in the 
Carnival Splendor investigation, that we need to inspect some 
areas more closely, like fixed engine-room firefighting 
systems, as well as to focus on higher-risk engine-room fires 
and drill evaluations. With the NCOE, we have adjusted our 
inspection procedures to make these changes.
    Because almost all of the cruise ships are foreign flagged, 
we are exerting leadership internationally to make cruise ships 
safer. Last month, I attended the IMO's Maritime Safety 
Committee meeting. At this session, we adopted an amendment 
that requires passengers to receive safety instructions prior 
to, or immediately after, departure. We also tasked IMO experts 
to study how cruise ship designs can be enhanced to increase 
survivability.
    In summary, the Coast Guard is dedicated to ensuring the 
safety and security of every cruise passenger and crew member, 
as well as protecting our environment. Our oversight of foreign 
cruise ships is comprehensive, but we strive to improve, every 
day. We're learning from our casualty investigations and 
working on better leading indicators. And, although leadership 
at the--and, through leadership at the IMO, we're looking to 
mitigate tomorrow's, as well as today's, risks.
    I thank you again for the opportunity to testify, and I 
look forward to answering your questions.
    [The prepared statement of Admiral Servidio follows:]

     Prepared Statement of Rear Admiral Joseph Servidio, Assistant 
      Commandant for Prevention Policy, United States Coast Guard
Introduction
    Good morning Mr. Chairman, Ranking Member Thune, and distinguished 
members of the Committee. Thank you for the opportunity to appear 
before you to discuss issues related to cruise ship safety. I would 
like to provide background into the Coast Guard's oversight of the 
cruise industry, highlight what we've learned and implemented from 
recent casualties, and discuss the effectiveness of our Port State 
Control system in holding cruise industry companies and their vessels 
accountable for safe passenger operations.
    In my role as the Coast Guard's Assistant Commandant for Prevention 
Policy, I am responsible for setting standards for safety, security, 
and environmental stewardship for commercial vessels, facilities, and 
mariners, ensuring compliance with those standards, and conducting 
investigations of violations and accidents.
    Over the past three years we've seen a number of high profile ship 
casualties within the cruise industry, fires aboard the Carnival 
Splendor, Carnival Triumph and Grandeur of the Seas highlight serious 
questions about the design, maintenance and operation of fire safety 
equipment on board these vessels, as well as their companies' safety 
management cultures. As the United States' lead as a Port State for 
holding foreign companies accountable for the safe and secure design 
and operation of these vessels, I am very concerned about these 
failures. I am working to ensure that the Coast Guard thoroughly 
reviews each incident to determine causes and identify corrective 
actions and hold the cruise lines accountable for improving safety 
aboard vessels through increased examination and oversight. 
Additionally we will work through the International Maritime 
Organization (IMO) to update the design and operational standards for 
cruise ships based on these incidents.
    We recently completed our investigation into the Carnival Splendor 
engine explosion and debilitating fire. We are treating the 
recommendations for Coast Guard action in that report as requirements, 
and based on that report, the Coast Guard is changing its examination 
program for foreign cruise ships to examine CO<INF>2 </INF>system 
installations and arrangements more closely. Additionally, we have 
increased our expectations for successful fire drills. We have also 
made recommendations to Carnival Corporation to improve their training 
programs. I will cover these recent developments in more detail a bit 
later in my testimony.
    In late June, I led the U.S. delegation to the 92nd session of the 
IMO Maritime Safety Committee. At this session, we adopted new rules 
governing cruise ship passenger safety briefings which will become 
mandatory in July 2015. These new rules ensure that whenever U.S. 
passengers board a Safety of Life at Sea (SOLAS) regulated passenger 
ship for more than 24 hours, they will receive a detailed safety 
briefing either prior to, or immediately after, the vessel gets 
underway. This regulatory change elevates the standard globally for 
approximately one third of all cruise passengers who don't embark ships 
in the U.S.
    Further, based in part on our proposals at this June session, IMO 
has commenced reviewing design standards in order to make cruise ships 
safer, and even more damage-tolerant, through improved survivability 
standards.
Modern Standards for Cruise Ships
    Over the past decade, the international shipping community, through 
the IMO and with Coast Guard leadership, has moved decisively toward a 
proactive approach to passenger ship safety. With cruise ships growing 
progressively in size and capacity, in May 2000 the IMO agreed to 
undertake a holistic examination of safety issues pertaining to 
passenger ships, with particular emphasis on large cruise ships. The 
outcome of this proactive initiative is an entirely new prevention-and 
survivability-based regulatory philosophy for cruise ship design, 
construction, and operation.
    The U.S., through the efforts of the Coast Guard, has taken a very 
active leadership role throughout this initiative, putting forward many 
of the recommendations for action taken by the various IMO Sub-
Committees. This effort identified a number of areas of concern related 
to cruise ships, and resulted in substantial amendments to major IMO 
conventions, including SOLAS, International Convention for the 
Prevention of Pollution From Ships (MARPOL) 73/78, International 
Tonnage, Standards for Training, Certification, and Watchkeeping (STCW) 
and Load Line conventions. These amendments address surveys, 
structures, stability, machinery, fire safety, lifesaving equipment, 
communications, navigation equipment, safety management, maritime 
security, pollution prevention, crew competency, watertight integrity, 
and safe loading.
    Significant improvements under the five main pillars of the IMO 
initiative entered into force in July 2010 include:

  <bullet> Prevention: Amendments to the STCW Code and supporting 
        guidelines focus on navigation safety and resource management;

  <bullet> Improved survivability: New SOLAS requirements for the 
        ``safe return to port'' concept address essential system 
        redundancy, management of emergencies, and casualty mitigation, 
        including the new concept of dedicated shipboard safety centers 
        to manage emergencies;

  <bullet> Regulatory flexibility: Amendments to SOLAS provide a 
        methodology for the approval of new and innovative safety 
        technologies and arrangements;

  <bullet> Operations in areas remote from SAR facilities: Guidelines 
        on external support from SAR authorities, as well as guidance 
        to assist seafarers taking part in SAR operations have been 
        developed; and finally; and

  <bullet> Health safety and medical care: Guidelines on establishing 
        medical safety programs, and a revised Guide on Cold Water 
        Survival.

    Other recent improvements include stability and survivability of 
cruise ships through new probabilistic subdivision and damage stability 
regulations, and flooding detection systems; improved voyage planning, 
particularly in remote and high latitude areas; and voyage data 
recorders. As a separate initiative, stemming from the 2006 fire aboard 
the Star Princess, significant improvements have been made to the fire 
safety features of external areas on cruise ships. Overall, the past 
decade has been an enormous leap forward in cruise ship safety measures 
and has been largely proactive to casualties. The U.S. Coast Guard's 
leadership in the international community with respect to cruise ship 
safety measures and our support to foreign casualty investigations 
evidences our dedication to the world wide safety of U.S. passengers.
The Safety, Security, and Environmental Protection Net
    The IMO conventions form the basis for the international safety, 
security, and stewardship net designed to ensure consistent standards 
across the world wide fleet of cruise ships. Owners and operators, 
vessel crews, classification societies, flag states (or their 
recognized organizations when delegated to act on the behalf of the 
flag state), and port states each have distinct roles in ensuring 
compliance with those standards. Each of these entities performs 
specific roles intended to maximize safety, security, and environmental 
protection.
    Flag states have the primary responsibility to ensure their vessels 
meet international and domestic standards. They often achieve this 
through recognized third party organizations who certify that vessels 
meet design, construction, operating, and manning requirements 
throughout the life of the vessel.
    Port states verify substantial compliance with international 
standards and ensure compliance with applicable domestic requirements 
for vessels of all flags calling in their ports. As the port state 
authority for the U.S., the Coast Guard has established a robust 
control verification program that subjects cruise ships calling in U.S. 
ports to a much higher level of scrutiny than other foreign flag 
vessels, and much higher than any other port state requires for foreign 
flag cruise ships in their ports.
    Although we cannot provide total quality control for foreign cruise 
ships visiting our ports, we do take prompt action to ensure 
deficiencies we find during our examinations are corrected in an 
expeditious manner. If a deficiency is serious, we ensure it gets 
corrected before the vessel leaves port. When one or more deficiencies 
lead us to conclude a ship is substandard, we detain the vessel. A 
detention means the vessel cannot leave port until the serious 
deficiencies are corrected. We report the detention to IMO and list the 
vessel on international forums as a detained vessel, and we will 
examine the vessel more frequently for a period of three years.
    Most recently, the Coast Guard detained the Carnival Triumph after 
it was found to have three serious deficiencies at its first 
examination after completing repairs following the February 2013 fire. 
As described above, the vessel was held in port until these 
deficiencies were corrected, we reported the detention to IMO and 
listed the vessel as detained on our website, and the vessel will be 
subject to quarterly examinations for three years. This detention 
demonstrates the effectiveness of our control verification program, as 
well as our willingness to hold substandard vessels accountable.
Coast Guard Control Verification Program for Foreign Flag Cruise Ships
    All foreign flag cruise ships arriving in the United States that 
embark passengers or make a U.S. port call while carrying U.S. citizens 
as passengers must participate in the control verification process. 
Cruise ships that return to U.S. service after a prolonged absence are 
treated as if they had never been in service in the U.S. and must 
undergo the entire process again.
    The Coast Guard control verification program includes initial, 
annual, and periodic examinations for foreign flag cruise ships calling 
in our ports. Further, it includes concept review during the very 
earliest stages of design and pre-construction planning by Coast Guard 
naval architects and fire protection engineers, mid-construction 
inspections at the builder's yard by Coast Guard marine inspectors, an 
initial operational inspection of the vessel upon completion of 
construction, and at least annual inspections while the vessel is in 
service in U.S. ports. This regime allows the Coast Guard to determine 
that the vessel is in substantial compliance with all applicable 
international and domestic standards.
    The engineering review of plans for structural fire protection 
arrangements provides an additional level of assurance that shipboard 
fire safety arrangements meet international standards. After review, 
these same engineers visit the ship to confirm that the arrangements on 
the vessel are the same as those shown on the structural fire 
protection plans. On the basis of this initial examination, the Coast 
Guard issues a certificate of compliance that allows the vessel to 
operate in U.S. ports.
    The annual examination ensures that foreign cruise ships continue 
to maintain the systems the Coast Guard previously examined during the 
initial exam in proper operating condition and that the flag 
administration has performed annual renewal surveys as required by 
SOLAS. Inspectors focus on marine environmental protection, 
firefighting, lifesaving, and emergency systems and witness a 
comprehensive fire and boat drill by the crew. In addition, inspectors 
examine the vessel for modifications that would affect the vessel's 
structural fire protection and means of escape. They also check for 
modifications completed without the vessel's flag administration 
approval. After a satisfactory annual examination, the Coast Guard re-
issues a certificate of compliance.
    Periodic examinations are also conducted, typically midway between 
the annual examinations. These examinations are more limited in scope 
but still compliment the more comprehensive annuals, and they are 
intended to ensure vessels are being operated in a safe manner. The 
periodic examinations focus on the performance of officers and crew, 
with specific attention paid to their training on and knowledge of the 
ship's emergency procedures, environmental protection, security, 
firefighting, lifesaving systems, and conduct during the drills. To 
ensure the overall material condition of the ship has not appreciably 
changed since the annual examination, inspectors randomly select sample 
items for examination.
    Inspectors also vary the scope of the examination depending on such 
factors as the material condition of the vessel, recordkeeping, the 
maintenance of the vessel, and the professionalism and training of the 
crew. At every Coast Guard examination of a foreign cruise ship, the 
inspectors will determine whether the vessel is in substantial 
compliance with the international convention standards.
Investigations
    Foreign vessels operating in U.S. waters are required by U.S. law 
to report accidents immediately. Upon accident notification, we 
proactively investigate casualties meeting a threshold to determine 
causes and issue safety recommendations to prevent recurrences.
    This is a continuous improvement process which incorporates lessons 
learned from accident investigations to enhance cruise ship safety and 
ensure compliance with national and international laws.
    After the Costa Concordia incident, and as a ``Substantially 
Interested State'' in accordance with IMO Protocols, the Coast Guard 
immediately offered technical expertise and support to the Government 
of Italy's marine casualty investigation. Similarly, following the 
Carnival Triumph fire and the Grandeur of the Seas fire, the Coast 
Guard is participating in the investigations with the vessel's flag 
state of the Bahamas as a Substantially Interested State. It is long 
standing practice to cooperate in all manner of accident investigations 
involving different flag and coastal states and the Coast Guard 
routinely acts in this accord.
    After the Carnival Splendor fire in November 2010, the Coast Guard 
reached out to Panama, the vessel's flag state, to offer assistance. In 
accordance with international protocols and at the request of Panama, 
the Coast Guard took the lead for the investigation into this casualty. 
While this incident did not lead to major damage to the vessel, injury 
or loss of life, the investigation revealed a number of major safety 
concerns. As a result, the Coast Guard immediately issued two safety 
alerts to advise the industry of potential CO<INF>2 </INF>system 
problems.
    The Coast Guard report of investigation which was released on July 
15, 2013, also contains five safety recommendations. Three of the 
recommendations are addressed to Carnival and Panama (as the flag 
state) to ensure that the conditions which contributed to the fire, are 
addressed appropriately. In addition, there are two safety 
recommendations which are aimed at exercising and enhancing the Coast 
Guard's role as the Port State for this and many other foreign flag 
cruise ships. These recommendations will be implemented by my staff and 
will ensure that Coast Guard Port State Control Officers are armed with 
the information needed to not only evaluate the mechanical systems 
onboard these complex vessels, but the human element as well.
Investigations informing the Control Verification Process and other 
        actions
    In its role as a Port State, the Coast Guard employs casualty 
investigation lessons learned where practical and appropriate to inform 
the Control Verification process.
    For example, as a result of the Costa Concordia incident, we 
directed Coast Guard field inspectors to witness the passenger muster 
required by SOLAS whenever they are aboard a cruise ship conducting an 
initial, annual, or periodic examination. Our personnel witness these 
musters either immediately before or during vessel departure from port. 
In conjunction, the cruise industry associations announced a new 
emergency drill policy requiring mandatory muster for embarking 
passengers prior to departure from port.
    As a result of the Carnival Splendor casualty, we are directing 
Coast Guard field inspectors to examine vessel CO<INF>2 </INF>systems 
more closely during examinations. There was evidence that the 
CO<INF>2</INF> system had not been installed and maintained properly, 
and we are looking at sister vessels for similar problems. Any similar 
problems will require swift correction. We have also increased our 
expectations for the fire drills we witness during our examinations. 
Too often, ships perform drills for our inspectors which do not address 
a fire in a high-risk area such as an engine room. We will direct ships 
to perform an engineroom fire drill during the next examination of all 
vessels, and will expect such demonstrations periodically thereafter.
    Following the Carnival Triumph fire in the Gulf of Mexico in 
February of 2013, we engaged aggressively in Carnival's Safety 
Management System (SMS) by requesting them and the vessel's flag state 
(the Bahamas) to hold their annual audit early, with which they 
complied. We participated in Carnival's company level SMS Document of 
Compliance audit conducted by Lloyd's Registry in April, and plan to 
observe one of their shipboard SMS audits. Based on the most recent 
audit results, we have been generally satisfied with Carnival's SMS 
implementation, and will continue to keep a close eye on their 
progress.
    A more recent casualty to the Grandeur of the Seas yielded several 
observations which we are taking immediate action to correct. One 
involves a deluge system valve that protected the mooring deck area 
that had caught fire. The valve was located in an area made 
inaccessible due to the fire. Our inspectors will examine sister ships 
for similar problems. Another observation involved un-insulated 
aluminum deck hatches which failed and allowed the fire to affect 
adjacent spaces. Again, our inspectors will examine sister ships for 
similar problems.
Search and Rescue (SAR) and Mass Rescue Operations (MRO)
    The Coast Guard has maintained a sound relationship with the cruise 
lines regarding search and rescue and medical evacuations. For the 
Coast Guard, a Mass Rescue Operation involving a cruise ship casualty 
offshore, with potentially thousands of passengers and crew forced to 
evacuate into lifeboats and the water, presents our greatest search and 
rescue challenge.
    Working with cruise line and passenger vessel companies, the Coast 
Guard continues to develop and improve SAR and MRO contingency plans. 
In addition to internal Coast Guard SAR plans, the Coast Guard holds a 
copy of cruise ship SAR plans and is able to incorporate the cruise 
ship plans into our overall SAR planning. The Coast Guard also meets 
periodically with cruise line medical personnel to discuss plans for 
medical emergencies.
    Coast Guard passenger vessel safety personnel at each of our 
Districts assist in the conduct and coordination of Coast Guard mass 
rescue exercises. Over the last five years, the Coast Guard conducted 
thirty-six mass rescue exercises involving passenger vessels, three of 
which involved a cruise ship.
    Mass rescue exercises have been structured around a five-year 
cycle. The Coast Guard has directed that, at a minimum, each Coast 
Guard District conduct and/or participate in one discussion based 
(e.g., seminar, workshop, game, or tabletop) and one operations based 
(e.g., drills, functional, full scale) mass rescue exercise over a five 
year period.
    To meet this exercise requirement the Coast Guard initiated a five-
year mass rescue exercise series known as ``Black Swan.'' The exercise 
series commenced in April 2013 with a full scale exercise on a 
passenger ship in Freeport, Bahamas, and will continue with a full 
scale exercise in Hawaii in 2015 and Norfolk in 2017. The scope of 
these exercises provides a valuable opportunity to identify and resolve 
the difficulties associated with rescuing hundreds or thousands of 
people. Black Swan will continue to focus on the exercise of Coast 
Guard mass rescue plans, coordination with other authorities and 
industry partners, notification and information processes, personnel 
accountability, and unique challenges of embarking thousands of 
survivors on rescue ships from the water, lifeboats and rafts, and 
rescued passenger and crew support.
Cruise Ship Security and Crime
    The events of September 11, 2001, spurred the development of the 
Maritime Transportation Security Act (MTSA) and the IMO International 
Ship and Port Facility Security (ISPS) Code, both of which are 
rigorously enforced by the Coast Guard. The Coast Guard examines every 
cruise ship that visits the U.S. for compliance with MTSA and ISPS 
requirements during the ship's annual and periodic Control Verification 
exam, as well as on a random basis throughout the year during 
unannounced port security checks.
    Despite this security compliance regime, there have been serious 
incidents and crimes that have affected U.S. citizens aboard foreign-
flagged cruise ships. This has led to an increased focus on protecting 
our citizens both in port and while they are at sea. In 2010, Congress 
enacted the Cruise Ship Security and Safety Act of 2010 (CVSSA) which 
prescribes security and safety requirements for designated cruise 
ships.
    CVSSA addresses many areas that affect personal safety and 
security, including: ship design; better public access to information 
about crime aboard cruise ships; improved precautions, response, 
medical care, support for victims of sexual assault; preservation of 
evidence necessary to prosecute criminals; and more consistent and 
complete reports. Some of these requirements went into effect when the 
President signed the legislation on July 27, 2010; however, there are 
areas that require implementation through the publication of 
regulations.
    Thus far, the Coast Guard has completed the following actions with 
respect to implementing the CVSSA:

  <bullet> The Coast Guard published policy establishing guidelines for 
        Coast Guard Marine Inspectors examining cruise vessels for 
        compliance to include physical requirements, such as: rail 
        heights; door peep-holes (similar to hotel doors), which allow 
        cabin occupants to see who is outside; and the passenger 
        security guide.

  <bullet> The Coast Guard established an Internet-based portal 
        (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="632d202023161000044d0e0a0f">[email&#160;protected]</a>) to facilitate electronic submission of crime 
        reports.

  <bullet> The Coast Guard established a web link to publish cruise 
        ship sexual assault and criminal activity data received from 
        the Federal Bureau of Investigation (FBI) in accordance with 
        the Act: http://www.uscg.mil/hq/cg2/cgis/.

  <bullet> An Inter-agency workgroup consisting of Coast Guard, FBI, 
        and the Maritime Administration personnel completed development 
        of a model course addressing crime scene preservation standards 
        and curricula.

  <bullet> The Coast Guard published policy promulgating training 
        standards and curricula for the certification of passenger 
        vessel security personnel.
Closing
    In closing, let me emphasize that the Coast Guard understands and 
embraces our lead role in protecting our most precious cargo--people, 
who are carried aboard cruise ships in many of the world's most 
pristine marine environments. We continue to place the highest priority 
on enforcing compliance with safety, security and environmental 
regulations on those vessels that embark passengers in the United 
States and embark U.S. passengers world-wide.
    We have a strong and effective port state control program for 
foreign cruise ships and will continue to ensure that vessels calling 
on ports in the United States are in substantial compliance with 
applicable international and domestic standards.
    Through proactive oversight and enforcement, we participate in 
casualty investigations, even those taking place overseas, and we lead 
efforts at the IMO to improve maritime safety, security, and 
environmental protection standards. As those investigation results are 
analyzed, the Coast Guard will continue to capture the lessons learned 
and incorporate them into our safety regime, and continue to recommend 
international requirement updates where necessary. Internally, we are 
also changing our examination procedures to address the lessons made 
apparent from other recent cruise ship fire casualties and ensure our 
port state control examinations target areas of concern.
    The Coast Guard looks forward to continued cooperation with this 
committee, passenger victims groups, and the passenger vessel industry 
to maximize cruise vessel safety, security, and environmental 
protection.
    Thank you again for the opportunity to testify today. I will be 
pleased to answer any questions you may have.

    The Chairman. Thank you very much.
    I want to make two announcements at this point. One is that 
Senator Nelson--obviously, from Florida--this is a big deal, 
this hearing, for him--has left another hearing that he's 
chairing and, I think, is going back, and he asked me if he 
could make a short statement.
    I'm looking at my three esteemed colleagues over there, 
praying for sympathetic looks.
    [Laughter.]
    The Chairman. The Ranking Member is sympathetic, so 
Senator----
    Senator Blumenthal. We're very, very, very sympathetic.
    The Chairman. Yes.
    [Laughter.]
    The Chairman. And the other thing is, I would ask Committee 
staff to remove these photographs. They've been up, now, and I 
want this to be unfettered exchange, as opposed to pictorial 
matters.
    Please go ahead, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman and to my 
colleagues, for your indulgence.
    As scheduling would have it, the Aging Committee is 
meeting, right now, of which I'm chairing. Senator Collins is 
taking the gavel while I'm gone, and I must return. But, I did 
want to thank you for your consideration that I could make--
Chairman, could make a statement. And I look forward to 
reviewing the legislation that you have filed.
    All of us here have a responsibility to ensure that cruise 
passengers are safe, that ships are well maintained, in top 
condition, and the crew members onboard these ships are well 
trained and thoroughly prepared to handle any situation that 
might arise at sea. So, we, obviously, all of us, have a keen 
interest in this, naturally.
    The cruise industry is of concern to us, in my state. They 
have a major presence in Florida. They employ over 130,000 
people. In my state, cruising accounted for $6.7 billion in 
total economic impact in Florida, and, last year, nearly 6 
million cruise passengers departed from ports in Florida. So, I 
can share with the members of this committee that, in my 
meetings with the industry, I have stressed that passenger and 
crew safety must be the industry's top priority. The industry 
has responded to me that it is making a good-faith effort in 
prioritizing and improving its safety programs and that it is 
ready to work with this committee, and with you, Mr. Chairman, 
and they hope to continue this improvement.
    And I want to thank you again for your efforts, Mr. 
Chairman. I want to thank you, as the Chairman of our overall 
committee, on the work that you do to ensure the safety of the 
traveling public, not just on the seas, but in all means of 
travel.
    Thank you, Mr. Chairman.
    The Chairman. And, you're right, it's in all means of 
travel.
    Senator Nelson. It is.
    The Chairman. And thank you for coming here.
    Senator Nelson. And I--with your permission, I will return 
to my chairing duties over at Aging.
    The Chairman. Uh-huh.
    Senator Nelson. Thank you.
    The Chairman. Thank you very much, Senator Nelson.
    Dr. Ross Klein is Professor of the School of Social Work, 
which resonates with me, at St. Johns College, Memorial 
University of Newfoundland.
    Please.

         STATEMENT OF ROSS A. KLEIN, Ph.D., PROFESSOR,

              MEMORIAL UNIVERSITY OF NEWFOUNDLAND

              IN ST. JOHN'S, NEWFOUNDLAND, CANADA

    Dr. Klein. OK, thank you. It is an honor to be asked to 
share my knowledge and insights with the U.S. Senate Committee 
on Commerce, Science, and Transportation.
    In my brief oral remarks, I will identify some of the key 
points in my written submission.
    The cruise industry has received considerable attention in 
the media in recent years. In 2013 alone, the media has 
reported for cruise ships: three running aground; five with 
fires; two collisions; 19 mechanical problems, including power 
loss, propulsion problems, and generator problems; 10 canceled 
port calls and/or changes in itinerary; 16 cruises with delayed 
embarkation and/or debarkation; two cruises where passengers 
have been bumped; and eight ships that have failed U.S. health 
inspection.
    In response to the negative publicity from these events and 
Senator Schumer's call for greater consumer protection, the 
Cruise Lines International Association, in late May, issued its 
Passenger Bill of Rights, an obvious public relations 
initiative. A systematic evaluation reveals that, while many of 
the promises, on their face, are reassuring to cruise 
passengers, a deeper look indicates the Passenger Bill of 
Rights is filled with empty promises.
    Take, for example, number 5, the right to a ship crew that 
is properly trained in emergency and evacuation procedures. 
There is a huge chasm between being properly trained and those 
same crew members demonstrating, through behavior, competence 
in executing emergency and evacuation procedures.
    Take for example the U.S. Coast Guard's investigation of 
the fire and power loss of Carnival Splendor. It indicates a 
number of instances of human error.
    Also take the cost of Concordia.
    I doubt that crew members were not properly trained, but 
what assurances does a CLIA Passenger Bill of Rights provide 
that training will be reflected in behavior, and what recourse 
does a passenger have when this, or any right, is not realized?
    Also take for example right number 1, the right to 
disembark a docked ship if essential provisions cannot be 
adequately provided. What cruise passenger would not be 
reassured by this? But, how is this right fulfilled when a ship 
is dead in the water for 3 or 4 days, and being towed to port? 
And once the ship returns to port, who decides how quickly the 
disembarkation will begin, and does the passenger have any 
rights if it takes longer than they think is fair? Coming up 
with a list of rights is easy. But, as they say, the devil is 
in the details.
    Perhaps more troubling are contradictions between CLIA's 
Passenger Bill of Rights and the typical cruise passenger 
contract. There's no indication which takes precedence, 
especially given the restrictiveness of the passenger cruise 
contract with regard to rights held by a cruise passenger, 
particularly in comparison to the rights of the cruise line, 
and the extreme limitations on the cruise line's liability for 
almost anything that happens on a cruise ship.
    My written testimony systematically analyzes CLIA's Bill of 
Rights and a typical cruise passenger contract. This analysis 
points to the need for better consumer protection of cruise 
passengers, much like the protections that are available to 
passengers on other modes of commercial transportation, 
including air carriers.
    My written testimony also provides systematic analysis of 
the Cruise Vessel Security and Safety Act of 2010. I look at 
the implications of differences between the Act, as initially 
introduced, and the final Act that was passed. I also look at 
issues that are not adequately addressed by the current Act.
    One major issue is the reporting of statistics on crime on 
cruise ships. The original intent was that the Act would make 
available all reported crimes on cruise ships. In practice, 
there are many crimes that are neither--that are either not 
being reported to the FBI or which the FBI chooses not to make 
available to the American public. Take as just one example the 
fact that, for a 15-month period, the FBI reports a single case 
of sexual assault on Norwegian Cruise Line, but, in the legal 
case, in discovery, they disclosed that there were 23 sexual 
assaults for that same time period.
    Access to comprehensive, reliable data is essential if 
we're going to be able to do a proper social epidemiological 
analysis of the problems, especially as relates to crimes 
against children.
    Now, another point worth mention is the nature of security 
on a cruise ship. Presently, a crime committed on a cruise ship 
is initially investigated by security personnel who are cruise 
line employees. They are not independent, as would be the case 
for a crime reported on land. The cruise line employee is 
clearly in a conflict-of-interest position. This doesn't give 
much confidence to a victim of a crime on a cruise ship.
    I will stop my oral testimony here. I invite all interested 
to read my written testimony for a deeper understanding of my 
insights and resulting concerns. I certainly welcome the 
Committee's questions.
    [The prepared statement of Dr. Klein follows:]

    Prepared Statement of Ross A. Klein, Ph.D., Professor, Memorial 
     University of Newfoundland in St. John's, Newfoundland, Canada
                           TABLE OF CONTENTS
Oral Testimony

Written Testimony

I. Safety and Security of Cruise Ships
        The Nature of the Problem
        Lessons to be Learned from These Events
                The Relative Absence of Reliable Data
                Frequency and Types of Events
                Discernable Insights from Data
                Learning from Success, Not Just Accidents
                Regulation and Oversight of the Cruise Industry

II. Safety and Security of Cruise Passengers
        Scope of the Problem
        The Cruise Vessel Security and Safety Act of 2010
                From Hearings to Legislation
                Persons Overboard
                Sexual Assaults
                        Prevention
                        Intervention
                        Investigation
                        Prosecution
        Other Crimes

III. Consumer Rights and Cruise Ship Liability
        CLIA Bill of Rights
                The Right to Disembark a Docked Ship
                The Right to a Full Refund
                The Right to Medical Care
                The Right to Timely Information
                The Right to Trained Crew
                The Right to an Emergency Power Source
                The Right to Transportation
                The Right to Lodging
                The Right to a Toll-Free Number
                The Right to Have Published
                CLIA Passenger Bill of Rights and the Cruise Contract
        What the CLIA Passenger Bill of Rights Does Not Include
                Passenger Rights
                Cruise Line Rights
                Issues of Liability
                        Illness Outbreaks
                        Independent Contractors
                        Medical Care
                        Shore excursions
                        Sexual Assaults
                        Limit of Liability

IV. In Closing

V. Summary of Recommendations

Appendix 1: Summary of Cruise Ship Incidents, January 2009-June 2013

Appendix 2: Ships with Two or More Mechanical Incidents, January 2009-
June 2013

Appendix 3: Summary of Persons Overboard, January 1995-June 2013

Appendix 4: Drug Busts, January 2009-June 2013

Appendix 5: Sex at Sea: Sexual Crimes Aboard Cruise Ships
                                 ______
                                 
                             Oral Testimony
    It is an honor to be asked to share my knowledge and insights with 
the U.S. Senate Committee on Commerce, Science, and Transportation. In 
my brief oral remarks I will identify some of the key points in my 
written submission.
    The cruise industry has received considerable attention in the 
media in recent years. In 2013 alone the media reports for cruise 
ships: 3 running aground; 5 fires; 2 collisions; 19 mechanical problems 
including power loss, propulsion problems, and generator problems; 10 
canceled port calls and/or changes in itinerary; 16 cruises with 
delayed embarkation and/or disembarkation; 2 cruises where passengers 
were bumped; and 8 ships that have failed U.S. health inspections.
    In response to the negative publicity from these events, and 
Senator Schumer's call for greater consumer protection, the Cruise 
Lines International Association (CLIA) in late-May issued its Passenger 
Bill of Rights--an obvious public relations initiative. Sadly, a 
systematic evaluation reveals that while many of the promises on their 
face are reassuring to cruise passengers, a deeper look indicates the 
Passenger Bill of Rights is filled with empty promises. Take for 
example Right #5--The right to a ship crew that is properly trained in 
emergency and evacuation procedures. There is a huge chasm between 
being properly trained and those same crewmembers demonstrating through 
behavior competence in executing emergency and evacuation procedures. 
Take for example the U.S. Coast Guard's investigation of the fire and 
power loss of Carnival Splendor in 2010. It indicates human error in a 
fire alarm being reset, leading to a 15-minute delay in activation of 
an automatic fire-suppression system; the crew's lack of familiarity 
with the engine room, which hampered their ability to locate and fight 
the fire; and the captain ventilating the compartment where the fire 
began before it was fully extinguished, allowing the flames to flare 
again. I doubt the crewmembers were not properly trained, but what 
assurance does CLIA's Passenger Bill of Rights provide that training 
will be reflected in action. And what recourse does a passenger have 
when this or any Right is not realized?
    Also take for example Right #1--The right to disembark a docked 
ship if essential provisions cannot adequately be provided onboard. 
What cruise passenger would not be reassured by this, but how is this 
Right fulfilled when a ship is dead in the water for 3 or 4 days and 
being towed to port? And once the ship returns to port, who decides how 
quickly disembarkation will begin? Does a passenger have any right to 
contest a decision to keep them onboard?
    Coming up with a list of ``mom-and-apple-pie'' rights is easy. But 
as they say, the devil is in the details.
    Perhaps more troubling are contradictions between CLIA's Passenger 
Bill of Rights and the typical cruise passenger contract. There is no 
indication which takes precedence, especially given the restrictiveness 
of the passenger cruise contract with regard to rights held by a cruise 
passenger (particularly in comparison to the rights of the cruise line) 
and the extreme limitations on the cruise line's liability for almost 
anything that happens on a cruise ship. My written testimony 
systematically analyses CLIA's Bill of Rights and typical passenger 
cruise contracts. This analysis points to the need for better consumer 
protection of cruise passengers, much like the protections available to 
passengers on other modes of commercial transportation, including air 
carriers.
    My written testimony also provides systematic analysis of the 
Cruise Vessel Security and Safety Act of 2010. I look at the 
implications of differences between the Act as initially introduced and 
the final Act passed. I also look at issues that are not adequately 
addressed by the current Act. One major issue is the reporting of 
statistics of crime on cruise ships. The original intent was that the 
Act would make available all reported crimes on cruise ships. In 
practice, there are many crimes that are either not being reported to 
the FBI or which the FBI chooses not to make available to the American 
public. Take as just one example the fact that for one 15-month period 
the FBI reports a single case of sexual assault on Norwegian Cruise 
Line; however records disclosed in discovery indicate the number was 
actually 23.
    Access to reliable data is important for passengers who have a 
right to know the relative risk, including between one cruise line and 
another and ideally between one cruise ship and another. Through a 
Freedom of Information request by International Cruise Victims 
Association I was given 12-months of data to analyze. The analysis was 
illuminating. It revealed where sexual assaults occur, the identity of 
perpetrators and victims, and the conditions surrounding an attack 
(including the presence of alcohol and the high rate of victimization 
of children). Availability of such data is important for passengers, 
and access to data is essential for a proper social epidemiological 
analysis of the problem.
    I will stop my oral testimony here. I invite all interested to read 
my written testimony for a deeper understanding of my insights and 
resulting concerns. I welcome the Committee's questions.
                                 ______
                                 
                           Written Testimony
    It is an extreme honor to be asked to share my knowledge and 
insights with the U.S. Senate Committee on Commerce, Science, and 
Transportation. My testimony focuses on the parameters I was given when 
I was invited to testify:

  <bullet> safety and security issues relating to cruise ships (e.g., 
        fires, collisions, and other accidents);

  <bullet> safety and security of cruise ship passengers, including 
        discussion of the Cruise Vessel Security and Safety act of 
        2010;

  <bullet> consumer rights and issues relating to cruise ship 
        liability, including discussion of CLIA's Passenger Bill of 
        Rights.
I. Safety and Security of Cruise Ships
    As the luxury liner finally made it to shore . . . [passengers] 
expressed disgust at the way they had been treated . . . Conditions 
inside the cabins were said to have been ``beyond horrific'' due to the 
lack of air conditioning and running water. Lavatories overflowed and 
they were fed on little but spam sandwiches. They were forced to sleep 
on deck in sweltering temperatures of up to 35C (95F) and said that the 
stench in the corridors and cabins was so bad it would remain with them 
``for a long time'' . . . ``Sheer luck has disguised the incompetence 
from start to finish. Some people are blissfully unaware of how lucky 
they are.''
    The alarm was first raised at around 1.30 p.m. on Monday when an 
electrical fault caused a fire in the engine room and power was lost . 
. . All passengers were told to go to their muster stations, at which 
point many said they feared they would have to abandon ship . . . It 
then took three hours to conduct a roll call amid chaotic scenes and 
growing panic. As black smoke billowed from one of the chimneys, it 
became immediately clear that a fire had broken out on board.
    American Gordon Bradwell, 72, from Georgia, who used to work in the 
travel industry, was on the cruise ship with his wife Eleanor when the 
engine caught fire. ``It was very tense,'' he said. ``We are just happy 
to have got through it. We were very hot and the sewage was very poor. 
Right now we're delighted to be off the ship. We are living off 
adrenalin right now. We have been eating dried sandwiches for three 
days so we are looking forward to eating a proper meal. After the fire 
broke out there was nothing to propel the ship along. Things 
deteriorated rather quickly. There was no running water so we had go 
back to living a primitive existence. The cabin temperature reached 
110F so we had to sleep on the deck.'' \1\
---------------------------------------------------------------------------
    \1\ Ward, V. 2012. ``Costa Allegra: Passengers Tell of `Hell' On-
board.'' The Telegraph (March 1).
---------------------------------------------------------------------------
    One might think this describes the ordeal on Carnival Triumph in 
February 2013, but it is about an almost identical incident occurring a 
year earlier in February 2012. The Costa Allegra experienced an engine 
fire, causing a loss of all power and setting it adrift for three days 
in the Indian Ocean. It was finally towed to Port Victoria on the 
island of Mahe in the Seychelles where passengers disembarked. The ship 
was decommissioned and scrapped after the incident.
A. The Nature of the Problem
    The cruise industry would like us to believe incidents such as the 
one described above, and the eerily similar incident involving Carnival 
Triumph which had an engine fire knocking out all power and setting the 
ship adrift for five days \2\--finally arriving in Mobile under tow--
are uncommon. The question isn't whether they are uncommon, but how 
common they are. Take for example the following engine fires, all 
involving members of the Cruise Lines International Association:\3\
---------------------------------------------------------------------------
    \2\ See Brown, R., K. Severson, and B. Meier. 2013. ``Cruise Line's 
Woes are Far From Over as Ship Makes Port,'' New York Times, (February 
15).
    \3\ All of these events are reported at Events at Sea 
(www.cruisejunkie.com/events.html)

  <bullet> June 2009--Royal Princess had an engine room fire while 
        leaving Port Said, Egypt. The ship returned to the port the 
        next day and after evaluation of damage the cruise was 
---------------------------------------------------------------------------
        terminated.

  <bullet> November 2010--Carnival Splendor has engine room fire 
        setting it adrift; the ship was finally towed to San Diego (150 
        miles north) even though it was 55 miles west of Punta San 
        Jacinto, Mexico. It was a five day ordeal for passengers. 
        Initially there was no electricity and toilets did not work, 
        but toilets were restored by the end of the first day although 
        there was no air conditioning and no hot food service. The 
        ship's engine that failed had had five alarms between July 21, 
        2010 and November 5, 2010, most recently repaired on November 
        5, 2010; the fire occurred on November 8, 2010.\4\
---------------------------------------------------------------------------
    \4\ See United States Coast Guard. 2013. Report of Investigation 
into the Fire Onboard the Carnival Splendor which Occurred in the 
Pacific Ocean Off the Coast of Mexico on November 8, 2010, which 
Resulted in Complete Loss of Power, MISLE Incident Investigation 
Activity Number: 3897765 (July 15).

  <bullet> September 2011--Hurtigruten's Nordyls suffered an engine 
        room fire, killing two crew members and injuring 16. The ship 
        was evacuated by lifeboat and the cruise was terminated. The 
        Washington Post reported salvage teams pumped water from the 
        cruise liner in danger of capsizing, reducing the tilt 21.7 
---------------------------------------------------------------------------
        degrees in the morning to 16 degrees in the evening.

  <bullet> October 2011--Cunard Line's Queen Mary 2 suffered an engine 
        fire causing a loss of power while in a major storm (two other 
        ships chose to turn back from the storm, but the Queen Mary 
        decided to battle through). Staff members were given a 90 
        minute warning in order to prepare to deploy the lifeboats. 
        Guests had their children dropped off and their animals picked 
        up from the kennels. Power was restored, but people were 
        understandably shaken up. Three weeks later the ship twice went 
        dead in the water on a transAtalantic cruise. And again in 
        February 2012 the ship had a total power failure and was dead 
        in the water.

  <bullet> March 2012--Azamara Quest had an engine room fire, injuring 
        five crew members (one critically), setting the ship adrift 
        between Manila and Borneo. The ship was able to restore power 
        and some propulsion after 24 hours and limped to Sandakan, 
        Malaysia, arriving three days after the fire. The cruise was 
        terminated and passengers flown home.

  <bullet> April 2012--Adventure of the Seas had an engine room fire 
        causing section 6 of the ship to be temporarily evacuated. The 
        ship was adrift for 1-2 hours and then continued on one engine.

  <bullet> November 2012--Adventure of the Seas had an engine room fire 
        while crossing the Atlantic causing a brief loss of power and 
        electricity.

  <bullet> February 2013--Carnival Triumph suffers an engine room fire, 
        setting it adrift for five days without power, air 
        conditioning, or toilets. Initial plans were to tow the ship to 
        the closest port, Progresso, Mexico, however a decision was 
        subsequently made to tow the ship to Mobile. NOTE: The ship was 
        reported to have technical problems with its propulsion system 
        affecting its cruising speed and causing a six hour delay in 
        its return to port two weeks before;

  <bullet> June 2013--Pullmantur's Zenith had a disabling engine fire 
        and had to be towed to port (Venice, Italy)

    There are also ships running aground (19 since 2009) with some 
incidents leading to termination of the cruise. Some examples include:

  <bullet> January 2009--Hurtigruten's Richard With ran aground at the 
        port of Trondheim on the west coast of Norway suffering 
        propeller damage and taking on water through a leak in a seal. 
        All 153 passengers were evacuated by the local emergency 
        services from land.

  <bullet> February 2009--Quark Expeditions' Ocean Nova ran aground off 
        Antarctica. Passengers were evacuated to other ships. 
        Unofficial sources report the ship's engines were turned off 
        for maintenance when the ship was blown aground.

  <bullet> August 2010--Clipper Adventurer ran aground in Canada's 
        Northwest Passage. Passengers wer transported to Coppermine, 
        Nunavut to be transported home.

  <bullet> October 2010--Celebrity Cruises' Century damaged its rudder 
        at Villefranche-sur-Mer. Cruise terminated.

  <bullet> March 2013--Hurtigruten's Kong Harald was forced to wait for 
        the tide to come in and lift the ship off the underground rock 
        at the entrance to Trollfjord where it was grounded and the 
        hull breached. Once the incoming tide freed the ship it carried 
        on to Svolvaer, where all 258 passengers onboard disembarked 
        and were flown home today.

  <bullet> March 2013--Coastal and Maritime Voyages' Marco Polo ran 
        aground just outside Sortland in Vesteralen causing a leak in a 
        ballast tank.

  <bullet> March 2013--Lindblad Expeditions' National Geographic Sea 
        Lion hit a rock in the Las Perlas Islands, about 70 nautical 
        miles from Panama City. The ship sustained damage to its hull 
        and one propeller during the incident, but after clearance from 
        the U.S. Coast Guard returned to Panama City on its own power. 
        The cruise was terminated.

    It isn't just engine fires and ships running aground. There are 
other problems worth note:

  <bullet> March 2009--P&O Cruises' Aurora experienced propulsion 
        problems four hours after leaving Sydney. It limped to Auckland 
        where passengers remained onboard for five days while repairs 
        were completed. The world cruise itinerary was changed.

  <bullet> April 2009--Passengers were told upon embarkation on Seven 
        Seas Voyager that most port calls between Dubai and Rome were 
        canceled because of propulsion problems; the next two cruises 
        canceled.

  <bullet> November 2009--Norwegian Dawn lost power for hours (and no 
        air conditioning). Power was restored and the ship sailed to 
        San Juan from where passengers were flown home. This and the 
        next cruise were canceled.

  <bullet> February 2010--Costa Europa collided with pier in Sharm-el-
        Sheikh, ripping a hole in the side of the ship and flooding 
        crew cabins. Three crewmembers were killed; four passengers 
        were injured. The 18-day cruise from Dubai to Savona was 
        terminated and passengers flown home.

  <bullet> February 2010--P&O Australia's Pacific Dawn was delayed in 
        port for 18 hours because of propulsion and maintenance 
        problems; its itinerary is changed. Two months later the ship 
        lost power and propulsion and narrowly missed collision with a 
        bridge in Brisbane.

  <bullet> May 2010--P&O Cruises' Artemis notified passengers upon 
        boarding that engine problems require one port to be dropped 
        from the itinerary. But once underway on the 20 day cruise, 
        originally with ten scheduled port calls, passengers were 
        issued a revised itinerary with four ports calls, only three of 
        which were on the original itinerary.

  <bullet> June 2010--Celebrity Cruises' Infinity was delayed five or 
        six hours because of engine problems causing a port call to be 
        canceled. Five days later an electrical fire caused a power 
        loss for several hours.

  <bullet> February 2011--P&O Australia's Pacific Sun delayed 24 hours 
        in its arrival at Newcastle because of engine problems; several 
        port calls canceled. Propulsion problems in November 2010 
        caused a 10-hour delayed arrival in Melbourne, engine problems 
        cause a cruise to be canceled in April 2010, mechanical 
        problems caused two ports calls to be canceled, and in November 
        2009 a cruise was canceled to permit repair of the propulsion 
        system.

  <bullet> March 2011--MSC's Opera twice collided with pier at Buenos 
        Aires damaging several cabins and delaying departure for 10 
        hours while repairs completed. September 2011--Toilets in front 
        and mid-ship cabins were inoperable for a day on Carnival 
        Imagination. Passengers were told to use public washrooms in 
        the aft section.

  <bullet> May 2011--MSC's Opera had failure of an electric panel 
        causing power loss for 8.5 hours. The ship was towed to port 
        and the cruise canceled.

  <bullet> November 2011--Carnival Splendor collided with pier in 
        Puerto Vallarta, requiring it to stay an extra day to complete 
        repairs; the next port call was canceled.

  <bullet> January 2012--Costa Concordia hits a rock off the Italian 
        coast and capsizes killing 32 people.

  <bullet> February 2012--Enchantment of the Seas left Baltimore 24 
        hours late after unsuccessful attempts to repair an engine. The 
        ship started the cruise on one engine, sailing at half speed, 
        and the itinerary changed. Two weeks later the cruise had 
        propulsion problems that left it in Port Canaveral for 27 hours 
        for repairs, again requiring a change to the itinerary.

  <bullet> March 2012--Silversea Cruises' Silver Shadow collided with 
        container ship in Viet Nam holing the cargo ship; only minor 
        damage to the cruise ship. Passengers were frightened.

  <bullet> October 2012--Celebrity Cruises' Summit had a tender run 
        aground with 93 passengers and 2 crew members. The tender 
        suffered major damage and passengers were rescued by a fishing 
        boat and whale-watching boat.

  <bullet> November 2012--Saga Ruby had engine problems that required 
        the current cruise to be canceled.

  <bullet> March 2013--A malfunction of the backup emergency power 
        diesel generator caused power outages and plumbing issues on 
        Carnival Dream and led to a cruise being terminated in Saint 
        Maarten and passengers flown home.

  <bullet> March 2013--Steering problems required Carnival Elation to 
        have a tugboat escort to port.

  <bullet> March 2013--Carnival Legend was disabled and stuck in Costa 
        Maya for a day. It finally got underway at reduced speed and 
        dropped a port call to arrive on time at its port of 
        disembarkation. The itinerary of the subsequent cruise was 
        changed because of propulsion problems.

  <bullet> March 2013--Seven Seas Voyager suffered propulsion problems 
        causing ports to be skipped.

  <bullet> April 2013--Crown Princess began a cruise with 410 cabins 
        having toilets that would not flush. Until they were fixed, 
        passengers needed to go to public bathrooms (even during the 
        middle of the night).

    The list can go on. Appendix 2 lists cruise ships having two or 
more incidents between January 2009 and June 2013. It shows 353 
incidents involving mechanical problems and accidents, approximately 80 
incidents per year.
    The obvious question is how such events can be so common. A 
February 2013 in Newsweek gives the perspective of Jim Hall, head of 
the National Transportation Safety Board during the Clinton 
administration:

        [He] says the industry is watched over by ``paper tigers'' like 
        the International Maritime Organization and suffers from ``bad 
        actors'' . . . ``The maritime industry is the oldest 
        transportation industry around. We're talking centuries. It's a 
        culture that has never been broken as the aviation industry 
        was, and you see evidence of that culture in the [Costa 
        Concordia] accident,'' says Hall.

        Ships may seem and feel American but are mostly ``flagged'' in 
        countries like the Bahamas or Panama in order to operate 
        outside of what he says are reasonable safety standards. ``It 
        is, and has been, an outlaw industry,'' says Hall. ``People who 
        book cruises should be aware of that.'' \5\
---------------------------------------------------------------------------
    \5\ Conant, E. 2013. ``Carnival from Hell: The Warning Signs Before 
the Triumph Disaster,'' Newsweek (February 22).
---------------------------------------------------------------------------
B. Lessons to be Learned from These Events
    My point is not to muckrake, listing all that goes wrong with 
cruise ships. My analysis instead provides insights. By knowing the 
problems, we can identify potential solutions. The available data 
raises several issues.
1. The Relative Absence of Reliable Data

    ``No one is systematically collecting data of collisions, fires, 
evacuations, groundings, sinkings,'' says Jim Walker, a maritime 
lawyer, to the New York Times. The article goes on to say:

        ``The reason for the lack of data is that cruise lines, while 
        based in the United States, typically incorporate and register 
        their ships overseas. Industry experts say the only place 
        cruise lines are obligated to report anything is to the state 
        under whose laws the ship operates.'' \6\
---------------------------------------------------------------------------
    \6\ Rosenbloom, S. 2013. ``How normal are cruise mishaps,'' New 
York Times (May 8, 2013).

    As the article points out, there remains no comprehensive public 
database of events at sea like fires, power failures, and evacuations 
except the data available at my website, Cruise Junkie dot Com.
    While I take this acknowledgement as a compliment, it identifies a 
major gap in available information. My data is based on reports 
available in the public media and, on occasion, reports from passengers 
and/or crewmembers. There are many incidents occurring that never reach 
the public domain. Consequently, there is no way for passengers to know 
the track record of an individual cruise line or the ships comprising 
the line.
    The data I have benefits greatly from the efforts of Senator 
Rockefeller who made public a list of casualty investigations by the 
U.S. Coast Guard for 2008-2012 and the Sun-Sentinel, which posted 
online U.S. Coast Guard data received through a Freedom of Information 
request. While the two datasets have considerable overlap, there are 
incidents on one list not appearing on the other, and incidents in my 
dataset that appear on neither.
    Making data available is more important than simply making 
passengers aware. It allows a sort of social epidemiology of cruise 
ship incidents from which patterns can be discerned and potential 
solutions formulated. Rather than seeing each major incident as unique 
and unrelated to anything before it, a comprehensive data set permits 
early identification of trends or common problems. Unlike the airline 
industry, which is governed by the FAA, there is no similar authority 
when it comes to the cruise industry.

    Recommendation #1: There is need for systematic reporting of all 
cruise ship incidents to an independent, central authority charged with 
responsibility for data analysis and policy and operational 
recommendations.

2. Frequency and Types of Events

    There is a range of incidents occurring on cruise ships. Between 
January 2009 and June 2013 there were more than 350 incidents involving 
mechanical problems or accidents (see Appendix 1). The most frequent 
incidents were:

  <bullet> propulsion and engine problems (average 19.59 per year)--7 
        in which cruise ships were known to go adrift;

  <bullet> fires (average 13.56 per year)--6 known to require 
        evacuation and 4 with loss of power;

  <bullet> material failure and lifeboat failure (average 13.33 per 
        year); and

  <bullet> collisions (average 11.56 per year).

    These four categories account for 261 incidents--all combined 
yielding an average 58 incidents per year. As seen in Appendix 1, less 
frequent incidents include loss of power (n=21), running aground 
(n=19), maneuverability and steering problems (n=15), experiencing a 
severe list (n=11), and technical (n=8) and electrical (n=8) problems. 
It needs to be remembered that these accounts rely on public reports, 
so the list is largely incomplete and underrepresents the actual 
frequency. For example, as relates to fires, a ship officer recently 
wrote to me saying:

        Every ship, almost weekly, has some type of fire incident. This 
        could be something as simple as a cigarette butt in a trash can 
        or a fire in the silo of the incinerator, or a grease fire, 
        toaster fire, electrical cord fire in the galley. These are 
        never reported because they are put out quickly, within 
        minutes. However, there are fires happening on ships every 
        single week. (Private correspondence)

    In part related to these incidents, and in part related to weather-
related factors (not including tropical storms and hurricanes), there 
were 104 cruises (average 23 per year) with media-reported canceled 
port calls, 69 cruises with media-reported itinerary changes, 25 
cruises with media-reported canceled cruises, and 73 cruises with 
media-reported delays in embarkation/debarkation. In sum, there are 271 
incidents resulting in a cruise itinerary provided passengers when he 
or she booked the cruise being different than the itinerary delivered. 
The number is undoubtedly considerably higher given that there is no 
centralized collection of data on the degree to which cruise ships 
approximate their published itinerary, and my data does not include 
cruise itinerary changes caused by hurricanes or tropical storms.

    Recommendation #2: Similar to data maintained on airlines 
documenting ``on time'' performance, there should be a mechanism 
whereby cruise ships and cruise lines have reported their adherence to 
itineraries and on time performance.

3. Discernable Insights from Data

    Based on cursory analysis of the limited data available--
approximately 1,500 incidents in four-and-a-half years (an average 333 
per year)--there are two insights that stand out. First is that 
Carnival Cruise Lines is disproportionately represented. Appendix 2 
shows ships with two or more mechanical incidents from January 2009 
through June 2013. Not only does Carnival Cruise Lines have a higher 
proportion of its fleet included on the list (19 of 23 (82.6 percent) 
versus 10 of 16 (62.5 percent) for Princess Cruises, 10 of 21 (47.6 
percent) for Royal Caribbean International, and 4 of 11 (36.3 percent) 
for Celebrity Cruises), but it has a higher average rate of incidents 
per ship listed (3.89 for Carnival Cruise Lines versus 3.40 for 
Princess Cruises, 3.25 for Celebrity Cruises, and 3.20 for Royal 
Caribbean International). An obvious question is why the rate of 
incidents for Carnival Cruise Lines would be 20 percent higher than for 
Royal Caribbean International; 30 percent higher than for Holland 
America Line and P&O Cruises, both of which are also owned by Carnival 
Corporation.
    One factor may be the number and training of staff, but this is 
based on conjecture. An inside source in Royal Caribbean Cruises 
Limited wrote to me after the Carnival Triumph fire saying:

        I've worked at RCCL for many years. Over the last 10 years they 
        have been steadily decreasing the number of marine employees. 
        These are the employees that navigate and maintain the engines 
        and the main employees dealing with life saving. If there is a 
        fire--it's the marine team suiting up and fighting the fires. 
        If the ship is listing or sinking--it's the marine team dealing 
        with technical systems such as water tight doors, moving tank 
        contents from one area to another, making contact with rescue 
        services, lowering life boats, etc.

        The reason for the decrease in marine manning? It's purely 
        driven by concern for profit. You can get rid of two marine 
        employees who do not generate any income (they just play a 
        major role in saving lives if something goes wrong) and replace 
        them with a hotel employee such as a marketing and revenue 
        manager or a maitre `d for income-generating specialty 
        restaurants, or bar supervisors. Many times employees are cut 
        in the marine department or doubled up in cabins so the company 
        can revamp the crew cabins into sellable cruise guest cabins.

        Approximately 5 years ago RCCL got rid of the safety officer 
        position and combined the job with the chief officer position. 
        There is now talk about changing the marine contracts for 3 
        stripe officers from 10 weeks/10 weeks off to 4 months on/2 
        months off so they match the hotel officer positions. The 
        degree of technical knowledge needed, and the tremendous life 
        saving responsibility marine officers have, is in no way equal 
        to the demands placed on hotel officers to sell another drink. 
        When the ship is sinking--do you want a marine officer that 
        knows the technical systems or do you want a hotel officer 
        selling you another beer as you are stepping into a lifeboat? 
        (Personal correspondence)

    While these comments are specific to one corporation, it raises to 
the forefront the degree to which this pattern is common to other 
cruise lines. Anecdotal accounts indicate changes of the same nature 
are taking place within Carnival Cruise Lines. This leads to a question 
requiring empirical research using reliable data. The problem is that 
such data is not available, largely because systematic independent 
oversight of the cruise industry is lacking. It is in stark contrast to 
the airline industry where oversight and reporting is the norm.

    Recommendation #3: There is need for greater oversight and 
monitoring of the cruise industry in order to monitor changing trends 
and to determine whether these changes are related to changes in safety 
and/or casualties.

    A second insight from the data is a preliminary conclusion also 
based in part on anecdotal information. It appears there is a pattern 
of incidents involving ships built on the Destiny platform (Destiny-
class and Dream-class ships): my understanding is that Carnival 
Destiny, Carnival Triumph, Carnival Splendor, Carnival Glory, Carnival 
Breeze, Carnival Dream, Carnival Liberty, and Carnival Magic have all 
reported electrical and/or propulsion issues, power losses, and some 
electrical fires over the last three years or so (not all of these have 
been reported in the media and are thus not included in my dataset); 
Costa Concordia, Costa Magica, Costa Serena and Costa Pacifica have 
also reported similar problems during this timespan--all of these ships 
are Destiny platform design ships.
    The relevant difference between Destiny platform and the Spirit/
Vista 1/Vista 2/Signature classes is simple. Destiny platform ships 
have only been built at Fincantieri shipyards in Italy from a design by 
Fincantieri. Spirit & Vista 1 class ships originated in Kvaener Masa 
shipyards and were then adapted/enlarged by Fincantieri. The original 
blueprints had more than enough redundancy to allow for growth and 
design tweaks. There is limited redundancy built into the Destiny 
platform ships, which may be why they suffer from systemic failures.
    This is illustrated in the report of the Carnival Splendor fire, 
leading to the ship losing all power and going dead in the water. The 
report observes that ``vessel engineers were unable to restart the 
unaffected main generators due to extensive damage to cables in the aft 
engine room.'' \7\ It goes on to state, there is ``susceptibility of 
the Carnival Splendor and all Dream class vessels to a complete loss of 
power resulting from damage to a single area of electrical system 
components in either the forward or aft engine room.'' Presumably, with 
appropriate redundancy the main generators would have been functional.
---------------------------------------------------------------------------
    \7\ United States Coast Guard. 2013. Report of Investigation into 
the Fire Onboard the Carnival Splendor which Occurred in the Pacific 
Ocean Off the Coast of Mexico on November 8, 2010, which Resulted in 
Complete Loss of Power, MISLE Incident Investigation Activity Number: 
3897765 (July 15).
---------------------------------------------------------------------------
    The report also observes design flaws that cut across Dream class 
(and presumably Destiny platform vessels). These include air cooler 
drainage problems, noted as far back as October 2009 and documented 
problems with the CO<INF>2</INF> system. That these problems were 
identified as early as 2009, and may have been factors in the 
catastrophic nature of both the Carnival Splendor and Carnival Triumph 
fires lends convincing support for increased independent oversight of 
the cruise industry.
    Carnival Cruise Lines appears to address the shortcoming of 
redundancy through its announcement April 17, 2013, of a $300 million 
program to enhance operating reliability, an initiative spurred by the 
Carnival Triumph fire in February 2013. As stated in the company's 
press release, the initiative will add an additional emergency 
generator on each vessel and install a second permanent back-up power 
system. There will also be increased fire prevention, detection and 
suppression systems. As well, there will be modifications to decrease 
the likelihood of losing propulsion or primary power.

        The modifications will include a reconfiguration of certain 
        engine-related electrical components. On ships where these 
        enhancements will be made, the design of specialized components 
        will require longer lead times for completion.\8\
---------------------------------------------------------------------------
    \8\ See ``Carnival Cruise Lines announces fleetwide $300 million 
program to enhance operating reliability and guest comfort.'' April 17, 
2013. Online at: http://carnival-news.com/2013/04/17/carnival-cruise-
lines-announces-fleetwide-300-million-program-to-enhance-operating-
reliability-and-guest-comfort/

    While the company deserves recognition of the steps being taken, an 
obvious question is how many of these enhancements involve adding 
components that were not originally included in the ship's design, but 
are normally included in the design of ships operated by other cruise 
lines and/or built and designed by other ship yards. An independent 
audit is the only reliable means for determining the situation.
    More serious is that the company did not appear to maximize 
learning from the Carnival Splendor fire in 2010. First, a report about 
the incident was not issued until three years later, perhaps because 
responsibility rested with Panamanian authorities; this even though 
Carnival Cruise Lines had employed a number of experts to provide them 
with analysis of causes of the fire. However, a preliminary U.S. Coast 
Guard investigation revealed several holes in the ship's fire fighting 
methodology, not to mention significant errors in its firefighting 
operations manual.

        According to a marine advisory issue by the Coast Guard, the 
        Splendor's firefighting instruction manual was riddled with 
        problems, including references to ``pulling'' valves that 
        actually needed to be turned to operate, incorrect descriptions 
        of system locations, inaccurate graphics and schematics and 
        confusing instructions such as: ``Once the fire has been 
        extinguished, make sure that the temperature has decreased 
        before investigate the area same time is needed to wait 
        hours.'' \9\
---------------------------------------------------------------------------
    \9\ Wolfe, K.A. 2013. ``Horrific Carnival cruise gets D.C.'s 
attention,'' Politico (February 27).

    Recommendation #4: Ships operating from U.S. ports should be 
obligatorily subject to accident investigations by the National 
Transportation Safety Board as a condition of using U.S. ports, and 
should be subject to the same fines and other administrative actions 
the NTSB is empowered to take with other modes of commercial 
---------------------------------------------------------------------------
transportation.

4. Learning from Success, Not Just Accidents

    So far I have looked at what might be learned from accidents and 
things that go wrong on cruise ships. There is another way to look at 
the data; concentrate on those cruise ships and cruise lines that 
appear to be under-represented when it comes to incidents. For example, 
among the mass market cruise lines Norwegian Cruise Line and MSC 
Cruises appear to have much lower incidence of fires, groundings, 
engine failures and accidents than others in this class. It would be 
interesting to know what those cruise lines are doing differently than 
Carnival Cruise Lines and Royal Caribbean International. The problem is 
that cruise lines under Cruise Lines International Association (CLIA) 
tend to not effectively differentiate themselves with regard to such 
things, and the consuming public lacks reliable data on which to 
compare cruise lines. As an authority on the cruise industry I am often 
asked what cruise line or cruise ship is the safest. I can give an 
anecdotal response, but without adequate data it is difficult to give a 
fully informed response.
    There are similar contrasts among cruise lines in the premium and 
ultra-luxury segments, however they aren't as stark as among the mass 
market cruise lines. It appears that Oceania Cruises has a better 
record than Celebrity Cruises and both have a better record than 
Holland America Line; all have a better record than Princess Cruises. 
Similarly, Seabourn Cruises appears to have fewer incidents than 
Silverseas Cruises and both less than Regent Seven Seas Cruises. 
Seadream Yacht Club has a lower incidence rate than any of the ships in 
the ultra-luxury category.
    Again, it appears that some companies are doing a far-better job 
than others. Research on what they are doing, whether in staffing and 
training or in ship design and maintenance, is worth attention. This 
would naturally be something undertaken by an industry-based body, but 
this is unlikely to happen given the dominance in CLIA of under-
achievers. As well, such research must be done by a wholly-independent 
researcher.

    Recommendation #5: There needs to be funded research, ideally 
provided by the cruise industry to a wholly independent body, to learn 
from those cruise lines that appear to be effective in reducing 
incidents and accidents.

5. Regulation and Oversight of the Cruise Industry

    Unlike the airline industry, the cruise industry is largely self-
regulated. As foreign-registered vessels operated by foreign-located 
corporations, cruise ships are not subject to many regulations and laws 
in the U.S. However, cruise ships operating from U.S. ports are subject 
to regular safety inspections by the U.S. Coast Guard and they 
voluntarily participate in the Vessel Sanitation Program of the Centers 
for Disease Control (CDC) and report illness outbreaks affected 3 
percent or more of passengers and/or 2 percent or more of crew members 
on ships operating from a U.S. port (ships operating from foreign 
ports, but sailing with a majority or U.S. passengers do not have to 
file illness reports with the CDC). While reports of CDC activities are 
available online, reports of U.S. Coast Guard inspections are not.
    I received from a San Francisco-based NBC-affiliate a set of 
inspections (Annual Control Verification Exam) done by the U.S. Coast 
Guard in San Francisco from 2002 to 2012; they had been acquired 
through a Freedom of Information request. These reports spanning 82 
pages were illuminating. It was interesting to see the types of 
deficiencies identified by inspectors (e.g., fuel leaks, water leaks 
from fire pumps, many lifeboat problems, missing or faulty equipment, 
faulty fire extinguishers, improper record keeping of required 
information, exposed live electric wires, faulty doors, mixing of 
segregated garbage streams (including hazardous waste), fire risks, 
security deficiencies, and more) and the length of time permitted for 
correction of some of the deficiencies. Given these are annual 
inspections, it is difficult to know how long deficiencies were 
overlooked or ignored. Of greater concern is that these inspections are 
not entirely unannounced, so officers and crew often prepare for them 
and the most obvious problems are corrected in advance.
    In extreme cases, a matter identified in the Annual Control 
Verification Exam was referred to the vessel's Classification Society 
(e.g., Lloyd's Register, Bureau Veritas, Registro Italiano Navale, Det 
Norske Veritas), which certifies the ship's safety and seaworthiness. 
While these societies appear to be independent, they earn their income 
from cruise lines and may be conflicted when taking action that can 
cost the cruise line money or cause a ship to be taken out of service. 
For example, there is a fair number of cases where ships have been 
judged to have insufficient lifeboat space for the number of 
passengers. In some, the Classification Society has instructed the 
cruise line to book fewer passengers on the ship until the lifeboat(s) 
has/have been repaired. In others, the Classification Society has 
permitted the cruise ship to accommodate passengers on inflatable rafts 
rather than lifeboats. It is unclear whether this is a reasonable 
solution if there were need for emergency evacuation, especially if 
like the Costa Concordia half of the lifeboats cannot be deployed.
    There is also need for the U.S. Coast Guard to oversee and review 
the work of classification societies. For example, the report of the 
Carnival Splendor fire indicates:

        The firefighting manual available to officers onboard the 
        Carnival Splendor referred to a CO<INF>2</INF> system but not 
        the one that was installed onboard the vessel. Related system 
        photographs, images, schematics and diagrams were also found to 
        be inaccurate.

        A review of CO<INF>2</INF> system documents revealed a RINA 
        approved test memoranda dated October 20, 2006, which 
        established the following procedure for testing the 
        CO<INF>2</INF> system: (1) select the zone or line, (2) observe 
        the shutdowns of ventilation systems, machinery and other 
        warning alarms and then (3) move to the gas-release procedure, 
        which included cylinder selection for the particular zone and 
        verification of pressurization of the manifold, etc. Another 
        document that appears to be part of a RINA approval letter 
        dated December 28, 2008, describes the operational procedure in 
        exact reverse order.

        In this instance, ship's crew opened the cylinder valves first. 
        As a result, the pressure differential across the zone valve 
        prevented opening of the ball valve.

    This reminds me of publicly-reported findings in 2001 and 2004 
respectively, both involving a ship approved by their Classification 
Society. The first involves Holland America Line's Zaandam. In May 2001 
a crew member noticed a sprinkler head missing from a passenger cabin 
and upon investigation found that a branch of the sprinkler system did 
not connect to the main water supply. The problem was corrected.\10\
---------------------------------------------------------------------------
    \10\ Seatrade Insider. 2001. ``Another Ship Sprinkler Problem,'' 
Seatrade Insider (June 5).
---------------------------------------------------------------------------
    In the second, the British Marine and Coastguard Agency ordered 
Cunard Line's Queen Mary 2 in June 2004 to fit extra sprinklers in the 
ship's 1,300 passenger cabins. A BBC investigation revealed material 
used in the ships' bathroom units did not meet international fire 
safety regulations. A short-term remedy was fitting all cabins with an 
extra smoke detector, but the ship must also add extra sprinklers in 
bathrooms. The ship is estimated to contain 140,000 pounds (63,503 
kilograms) of the material causing concern.\11\
---------------------------------------------------------------------------
    \11\ BBC News. 2004. ``Urgent Safety Work Starts on QM2,'' BBC News 
(June 26).

    Recommendation #6: Ships should have thorough and exhaustive safety 
inspections by the U.S. Coast Guard without advance warning. Full 
reports (including all details) of cruise ship inspections by the U.S. 
---------------------------------------------------------------------------
Coast Guard should be available online.

    The importance of an unannounced, surprise inspection is 
demonstrated by a recent health inspection of Silversea Cruise's Silver 
Shadow. The ship had never had an inspection score of 99 in May 2012 
and 95 in September 2012, however following complaints to the CDC from 
crewmembers a surprise inspection was done June 17, 2013, and the ship 
received a failing score of 84. Crewmembers had alleged that they were 
forced to store raw meat, salami, fish, cakes, and every kind of 
culinary preparations in their cabins and remote hallways to avoid 
inspections by the U.S. Public Health (USPH), and that some spoilable 
food items were kept out of the refrigerator in cabins and hallways but 
were served the following day to the cruise passengers. Other 
complaints included the alleged use of out-of-date ingredients which 
were served to the guests. Again, the importance of inspections being 
done unannounced and without advance notice cannot be stressed enough.
II. Safety and Security of Cruise Passengers
    Previous committee hearings have dealt with safety and security of 
cruise passengers.\12\ I won't duplicate that information here, except 
to summarize some important points.
---------------------------------------------------------------------------
    \12\ Testimony before the Senate Committee on Commerce, Science, 
and Transportation, Hearings on ``Oversight of the Cruise Industry,'' 
March 1, 2012; Testimony before the Subcommittee on Surface 
Transportation and Merchant Marine Infrastructure, Safety, and 
Security, Senate Committee on Commerce, Science, and Transportation, 
June 19, 2008; Testimony before Subcommittee on Coast Guard and 
Maritime Transportation, Committee on Transportation and 
Infrastructure, Hearings on ``Crimes Against Americans on Cruise Ships, 
March 27, 2007.
---------------------------------------------------------------------------
A. Scope of the Problem
    It is worth noting that the only comprehensive dataset for crime on 
cruise ships is based on data provided by the FBI in response to a 
Freedom of Information request by the International Cruise Victims 
Association. Between October 1, 2007 and September 30, 2008, the data 
reveals there were 115 simple assaults, 16 assaults with serious bodily 
injury, 89 thefts less then $10,000, 12 thefts more than $10,000, 154 
sex related incidents, 7 people overboard, and 3 drug arrests. A 
comprehensive analysis of the data on sexual assaults on cruise ships 
is reported in ``Sex at Sea: Sexual Crimes Aboard Cruise Ships,'' 
published in 2011 in the Journal of Tourism in Marine Environments (see 
Appendix 4).
    Two areas are worth further mention here because the data is not 
reported elsewhere. First, is persons overboard. Since 1995, there have 
been 201 reports of persons gone overboard from passenger ships.\13\ As 
shown in Appendix 3, 73.8 percent were male, 26.2 percent female. On 
average, males are a shade younger than females (38.85 percent vs 42.11 
percent). The majority go overboard from cruise ships: 91.4 percent 
from a cruise ship, 8.6 percent from a ferry. While data is limited, we 
know that the person overboard was rescued alive in 16.7 percent of 
cases, 11 percent cases were a confirmed suicide, and all indications 
are that 3.3 percent of cases involve murder. Alcohol was a factor in 
at least 6.2 percent of cases, a fight with a significant other in 7.1 
percent of cases, 2.4 percent followed a significant loss in the 
casino, and 9.5 percent were witnessed and confirmed to be a fall. 
These numbers will be discussed further later.
---------------------------------------------------------------------------
    \13\ See www.cruisejunkie.com/Overboard.html
---------------------------------------------------------------------------
    The second area worth mention is drug arrests. Between January 2009 
and June 2013 there were 53 media reports of drug arrests on cruise 
ships involving 87 people. Based on cases where data is available, we 
know that males are more likely to be arrested than females (83.33 
percent vs 16.66 percent); the average age is the same for both 
genders. The largest number of individual incidents occur in Bermuda 
(n=27) where cruise ships are routinely searched by government 
officials using drug-sniffing dogs; the U.S. had 8 incidents involving 
the arrest of 27 individuals, in all cases the person was apprehended 
by Customs and Border Protection agents. Ships with the largest number 
arrests are Norwegian Dawn (9) and Explorer of the Seas (6) (see 
Appendix 4). Most frequently, drug arrests are for small amounts of 
marijuana, from several grams to less than an ounce.
B. The Cruise Vessel Security and Safety Act of 2010 (CVSSA)
    The Cruise Vessel Security and Safety Act was introduced in 2008 
following Congressional hearings in 2005, 2006, 2007, and 2008. The 
hearings in 2005 were convened in December by two subcommittees of the 
House of Representatives Committee on Government Reform: the 
Subcommittee on National Security, Emerging Threats and International 
Relations chaired by Christopher Shays and the Subcommittee on Criminal 
Justice, Drug Policy and Human Resources chaired by Mark Souder. The 
hearings had a twofold purpose. First, given the recent attack of the 
Seabourn Spirit by pirates off the coast of Somalia, they sought to 
determine the decision-making procedures and processes that were in 
place to determine the extent to which the U.S. Government responds to 
a ship being attacked by terrorists or pirates. The second purpose of 
the hearings was to determine jurisdictional conflicts that occur when 
U.S. citizens traveling on a foreign-flagged vessel are involved in a 
criminal incident. These incidents included sexual assaults, physical 
assaults, robbery, and missing persons. The hearings concluded with an 
assurance they would reconvene in March in order to hear directly from 
victims.
    Hearings were reconvened in March 2006. The Committee heard from 
six victims of crime on cruise ships: three victims of a sexual 
assault, two families with three persons overboard (one mysterious, one 
alcohol-related fall), and one incident involving a theft of $6,700. 
The Committee also heard from International Cruise Victims Association 
(ICV), which presented 10 recommendations, many of which would be 
incorporated in the CVSSA; and from an expert hired by the cruise 
industry who claimed the rate of sexual assault on cruise ships was 
half the rate on land. The Committee appeared to be sceptical about the 
reliability of crime statistics and acknowledged the absence of 
reliable data on persons overboard from cruise ships. Subsequent to the 
hearing Representative Shays introduced on June 28, 2006 HR 5707, 
Cruise Line Accurate Safety Statistics Act. The bill was 
straightforward. It required cruise ships that call at a port in the 
United States to report all crimes occurring on the ship in which a 
U.S. citizen is involved. It also required this information to be made 
available to the public on the Internet. The cruise industry didn't 
embrace the legislation and with the current session of Congress near-
complete the legislation died in committee.
    In March 2007 hearings were held by the Subcommittee on Coast Guard 
and Maritime Transportation of the House of Representatives Committee 
on Transportation and Infrastructure. Two things appear to have 
solidified support for the hearings. First, the Los Angeles Times 
published an article on January 20, 2007, which based on internal 
documents from Royal Caribbean said sex-related onboard incidents was a 
larger problem than the cruise industry suggested in March 2006. The 
documents revealed 273 reported incidents within a period of thirty-two 
months, including 99 cases of sexual harassment, 81 of sexual assault, 
52 of inappropriate touching, 28 of sexual battery and 13 cases that 
fit into other categories.\14\ When the company-specific numbers were 
subjected to the same statistical analysis as done with industry-wide 
data in James Fox's 2006 testimony before Congress, the rate of sexual 
assault was not half the average rate for rape in the U.S., but 50 
percent greater than the U.S. rate.\15\
---------------------------------------------------------------------------
    \14\ Yoshino, K. 2007. ``Cruise Industry's Dark Waters: What 
Happens at Sea Stays There as Crimes on Lineres Go Unresolved,'' Los 
Angeles Times (January 20).
    \15\ Klein, R. A. 2007. ``Crime Against Americans on Cruise 
Ships,'' Testimony Before the Committee on Transportation and 
Infrastructure, United States House of Representatives, Subcommittee on 
Coast Guard and Maritime Transportation, March 27.
---------------------------------------------------------------------------
    The second factor that pushed for a new round of hearings was that 
Representative Doris Matsui from California had a constituent, Laurie 
Dishman, appeal for help following non-prosecution of a rape by a 
security officer on a Royal Caribbean International's Vision of the 
Seas. Matsui was not only concerned about the way Laurie had been 
treated and her case handled, but also with discrepancies in crime 
statistics.
    These hearings opened with the FBI and Coast Guard announcing that 
an agreement had just been reached with the cruise industry whereby 
cruise line members of the Cruise Line International Association (CLIA) 
agreed to report to the FBI (either a field office in the U.S. or the 
FBI Legal Attache at an embassy or consulate closest to the vessel's 
location at the time of the incident) all crimes against Americans on 
their ships. To many the timing of the announcement was suspicious. As 
well, the agreement appeared to be a rehash of the ``zero tolerance'' 
policy announced by the International Council of Cruise Lines in 1999 
and it was redundant to reporting requirements already in place. The 
key difference was the agreement provided a standardized form for 
reporting crimes that the FBI could use to establish a data set from 
which reports could be drawn for Congress and other government 
authorities. The data would not to be available to the public. The 
hearings also heard from ICV, Laurie Dishman, a sociologist who 
reported on analysis of the crime statistics presented in the Los 
Angeles Times, an attorney who represents cruise victims, and 
representatives of the cruise industry. At the end of the hearings the 
subcommittee chair, Elijah Cummings, called on CLIA and ICV to get 
together and to attempt to find some common ground and solutions. He 
said he'd prefer a solution that did not require legislation, but also 
said that legislation was always an option. He gave the two sides six 
months and said the hearings would reconvene in September.
    With no solution from collaboration between ICV and CLIA, hearings 
were reconvened in September 2007. The day before the Congressional 
subcommittee reconvened September 19, 2007, Representatives Matsui and 
Shays with twenty-three co-sponsors introduced a House Resolution to 
call attention to the growing level of crime on cruise ships and the 
lack of Federal regulations overseeing the cruise industry. The purpose 
of the reconvened hearings was to receive an update on the status of 
discussions between ICV and CLIA and to examine whether the security 
practices and procedures aboard cruise ships are adequate to ensure the 
safety of all passengers. As before, it received testimony from the FBI 
and Coast Guard, which discussed the implementation of the reporting 
framework announced at the previous hearings; from ICV and several of 
its members (parents of a 21-year-old who fell overboard while throwing 
up over a railing, two sexual assault victims, a surviving family 
member whose father died in a cruise ship fire); and from the cruise 
industry. Not surprisingly the cruise industry painted a picture that 
said everything was under control, that it is working diligently to 
improve situations raised as sources of concern by its critics, and 
that cruises continue to be safe.\16\ The claim of safety was based in 
large part on the FBI receiving from cruise ships only forty-one 
reports of sexual assault and twenty-eight cases of sexual contact 
between April 1 and August 23, 2007. Together, these numbers give an 
annualized rate for sexual abuse on CLIA member cruise lines of 172 
incidents; a rate of 56.9 per 100,000 passengers--several fold higher 
than the rate claimed in the 2006 hearings. The industry also used the 
hearings to announce formation of its survivors' working group, a group 
that ostensibly attempted to supplant ICV.
---------------------------------------------------------------------------
    \16\ Dale, T. 2007. ``Cruise Ship Security Practices and 
Procedures,'' Testimony Before the Committee on Transportation and 
Infrastructure, United States House of Representatives, Subcommittee on 
Coast Guard and Maritime Transportation, September 19.
---------------------------------------------------------------------------
    Less than a week after the hearings, the House Committee on 
Homeland Security approved by voice vote inclusion of language in the 
Coast Guard Authorization Act requiring cruise lines to notify the 
Department of Homeland Security Secretary of security-related incidents 
involving U.S. persons when it advises its next port of call of its 
arrival. Incidents required to be reported under the legislation 
include any act that results in death, serious bodily injury, sexual 
assault, a missing person, or that poses a significant threat to the 
cruise ship, any cruise ship passenger, any port facility, or any 
person in or near the port. Unlike Representative Shays' Cruise Line 
Accurate Safety Statistics Act, the reports would not be made public.
    At the same time there was a move involving Senator John Kerry and 
Representatives Matsui, Shays, and Maloney to write legislation that 
would require cruise ships to immediately notify the FBI about crimes, 
suicides, and disappearances. The legislation would also provide 
protocols for collecting evidence. The legislation in many ways is like 
the agreement announced in March 2007 between CLIA and the FBI would be 
mandatory. A key requirement of any legislation or regulation, if it is 
to be useful to the public, is public disclosure. Passengers should 
know the history of problems and incidents on a cruise ship, much the 
same as they can view reports of sanitation inspections conducted on 
cruise ships by the Centers for Disease Control.
    The Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security of the Senate Committee on 
Commerce, Science, and Transportation held hearings in June 2008. The 
hearings heard from ICV; CLIA; the Rape, Abuse, Incest and Neglect 
Network (RAINN); and a sociologist reporting on analysis of sexual 
assault data and on persons overboard. The information presented was 
similar to previous hearings in the House of Representatives, however 
RAINN discussed the need and methods for providing support to victims 
of sexual assault on cruise ships. The CVSSA was introduced shortly 
after the hearings.
1. From Hearings to Legislation

    A key advocate for legislation was the International Cruise Victims 
Association, formed when its founders (Ken Carver whose 40 year old 
daughter mysteriously went missing in 2004 from Mercury, a Celebrity 
ship; Bree Smith whose 26 year old brother mysteriously went missing in 
on his honeymoon in 2005 from Brilliance of the Seas, a Royal Caribbean 
ship; Son Michael Pham whose parents aged 67 and 71 mysteriously went 
missing in 2005 from Carnival Destiny; the parents of 23 year old Amy 
Bradley who mysteriously went missing in 1998 from Rhapsody of the 
Seas, a Royal Caribbean ship; and the parents of 22 year old James 
Scavone who mysteriously went missing in 1999 from Carnival Destiny) 
met at the 2005 hearings. The sponsor of the CVSSA in 2008 in the U.S. 
House of Representatives was Doris Matsui (HR 6408); in the U.S. Senate 
John Kerry (S 3204). The legislation was reintroduced in 2009 as HR 
3360 and S 588 and subsequently passed, becoming Public Law 111-207.
    The initial version of the CVSSA reflected concerns raised in 
hearings and contained solutions to identified problems. However, a 
number of provisions of the Act when it was first introduced in 2008 
and in March 2009 were changed when introduced in the Senate in June 
2009, presumably partially in response to lobbying by the cruise 
industry or others. These changes and other elements of the legislation 
will guide this discussion.
2. Persons Overboard

    The number of people going overboard from cruise ships is 
significant: between 20 and 25 a year since 2009. It is known that in 
9.5 percent of cases the person fell overboard, however if we trust 
cruise industry claims--they often say a passenger has fallen or jumped 
even if the assertion cannot be independently corroborated--then the 
percentage is much higher. With that in mind, it is curious that the 
original version of the CVSSA stated, ``The vessel shall be equipped 
with ship rails that are located not less than 4\1/2\ feet above the 
deck'' (Sec. 3507 (a)(1)(A)). However the legislation passed set the 
height one foot lower at 42 inches. In retrospect, it would appear the 
original provision of 54 inches (4\1/2\ feet) may be more reasonable as 
an impediment to passengers falling overboard.
    A second change is seen in Sec. 3507(a)(1)(D). The original 
proposed legislation stated, ``The vessel shall integrate technology 
that can be used for detecting passengers who have fallen overboard, to 
the extent that such technology is available.'' Such technology is 
available, but there are cost implications.
    The revised legislation states, ``The vessel shall integrate 
technology that can be used for capturing images of passengers or 
detecting passengers who have fallen overboard, to the extent that such 
technology is available.'' While close-circuit television (CCTV) 
technology (used to capture images of persons going overboard) may be 
effective if it were monitored in real-time, it is of little use when 
tapes are reviewed only after it is known a person has disappeared. In 
addition, there are issues with whether CCTV cameras cover all relevant 
areas where a person may go overboard, and whether images are readily 
made available when requested. In a recent case in which I was retained 
as an expert witness we found that the CCTV images were recorded using 
old technology (not in a format easily viewed) and when converted the 
images were of limited probative value. Again, it would appear that the 
original legislation proposed in 2007 was more effective in identifying 
when a person goes overboard and in causing a response that is more 
likely to lead to a live rescue. Many of the 16.7 percent of cases 
where a person is rescued alive is when their disappearance is observed 
and reported to officers who immediately execute rescue procedures.
    Data also indicates there is sufficient number of cases of persons 
going overboard when they are intoxicated. In two known cases the 
person was bending over the railing while throwing-up over the side of 
the ship. This is further reason for raising railing height, but also 
reinforces the need for stringent rules for the responsible service of 
alcohol; not just training, but practice.
    One other concern is the way the FBI interprets the CVSSA. 
International Cruise Victims Association reports they have been told by 
the FBI that a person overboard is not necessarily a crime and thus 
will not be investigated and not included in the FBI's official 
statistics. It is difficult to understand how a determination can be 
made about whether a case of a person overboard is not a crime without 
a proper investigation. Even if CCTV videotapes show a person falling 
overboard, an investigation may be warranted to determine the 
conditions surrounding the incident, for example whether intoxication 
is an issue and whether the cruise ship was responsible in serving 
alcohol. Current wording of the CVSSA does not classify a person 
overboard as a crime.

    Recommendation #7: Original provisions of the CVSSA regarding 
railing height and technology to detect passengers who have fallen 
overboard be reconsidered.

3. Sexual Assaults

    Contrary to cruise industry claims, sexual assaults are an ongoing 
problem on cruise ships. Just in the past couple of months there have 
been media reports of a 12-year-old girl groped on Celebrity Century by 
a 30-year-old male passenger, and an 11-year-old girl molested by a 
crew member on Disney Dream. In neither case was the perpetrator 
arrested or prosecuted; in the latter, the crewmember was offloaded by 
the cruise line in the Bahamas and flown home to India at the cruise 
line's expense. Data from the FBI for October 2007 through September 
2008 reveals that at least 18 percent of sexual assault victims are 
younger than age 18. The data was secured through a freedom of 
information request.
    Unfortunately, reliable data is hard to come by. No comprehensive 
FBI data has been available since 2008. The only other data available 
for analysis was provided in the discovery phase of lawsuits, yielding 
incident reports from 1998 through 2002 for one cruise line; 1998 
through 2005 for another. In a recent lawsuit involving the sexual 
assault of a minor a cruise line was ordered by the judge to disclose 
to the plaintiff's attorney all reported cases of sexual assault for 
the previous five years. The cruise line settled the case out of court 
in order to avoid complying with the court order.
    There is much to be learned from incident reports of sexual 
assault. We know that the most frequent perpetrator among crewmembers 
(between 50 percent and 77 percent of sexual assaults on passengers are 
perpetrated by a crew member) is a room steward (34.8 percent) followed 
by dining room waiter (25 percent) and bar worker (13.2 percent). We 
also know that the most frequent location for the assault is a 
passenger cabin (36.4 percent) and that alcohol is a factor in 36 
percent of incidents involving minors. Having detailed data permits 
identification of risk and of potential solutions or means for 
ameliorating the problem. However, changes to the CVSSA between the 
first versions to the version passed make this data much more difficult 
to access and thus more difficult for proper prevention and 
intervention. The following discussion will be organized around 
prevention, intervention, investigation, and prosecution.
Prevention
    The best way to deal with sexual assault is to have methods of 
primary prevention. One of the most effective methods is for passengers 
to know the risk. That is why the initial version of the CVSSA not only 
required all sexual assaults to be reported to the FBI but that ``The 
Secretary shall maintain, on an Internet site of the department in 
which the Coast Guard is operating, a numerical accounting of the 
missing persons and alleged crimes . . .'' (Sec. 3507(c)(4)(A)). But 
the section was changed in the final version to read, ``The Secretary 
shall maintain a statistical compilation of all incidents described in 
paragraph (3)(A)(i) on an Internet site that provides a numerical 
accounting of the missing persons and alleged crimes recorded in each 
report filed under paragraph (3)(A)(i) that are no longer under 
investigation by the Federal Bureau of Investigation'' 
(Sec. 3507(e)(4)(A)0.
    The result is that the FBI only publicly discloses those cases 
where they have opened a case and they have subsequently closed the 
case. Those incidents judged to be he said-she said, or where 
sufficient evidence is not available, do not have an investigation so 
appear to be not reported. Unlike crimes on land that are included in 
Uniform Crime Statistics and that reflect all complaints of a crime, 
crimes on cruise ships are only publicly recorded when the FBI has 
decided first that an investigation is warranted and second when the 
investigation is closed. The result is that the number of publicly 
reported sexual assaults on cruise ships is grossly under-reported. The 
one-year data for 2007-08 reported 154 sex-related incidents. In stark 
contrast, the FBI dataset on the U.S. Coast Guard website (which is 
difficult to find) reports 11 incidents in 2012 (data for 2010 and 2011 
was not accessible). More illuminating is a recent case I was involved 
with. The FBI indicated that the cruise line (NCL) had one case of 
sexual assault in 15 months, but records disclosed in discovery 
indicated the cruise line had received (and we assume reported to the 
FBI in compliance with the CVSSA) 23 complaints. The change in the 
language of the Act effectively makes invisible the true scale of the 
problem of sexual assault and undermines passenger awareness of the 
need to protect themselves and their children.

    Recommendation #8: The CVSSA should require reported cases of 
sexual assault committed on a cruise ship be displayed online and 
broken down by cruise line and cruise ship. In addition, the raw data 
of cases should be made available upon request for statistical/
sociological analysis in order to permit a social epidemiology of the 
problem.

    A provision that was not changed, but that may need to be revisited 
relates to crew access to passenger cabins. Sec. 3507(f)(1) states that 
a cruise ship shall ``establish and implement procedures and 
restrictions concerning--(A) which crewmembers have access to passenger 
staterooms; and (B) the periods during which they have access; and (2) 
ensure that the procedures and restrictions are fully and properly 
implemented and periodically reviewed.'' While this provision is clear 
in its intent, it may not be specific enough in its statement. I am not 
sure if it effectively addresses certain incidents of sexual assault. 
Take for example the teenage daughter left in her parent's cabin who is 
walked in upon and sexually assaulted by a crew member gaining access 
with a room key; or the adult woman who returns to her room in the 
middle of the afternoon and when she walks out of the shower finds a 
crew member in her room and is raped; or a woman who wakes in the 
middle of the night and finds a crew member standing over her and is 
assaulted. These cases are not anomalies, but even if they were they 
demonstrate why there is clear need for strict restrictions on 
crewmember access to passenger cabins. As it stands, restrictions on 
access to passenger cabins by room stewards, maintenance people, 
minibar stockers, and others are unclear. This may be addressed in 
legislation that more clearly identifies parameters for when crew 
members have access to passenger cabins (e.g., between 9:00 AM and 
11:59 AM, and between 6:00 PM and 9:00 PM). At the very least, 
passengers should be told what hours of the day a crewmember may have 
access to their cabin.

    Recommendation #9: The CVSSA should require passengers to be 
advised of the hours during which crewmembers may access their cabin 
without specific permission from the passenger.

    Another strategy for prevention, as well as useful for 
investigation, is CCTV cameras. There are two issues. One is that 
cruise ships often have real cameras and dummy cameras around the ship. 
Consequently, a crewmember may take a passenger to an area with no 
camera or a dummy camera and then assault them. This was the case when 
an 8-year-old girl was molested on a cruise ship: a cleaner led her 
down a hallway with the promise he would help her find her way back to 
her family's cabin. He knew where there were active cameras and where 
there were dummy cameras.
    A second related issue is where live cameras are located. In a 
recent case in which I served as an expert witness I raised concern 
about where cameras were and were not located, pointing out that 
cameras were not directed toward areas that I believed were high risk. 
The cruise line's attorney countered that the CVSSA only requires that 
``The owner of a vessel . . . shall maintain a video surveillance 
system to assist in documenting crimes on the vessel and in providing 
evidence for the prosecution of such crimes'' (Sec. 3507(b)(1). In this 
case the area not being covered was the entrance to public washrooms 
even though one data set indicates that 4.4 percent (n=14) of sexual 
assaults occur in public washrooms. While it shouldn't be necessary for 
an act to clearly specify where CCTV surveillance should take place, 
the current language of the Act is so vague that it can be effectively 
used to counter and/or undermine victim claims when an assault occurs. 
As has already been mentioned, the videotapes that were provided by the 
cruise line in this case were of such poor quality that they had no 
probative value.

    Recommendation #10: The CVSSA more clearly and specifically state 
requirements for CCTV surveillance and the quality and format of tape 
recordings.

    A final method of prevention is making passengers aware of the risk 
of crime on cruise ships. I have already discussed the quality of 
information reported on the website maintained by the U.S. Coast Guard, 
however the website is difficult to find and for most passengers does 
not alert them to the risk. Perhaps a better way to alert passengers of 
onboard risk is through the ``Security Guide'' required under 
Sec. 3507(c)(1)(A) of the Act. Presently the Act requires the guide to 
be available for each passenger, but doesn't specify how availability 
is achieved. The Act requires the guide to ``provide a description of 
medical and security personnel designated on board to prevent and 
respond to criminal and medical situations with 24 hour contact 
instructions'' and to describe the jurisdictional authority applicable 
and the law enforcement process available with respect to reporting a 
crime. However there is no requirement for the guide to include a clear 
statement of what crimes occur on cruise ships, nor for it to educate 
passengers in methods and/or strategies for reducing vulnerability to 
crime. The guide could be an effective method for forewarning 
passengers of known dangers.
    Ironically, passengers are often advised in port lectures of things 
they can do to reduce the likelihood of becoming a victim to crime 
ashore, but there is no parallel information for how to reduce the 
likelihood of crime onboard the ship. It is reasonable to expect a 
cruise ship to alert parents to the need to supervise their children 
and to be aware of the risk of child sexual assault onboard, to advise 
adult passengers of the risk of sexual assault and the most common 
places and scenarios where these occur--this may include advice to keep 
track of one's drink to be sure it is not drugged or otherwise tampered 
with. The data on sexual assaults provides considerable insight into 
where and when sexual assaults occur; information that passengers would 
benefit from knowing.

    Recommendation #11: The CVSSA explicitly require the ``Security 
Guide'' be placed in plain sight in every passenger cabin and that the 
content of the guide include information about the types of crimes on 
cruise ships, where they commonly occur, and steps a passenger can take 
to decrease the likelihood of becoming a victim of crime.

Intervention
    Despite best efforts, it is likely some sexual assaults will occur 
on cruise ships. The issue then is how victims will be treated. Again, 
there was a critical change from early drafts of the CVSSA and the Act 
that subsequently passed into law. Sec. 3507(e)(3) stated,

        . . . make available on the vessel at all times an individual 
        licensed to practice as a medical doctor in the United States 
        to promptly perform such an examination upon request and to 
        provide proper medical treatment of a victim, including 
        antiretroviral medications and other medications that may 
        prevent the transmission of human immunodeficiency virus and 
        other sexually transmitted diseases.

    This was replaced with Sec. 3507(d)(3) that reads:

        (3) make available on the vessel at all times medical staff who 
        have undergoe a credentialing process to verify that he or 
        she--(A) possesses a current physician's or registered nurse's 
        license and--(i) has at least 3 years of post-graduate or 
        postregistration clinical practice in general and emergency 
        medicine; or (ii) holds board certification in emergency 
        medicine, family practice medicine, or internal medicine;. . 
        .and (C) meets guidelines established by the American College 
        of Emergency Physicians relating to the treatment and care of 
        victims of sexual assault.

    The most significant change is the required qualifications of the 
person providing medical care to a sexual assault victim. The original 
draft clearly required a physician who is licensed to practice in the 
United States; the change permits either a doctor or a nurse and makes 
no reference to where that person was trained or where they are 
licensed. This change is significant.
    There are several reasons why this change may be of concern. First, 
some may believe a physician would be better able to deal with a 
medical issue. But more importantly is where that doctor was trained 
and is licensed. There has traditionally been a wide variation in 
medical care on cruise ships. Some cruise lines have chosen only 
physicians trained and licensed in the U.S., Canada, or U.K.; others 
have drawn physicians from a variety of countries because they are able 
to pay significantly less. This is not to impugn the competence of all 
foreign-trained physicians, but there may be issues around language 
(competence in English, which is important given the nuances and 
emotions at play in a sexual assault), issues around culture and 
different views about women and sexuality, and differences in knowledge 
of clinical guidelines common in the U.S. Perhaps more important is 
that when there is malpractice a physician in the U.S., Canada, or the 
U.K. may be easy to find, but a physician from a developing country or 
a non-English speaking country may be exceedingly difficult for a 
patient to track down.
    The reference in the CVSSA to guidelines established by the 
American College of Emergency Physicians may be seen as a way of 
dealing with some of these concerns. However a review of the Policy 
Compendium (2013 Edition) of the American College of Emergency 
Physicians (ACEP) brings other issues to the forefront. The Compendium 
reads:

        The sexually assaulted patient, who may be an adult or child of 
        either sex, presents special medical, psychological, and legal 
        needs. ACEP believes that all patients who report a sexual 
        assault are entitled to prompt access to emergency medical care 
        and competent collection of evidence that will assist in the 
        investigation and prosecution of the incident. ACEP has 
        therefore developed the following guidelines:

    <bullet> With the cooperative efforts of local governments, law 
            enforcement agencies, hospitals, courts, and other relevant 
            organizations, each county, state or other geographic area 
            should establish a community plan to deal with the sexually 
            assaulted patient. The plan should ensure that capable, 
            trained personnel and appropriate equipment are available 
            for treating sexual assault patients.

    <bullet> Each community plan should address the medical, 
            psychological, safety, and legal needs of the sexually 
            assaulted patient. The plan should provide for counseling, 
            and should specifically address pregnancy and testing for 
            and treatment of sexually transmissible diseases, including 
            HIV.

    <bullet> Each hospital should provide for access to appropriate 
            medical, technical, and psychological support for the 
            patient. A community may elect to establish, under the 
            supervision of a physician, an alternative medical site, 
            which specializes in the care of the sexually assaulted 
            patient and provides medical and psychological support 
            capabilities when no other injuries are evident.

    <bullet> A victim of sexual assault should be offered prophylaxis 
            for pregnancy and for sexually transmitted diseases, 
            subject to informed consent and consistent with current 
            treatment guidelines. Physicians and allied health 
            practitioners who find this practice morally objectionable 
            or who practice at hospitals that prohibit prophylaxis or 
            contraception should offer to refer victims of sexual 
            assault to another provider who can provide these services 
            in a timely fashion.

    <bullet> Specially trained, nonphysician medical personnel should 
            be allowed to perform evidentiary examinations in 
            jurisdictions in which evidence collected in such a manner 
            is admissible in criminal cases.

    <bullet> Physicians and trained medical staff who collect evidence, 
            perform in good faith, and follow protocols should be 
            immune from civil or criminal penalties related to evidence 
            collection, documentation of findings, and recording of the 
            patient's subjective complaints.

    <bullet> For the special diagnostic and therapeutic needs of the 
            pediatric patient, a community plan should provide for 
            primary referral centers with expertise and ancillary 
            social services that support a multidisciplinary approach.

    <bullet> As part of its ongoing quality management activities, the 
            hospital should establish patient care criteria for the 
            management of the sexually assaulted patient and monitor 
            staff performance.

    <bullet> ED staff should have ongoing training and education in the 
            management of the sexually assaulted patient.

    <bullet> ACEP supports appropriate measures to prevent sexual 
            assault in the community.

    First, and perhaps most important, is the guidelines place the 
emergency care physician as the primary care provider to a victim of 
sexual assault. Nonphyscian medical personnel may be allowed to perform 
evidentiary examinations, however the guidelines do not contemplate a 
nurse being responsible for the care received by a sexual assault 
victim. The CVSSA contradicts this by permitting it.
    Second, the guidelines set expectations on the community, including 
ongoing quality management activities, however these do not appear to 
be part of what a cruise ship does, especially with physicians 
typically working a four-month (or less) contract. The infirmary on a 
cruise ship is not comparable to a land-based hospital and it is 
difficult for it to comply with the guidelines.
    One guideline that is of particular note is that the ACEP expects 
the physician to support appropriate measures to prevent sexual assault 
in the community. As has already been discussed, there is much more a 
cruise ship can do to prevent sexual assault and to, in turn, comply 
with this guideline. One has to wonder whether an under-contract 
physician who is considered an independent contractor is in a position 
to effectively advocate on such a matter.
    Finally, the guidelines are explicit that the psychological and 
safety needs of a sexual assault victim be addressed. It also has very 
specific expectations for how the pediatric patient will be treated, 
including referral centers and ancillary social services. These ``best 
practices'' are not available on a cruise ship. There are no 
psychological services available onboard, and cruise ships do not 
typically take responsibility for referring the sexual assault victim 
(especially a child) to appropriate therapeutic and support services. 
As well, a victim of sexual assault will often see their perpetrator 
wandering freely on the cruise ship, which seriously questions the 
commitment to the victim's need for feeling safe. In both cases 
discussed above, of the 11-year-old and 12-year-old girls recently 
sexually assaulted, the perpetrator was not apprehended in a timely 
manner (in one case the perpetrator was not apprehended at all).
    While the intent of the CVSSA in referencing the ACEP guideline is 
laudable, it is an empty gesture when the guidelines do not fit with 
the setting. More appropriate would be language that addresses: (1) the 
qualifications of the physician charged with treating sexual assault 
victims; (2) the appropriate role played by nonphysician medical 
personnel; and (3) the provision of psychological and therapeutic 
services both onboard and appropriate referrals for when the victim 
returns home from the ship. These latter requirements may be met 
through a partnership with land-based organizations such as RAINN or 
with land-based service providers. Interestingly, based on the 
landscape of onboard sexual assaults I advocated in my 2002 book, 
Cruise Ship Blues: The Underside of the Cruise Industry, that cruise 
ships invest in having a counselor onboard a ship, both for passengers 
and crew. I write:

        The counselor would be someone competent in dealing with cases 
        of sexual assault, who could serve as an ombudsperson in 
        matters arising between passengers and staff or between 
        shipboard employees. If a counselor is to be effective and seen 
        as someone to turn to, it is essential that he or she be 
        independent of the ship's hierarchical structure--a status 
        similar to the ship's physician who on medical matters 
        essentially answers to no one onboard, not even the captain. 
        Counselors would need to be independent, and independently 
        available. The simple fact is that abuses are known to occur on 
        ships, but the information is kept within the shipboard 
        community. The only way that information gets out is by having 
        an outsider brought in (p. 161).

    I know this was read by cruise industry executives and their 
lawyers, but it had no apparent effect.

    Recommendation #12: The CVSSA should require onboard physicians to 
be board certified in emergency medicine, family practice medicine, or 
internal medicine in the U.S., U.K., Canada, Australia, France, or 
Germany. Further, there should be clear statements about how cruise 
ships will treat the psychological and safety needs of sexual assault 
victims, especially victims who are minors.

Investigation
    Proper investigation of cruise ship crimes and preservation of 
evidence is critical, especially in a case of sexual assault. In 
addition, there needs to be proper procedures for ensuring chain of 
evidence requirements. Though beyond my expertise, I have to wonder 
whether evidence collected and secured by a shipboard safety officer 
will stand up in a shore side court of law. I suspect a critical issue 
will also be whether the safety officer is available to testify in a 
criminal prosecution or a civil case, especially if the case is against 
his/her employer.
    This raises a critical issue with regard to the independence and 
impartiality of onboard security officers. On land when there is a 
sexual assault the victim can talk to their local law enforcement 
office, which is totally independent of the perpetrator, and they 
receive medical care and support services from professionals who are 
also independent of the perpetrator. On a cruise ship, a victim's case 
is investigated by an employee of the cruise line, a relationship that 
becomes particularly thorny when the perpetrator is also a cruise line 
employee--the most recent comprehensive data of sexual assaults on 
cruise ships indicates that the majority are perpetrated by a cruise 
ship employee; and then their medical care is provided by another 
employee of the cruise line. This situation does not engender the same 
level of trust a victim is likely to have when dealing with the same 
issue on land.

    Recommendation #13: Cruise ships should be required to have a 
private, independent law enforcement agent for purposes of crime 
investigation. These would be similar to the wholly-independent Ocean 
Rangers placed on cruise ships by the State of Alaska to monitor 
discharge of waste streams while the ship is in Alaska state waters.

    Notwithstanding the above, Sec. 3508(a) of the CVSSA states that 
the Secretary ``shall develop training standards and curricula to allow 
for the certification of passenger vessel security personnel, 
crewmembers, and law enforcement officials on the appropriate methods 
for prevention, detection, evidence preservation, and reporting of 
criminal activities in the international maritime environment.'' The 
intent of this provision is clear, however the execution appears to be 
problematic. Compliance is ostensibly effected by Model Course CVSSA 
11-01: Crime Prevention, Detection, Evidence Preservation and 
Reporting. This is an on-line course that takes eight hours (one day) 
to complete. Aside from there being no direct contact between an 
instructor and a student, there is a total of three hours devoted to 
``Crime Scene Actions,'' which includes techniques used by law 
enforcement, action required to preserve different crime scenes, and 
access control. There is extremely limited content on collection and 
preservation of evidence. The stated measure of competence for this 
three-hour module is that ``requirements related to reporting and 
recording of serious crimes are correctly identified and 
demonstrated.'' It is unclear from the manual how students are tested 
(although it appears that the most likely method is multiple choice and 
other closed-choice exams) and whether the student can learn in three 
hours the skills and knowledge commonly possessed by crime scene 
investigators on shore. While the course may be useful for training 
support personnel to a professionally trained investigator, it appears 
inadequate preparation if the concern is with gathering evidence that 
will withstand the requirements of land-based law enforcement and a 
court of law.

    Recommendation #14: In the absence of a professionally qualified 
crime scene investigator, a cruise ship should be required to have 
onboard a staff person with more than adequate training in all facets 
of crime scene preservation, collection of evidence, and methods to 
ensure proper chain of evidence.

Prosecution
    The final area to consider regarding sexual assault is prosecution 
of the perpetrator. I have already addressed the need for evidence to 
facilitate prosecution. Another critical issue is to detain the 
offender. This may be more easily done when the perpetrator is a 
crewmember, however when a passenger perpetrates a sexual assault he or 
she should also be detained for law enforcement personnel at the next 
U.S. port. It is unfortunate when a crewmember is flown to his home 
country from a foreign port rather than having to face prosecution, 
especially when the crime is irrefutably caught on videotape, as was 
the case of the 11-year-old girl molested on Disney Dream in May 2013. 
It is equally sad that a 30-year-old man who groped a 12 year old girl 
can wander freely on the ship while the girl and her family are 
reminded of the ordeal every time they see him.

    Recommendation #15: Cruise ship personnel should take more 
seriously their responsibility to detain perpetrators of sexual assault 
until the ship arrives at its next U.S. port. Further, Congress should 
contemplate whether there needs to be a legislated requirement to 
ensure perpetrators are isolated from the general public onboard the 
ship and held for delivery to land-based law enforcement personnel.

4. Other Crimes

    There are two crimes for which the FBI collected data in 2007-08, 
but that are not required to be reported under the CVSSA. One is a 
theft of less than $10,000--there were 89 in the one year period 2007-
08. The other is simple assault--there were 115 in the same one year 
period. It doesn't seem right that these crimes are not recorded and 
that victim rights are apparently truncated.
    As regards theft, there is the obvious fact that crew members know 
that a theft of less than $10,000 will not only not be prosecuted, but 
will not be recorded. This seems like an open door for a permissible 
level of crime. Why $10,000 rather than $9,800? The amount appears 
arbitrary. However, more importantly, by not collecting data there is 
no ability for analysis to discern patterns or trends that might inform 
interdiction or prevention. As well, there is no way to know whether 
the problem is increasing or decreasing, and whether the problem on 
cruise ships is greater or lesser than on land.
    Judge Thomas A. Dickerson of the New York State 9th Judicial 
District makes the same point, but more eloquently:

        [The Act does not] . . . require the reporting of thefts which 
        are between $1,000 and $9,999 in value. These problems may be 
        resolved as follows. First, requiring owners to report thefts 
        less than $10,000 would allow local law enforcement to 
        investigate and deter future crimes. Second, mandating owners 
        to include the recorded thefts of property valued between 
        $1,000 and $9,999 on the USCG website would allow prospective 
        cruise passengers to better appreciate the risks associated 
        with cruises. An even more effective method would be to 
        breakdown the USCG online reporting by individual cruise ships, 
        rather than by cruise lines, as is currently required.\17\
---------------------------------------------------------------------------
    \17\ Dickerson, T.A. and S. L. Sgroi. 2012. ``Recent Developments 
in Maritime Law,'' Presented at the Joint Judicial Seminar Program for 
the Appellate Divisions for the First and Second Judicial Departments, 
April 25. Available at: <www.nycourts.gov/courts/9jd/TacCert_pdfs/
Dickerson_Docs/recent_dev_maritimelaw.pdf>

    There are similar concerns with regard to simple assault. What if 
the assault is a case of domestic violence (a fair proportion of which 
do fall within this category)--why would this not be reported and 
considered for prosecution, especially if the victim decides to press 
charges. Also, what is the fine line between a simple assault and an 
assault with serious bodily injury? Are cruise ship personnel expert in 
making this determination? I think not. But most importantly is the 
fact that having this data is useful both to determine changes over 
time as well as to compare the situation between different cruise ships 
and between cruise ships and incidence on land. It would seem it is in 
the interest of the cruise industry to have this data collected, unless 
they are concerned that the rate onboard their ships is higher than the 
---------------------------------------------------------------------------
rate onshore.

    Recommendation #16: The CVSSA should require reporting to the FBI 
of all onboard crime, including thefts less than $10,000 and simple 
assaults.

III. Consumer Rights and Cruise Ship Liability
    The issue of consumer rights was directly addressed by CLIA's 
recent announcement of its Passenger Bill of Bights. This will be 
discussed first. I will then shift to the broader issue of liability as 
it applies to cruise ships and cruise lines.
A. CLIA Passenger Bill of Rights
    The CLIA Bill of Rights is as interesting for what it includes as 
for what it does not include. It was announced May 22, 2013 just five 
days before a fire on Grandeur of the Sea; probably motivated in large 
part by a series of problems before and following the media-focused 
fire on the Carnival Triumph and by Senator Schumer's stated intent to 
develop a passenger bill of rights. In the month before the Carnival 
Triumph fire, five ships experienced propulsion problems causing delay 
and/or requiring itinerary changes: Carnival Splendor, Carnival 
Destiny, Carnival Legend, Carnival Triumph, and P&O Cruises' Aurora 
(all ships operated by Carnival Corporation). In the several months 
following the Carnival Triumph fire there were the following:

  <bullet> Seabourn Odyssey had a power failure and was towed to port 
        in New Zealand;

  <bullet> Cunard Line's Queen Elizabeth had a collision with a tug 
        boat packed with pleasure seekers in New Zealand;

  <bullet> Hurtigruten's Kong Herald ran aground and the cruise was 
        canceled;

  <bullet> Coastal and Maritime Voyage's Marco Polo was holed and 
        canceled its cruise;

  <bullet> Carnival Dream had generator problems and ended a cruise 
        early, flying passengers home from Saint Maarten;
  <bullet> Carnival Legend had propulsion problems and was stuck for a 
        day in Costa Maya; the ship altered the itinerary on this 
        cruise and the next because of continuing problems;

  <bullet> Carnival Elation had steering problems and required 
        assistance of a tug to navigate to New Orleans;

  <bullet> P&O's Ventura had propulsion problems transatlantic and 
        changed its itinerary;

  <bullet> Regent Seven Seas' Voyager had propulsion problems causing 
        significant delays;

  <bullet> Carnival Sunshine canceled two cruises because of longer-
        than-anticipated time in dry dock; when the ship finally left 
        dry dock passengers complained that work was still being done 
        and some ship services are unavailable;

  <bullet> Celebrity Millennium had propulsion problems that caused 
        itinerary changes, at one point being dead in the water for 
        three hours in the South China Sea;

  <bullet> Carnival Ecstasy experienced a power failure;

  <bullet> Coral Princess experienced a fire;

    And then comes the Passenger Bill of Rights--no doubt a public 
relations initiative to counter the wave of bad publicity (notably, all 
but three of the problems occurred on ships operated by Carnival 
Corporation). In announcing the Bill of Rights CLIA stated that they 
detail CLIA members' ``commitment to the safety, comfort and care of 
guests.'' CLIA also stated the Bill of Rights ``codifies many 
longstanding practices of CLIA members and goes beyond these to further 
inform cruise guests of the industry's commitment to their comfort and 
care.'' The obvious question then is what is new about the Bill of 
Rights. I will address this and then consider what isn't contained in 
the Bill of Rights.

    1. The right to disembark a docked ship if essential provisions 
such as food, water, restroom facilities and access to medical care 
cannot adequately be provided onboard, subject only to the Master's 
concern for passenger safety and security and customs and immigration 
requirements of the port.

    This Right makes perfect sense if a ship is alongside a pier, 
however it does not consider the issue of passengers who are stranded 
on ships without electrical power, propulsion, toilets, air 
conditioning and adequate food for three to five days. What are the 
rights of those passengers? Getting off a ship when it is docked is an 
easy Right to guarantee. However there are still questions. As Senator 
Schumer observes in his May 21, 2013 letter to CLIA, who determines 
that essential provisions cannot be adequately provided? If someone on 
the ship or the cruise line is the decision maker, how can passengers 
appeal that decision? But there is also the issue of disembarking in a 
port that requires clearance by customs and immigration officials. A 
cruise ship can prevent disembarkation if local port authorities do not 
cooperate. What are the rights of passengers then?
    The issue of landing and needing clearance from immigration 
officials was raised as a potential concern when Carnival Triumph had 
its fire and the company decided to tow the ship to a U.S. port rather 
than to a closer Mexican port. The explanation given was that many 
passengers didn't have passports, so disembarking in Mexico and 
repatriating to the U.S. could be problematic. Does the location of a 
ship truncate one's rights? On surface the Right sounds reasonable, but 
in the concrete situation with a range of conditions it isn't as 
straightforward.

    2. The right to a full refund for a trip that is canceled due to 
mechanical failures, or a partial refund for voyages that are 
terminated early due to those failures.

    Again, the Right is straightforward and sounds reasonable. If a 
product paid for is not delivered there will be a refund. But the Right 
does not indicate whether the refund is in cash and how long it will 
take for the refund to be processed--the passenger paid for their 
cruise 60-90 days in advance of the cruise so shouldn't they be 
entitled to the income generated by the cruise line for the period of 
time it held the money on deposit? As well, how is a partial refund 
calculated and what mechanism is in place for a passenger to challenge 
the entitlement offered by the cruise line.
    But there is a larger issue. What is a passenger's Right when they 
fly to a distant port and learn upon arrival that their ship will not 
depart? Will the cruise line reimburse their travel costs to the port 
on top of refunding the cruise fare? This is not clear from the 
Passenger Bill of Rights. The Passenger Bill of Rights is also not 
clear about a passenger's rights if a cruise line leaves port with a 
cruise ship that it is known will not be able to fulfill the published 
itinerary, as was the case on a couple of cruises listed in Appendix 2.
    A related issue is how the Passenger Bill of Rights applies to a 
missed port and/or changed itinerary. There is a significant number of 
these as noted in Appendix 2 (see for example Aurora (March 2009), 
Seven Seas Voyager (April 2009), Pacific Dawn (February 2010), Artemis 
(May 2010), Infinity (June 2010), Pacific Sun (February 2011), 
Enchantment of the Seas (February 2012), Carnival Legend (March 2013), 
Seven Seas Voyager (March 2013), Crown Princess (April 2013)). Do 
passengers have the right to be refunded port fees, taxes, and port 
related services for which they have already paid when a port call 
skipped, and is this payment in cash rather than the typical practice 
of an onboard credit? Are they entitled to an additional payment for 
failure to deliver the published itinerary, especially when the change 
is due to a mechanical problem or failure? And should passengers have a 
right to be reimbursed for costs associated with an independently 
arranged shore excursion in a port call that is skipped or canceled? 
Finally, how are these refunds computed and by what means does a 
passenger have a right to dispute that computation? As the saying goes, 
the devil is in the details.
    While the Passenger Bill of Rights appears to address canceled 
cruises, albeit without sufficient clarity, it does not address the 
much more common occurrence of port calls that are canceled. What 
rights do passengers have in these cases?

    3. The right to have available on board ships operating beyond 
rivers or coastal waters full-time, professional emergency medical 
attention, as needed until shore side medical care becomes available.

    Having on board professional emergency medical attention has been a 
long-standing practice on cruise ships--in fact it is required by 
International Labor Organization Convention 164, entitled ``Health 
Protection and Medical Care for Seafarers,'' requiring that ships 
``:engaged in international voyages of more than three days' duration 
shall carry a medical doctor as a member of crew responsible for 
providing medical care.'' However the qualifications of medical 
personnel has varied widely. In most cases a physician and/or a nurse 
provide medical services. Some cruise lines have a policy of only using 
medical professionals trained and board certified in the U.S., Canada, 
or U.K. Other cruise lines, in part because the fee paid is less, draw 
medical professionals from a range of countries. In all cases, medical 
professionals are considered independent contractors--they are paid a 
fee by the cruise line and receive a commission based on charges for 
medical services and prescriptions/supplies. Though the physician wears 
a senior officer's uniform and is considered a member of the crew, she 
or he is not a cruise line employee and the cruise line claims no 
liability for his or her medical practice.
    While the Right states a standard practice, and reiterates a 
requirement of the CVSSA, it does not indicate a substantial fee is 
charged for emergency medical attention. The Passenger Bill of Rights 
should have greater transparency, clearly indicating that medical 
services on board a ship are fee-for-service. In addition, passengers 
have the Right to know the limitations on medical services on board a 
ship. One issue is the scope of practice of the individual physician. 
An equally, if not more important issue, is the limited nature of a 
ship's infirmary. There may be limited diagnostic facility (e.g., no X-
rays or complex blood tests) and there is no surgical theatre. As an 
experienced emergency physician on board a cruise ship told me, ``my 
greatest fear is an ectopic pregnancy that needs emergency surgery--
there is very little I can do in the middle of the ocean.''
    What this suggests is that the Passenger Bill of Rights should 
include useful information about the limits of medical care on a cruise 
ship so a passenger can make an informed decision and not go onboard 
expecting services that will not be available. In the absence of such 
information, the obvious question is whether a cruise ship, by the 
Passenger Bill of Rights, is accepting liability for cases where 
emergency medical attention may be inadequate or otherwise lacking in 
an emergency medical situation. What recourse is available to a 
passenger in such a case?

    4. The right to timely information updates as to any adjustments in 
the itinerary of the ship in the event of a mechanical failure or 
emergency, as well as timely updates of the status of efforts to 
address mechanical failures.

    On surface this right sounds ideal--what else could a passenger 
expect? However the term ``timely'' is subjective. I have been on 
cruises where timely was measured in hours (sometimes many hours) 
whereas I as a passenger measure timely in quarter hours. It would be 
helpful to a passenger in understanding the Right to know what is meant 
by timely. Aside from that, how will these information updates be 
provided--via public announcements on board or by written 
notifications? And what recourse does a passenger have if information 
updates are not timely? Are they entitled to compensation or some other 
consideration? In many ways the Right can easily become an empty 
promise.
    Another term requiring definition is ``mechanical failure or 
emergency.'' This presumably includes a situation where a ship is dead 
in the water or has an extended power loss. But does it also apply to a 
ship that has a propulsion problem causing it to sail at reduced 
speeds, or a medical emergency that delays a ship and causes a change 
in itinerary. It would seem that what the industry should be stating is 
that a passenger has a Right ``to timely information updates as to any 
adjustments in the itinerary of the ship''--full stop.
    The Right leaves unstated what compensation, if any, is available 
to passengers when a port call is dropped or an itinerary is changed. 
Will they be refunded all port fees, taxes and other port use expenses 
associated with that port? This was addressed above. In any case, the 
Passenger Bill of Rights should be explicit about the parameters for 
what their rights are and what their rights are not.

    5. The right to a ship crew that is properly trained in emergency 
and evacuation procedures.

    This is certainly a fair expectation on the part of passengers. 
However, there is a huge chasm between being properly trained in 
emergency and evacuation procedures--there may not be basis to argue 
that crewmembers aren't trained--and those same crewmembers 
demonstrating through behavior competence in executing emergency and 
evacuation procedures.
    Unfortunately, there is a track record of crewmembers not 
demonstrating this competence, not only in emergency situations but in 
periodic inspections by the U.S. Coast Guard and in annual U.S. Coast 
Guard Control Verification exams. The report of the Carnival Splendor 
fire is a good example of the point I am making. Officers were likely 
properly trained, however the reports says that one reason for the 
catastrophic nature of the fire was human error--when the fire alarm 
first went off on the ship's bridge, a crew member reset it, leading to 
a 15-minute delay in the activation of an automatic fire-suppression 
system. The report also faults the crew's ``lack of familiarity with 
the engine room,'' which hampered their ability to locate and fight the 
fire, and the captain's decision to ``ventilate'' the compartment where 
the fire began before it was fully extinguished, allowing the flames to 
flare again.\18\
---------------------------------------------------------------------------
    \18\ Dolan, J. 2013. ``Crew Error Cited in Carnival Ship Fire that 
Led to Nightmare Tow,'' Los Angeles Times (July 16).
---------------------------------------------------------------------------
    Two questions derive from these points. First, what will the cruise 
industry require to ensure that all crewmembers are properly trained--
will current regimes of training be augmented or bolstered? How will 
proper training in emergency and evacuation procedures be verified? 
Second, what recourse does a passenger have when crewmembers do not 
demonstrate competence in emergency and evacuation procedures? Will the 
cruise line waive damage limits contained in the Passenger Contract 
and/or permit a passenger to file a lawsuit (including for emotional 
distress, mental suffering/anguish or psychological injury, presently 
excluded from the cruise line's liability) for demonstrated failure of 
competence in emergency and evacuation procedures? These should be 
explicitly laid out in the Passenger Bill of Rights.

    6. The right to an emergency power source in the case of a main 
generator failure.

    Like other items in the Passenger Bill of Rights, the obvious 
question is what is included under ``main generator failure'' and what 
is excluded? We can point to Carnival Splendor, which had six diesel 
engines--a fire in one engine caused extensive damage to cables in the 
aft engine room that meant vessel engineers were unable to restart the 
unaffected main generator.\19\ How can CLIA guarantee that a similar or 
more catastrophic event wouldn't happen on another ship? In the case of 
the Carnival Splendor it wasn't that the main generator failed, but 
that the cables carrying power from the generator had been destroyed. 
Also on the Carnival Splendor the emergency generator apparently 
continued to work, but only provided power to emergency services. Does 
this technically comply with the right stipulated?
---------------------------------------------------------------------------
    \19\ U.S. Coast Guard. 2013. Report of Investigation into the Fire 
Onboard the Carnival Splendor which Occurred in the Pacific Ocean off 
the Coast of Mexico on November 8, 2010, which Resulted in Complete 
Loss of Power. MISLE Incident Investigation Activity Number 3897765.
---------------------------------------------------------------------------
    In the case of Carnival Dream in March 2013, news reports indicate 
the main power generator had not failed, but the backup emergency 
diesel generator had failed, thus causing the cruise to be terminated 
when the ship was in Saint Maarten. This illustrates the confusion in 
the language in the Right--what is it actually telling a passenger and 
whether what is being promised can actually be delivered? And if the 
Right is not fulfilled, what recourse does a passenger have?
    This issue is made even more confusing when considering the number 
of cruise ships that have lost power and gone adrift--some for short 
periods of time; others for longer periods of time. How does this Right 
apply to a passenger in this situation? Does this Right apply to all 
power outages or only power outages of a certain duration and/or only 
power outages caused by failure of the main generator? Assuming a 
passenger has a Right to an emergency power source, what happens if it 
isn't provided; what recourse or compensation is available to them? 
There are many questions raised by this Right, which on surface is 
intended to reinforce a sense of security, but upon reflection is 
potentially an empty promise.

    7. The right to transportation to the ship's scheduled port of 
disembarkation or the passenger's home city in the event a cruise is 
terminated early due to mechanical failures.

    This Right is already a common practice of the cruise industry, 
however the Passenger Bill of Rights doesn't address two situations. 
First, what Right does a passenger have when a cruise ends early and 
passengers are returned to the port of embarkation--does the cruise 
line assume responsibility for the additional travel costs (and change 
fees on airline tickets) associated with getting from the port of 
disembarkation, does the cruise line assume responsibility for lodging 
and food expenses incurred by the passenger in getting home, and does 
the cruise line provide compensation for a passenger who arrives home 
later than scheduled thereby losing salary from missed work and having 
expenses for childcare etcetera? The Right to transportation doesn't 
appear to extend to these issues. Related to this is whether a 
passenger is accommodated in the same class of service on airlines and 
the same class of hotel that they normally choose. How long will a 
passenger wait for reimbursement of these costs and what mechanism is 
in place if there is a dispute between a cruise line and the passenger 
about the amount due to the passenger? Does the cruise line waive the 
Passenger Contract so the passenger can pursue a case in a court of law 
of their choosing (for example, if they live outside the U.S. or in a 
location remote from the court specified in the Passenger Contract's 
forum selection clause)?
    Second, the Passenger Bill of Rights does not address the Right a 
passenger has when a ship arrives late in a port of disembarkation and 
the passenger has arranged his/her own transportation. Does a passenger 
in this case have the Right to have the cruise line assume 
responsibility for all additional travel costs (in the class of service 
originally booked) as well as lodging and food expenses incurred in 
getting home, and does the cruise line provide compensation for a 
passenger who arrives home later than scheduled thereby losing salary 
from missed work and having expenses for childcare etcetera? This is an 
area of rights that is not addressed at all in the Passenger Bill of 
Rights.

    8. The right to lodging if disembarkation and an overnight stay in 
an unscheduled port are required when a cruise is terminated early due 
to mechanical failures.

    Does this Right only apply to a cruise terminated due to a 
mechanical failure, or to any cruise terminated early? CLIA's choice of 
more restrictive language suggests there are many situations when a 
cruise may be terminated in an unscheduled port of call and lodging 
would not be provided. How does this Right interface with the Passenger 
Bill of Rights' #1?
    This Right also says nothing about the quality of the lodging 
provided. Does a cot in a high school gymnasium qualify as ``lodging''? 
Does lodging include a private bathroom? Based on past events, it is 
possible to imagine a range of scenarios. What Right to lodging, 
precisely, does a passenger have and will the cruise line assume all 
costs associated with that lodging? What recourse does a passenger have 
when the lodging provided is unacceptable.

    9. The right to have included on each cruise line's website a toll-
free phone line that can be used for questions or information 
concerning any aspect of shipboard operations.

    Cruise lines already have toll-free numbers accessible from 
telephones in the U.S. Will access to these numbers extend to all ports 
of call on the cruise line's itinerary and to all countries from which 
passengers are drawn? More importantly, what will be done to ensure 
that the information provided by an operator at a toll-free number has 
accurate and correct information? Take for example the following 
correspondence I received from the parent of a passenger on Carnival 
Legend March 14, 2013:

        The ship is disabled and stuck in Costa Maya on March 13, 2013. 
        I spoke with Carnival last night about how this might effect 
        the itinerary because my daughter is on the ship. They told me 
        they did not know anything about an alteration in the cruise 
        schedule and would only tell me the ship was moving. I called 
        the ship to try to speak with my daughter today and while I did 
        not reach her, the ship officer confirmed to me that they were 
        in Costa Maya and not Belize yesterday. Her boyfriend called 
        Carnival this morning as well and they denied the ship was in 
        Costa Maya and called it a rumor. I can understand a mechanical 
        issue that needs to be addressed although this seems to be a 
        big problem with this company. I cannot tolerate flat out lying 
        and misinformation that they are providing about the Legend.

    What changes or initiatives are being undertaken by CLIA and its 
member lines in order to avoid a similar situation? What recourse does 
a passenger and/or his/her family have when misinformation is provided 
or information is withheld?

    10. The right to have this Cruise Line Passenger Bill of Rights 
published on each line's website.

    This seems like the easiest Right to realize, however a quick 
survey of CLIA-member cruise line websites on July 15, 2013, found that 
the Passenger Bill of Rights was apparently not published on 13 of the 
26 member lines' website. CLIA's May 22, 2013, Press Release (Cruise 
Industry Adopts Passenger Bill of Rights) states that publishing the 
Passenger Bill of Rights on a cruise line's website is a condition of 
membership in CLIA. Are these 13 members no longer members of CLIA? 
What right or recourse does a passenger have if they have purchased a 
ticket from one of these lines in the past eight weeks--does the 
Passenger Bill of Rights apply to them?
CLIA Passenger Bill of Rights and the Cruise Contract
    There is one additional issue with the Passenger Bill of Rights. 
CLIA promised that the Passenger Bill of Rights would be added to 
Cruise Passenger Contracts. This is laudable, but this is not apparent 
from Passenger Contracts displayed on cruise line websites, but more 
importantly there is no mention of how conflicts and contradictions 
between the Passenger Bill of Rights and the Cruise Passenger Contract 
are resolved. Which has precedence? According to the standard passenger 
contract the cruise line has the right to alter a cruise itinerary for 
any reason and the passenger has no recourse. As Carnival Cruise Lines 
states in its hard-to-find ``Cruise Cancellation and Itinerary Change 
Policy'' states:

        In the event an itinerary change becomes necessary while the 
        ship is at sea or when notice prior to sailing is not feasible, 
        Carnival and/or the Master will attempt to substitute an 
        alternative port. Carnival and/or the Master may, in their 
        discretion and for any purpose, deviate in any direction or for 
        any purpose from the direct or usual course, and omit or change 
        any or all ports of calls, arrival or departure times, with or 
        without notice, for any reason whatsoever, all such deviations 
        being considered as forming part of and included in the 
        proposed voyage. Carnival shall have no liability for any 
        refund or other damages in such circumstances.\20\
---------------------------------------------------------------------------
    \20\ See http://www.carnival.com/about-carnival/legal-notice/port-
cancellation-policy.aspx

    In terms of itinerary changes before a ship leaves port, the policy 
---------------------------------------------------------------------------
states:

        Due to the nature of a cruise vacation, itinerary changes 
        sometimes become necessary for safety, weather or other reasons 
        beyond the control of Carnival. If the itinerary change is for 
        reasons beyond Carnival's exclusive control, including but not 
        limited to safety, security, weather, strikes, tides, 
        hostilities, civil unrest, port closings, emergency 
        debarkations of guests or crew, late air, sea, car or motor 
        coach departures or arrivals, mechanical breakdowns or problems 
        not known to Carnival, itinerary changes consistent with U.S. 
        State Department travel warnings/advisories or other applicable 
        U.S. or foreign governmental advisories, guests will not be 
        provided any compensation. Guests electing to cancel will be 
        subject to the standard cancellation terms.

    And in terms of passenger costs resulting from cruise cancellations 
or itinerary changes the policy states:

        Carnival shall not be liable to guests for any charges, fees or 
        expenses paid or owed to third parties by guests (such as air 
        travel booked by a guest directly with an airline) in 
        connection with a cancelled cruise or an itinerary change for 
        any reason.

    Carnival Cruise Lines' Passenger Contract is even more restrictive:

        (c) If the performance of the proposed voyage is hindered or 
        prevented (or in the opinion of Carnival or the Master is 
        likely to be hindered or prevented) by war, hostilities, 
        blockage, ice, labor conflicts, strikes on board or ashore, 
        restraint of Princes, Rulers or People, seizure under legal 
        process, breakdown of the Vessel, congestion, docking 
        difficulties or any other cause whatsoever or if Carnival or 
        the Master considers that for any reason whatsoever, proceeding 
        to, attempting to enter, or entering or remaining at the port 
        of Guest's destination may expose the Vessel to risk or loss or 
        damage or be likely to delay her, the Guest and his baggage may 
        be landed at the port of embarkation or at any port or place at 
        which the Vessel may call, at which time the responsibility of 
        Carnival shall cease and this contract shall be deemed to have 
        been fully performed, or if the Guest has not embarked, 
        Carnival may cancel the proposed voyage without liability to 
        refund passage money or fares paid in advance. (emphasis added)

    These statements appear at variance with a number of items in the 
Passenger Bill of Rights. It appears disingenuous to promote a 
Passenger Bill of Rights without also clarifying how conflicts between 
those rights and the cruise passenger contract are to be resolved.
    A common theme across all elements in the Passenger Bill of Rights 
is how a passenger deals with a Right that has not been fulfilled or 
has been directly violated. Are these rights ultimately governed by the 
cruise passenger contract that sets clear terms about when and how 
complaints and legal action must filed, and where law suits must be 
filed? Forum selection clauses effectively truncate a passengers rights 
under the Passenger Bill of Rights given the requirement that legal 
action can only be taken in a court located in the state where the 
cruise line's corporate headquarters is located (most frequently 
Florida). The cruise passenger contract also includes a ``class action 
waiver,'' prohibiting a passenger from taking any legal action as a 
member of a class or as a participant in a class action. For many 
passengers these are impediments to taking any action and they often 
resign to accepting whatever the cruise line offers, if anything.
B. What the CLIA Passenger Bill of Rights Does Not Include
1. Passenger Rights

    There are a number of things obviously missing from the CLIA 
Passenger Bill of Rights. Some of these have already been mentioned:

  <bullet> There is no mention of the recourse a passenger has if one 
        of the Rights is not fulfilled or realized.

  <bullet> There is no indication of how a partial refund will be 
        computed and whether that refund is provided in cash or, as 
        common in the industry, as a discount on a future cruise or an 
        onboard credit.

  <bullet> There is no mention of whether the cruise line is 
        responsible for ancillary costs when a cruise is cancelled, 
        including change fees for airline tickets and for the costs of 
        the tickets themselves, the cost of lodging required in travel 
        to the passenger's home city, and support for food and 
        incidentals associated with delays in getting from the ship to 
        the passenger's home city.

  <bullet> There is no mention of what rights a passenger has when a 
        port of call is canceled. Some cruise lines refund ``port fees 
        and taxes,'' however these are given as an onboard credit 
        rather than as a cash refund. As well, there is no transparency 
        with regard to the amount refunded. Some cruise lines average 
        the cost of port fees and taxes so a refund for one port is the 
        same as the other even though actual fees can vary widely from 
        one port to another. Also, it isn't transparent whether costs 
        other than port taxes and fees that are not paid by the cruise 
        line because of the canceled port call are also refunded to the 
        passenger. There is considerable need for greater clarity and 
        transparency around passenger rights when a port call is 
        canceled.

  <bullet> There is no mention of what rights a passenger has when a 
        cruise itinerary is changed, such as a cruise sailing the 
        Eastern Caribbean instead of the Western Caribbean because of 
        propulsion problems, or a cruise going to Canada instead of the 
        Caribbean because of weather. The Passenger Cruise Contract is 
        clear that the cruise line has no obligation or responsibility 
        to provide compensation in these situations. This absence of 
        rights should be clearly articulated in the Passenger Bill of 
        Rights.

  <bullet> There is no mention of the rights a passenger has when 
        embarkation is delayed. Does a passenger have a Right to meal 
        vouchers or compensation for meals purchased (as is common in 
        airline travel)? Also, after how many hours of waiting in a 
        cruise terminal is the cruise line obligated to provide either 
        lodging or a comfortable setting to wait? A comprehensive 
        Passenger Bill of Rights would address these situations given 
        the frequency of delayed embarkations.

  <bullet> There is no mention of a passenger's rights when a cruise 
        arrives late in its port of disembarkation, causing the 
        passenger to miss transportation arrangements for their trip to 
        their home city.

    In addition there are some rights that should be directly 
addressed.
    The Passenger Bill of Rights should clearly articulate the rights 
of a passenger who is ``bumped'' from a cruise because of overbooking 
or other issues. The most recent cases involve Carnival Sunshine, which 
bumped passengers on its June 7, 2013, cruise because a number of 
cabins were needed for contractors completing work that was not 
completed while the ship was in dry dock. Similarly, passengers in 78 
cabins on Grandeur of the Seas were bumped from the July 12, 2013 (and 
perhaps the July 19th), sailing because cabins were needed for workers 
who were still making repairs following the fire earlier in the year. 
Some of these bumped passengers had their cruise canceled because the 
ship had been out of service for repairs, and here they were bumped 
from their replacement cruise.\21\
---------------------------------------------------------------------------
    \21\ It is worth mention that Royal Caribbean Cruises Limited, in 
anticipation of these hearings and concern that the facts might paint 
an unkind picture, sent an e-mail to all employees asking them to write 
their Senator with the following text: Dear Senator, As one of your 
constituents and an employee of _______________, one of the major 
cruise lines serving North America, I am contacting you today out of 
concern regarding the July 24 Senate Commerce Committee hearing 
regarding the cruise industry. As an individual who is intimately 
familiar with cruising, it is apparent to me that there has been a 
great deal of misinformation and distortion regarding the industry in 
recent months. As one of your constituents, I am concerned that the 
industry will be unfairly portrayed at this hearing. As someone that 
works in the cruise line industry, I know firsthand that cruising is 
extremely safe and well regulated at the national level, by the U.S. 
Coast Guard, and by international authorities. Additionally, the cruise 
industry directly benefits businesses in all 50 states, generating over 
355,000 jobs and over $42 billion in economic impact. It provides $17.4 
billion in wages to American workers each year. I would greatly 
appreciate your support to ensure that the cruise industry receives a 
fair and balanced hearing. Thank you for your time and attention to 
this matter and your service to our Nation. Sincerely, Your Name
---------------------------------------------------------------------------
    Similarly, the Passenger Bill of Rights should discuss a 
passenger's rights when they are expelled from a cruise ship, often for 
questionable reasons and the result is loss of cruise fare and their 
having responsibility for transportation from the port where they are 
left. Between January 2009 and June 30, 2013, there are eight cases 
list on my website where a passenger has been evicted or expelled 
(these are only ones reported in the media). These passengers have no 
right to appeal or recourse. The cruise line Cruise Passenger Contract 
gives them this unilateral, uncontestable Right to evict or expel, 
without liability.
    The Passenger Bill of Rights does not address a passenger's rights 
when they miss the ship because of flight delays or because of weather 
conditions (such as Hurricane Sandy in the fall of 2013 when passengers 
lost their cruise fare because they couldn't get to the ship). The 
cruise lines generally take the position that this type of situation is 
not their problem. A passenger without trip insurance is responsible 
for lost cruise fares and/or additional travel costs to join the ship 
at a later point. Further, it there are reports that some benefits 
under trip insurance policies offered by the cruise line are more 
restrictive in the benefits they provide than insurance policies 
offered independent of the cruise line.
    The Passenger Bill of Rights does not address a passenger's rights 
to have safety concerns taken seriously. Though not the first time I 
have received this sort of information, on June 21, 2013, I received 
the following from a cruise passenger:

        We have just disembarked after a 7-day Alaskan cruise aboard 
        Celebrity Solstice. We frequented the quasar dance club each 
        night. On night two I noticed at 2300 (11pm), when the club 
        only allows 18 and over, a crew member used a small rope to tie 
        the handles of one of the two exits closed to prevent access. 
        Not must looped but tied in a fashion that untying would be 
        impossible is a smoke filled environment or panic. This room is 
        required to have two emergency exits and this exit was clearly 
        marked ``emergency exit''. This happened three nights in a row. 
        I brought my concerns to the attention of guest services 
        requesting to speak to the ships Safety Officer. I was told 
        that another passenger had requested to speak with him also but 
        he stated that he was ``too busy with paperwork to speak to 
        anyone''. The guest services person apologized and drafted an 
        e-mail to him explaining my concerns and that I am a 28 year 
        firefighter. That night in quasar the doors were once again 
        tied closed. As of this writing no staff or crew has contacted 
        me. I would encourage that all passengers be aware of their 
        surroundings. It appears Celebrity is not concerned with safety 
        and if this blatant example of reckless disregard for its 
        passengers and crew in a public space is allowed to exist, then 
        I am wondering what other safety issues exist that we did not 
        see.

    It would seem this passenger's expectations were realistic, but 
they were ignored. Did he have any rights? And what rights were 
available for this disregard of concern for fire safety?
    Finally, the Passenger Bill of Rights does not address the Right to 
be free of sexual assault by crewmembers or cruise ship employees, or 
the Right to be free of other types of crime. This type of assurance 
seems only natural given the rate of sexual assault on cruise ships, 
but it is obviously one that would be difficult to fulfill (although no 
less difficult than some of the other rights included in the Passenger 
Bill of Rights). In this line of thought, the Passenger Bill of Rights 
should also contain a Right to contact the FBI directly from the ship 
when a victim of a crime. This Right is accorded by the CVSSA, so it 
should be provided, however most victims will be unaware of what is 
available to them without it explicitly being stated in something like 
a Passenger Bill of Rights. Alternatively, a cruise ship may be 
required to provide a crime victim with an information sheet outlining 
the rights and the options available to them, including the telephone 
numbers for relevant law enforcement agencies, and agencies that 
provide direct services or referral to services that are likely to be 
needed by the victim.
    In sum, it appears the Passenger Bill of Rights is a public 
relations initiative that on its face accords more rights and 
protection to a passenger than is realistically the case. One problem 
is the many empty or nonspecific promises contained in the Passenger 
Bill of Rights, but a larger problem is there is no clear recourse for 
a passenger who believes the rights promised have not been provided. 
This is all based essentially based on a matter of trust, however as 
was observed by the Organization for Economic Co-operation and 
Development (OECD) in 2003, trust (or voluntary approaches) does not 
substantively change the status quo of the way things are done. 
Focusing specifically on environmental policy, the OECD notes few cases 
where voluntary approaches have improved the environment beyond a 
business as usual baseline.\22\
---------------------------------------------------------------------------
    \22\ Organization for Economic Co-operation and Development. 2003. 
Voluntary Approaches to Environmental Policy: Effectiveness, 
Efficiency, and Usage in Policy Mixes, Paris:OECD.

    Recommendation #17: Given the imprecise nature of the CLIA 
Passenger Bill of Rights, there is an obvious need for a legislated 
solution. Passenger rights can only be achieved by legislation that 
puts into place clear and specific measures for consumer protection, 
similar to those available to passengers of other modes of commercial 
---------------------------------------------------------------------------
transportation.

    This recommendation for greater consumer protection may help level 
the field between the rights of cruise passengers in the U.K. versus in 
the U.S. Unlike the U.S., there have been a number of successful 
lawsuits in the U.K. for ``cruises from hell,'' with problems ranging 
from illness outbreaks, lapses in service, and ships having facilities 
that are not in proper repair or that remain under construction 
following time in dry dock.
2. Cruise Line Rights

    While the typical Passenger Cruise Contract accords few rights to 
the cruise passenger, it gives many rights to the cruise line. 
Unfortunately, the cruise passenger contract is rarely given to the 
passenger when they make their booking and put down a deposit. Further, 
they are not usually given a copy of the passenger contract before 
making full payment for their cruise 60-90 days before the cruise. Most 
frequently a copy of the cruise passenger contract is provided in small 
print on the back of the tickets sent to a passenger to be used for 
boarding. By accepting the ticket the passenger acknowledges receipt of 
applicable brochures and agrees to abide by the terms and conditions of 
the cruise line's brochures and website, including but not limited to 
the information contained in the ``Frequently Asked Questions'' and 
``Embarkation Information'' sections.\23\ At this point the passenger's 
rights have already been compromised--he or she cannot cancel the 
cruise without losing all monies paid. A cruise line would likely say 
that the passenger could have downloaded the passenger contract from 
the company's website, however a more proactive approach by the cruise 
line would make sense. When I buy an airline ticket I receive the 
passenger contract when I print or receive the ticket and I have 24 
hours to cancel that ticket without loss of funds. It only seems 
reasonable that a cruise passenger should receive a copy of the cruise 
passenger contract before his or her Right to a refund passes.
---------------------------------------------------------------------------
    \23\ See section 2(d) of Carnival Cruise Lines' passenger contract.
---------------------------------------------------------------------------
    As regards rights, there is an asymmetric power relationship 
between a passenger and a cruise ship. As already seen, the cruise line 
holds all of the power when it comes to itinerary changes and canceled 
cruises, and when it comes to crime. The cruise line similarly has full 
control over how to resolve customer service issues--not just evictions 
and expulsions, but lapses in providing the services and care a 
passenger is led to believe will be provided by advertising and 
promotional materials. The cruise contract either truncates a 
passenger's rights in most situations, or reinforces the cruise line's 
Right at the detriment of the passenger.
    Some of the cruise line's rights appear unreasonable. For example, 
Carnival Cruise Line's contract states:

        Carnival reserves the right to increase published fares and air 
        fare supplements without prior notice. However, fully paid or 
        deposited guests will be protected, except for fares listed, 
        quoted, advertised or booked in error, fuel supplements, 
        government taxes, other surcharges and changes to deposit, 
        payment and cancellation terms/conditions, which are subject to 
        change without notice. In the event that a cruise fare listed, 
        quoted or advertised through any website, Carnival sales 
        person, travel agent or any other source is booked but is 
        incorrect due to an electronic error, typographical error, 
        human error or any other error causing the fare to be listed, 
        quoted or advertised for an amount not intended by Carnival, 
        Carnival reserves the right to correct the erroneous fare by 
        requesting the Guest to pay the correct fare intended, or by 
        canceling the cruise in exchange for a full refund, but in no 
        event shall Carnival be obligated to honor any such booking 
        resulting from the error or otherwise be liable in such 
        circumstances.

    Thus, a passenger can book a cruise only to be told later that they 
owe additional funds for a fuel supplement, surcharge, or government 
taxes. As well, if the company makes an error in booking a cruise at a 
fare it didn't mean to, the passenger has no right to receive the fare 
advertised and under which the cruise ticket was issued. This is 
another stark contrast with the airline industry.
    The passenger contract also gives the cruise line the right to 
cancel the cruise contract at its discretion (and without the 
passengers consent)--the passenger has no reciprocal right. The cruise 
line also has no obligation to provide a passenger the cabin reserved 
when a reservation was made. As Carnival Cruise Lines' contract states, 
``Carnival reserves the right to move Guests to a comparable stateroom 
for any reason, including but not limited to, instances in which a 
stateroom is booked with fewer than the maximum number of Guests the 
stateroom can accommodate.'' Again, the passenger has no recourse.
    Finally, the cruise line retains an exclusive right to use 
photographs and videotapes of a passenger onboard a ship with no 
limitation (including in advertising and publicity) and without the 
passenger's consent. Imagine taking a cruise and some time later seeing 
an advertisement or video with your image in a photograph or videotape 
(including when doing something silly or foolish). To some of us, this 
would be construed as a violation of privacy. Rightfully, consent 
should be required for use of anyone's image in a public forum.
3. Issues of Liability

    In addition to issue of the cruise line's rights is the extreme 
limits placed on the company's liability. For claims not involving 
personal injury, illness, or death a passenger must give notice of 
claim within 30 days of disembarkation from the vessel. Claims 
involving personal injury, illness or death must be filed with the 
company within 6 months of the injury, event, illness or death and a 
lawsuit must be filed within a year. In all cases that legal action is 
taken, it must be filed in the U.S. District Court or state court where 
the cruise line's headquarters is located (referred to as a forum 
selection clause). As already mentioned, this severely limits the 
option available to many passengers.
Baggage and Personal Effects
    Even when legal action may be initiated, there are other limits. 
Many passenger cruise contracts limit the liability of the cruise line 
for lost or damaged luggage and personal effects. For example, Carnival 
Cruise Lines' passenger contract states ``. . . that the aggregate 
value of Guest's property does not exceed $50 USD per guest or bag with 
a maximum value of $100 USD per stateroom regardless of the number of 
occupants or bags.'' Consequently, a family of four whose luggage is 
lost by the cruise line is due only $100--this doesn't even cover the 
cost of the luggage, much less the contents. A passenger can increase 
these limits by declaring a higher value and paying 5 percent of the 
declared value to the cruise line. In contrast, the passenger contract 
for an air carrier limits liability to approximately $1,500 per 
passenger.\24\ A family of four on a cruise would have to pay $280 to 
the cruise line for the same level of coverage provided automatically 
by an air carrier.
---------------------------------------------------------------------------
    \24\ Coverage under the Warsaw Convention is approximately 
US$1,663; under the Montreal Convention US$20 per kg for loss of or 
damage or delay to checked baggage, and US$400 for unchecked package.
---------------------------------------------------------------------------
Illness Outbreaks
    Cruise lines operating out of U.S. ports and serving U.S. ports 
have successfully avoided liability for illness outbreaks. This has not 
consistently been the case in the U.K. where there are stronger 
consumer protection laws. Part of the cruise industry's defense is 
their mantra that ``passengers bring the illness with them,'' thereby 
coloring itself as an unwilling victim. As Rose Abello, vice president 
of Public Relations of Holland America Line stated, ``The ship is not 
sick. There are sick people getting on the ship.'' \25\ This mantra was 
first used in late-2002 when there was a wave of very visible norovirus 
outbreaks on cruise ships, and it proved effective. Interestingly, The 
International Council of Cruise Lines (ICCL) laid out its strategy at 
the 2003 World Cruise Tourism Summit on March 3, 2003. An almost-
inspirational video was shown about the situation in which the industry 
found itself and the way that it successfully responded on the public 
relations front.
---------------------------------------------------------------------------
    \25\ LaMendola B. and T. Steighorst. 2002. ``Cruise Lines Blame 
Passengers for 3rd Viral Outbreak on Ship,'' Sun--Sentinel (November 
12).
---------------------------------------------------------------------------
    At the start of the video, the industry was depicted as receiving 
an inordinate amount of attention for a series of norovirus outbreaks 
on cruise ships. Illness on cruise ships had been the topic of stories 
on mainstream television: Inside Edition, CNN, NBC, and many others. 
The industry had even become the brunt of jokes on late night 
television--Jay Leno and David Letterman among others. Evening news 
with increasing frequency showed people who had become sick on board 
ships.
    The video described the industry's media strategy had three 
elements: provide talking points to cruise executives and others in a 
position to present the industry's position, arrange as many media 
interviews as possible, and flood the media with positive information 
about the cruise industry. It proactively distributed pictures and 
video footage showing ships being disinfected, and engaged in positive 
messaging. Carnival Cruise Lines' president, Bob Dickinson, framed the 
problem as part of a national epidemic and said there was no cause-and-
effect with regard to norovirus on cruise ships. Colin Veitch, NCL's 
CEO, pointed to the incidence of norovirus in the general population to 
minimize the problem as unique to cruise ships. The industry also 
enlisted the help of third parties in its campaign, most significantly 
the Centers for Disease Control. It helped promote the idea that people 
get sick on airplanes too, but they don't experience symptoms until 
they get home so they don't associate it with air travel.
    ICCL's video concluded with ``Smooth Seas Ahead.'' The industry 
successfully fought off the negative media attention and reframed the 
issue. Its message was two pronged: cruises are a great vacation at a 
good price, and why worry about norovirus--it is as common as the 
common cold. You can't argue with that. The media became desensitized 
to the issue and most of the 79 outbreaks affecting 6,630 people in 
2003 and 2004 went unnoticed. The problem continues: in 2012 the were 
were 34 known outbreaks affecting 5,542 passengers.
    When an outbreak does happen ill passengers often are quarantined 
in their cabin for days; whether they receive any compensation is 
wholly at the cruise line's discretion. However, cruise lines are not 
as innocent or defenseless as they would like to appear. In 2005 and 
again in 2008 I argued in my books, in response to claims by the 
industry that the low incidence among prove that norovirus is largely a 
passenger problem, that there are systemic disadvantages for 
crewmembers to report when they are ill. This position appears to be 
supported by recent CDC health inspections that have identified cases 
where crewmembers have continued to report to work despite being ill, 
including in positions of food handling and food service.
    The problem for passengers is that cruise lines have effectively 
escaped liability for illness among passengers. To my knowledge there 
have been no successful lawsuits in the U.S. for these outbreaks even 
though similar lawsuits have been successful under consumer protection 
laws in the U.K.
Independent Contractors
    A cruise ship is populated with many independent contractors whose 
behavior and practice the cruise line assumes no liability. Most 
visibly these include medical services (physician(s) and nurse(s)), but 
spa and personal care services (including health and beauty staff), 
photographers and video diary staff, retail shop personnel, casino 
workers, art auctioneers, and all other concessionaires. Even though 
many of these people wear clothing with the cruise line's logo, and in 
the case of medical personnel officer uniforms, they are not considered 
cruise line employees. Unbeknownst to most passengers, the cruise ship 
has no liability for services provided and billed to the passenger's 
onboard account. The status of these groups as independent service 
providers over whom the cruise line has no authority, control, or 
responsibility (even though tacitly endorsed by the cruise line) needs 
to be more clearly visible to passengers. At the very least, there 
should be signage or formal notification to passengers of this fact.
Medical Care
    Medical services are a bit different. In an emergency situation, 
the passenger has no choice but to accept the service of medical 
personal who the cruise line has judged to be appropriate for medical 
care on its ship. But the cruise ship has no liability for their 
practice. It is a hard concept to get one's head around given the 
service is offered by the cruise line and the cruise ship collects the 
fees. But the nature of this arrangement was supported by the Florida 
Supreme Court in February 2007 and by the U.S. Supreme Court in October 
2007.
    The case began ten years before in March 1997. Fourteen-year-old 
Elizabeth Carlisle was on a Caribbean cruise on Carnival Destiny with 
her family. On the second night out of Miami she developed severe 
abdominal pain. She consulted the ship's physician, Dr. Mauro Neri, who 
had finished medical school in his native Italy in 1981 and had held 
nine medical jobs in Italy, Africa and England in the fifteen years 
before joining Carnival Cruise Lines. His salary was $1,057 a month. 
Dr. Neri advised that Elizabeth was suffering from the flu and sent her 
on her way. But her pain became worse. On the third visit to the 
infirmary, after Elizabeth's parents specifically asked whether the 
problem could be appendicitis, Dr. Neri conducted his first physical 
exam. He responded that he was sure the problem was not the girl's 
appendix.
    When the pain continued to grow worse Elizabeth's parents called 
their family physician in Michigan, who advised they return home. The 
family took the advice, and shortly after arriving home Elizabeth 
underwent emergency surgery to remove her ruptured appendix. The 
infection had rendered the fourteen year old sterile and caused 
lifelong medical problems. Elizabeth sued Carnival Cruise Lines in 
Florida state court, a case she lost on Carnival's motion for summary 
judgement. The cruise line claimed it was not responsible for the 
medical negligence of the doctor on board and pointed to the fine print 
in the passenger cruise contract to support its position.
    The family appealed the Circuit Court's decision to Florida's Third 
District Court of Appeal, where the parents argued the cruise line was 
vicariously liable for the doctor's negligence. Judge Joseph Nesbitt 
agreed and reversed the lower court's decision. The judge held that the 
cruise line had control over the doctor's medical services for agency 
law purposes; the doctor was to provide medical services to passengers 
and crew in accordance with the cruise line's guidelines. And as it was 
foreseeable that some passengers at sea would develop medical problems 
(and that the only realistic alternative for such a passenger was 
treatment by the ship's doctor) the cruise line had an element of 
control over the doctor-patient relationship. As such, the cruise 
line's duty to exercise reasonable care under the circumstances 
extended to the actions of a ship's doctor placed onboard by the cruise 
line. The doctor was an agent of the cruise line and his negligence was 
imputed to the cruise line. This invalidated the cruise ticket's 
purported limitation of the cruise line's liability for the negligence 
of its agents.
    Judge Nesbitt's decision was groundbreaking. It was likely the very 
first case where a cruise line was held responsible for the care 
provided by a ship's physician. Not surprisingly, Carnival appealed the 
case to the Florida Supreme Court. While the court almost agreed with 
the lower court's assertion that times had changed and that a doctor's 
negligence at sea also shows negligence by the cruise line, it 
ultimately found in favour of Carnival. Justice Peggy Quince wrote in 
her opinion:

        We find merit in the plaintiff 's argument and the reasoning of 
        the district court. However, because this is a maritime case, 
        this Court and the Florida district courts of appeal must 
        adhere to the Federal principles of harmony and uniformity when 
        applying Federal maritime law.\26\
---------------------------------------------------------------------------
    \26\ Supreme Court of Florida. 2007. Carnival Corporation vs. Darce 
Carlisle, Case No. SC 04-393, February 15.

    The case was appealed to the U.S. Supreme Court and the court 
refused to hear it. The Florida Supreme Court's decision was the final 
word. If the Carlisle family wanted to pursue the case they would have 
to sue the physician directly. But this would be difficult in their 
case, and in most involving medical malpractice on cruise ships, given 
that they'd first have to locate the physician in his present home. 
Cruise lines historically have not provided assistance with locating 
former staff members. In addition, malpractice cases involving 
treatment in international waters must be filed in the courts of the 
physician's country of origin, which is both difficult and 
expensive.\27\
---------------------------------------------------------------------------
    \27\ Chen, S. 2007. ``Trouble at Sea: Free-Agent Doctors,'' Wall 
Street Journal (October 24).
---------------------------------------------------------------------------
Shore Excursions
    Shore excursions are a major source of income for a cruise ship--
the cruise ship retains 50--70 percent or more of what a passenger pays 
for the tour. These tours are sold onboard at a Shore Excursion Desk by 
staff members wearing the cruise line's uniform. But when something 
goes wrong on a shore excursion, the cruise line is quick to remind the 
passenger that they are not liable; shore excursions are provided by 
independent contractors. Appendix 1 indicates 14 known deaths on shore 
excursions (these are only incidents that have been reported in the 
media; there are many more than this) and five robberies ashore (some 
at knife or gun point) on shore excursions affecting dozens of 
passengers--these again are only those that have been reported in the 
media so they underrepresent the true number.
    If there is an injury or death on a shore excursion, the cruise 
passenger's options are limited in U.S. courts. Their options in a 
court in the country where the shore excursion was offered may also 
offer few options. The problem is that shore excursions are largely 
unregulated, except by the cruise line itself, and some can be quite 
dangerous.
    While the cruise line has no liability for shore excursions, they 
tend to dissuade passengers from taking tours that are independently 
available. They may talk about safety concerns for a tour that is not 
approved, and will often warn passengers that the advantage of the 
ship-sponsored tour is that if they are delayed the ship will wait for 
them. In contrast, the ship will not wait for a passenger delayed on an 
independent tour. While more and more passengers are choosing to make 
private arrangements for land-based tours, those who make advance plans 
may find they are out money when a ship alters its itinerary or cancels 
a port call.
Sexual Assaults
    The issue of liability for sexual assaults reached public attention 
in the mid-1990s. A tort reform measure attached to the Coast Guard 
Reauthorization bill had passed on May 9, 1995. The amendment, for the 
most part written by the ICCL, was introduced by Representative Don 
Young. He referred to it as a ``noncontroversial manager's amendment.'' 
\28\ It passed the House by a vote of 406 to 12. Only afterwards did 
people read the final print.
---------------------------------------------------------------------------
    \28\ Glass, J. 1996. ``Compromise on U.S. Cruise Tort,'' Lloyd's 
List (October 1), p. 1.
---------------------------------------------------------------------------
    One provision, directed at mounting claims from injuries and sexual 
assaults, limited liability to passengers and crew for ``infliction of 
emotional distress, mental suffering or psychological injury'' unless 
negligence or an intentional act can be proven. The American Trial 
Lawyers Association characterized the amendments as ``dangerous 
legislation'' that ``jeopardized the safety of women on cruise ships.'' 
Opposition also came from the Women's Defense Fund, the National 
Organization for Women's Legal Defense Fund, the Maritime Committee of 
the AFL-CIO, and rape treatment centers.\29\
---------------------------------------------------------------------------
    \29\ Fox, L. and B. R. Fox. 1995. ``Anchored in the Docks, 
Washington Post (October 8), p. E4.
---------------------------------------------------------------------------
    The amendment languished for more than a year waiting to go to a 
House-Senate conference where lawmakers would resolve the House and 
Senate versions of the Coast Guard Reauthorization Bill. Lobbying by 
the industry continued, including a delegation of cruise line 
executives led by Micky Arison in March 1996. He and Celebrity Cruise's 
president Richard Sasso met with Senator Larry Pressler and separately 
with other members of the Senate Committee on Commerce, Science, and 
Transportation. Pressler chaired the Committee and would serve on the 
conference committee charged with reconciling the House and Senate 
versions.\30\ By October 1, 1996, a compromise had been negotiated. 
Ernest Hollings, from the Senate's Commerce, Science, and 
Transportation Committee, observed before the Conference Committee that 
no one knew if the cruise ship people had enough votes to push the 
amendments through, but the cruise industry figured they were 50 
percent there and didn't have much to lose.\31\ When the Conference 
Committee convened, Senator Hollings threatened to kill the entire 
reauthorization bill if ICCL's amendments remained. In the end he 
capitulated after amended language was adopted for the two provisions.
---------------------------------------------------------------------------
    \30\ Rowe, S. 1996. ``There Oughta Be a Law,'' Miami New Times 
(March 21).
    \31\ Ibid.
---------------------------------------------------------------------------
    In the final version, ship owners were prohibited from limiting 
their liability in cases involving sexual harassment, sexual 
misbehavior, assault, or rape in cases where the victim is physically 
injured. Limitations were allowed in all other situations.\32\ Current 
passenger cruise contracts read, as does Carnival Cruise Line's, the 
cruise line shall not be liable to the passenger for damages for 
emotional distress, mental suffering/anguish or psychological injury of 
any kind under any circumstances, except when such damages were caused 
by the negligence of Carnival and resulted from the same passenger 
sustaining actual physical injury, or having been at risk of actual 
physical injury, or when such damages are held to be intentionally 
inflicted by the cruise line. Consequently, unless a cruise line can be 
found negligent, a victim of a sexual assault, whether be a crew member 
or a fellow passenger, has no claim for emotional distress, mental 
suffering/anguish or psychological injury. This position appears 
insensitive, especially to those (including children) victimized by a 
cruise ship employee.
---------------------------------------------------------------------------
    \32\ Glass, J. 1996. ``Compromise on U.S. Cruise Tort,'' Lloyd's 
List (October 1), p. 1.
---------------------------------------------------------------------------
Limit of Liability
    In addition to the issues already discussed, there is one other 
limitation on a cruise line's liability that is worth mention; 
specifically that the cruise line is not liable for the intentional or 
negligent acts of any persons not employed by the cruise line 
(including independent contractors and other passengers) nor for any 
intentional or negligent acts of cruise ship employees committed while 
off duty or outside the course and scope of their employment. This last 
exclusion is a huge loophole given the cruise line has no 
responsibility when a crewmember commits a sexual assault when off 
duty. As well, they are not responsible when the sexual assault is not 
part of the scope of their employment--by its very nature, an assault 
would be outside the scope on one's employment. While there are a large 
number of lawsuits filed against cruise lines for sexual assaults, the 
vast majority of these are settled out of court, presumably because the 
cruise line wishes to avoid negative publicity. However, in how many of 
these cases can the cruise line effectively use the disclaimer in the 
passenger cruise contract?

    Recommendation #18: Given the many limits on cruise line liability, 
there should be a requirement that cruise lines provide passengers, in 
advance of when penalties accrue for cancelation, a clear statement in 
plain, clear English (and French or Spanish as required) of all limits 
on liability and laying out all rights that can be freely exercised, 
without limitation, by the passenger.

    Recommendation #19: That consumer protection legislation be 
promulgated that extends to cruise passenger common rights and 
opportunities for complaint or other action similar to those available 
to consumers of other services, especially transportation services such 
as train, airlines, and other commercial carriers.
IV. In Closing
    Thank you again for the opportunity to share my observations and 
insights generated from my 17 years as an academic whose research has 
focused on the cruise industry. I welcome your questions.
V. Summary of Recommendations

    Recommendation #1: There is need for systematic reporting of all 
cruise ship incidents to an independent, central authority charged with 
responsibility for data analysis and policy and operational 
recommendations.

    Recommendation #2: Similar to data maintained on airlines 
documenting ``on time'' performance, there should be a mechanism 
whereby cruise ships and cruise lines have reported their adherence to 
itineraries and on time performance.

    Recommendation #3: There is need for greater oversight and 
monitoring of the cruise industry in order to monitor changing trends 
and to determine whether these changes are related to changes in safety 
and/or casualties.

    Recommendation #4: Ships operating from U.S. ports should be 
obligatorily subject to accident investigations by the National 
Transportation Safety Board as a condition of using U.S. ports, and 
should be subject to fines and other administrative actions the NTSB is 
empowered to take with other modes of commercial transportation.

    Recommendation #5: There needs to be funded research, ideally 
provided by the cruise industry to a wholly independent body, to learn 
from those cruise lines that appear to be effective in reducing 
incidents and accidents.

    Recommendation #6: Ships should have thorough and exhaustive safety 
inspections by the U.S. Coast Guard without advance warning. Full 
reports (including all details) of cruise ship inspections by the U.S. 
Coast Guard should be available online.

    Recommendation #7: Original provisions of the CVSSA regarding 
railing height and technology to detect passengers who have fallen 
overboard be reconsidered.

    Recommendation #8: The CVSSA should require reported cases of 
sexual assault committed on a cruise ship be displayed online and 
broken down by cruise line and cruise ship. In addition, the raw data 
of cases should be made available upon request for statistical/
sociological analysis in order to permit a social epidemiology of the 
problem.

    Recommendation #9: The CVSSA should require passengers to be 
advised of the hours during which crewmembers may access their cabin 
without specific permission from the passenger.

    Recommendation #10: The CVSSA more clearly and specifically state 
requirements for CCTV surveillance and the quality and format of tape 
recordings.

    Recommendation #11: The CVSSA explicitly require the ``Security 
Guide'' be placed in plain sight in every passenger cabin and that the 
content of the guide include information about the types of crimes on 
cruise ships, where they commonly occur, and steps a passenger can take 
to decrease the likelihood of becoming a victim of crime.

    Recommendation #12: The CVSSA should require onboard physicians to 
be board certified in emergency medicine, family practice medicine, or 
internal medicine in the U.S., U.K., Canada, Australia, France, or 
Germany. Further, there should be clear statements about how cruise 
ships will treat the psychological and safety needs of sexual assault 
victims, especially victims who are minors.

    Recommendation #13: Cruise ships should be required to have a 
private, independent law enforcement agent for purposes of crime 
investigation. These would be similar to the wholly-independent Ocean 
Rangers placed on cruise ships by the State of Alaska to monitor 
discharge of waste streams while the ship is in Alaska state waters.

    Recommendation #14: In the absence of a professionally qualified 
crime scene investigator, a cruise ship should be required to have 
onboard a staff person with more than adequate training in all facets 
of crime scene preservation, collection of evidence, and methods to 
ensure proper chain of evidence.

    Recommendation #15: Cruise ship personnel should take more 
seriously their responsibility to detain perpetrators of sexual assault 
until the ship arrives at its next U.S. port. Further, Congress should 
contemplate whether there needs to be a legislated requirement to 
ensure perpetrators are isolated from the general public onboard the 
ship and held for delivery to land-based law enforcement personnel.

    Recommendation #16: The CVSSA should require reporting to the FBI 
of all onboard crime, including thefts less than $10,000 and simple 
assaults.

    Recommendation #17: Given the imprecise nature of the CLIA 
Passenger Bill of Rights, there is an obvious need for a legislated 
solution. Passenger rights can only be achieved by legislation that 
puts into place clear and specific measures for consumer protection.

    Recommendation #18: Given the many limits on cruise line liability, 
there should be a requirement that cruise lines provide passengers, in 
advance of when penalties accrue for cancelation, a clear statement in 
plain, clear English (and French or Spanish as required) of all limits 
on liability and laying out all rights that can be freely exercised, 
without limitation, by the passenger.

    Recommendation #19: That consumer protection legislation be 
promulgated that extends to cruise passenger common rights and 
opportunities for complaint or other action similar to those available 
to consumers of other services, especially transportation services such 
as train, airlines, and other commercial carriers.
                                 ______
                                 
Appendix 1: Summary of Cruise Ship Incidents, January 2009-June 2013 
        \1\
---------------------------------------------------------------------------
    \1\ Data based on media and other reports as recorded at Cruise 
Junkie dot Com

Cancelations, Itinerary Changes, Missed Port Calls (N=271) *
Cruise with Media-Reported Canceled Port Calls                                                            104
Cruise with Media-Reported Itinerary Changes                                                               69
Cruise with Media-Reported Canceled Cruises                                                                25
Cruise with Media-Reported Delayed Embarkation and/or debarkation:                                         73
 
*Does not include changes caused by a hurricane or tropical storm


Mechanical Problems (N=353)
Aground                                                                                                    19
Collision                                                                                                  37
Collision with Pier                                                                                        15
Damage in Storm                                                                                             5
Detained for Safety                                                                                         5
Electrical Problems                                                                                         8
Engine Problems                                                                                            26
Fire (6 evacuation; 4 power loss)                                                                          61
Generator Problems                                                                                          5
Lifeboat Failure                                                                                            7
Maneuverability/Steering Problems                                                                          15
Material Failure                                                                                           53
Power Loss (7 adrift, 1 towed)                                                                             21
Propulsion Problems (7 adrift)                                                                             62
Severe List                                                                                                11
Technical Problems                                                                                          8
 
Deaths on Shore (N=37)
Dive/Scuba (1 on Shore Excursion)                                                                           4
Jet Ski                                                                                                     1
Parasailing (3 on Shore Excursion)                                                                          3
Snorkeling (3 on Shore Excursion)                                                                           8
Swimming (7 on Shore Excursion)                                                                            13
Other                                                                                                       8
 
Miscellaneous (N=269)
Accidents Ashore (8 on Shore Excursion)                                                                    10
Bomb Threats:                                                                                              14
Child Pornography Seized                                                                                    8
Illness Outbreaks                                                                                         189
Injuries on Shorex (n=52)                                                                                   5
Passengers expelled/evicted                                                                                11
Robberies Ashore (5 on Shore Excursion)                                                                    13
Onboard Falls (3 deaths)                                                                                    9
Thefts > $10K                                                                                              10
 

                                 ______
                                 
Appendix 2: Ships with Two or More Mechanical Incidents, January 2009-
        June 2013

A. Carnival Corporation (7 companies, 45 ships, 145 incidents)
 
Carnival Cruise Lines (19 ships, 74 incidents)
Carnival Destiny (n=6)
11/18/2009                    Primary motor unit 1 tripped due to malfunction
1/26/2010                     Propulsion problems; itinerary changed, cruises canceled
10/22/2010                    Propulsion problems; primary motor two faulty
9/10/2011                     Lifeboat damaged--removed for repair
1/7/2012                      Material failure
1/24/2013                     Problem with stern thrusters; itinerary changed
 
Carnival Dream (n=3)
7/6/2011                      Propulsion problems; change from Western Caribbean to Eastern Caribbean itinerary
10/7/2012                     Fire
3/14/2013                     Malfunction of backup emergency diesel generator, power outages and plumbing
                               issues; cruise canceled in St. Maarten
 
Ecstasy (n=5)
1/19/2009                     Propulsion problems; operating on half power
2/13/2009                     Fire
1/28/2010                     Collision with gangway
4/22/2010                     Severe list to avoid buoy; damage and 60 injuries
4/18/2013                     Power failure; some onboard attribute it to a fire
 
Elation (n=3)
10/20/2009                    Propulsion problems as a result of failure with electronic control system
1/13/2011                     Technical problem with propulsion system; port call skipped
3/14/2013                     Steering problems; tugboat escort required
 
Fantasy (n=4)
1/29/2009                     Equipment failure in steering system
1/5/2010                      Lifeboat failure/material failure
7/27/2011                     Collision with Imagination; minor damage
10/17/2011                    Vessel maneuverability problem; arrives in port late
 
Fascination (n=3)
7/1/2010                      Loss of power for several hours, adrift; late arrival
2/27/2011                     Material failure
1/19/2013                     Late return from dry dock; 7 hour delay
 
Carnival Freedom (n=3)
2/6/2010                      Fire in crew cabin
6/27/2011                     Blackout due to generator failure; fuel oil filters cleaned, fuel oil purifiers
                               started and chemical treatment added to the both service tanks.
8/21/2011                     Material failure
 
Carnival Glory (n=3)
5/15/2011                     Vessel maneuverability
11/14/2012                    Material failure
12/2/2012                     Propulsion problems
 
Holiday (transferred to Iberocruises in 2010) (n=4)
1/20/2009                     Material failure
2/6/2009                      Technical problem causing reduced speeds; dropped port call on this and next
                               cruise
3/9/2009                      Material failure
4/11/2009                     Material failure
 
Imagination (n=3)
7/13/2010                     Fire in the elevator machinery room leaving two passenger elevators and one crew
                               elevator inoperable
7/27/2011                     Collision with Fantasy
9/28/2011                     Toilets in front and midship inoperable for day
 
Carnival Legend (n=10)
3/21/2009                     Smoke and fire system on Deck B-A-1 in fault and not operating properly
6/21/2009                     Unpalatable water in cabins
9/30/2009                     Collision with Enchantment of the Seas; minor damage
2/7/2010                      Maneuverability problems given malfunctioning azipod
2/14/2010                     Mechanical problems cause seven-hour delay leaving Tampa, itinerary changed;
                               vessel pitched when leaving Roatan, maybe caused by touching channel wall
7/11/2010                     Loss of propulsion on port azipod while entering port; faulty circuit breaker
                               tripped
1/17/2012                     Material failure
1/29/2012                     Technical problem with starboard azipod causes late arrival (5 hours) and delayed
                               embarkation (2 hours)
3/14/2013                     Disabled and stuck in Costa Maya; a day later underway with reduced speed and
                               changed itinerary
3/16/2013                     Propulsion problems; changed itinerary
 
Carnival Liberty (n=4)
4/26/2010                     Problems with palatable water in cabin
11/5/2010                     Two diesel generators shutdown because of malfunction
1/15/2012                     Technical problem, severe list
11/25/2012                    Loss of electrical power
 
Carnival Miracle (n=3)
1/10/2010                     Lifeboat material failure
1/28/2010                     Collision with pier at Port Zante (St. Kitts); stay overnight for repairs and
                               arrive late for disembarkation
1/18/2011                     Lifeboat material failure
 
Carnival Paradise (n=2)
8/31/2012                     Material failure
10/1/2012                     Partial loss of propulsion; power loss
 
Carnival Pride (n=2)
5/16/2009                     Fire in battery room
3/31/2011                     Blown from mooring at Port Canaveral; delayed departure
 
Sensation (n=2)
2/9/2012                      Burst pipe floods 10-20 cabins; departure delayed 4-5 hours
5/22/2012                     Fire
 
Carnival Splendor (n=7)
11/8/2009                     Delay in Long Beach (7 hours) to repair fire door
11/25/2009                    Collision with Radiance of the Seas in Puerto Vallarta
12/17/2009                    Collision with pier in Puerto Vallarta, stayed until 3:30PM next day for repairs;
                               next port call canceled
2/18/2010                     Sharp turn (radar missed some small yachts in path) causes flooding onboard
11/8/2010                     Fire lasting several hours knocks out all power, ship towed back to San Diego;
                               this and next 8-10 cruise canceled
1/6/2013                      Itinerary changed to permit two days in Puerto Valllarta for repair of damage to
                               propulsion system
1/13/2013                     Cruise delayed one day given repair of propulsion system; itinerary changed
 
Carnival Triumph (n=4)
3/14/2010                     Vessel maneuverability
11/18/2010                    Oil leak from shaft seal of forward bow thruster; disabled until repairs made
1/27/2013                     Technical problem with propulsion system affecting cruising speed; 6 hour delay in
                               return to port
2/10/2013                     Disabling fire, adrift for days with no power/electricity, towed to port; cruise
                               canceled
 
Carnival Victory (n=2)
1/17/2010                     Failure of UPS battery charger
1/20/2013                     Propulsion problem; leaves port almost 24 hours late, itinerary change
 
Costa Cruises (1 ship, 2 incidents)
Costa Europa (n=2)
3/5/2009                      Propulsion problems lead to passenger revolt; ports missed
2/26/2010                     Collision with pier in Sharm-el-Sheikh killing three crew and injuring four
                               passengers; cruise canceled
 
Cunard Line (1 ship, 6 incidents)
Queen Mary 2 (n=6)
7/22/2009                     Broke from mooring lines; damage to stern, four hour delayed departure
9/23/2010                     Loss of electric and all power for an hour after explosion in electric panel
10/5/2011                     Fire causes power loss in major storm, damage onboard; arrive in NYC 2 hours late
10/17/2011                    Went ``dead in the water'' twice during transatlantic cruise
2/4/2012                      Total power failure, ``dead in the water''
10/23/2012                    Material failure
 
Holland America Line (7 ships, 21 incidents)
Maasdam (n=4)
3/17/2009                     Fire in crew galley
5/22/2009                     Severe list caused by pilot error
8/8/2012                      Sewage and refuse from ship washes up on shore at Nahant, MA
6/13/2013                     Port forward propulsion system malfunctioning; 2.5 hour delayed departure and
                               sailing at reduced speed
 
Prinsendam (n=2)
9/11/2010                     Major damage from storm--50 windows blown out (with flooding) and dent in prow of
                               ship
12/17/2010                    Lifeboat failure
 
Ryndam (n=2)
11/18/2012                    Material failure
6/8/2013                      Fire--40 minute wait for all clear after initial alarm
 
Statendam (n=2)
12/21/2009                    Engine problems, changed itinerary
9/22/2012                     Fuel pump explosion causes two hour power outage
 
Westerdam (n=2)
5/11/2011                     Collision with ice; damage 15 feet below water line
10/28/2011                    Fire
 
Zaandam (n=6)
1/13/2009                     Alternator of #5 generator exploded causing switchboard to ground out; emergency
                               generator started 43 second later
7/13/2010                     Fire
7/28/2010                     Loss of electrical power
8/11/2010                     Material failure
6/7/2011                      Material failure
10/19/2012                    Mechanical problems and/or flooding onboard
 
Zuiderdam (n=3)
7/8/2010                      Material failure
2/9/2012                      Fire in engine room
9/25/2012                     Material failure
 
P&O Cruises (4 ships, 12 incidents)
Artemis (n=2)
4/7/2010                      Engine problems, skipped St. Barts
5/8/2010                      Engine problems, itinerary changed from 10 ports to 4 ports (Pax advised when
                               boarding that there were engine problems and 1 port would be skipped)
 
Aurora (n=4)
3/3/2009                      Propulsion problems--Broke down 4 hours after leaving Sydney. Stuck in Auckland
                               (with passengers aboard) for five days for repairs. Itinerary changed
9/18/2009                     Mechanical problems and loss of bow thruster; changed itinerary
9/30/2011                     Electrical problems delay for three hours departure from Portland, ME
2/8/2013                      Fault with port propeller shaft. Delayed in Auckland, dropped two port calls
 
Oriana (n=4)
8/5/2010                      Delayed four hours in Dubrovnik; computers crash causing loss of steering system
8/7/2010                      Fire on tender
11/30/2010                    Engine breakdowns; missed port call
6/2/2011                      Collision with pier
 
Ventura (n=2)
10/18/2012                    60 mm crack on full width of deck 14; passengers advised to not use balconies
3/17/2013                     Propulsion problems cause missed ports and itinerary changes
 
P&O Australia (3 ships, 10 incidents)
Pacific Dawn (n=3)
1/8/2009                      Engine problems; arrival in Sydney 10 hours late
2/15/2010                     Propulsion and maintenance problems cause 18 hour delayed departure; itinerary
                               changed
4/10/2010                     Loss of power and propulsion; near miss collision with bridge
 
Pacific Pearl (n=2)
2/2/2011                      Three-meter-across chandelier falls three storeys into cafe area in atrium
2/3/2011                      Lack of running water and working toilets
 
Pacific Sun (Left fleet in 2012) (n=5)
11/10/2009                    Cruise canceled to permit repair of propulsion system
3/13/2010                     Mechanical problems cause canceled port calls at Suva and Denarau
4/21/2010                     Engine problems; cruise canceled
11/2/2010                     Propulsion problem; 10 hour delayed arrival at Melbourne
2/28/2011                     Engine problems, 24 hour delayed arrival at Newcastle; several ports canceled
 
Princess Cruises (10 ships, 34 incidents)
Caribbean Princess (n=9)
10/16/2009                    Severe list, storm damage
4/5/2010                      Severe list, steering malfunction
5/9/2010                      Collision with gangway; departure delayed several hours
8/8/2010                      Material failure
2/4/2012                      Engine problems--delays
2/25/2012                     Material failure
3/12/2012                     Engine problems--next two cruises canceled
6/8/21012                     Technical fault; remain in port overnight, itinerary changed
12/15/2012                    Loss of electrical power
 
Coral Princess (n=3)
3/19/2009                     Propulsion problems; missed port
8/19/2011                     Turbine oil system failure; switch to diesel electric power
5/2/2013                      Fire
 
Crown Princess (n=3)
6/20/2009                     Fire in passenger cabin
7/17/2012                     Electrical fire in passenger cabin
4/13/2013                     Toilets in 410 cabins not operational
 
Dawn Princess (n=3)
6/15/2010                     Propulsion breakdown, adrift for 2.25 hours; restored and sailing at reduced speed
7/16/2010                     Engine problems; missed port call
10/27/2011                    Mechanical problem; missed port call
 
Emerald Princess (n=2)
7/26/2010                     Electrical failure leads to propulsion problems; no A/C; repaired in 6 hours
5/17/2011                     Collision with fuel barge damages several lifeboats
 
Golden Princess (n=3)
1/22/2009                     Near-collision with fishing vessel
3/22/2009                     Fire in engine room
3/28/2012                     Vessel maneuverability
 
Royal Princess (n=2)
6/18/2009                     Fire in engine room as leaving Port Said, passengers called to muster stations;
                               cruise and next cruise canceled
4/9/2010                      Break in fire hose fitting causes extensive damage to restaurants; water leaked
                               all the way down to crew decks
 
Sapphire Princess (n=4)
7/12/2010                     Severe list to avoid collision with whale
2/4/2011                      Loss of electrical power
2/26/2011                     Material failure
9/7/2011                      2 pleasure boats swamped and float dock damaged by ship's wake when maneuvering in
                               Ketchikan Harbour
 
Star Princess (n=3)
3/21/2011                     Material failure
7/1/2012                      Material failure
8/2/2012                      Material failure
 
Sun Princess (n=2)
7/25/2012                     Material failure
8/27/2012                     Transformer blown leading to loss of power adrift for 3.5 hours
 
B. Royal Caribbean Cruises Limited
 
Celebrity Cruises (4 ships, 13 incidents)
Century (n=4)
10/15/2010                    Rudder damaged, stranded in Villefranche-sur-Mer; cruise canceled
10/22/2011                    Vessel maneuverability problems
3/25/2012                     Engine problems, late departure and late arrival
10/28/2012                    Fire
 
Infinity (n=3)
6/22/2010                     Material failure
6/26/2010                     5-6 hour delayed departure because of engine problems, canceled port call; five
                               days later an electrical fire causes power loss for several hours
8/23/2012                     Material failure
 
Millennium (n=2)
3/9/2009                      Cruise canceled to allow repair of problem with bearing on propeller shaft
4/9/2013                      Electrical problem adversely affects propulsion, dead in water for 3 hours; port
                               call at Hanoi canceled
 
Summit (n=4)
1/10/2009                     Electrical problem causes cruise to be shortened by one day and itinerary changed
2/27/2010                     Material failure
4/9/2011                      Loss of electrical power
10/5/2012                     Tender runs aground with 93 passengers and 2 crew, sustains major damage
 
Pullmantur (1 ship, 2 incidents)
Zenith (n=2)
8/18/2009                     Fire while docked in Stockholm, evacuated; departed one day late, itinerary
                               changes
6/25/2013                     Fire in engine room disables ship; towed to port
 
Royal Caribbean International (10 ships, 32 incidents)
Allure of the Seas (n=2)
1/29/2012                     Fire in incinerator area
4/12/2012                     Fire in engine room, section 6 of ship evacuated; drift 1-2 hours and then
                               operated on 1 engine
 
Brilliance of the Seas (n=2)
10/13/2009                    Windows broken out in storm and 35 passenger cabins flooded, delayed departure
                               from Barcelona
12/12/2010                    Severe list while entering Alexandria, Egypt; 30 passengers injured
 
Enchantment of the Seas (n=5)
7/21/2009                     Material failure
3/23/2010                     Load sharing problem shuts down engine 4
7/27/2011                     Steering gear pump failure on pump #4
2/20/2012                     Propulsion problems--one propeller broken; delayed departure by 24 hours, changed
                               itinerary, sailing at half speed
3/10/2012                     Propulsion problems; spent 27 hours in Port Canaveral to accommodate repairs,
                               itinerary changed
 
Explorer of the Seas (n=7)
2/5/2009                      Propeller damaged causes change in itinerary on this cruise and next
4/14/2009                     Changes in itinerary for several upcoming cruises; too late to cancel, no
                               explanation
9/30/2009                     Collision with Carnival Legend; minor damage
1/13/2010                     Delayed departure because delayed arrival from drydock
3/14/2010                     Severe list due to human error; injuries and considerable damage
9/14/2012                     Collision with Norwegian Star when mooring line breaks; minimal damage
10/29/2012                    Sailed into Hurricane Sandy
 
Grandeur of the Seas (n=3)
2/26/2009                     Loss of two engines; material failure
7/30/2009                     Loss of power due to malfunctioning power inverter; loss of electrical power
5/27/2013                     Fire; cruise canceled
 
Jewel of the Seas (n=3)
8/3/2010                      One hydraulic motor not working forcing reduced speeds; itinerary changes
12/7/2010                     Collision with 500 meter long 2 foot wide flexible plastic pipe, becoming wrapped
                               around front of ship
9/6/2012                      4.5 hour delay leaving Cape Liberty; no reason given
 
Legend of the Seas (n=2)
2/9/2009                      Pulled into Key West for unscheduled stop because of faulty azipod and leaking oil
                               (needed boom around ship); repaired by day's end
1/30/2012                     Fire in bar (Cafe Promenade)
 
Majesty of the Sea (n=4)
8/13/2010                     Lifeboat malfunction when lowered; damaged and release of oil
9/30/2011                     Vessel maneuverability
11/2/2011                     Material failure
11/7/2011                     Material failure
 
Oasis of the Seas (n=2)
5/7/2010                      Emergency generator damaged; given three months to repair
11/16/2012                    Vessel maneuverability
 
Radiance of the Seas (n=2)
11/25/2009                    Collision with Carnival Splendor in Puerto Vallarta; minor damage
1/27/2011                     Ship is operating under USCG COTP due to one of two main propulsion azipods not
                               working; repairs anticipated in fall 2011
 
C. Prestige Cruise Holdings (3 companies, 5 ships, 14 incidents)
 
Norwegian Cruise Line (2 ships, 4 incidents)
Norwegian Dawn (n=2)
11/27/2009                    Loss of power for hours (no A/C), ship disembarks in San Juan instead of Miami;
                               this and next cruise canceled
8/27/2010                     Leaves Bermuda 11 hours early because engine problems cause slower speeds; want to
                               arrive in NYC on time
 
Norwegian Star (n=2)
4/28/2012                     Collision while docking
9/14/2012                     Collision with Explorer of the Seas when mooring line breaks; minimal damage
 
Oceania Cruise (1 ship, 3 incidents)
Regatta (n=3)
6/20/2011                     Material failure
7/24/2011                     Material failure
10/19/2012                    Electrical outage; delayed return to port (NYC) by several hours
 
Regent Seven Seas Cruises (2 ships, 7 incidents)
Seven Seas Navigator (n=2)
10/25/2011                    Material failure; one day delayed departure from Charleston, itinerary change
11/9/2011                     Material failure
 
Seven Seas Voyager (n=5)
3/22/2009                     Propulsion problems (fishing net caught in azipod), reduced speed; many ports
                               canceled
4/1/2009                      Passengers told upon embarkation that most port calls canceled from Dubai to Rome
                               because of propulsion problems; following two cruises canceled
12/14/2009                    One azipod fails so sailing at reduced speed; port call canceled
10/4/2010                     Podded propulsion system fails; passengers flown home from Athens, 2 cruises
                               canceled
3/17/2013                     Propulsion problem; skipped ports and itinerary changes
 
D. Independent Cruise Lines
 
Avalon Waterways (1 ship, 3 incidents)
Avalon Tranquility (n=3)
7/23/2009                     Collision with the tall ship Schoenbrunn, a 1912-built paddlesteamer
9/5/2011                      Collision with cargo ship--holed, cruise ended
12/13/2011                    Fire in generator room
 
Celebration Cruises (1 ship, 2 incidents)
Bahamas Celebration (n=2)
2/1/2012                      Maneuverability problems
3/30/2012                     Maneuverability problems
 
Fred Olsen Cruises (1 ship, 2 incidents)
Black Watch (n=2)
10/21/2009                    Severe list--navigational error while entering La Coruna Harbour (Spain)
8/12/2010                     Collision with iceberg--damage superficial
 
Mediterranean Shipping Company (MSC) (2 ships, 5 incidents)
Opera (n=3)
3/30/2011                     Collision with pier (twice), damage to several cabins; delayed 10 hours for
                               repairs
5/15/2011                     Failure of an electric panel causes power loss for 8.5 hours; towed to port and
                               cruise canceled
5/27/2011                     Detained by UK authorities for noncompliance with safety regulations
 
Poesia (n=2)
1/7/2012                      Ran aground in Bahamas; waited for high tide to refloat
1/10/2012                     Collision with pier while leaving Jamaican port
 
Saga Cruises (1 ship, 3 incidents)
Saga Ruby (n=3)
10/12/2009                    Collision with pier, emergency repairs to bow; itinerary changes
11/11/2012                    Engine problems; remainder of cruise canceled
1/7/2013                      Mechanical problems with crankshaft; current world cruise delayed ten days
 
Silversea Cruises (1 ship, 2 incidents)
Silver Shadow (n=2)
3/19/12                       Collision with container ship off Vietnam; major damage to container ship, minor
                               damage to cruise ship
9/9/2012                      Material failure
 
Thomson Cruises (1 ship, 3 incidents)
Thomson Dream (n=3)
7/25/2010                     Plumbing/sewage problems
1/17/2011                     Starboard engine fire
5/20/2012                     Severe list following two maneuvers caused by ``slip of the hand''; major damage
 
Travel Dynamics International (1 ship, 3 incidents)
Clelia II (n=3)
12/26/2009                    Propeller damaged, loss of power; escorted to port, next cruise canceled
9/1/2010                      Loss of electrical power (human error)
12/9/2010                     Wave in storm breaks bridge window; damage to electronics, affecting engine
                               performance
 
Voyages of Discovery/Coastal and Maritime Voyages (1 ship, 4 incidents)
Discovery (n=4)
10/15/2009                    Engine problems; port missed
12/05/2009                    Delayed return from drydock; itinerary changed
3/4/2013                      Ship detained in UK for safety issues; cruise canceled
5/7/2013                      Deep cleaning after illness outbreak delays departure; itinerary change
 

                                 ______
                                 
Appendix 3: Summary of Persons Overboard, January 1995-June 2013 
        (n=210)<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ The data contained in this table is based on available 
information. Details were not consistently available for each incident. 
See www.cruisejunkie.com/Overboard.html for details.


A. Gender
      Male                                       73.8%
      Female                                     26.2%
 


B. Age by Gender

 
                Total                                 Male                                 Female
 
       Mean              Range               Mean              Range               Mean              Range
 
         39.82              14-90              38.85              14-90              42.11              15-79
 



C. Vessel
      Cruise                                     91.4%
      Ferry                                       8.6%
 
D. Passenger vs Crew
      Passenger                                    75%
      Crew                                         25%
 
E. Rescued                                       16.7%
 
F. Alcohol                                        6.2%
 
G. Suicide                                       11.0%
 
H. Murder                                         3.3%
 
I. Fall                                           9.5%
 
J. Casino loss                                    2.4%
 
K. Fight                                          7.1%
 


                                 ______
                                 
Appendix 4: Drug Busts, January 2009-June 2013 \1\
---------------------------------------------------------------------------
    \1\ Data based on media and other reports as recorded at Cruise 
Junkie dot Com

A. Gender
      Male                                      83.33%
      Female                                    16.66%
 

    B. Age by Gender

 
                Total                                 Male                                 Female
 
       Mean              Range               Mean              Range               Mean              Range
 
          38.5              19-74               38.6              19-74              38.25              20-54
 



C. Drug Busts by Country (N=53)
Bermuda                                       27
U.S.                                          8 (27 persons)
Belize:                                       6
UK                                            6
St. Kitts-Nevis                               2
Jamaica                                       1
Cayman Islands                                1
Australia                                     1
Spain                                         1 (9 persons)
 
D. Drug Busts by U.S. State/City
Florida                                       3 (17 persons)
Baltimore                                     2
Alaska                                        1
U.S. Virgin Islands                           1
Puerto Rico                                   1
 
E. Ships with 2 or More Drug Busts
Norwegian Dawn                                9
Explorer of the Seas                          6
Black Watch                                   3
Enchantment of the Seas                       3
Summit                                        3
Allure of the Seas                            2
Bahamas Celebration                           2
Grandeur of the Seas                          2
Grand Princess                                2
Norwegian Gem                                 2
Poesia                                        2
 

                                 ______
                                 
Appendix 5: Klein, R.A. and J. Poulston. 2011. ``Sex at Sea: Sexual 
        Crimes Aboard Cruise Ships,'' Journal of Tourism in Marine 
        Environments, 7:2, pp. 67-80.
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
               
             
    The Chairman. Thank you very much, sir.
    And now we will go to The Honorable Mark Rosenker, who's 
the former Chairman of the NTSB--that is, the National 
Transportation Safety Board--and member of the Cruise Line 
International Association's ``Panel of Experts.''
    Please.

  STATEMENT OF HON. MARK ROSENKER, FORMER CHAIRMAN, NATIONAL 
   TRANSPORTATION SAFETY BOARD AND MEMBER OF THE CRUISE LINE 
        INTERNATIONAL ASSOCIATION'S ``PANEL OF EXPERTS''

    Mr. Rosenker. Thank you--having trouble getting this--there 
it goes.
    The Chairman. OK.
    Mr. Rosenker. Thank you, Chairman Rockefeller, Ranking 
Member Thune, distinguished members of the Committee. Thank you 
very much for inviting me to testify today.
    Until August of 2009, I served as the 11th Chairman of the 
NTSB. I'm also a retired Major General in the United States Air 
Force Reserve. Prior to being appointed and confirmed to the 
NTSB, I served as Deputy Assistant to the President and 
Director of the White House Military Office for President 
George W. Bush, with responsibility for all DOD support to the 
President and Vice President. As part of my responsibilities, I 
was traveling with the President on September 11, 2001.
    I welcome the opportunity to once again testify before this 
important committee and applaud its focus, not only on cruise 
ship safety, but safety in all modes of transportation in our 
Nation.
    I'm testifying today in my capacity as a member of the 
Independent Panel of Experts established by the Cruise Lines 
International Association. The panel was put in place as part 
of the Global Cruise Industry Operational Safety Review, 
launched in January 2012, following the Concordia accident. The 
review was focused on the critical human factors and 
operational aspects of maritime safety, and was introduced to 
identify best practices and develop new policies that could be 
implemented to rapidly further enhance crew passenger and crew 
safety. The review was led by senior industry executives 
responsible for maritime safety.
    Ultimately, the review resulted in the industry's adoption 
of 10 policies that were submitted to, and accepted by, the 
IMO. The IMO is an independent international maritime 
regulatory body, with 170 member states, including the United 
States, which mandates global standards for the safety and 
operation of all ships, including cruise ships.
    The Independent Panel of Experts was formally appointed in 
April 2012 to provide an impartial assessment of the review's 
recommendations. I took this panel's efforts extremely 
seriously and approached it with the same unwavering commitment 
that I had as NTSB Chair, to raise the bar of safety even 
higher on this already safe industry.
    The Chairman. The Committee was appointed by whom?
    Mr. Rosenker. CLIA. Oh, which committee are you talking 
about, sir?
    The Chairman. The one you--that you----
    Mr. Rosenker. CLIA. CLIA created this Independent Panel of 
Experts.
    The Chairman. That's the association, then.
    Mr. Rosenker. Yes, sir.
    Each member of the panel has extensive experience in the 
maritime regulatory and/or accident investigation fields. The 
other members are Stephen Mayer, a retired Rear Admiral in the 
Royal Navy and led the U.K. Marine Accident Investigation 
Branch, the equivalent of their NTSB for marine; Willem de 
Ruiter--he led the European Maritime Safety Agency; and Dr. 
Jack Spencer, who led the Office of Maritime Safety at the NTSB 
when I was there and is also a retired Coast Guard Officer.
    The panel deeply examines the issues and policies 
considered by the industry. We are a deliberative body that is 
independent of CLIA's technical and regulatory advisory 
committees. Our advice, counsel, and recommendations cover a 
wide range of topics and are delivered to CLIA's board of 
directors, executive committee, and other advisory committees, 
as appropriate.
    We find our views to be well received, and candor is a 
hallmark of our confidential deliberations. At times, the 
deliberations among the panel members, themselves, have been 
very spirited. This has further assisted CLIA in highlighting 
for its members the various thoughtful perspectives of complex 
safety issues and the related policy implications.
    Every aspect of the cruise industry is heavily regulated 
and monitored by the United States, EU, and international 
maritime law to protect the safety of passengers and crew 
members. The panel has helped to strengthen and improve the 
wide-ranging policies that were put forth by the industry as 
part of the review. But, we also provided many new and 
innovative ideas and recommendations that were incorporated 
into the final policies as well as other initiatives.
    When I was Chairman of the NTSB, I closely monitored trends 
in safety across every sector of transportation. I applied my 
experiences and knowledge of transportation safety to the panel 
as we evaluated and suggested policies and best-practice 
improvements. I can say, unequivocally, that the cruise 
industry has been very receptive to our input. I've been 
impressed with the level of collaboration of this industry with 
its regulators and other stakeholders. Panel members have been 
extremely impressed with the speed with which the industry 
adopted the 10 policies developed by review, all of which 
exceed current international regulatory requirements.
    As an avid cruiser, I also know that cruise vacations are 
not only quite enjoyable, but, most importantly, extremely 
safe. The panel's work continues as we are advising and 
assisting the cruise industry in providing ideas, guidance, and 
impartial analysis as it reviews and seeks improvements to 
shipboard operations and safety.
    Thank you again, sir, and I look forward to the questions.
    [The prepared statement of Mr. Rosenker follows:]

  Prepared Statement of Hon. Mark Rosenker, Former Chairman, National 
  Transportation Safety Board; and Member, Cruise Line International 
                   Association's ``Panel of Experts''
    Chairman Rockefeller, Ranking Member Thune and distinguished 
members of the Committee, thank you for inviting me to testify today. 
My name is Mark Rosenker and I am a former Chairman of the United 
States National Transportation Safety Board and a retired United States 
Air Force Reserve Major General. I also served as Deputy Assistant to 
President George W. Bush and Director of the White House Military 
Office. I welcome the opportunity to testify before this committee, 
which served as my authorizing committee during my tenure as Chairman 
of the National Transportation Safety Board.
    I am testifying today in my capacity as a member of the independent 
Panel of Experts established by the Cruise Lines International 
Association, or CLIA. The independent Panel of Experts was put in place 
as part of the Global Cruise Industry Operational Safety Review, which 
was launched in January 2012 by the industry in the wake of the 
Concordia incident. The Review was introduced as part of the cruise 
line industry's efforts to execute on their stated commitment to 
continuous improvement and innovation in shipboard operations and 
safety. It focused on the critical human factors and operational 
aspects of maritime safety.
    The Review was introduced to identify best practices and develop 
new policies that could be implemented rapidly on an industry-wide 
basis to further enhance the safety of passengers and crew. It took the 
lead in identifying additional best practices for industry-wide 
implementation and ultimately, formal submission to the International 
Maritime Organization, as appropriate, that could strengthen the cruise 
industry's safety record. [See appendix] The International Maritime 
Organization is an international maritime regulatory body with 170 
Member States including the United States, which mandates global 
standards for the safety and operation of cruise ships. The Review was 
guided by a task force consisting of senior industry executives from 
CLIA member lines with responsibility for maritime safety. To commence 
the Review, CLIA's member lines took a detailed look at existing safety 
procedures and practices. Senior cruise line executives undertook 
internal reviews of their own operational safety practices and 
procedures concerning issues of navigation, evacuation, emergency 
training, and related practices and procedures.
    The independent Panel of Experts was formally appointed in April 
2012 to provide an impartial assessment of the recommendations 
developed by the Review. Collectively, those of us on the Panel of 
Experts bring well over a century of experience in transportation and 
safety to the table. Our backgrounds include senior positions with a 
diverse mix of organizations. Each Panel member has deep experience in 
the maritime, regulatory and accident investigation fields and the 
Panel is balanced geographically with equal representation from the 
United States and Europe. The three other members of the panel are Rear 
Admiral (Ret.) Stephen Meyer, Dr. Jack Spencer, and Willem de Ruiter.
    Stephen Meyer is a retired Rear Admiral in the Royal Navy. He is a 
former commander of a number of Royal Navy Ships and was the former 
head of the United Kingdom Marine Accident Investigation Branch.
    Dr. Jack Spencer is the former Director of the Office of Marine 
Safety at the National Transportation Safety Board. Dr. Spencer has 
more than 40 years of experience with the U.S. Coast Guard, American 
Bureau of Shipping, and National Transportation Safety Board. For 30 
years, he has been on United States delegations to the International 
Maritime Organization.
    Willem de Ruiter is former head of the European Maritime Safety 
Agency (EMSA). In 2003, Mr. de Ruiter was appointed as the first 
executive director of EMSA and charged with building up the 
organization. He joined EMSA after a distinguished career in the Dutch 
government and at the European Commission.
    The independent Panel of Experts was formally appointed in April 
2012 to provide an impartial assessment of the Review's 
recommendations. I took this panel extremely seriously and approached 
it with the same unwavering commitment that I had as NTSB Chair to 
raise the bar of safety even higher for this safe sector.
    The Panel takes a very active view of the issues being discussed 
and policies being developed by CLIA that relate to all aspects of 
maritime safety. We are a deliberative body that is independent of 
CLIA's technical and regulatory advisory committees. Our advice, 
counsel and recommendations have covered a wide range of topics and are 
delivered to CLIA's Board of Directors, Executive Committee, and other 
advisory committees as appropriate. We are all experienced 
professionals and we find our views to be well-received and that candor 
is a hallmark of our confidential deliberations. We are a group of 
highly critical and deeply committed experts and we are never bashful 
about sharing what we are thinking either as individuals or as a Panel. 
At times our deliberations between the Panel members have been very 
spirited. This has further assisted CLIA in highlighting for their 
members the various thoughtful perspectives of complex safety issues 
and the related policy implications.
    As someone with four decades of experience in the transportation 
and technology industries, I've always known that the cruise industry 
is governed by an extremely extensive framework of safety regulations. 
Every aspect of the cruise industry is heavily regulated and monitored 
under United States, European Union, and international maritime law to 
protect the safety of passengers and crewmembers. Regulations start 
with the design and construction of the ship and extend to the 
operation of the vessel, the emergency equipment on board, and 
scenarios for emergency situations, including the evacuation of a ship. 
Cruise ships are also subject to multiple layers of enforcement at the 
international, flag State and port State level.
    The Panel played an active role and provided many new and 
innovative ideas and recommendations that were incorporated into the 
final policies and other initiatives, in addition to providing 
independent, expert analysis of proposed policies. As the Panel gained 
more experience working together, our commitment to the process grew 
and the value of our role became even clearer over time, as our 
engagement in the issues and policy development began to produce 
tangible results. It is without question that we are working with a 
talented and deeply committed group of cruise industry professionals 
that share the Panel's values toward maritime safety. If I did not 
believe this to be the case, I would most certainly not be associated 
with these efforts, nor would any of my colleagues that serve on the 
Panel.
    During the course of the Review, my fellow panelists and I examined 
safety-related shipboard systems and observed safety drills aboard one 
of the world's largest cruise ships. We visited the state-of-the-art 
full bridge simulator at the Resolve Maritime Academy to see how 
technology can strengthen safety and supplement training on cruise 
ships. We held a session with officials at Airbus to draw from their 
efforts related to Crew Resource Management, Simulation Training, and 
Safety Culture. We met with leaders of the Review multiple times to 
review, analyze, and discuss recommended changes to cruise industry 
safety practices and offered our own ideas based on our individual and 
collective experiences.
    As a member of the Panel of Experts during last year's Review, my 
role was to provide an impartial assessment of the recommendations 
developed by the established Task Force of cruise line experts, before 
they were ultimately implemented and then submitted for formal 
consideration to the IMO. Additionally, as Panel members we shared 
numerous, wide-ranging recommendations and suggestions that were 
incorporated into the industry's policies, as well as into other 
important ongoing efforts that have not specifically resulted in 
published industry-wide policies.
    All ten policies that resulted from the Review were incorporated 
into IMO standards. Those ten policies, in the order in which they were 
introduced, are as follows:

    The Passenger Muster Policy requires musters for embarking 
passengers prior to departure from port and was launched with immediate 
effect on February 9, 2012. On occasions when guests arrive after the 
muster has been completed, the policy dictates that they are promptly 
provided with individual or group safety briefings. This practice 
exceeds existing legal requirements--which require that musters occur 
within 24 hours of passenger embarkation.
    Under the Passage Planning Policy, each passage plan is to be 
thoroughly briefed to all bridge team members who will be involved in 
execution of the plan well in advance of its implementation. The 
passage plan will be drafted by the designated officer and approved by 
the master. This policy was effective upon its announcement on April 
24, 2012.
    To minimize unnecessary disruptions and distractions on the bridge, 
the Bridge Access Policy requires bridge access be limited to those 
with operationally related functions during any period of restricted 
maneuvering or when increased vigilance is required such as arrival/
departure from port, heavy traffic, or poor visibility. Further, member 
lines are to take steps to prevent distractions to watchkeeping during 
these periods. This policy was effective upon its announcement on April 
24, 2012.
    The Excess Lifejackets Policy ensures that the number of 
lifejackets carried is far in excess of the number of persons actually 
onboard a ship. In addition to the statutory requirements of carriage 
of lifejackets for each person onboard and certain specified extras, 
the cruise industry adopted a policy of carrying additional adult 
lifejackets onboard each cruise ship in excess of current legal 
requirements. As a result, the number of additional adult lifejackets 
provided must not be less than the total number of persons berthed 
within the ship's most populated main vertical fire zone.
    All of the additional lifejackets addressed in this policy are to 
be stored in public spaces, at the muster stations, on deck or in 
lifeboats, and in such a manner as to be readily accessible to 
crewmembers for distribution as may be necessary in the event of an 
emergency. This policy was effective upon its announcement on April 24, 
2012.
    The Nationality of Passengers Policy was developed in response to 
the request of governments at the May 2012 meeting of the IMO Maritime 
Safety Committee meeting. This policy prescribes that the nationality 
of each passenger onboard is to be recorded, kept ashore and made 
readily available to search and rescue personnel as appropriate. This 
policy was effective upon its announcement on June 26, 2012.
    Under the Common Elements of Musters and Emergency Instructions 
Policy, member cruise lines have specified 12 common elements that are 
to be communicated to passengers in musters and emergency instructions. 
In addition to current legal requirements, this policy specifically 
requires that musters and emergency instructions are to include the 
following common elements:

   1.  When and how to don a lifejacket

   2.  Description of emergency signals and appropriate responses in 
        the event of an emergency

   3.  Location of lifejackets

   4.  Where to muster when the emergency signal is sounded

   5.  Method of accounting for passenger attendance at musters both 
        for training and in the event of an actual emergency

   6.  How information will be provided in an emergency

   7.  What to expect if the Master orders an evacuation of the ship

   8.  What additional safety information is available

   9.  Instructions on whether passengers should return to cabins prior 
        to mustering, including specifics regarding medications, 
        clothing, and lifejackets

  10.  Description of key safety systems and features

  11.  Emergency routing systems and recognizing emergency exits

  12.  Who to seek out for additional information

    This policy was effective upon its announcement on June 26, 2012.
    To facilitate training for lifeboat operations, the Lifeboat 
Loading for Training Purposes Policy requires that at least one 
lifeboat on each ship is to be filled with crewmembers equal in number 
to its certified number of occupants at least every six months. Under 
this policy, for safety considerations, the loading of lifeboats for 
training purposes is to be performed only while the boat is waterborne 
and the boat should be lowered and raised with only the lifeboat crew 
onboard essential for safe operation. All lifeboat crew and 
embarkation/boarding station crew are to be required to attend the 
lifeboat loading drill. If not participating inside the lifeboat, crew 
members are to observe the loading of the lifeboat to its certified 
number of people and its operation. Taking into account safety 
consideration, the policy also includes specific provisions for ships 
with crew sizes less than three hundred. This policy was effective upon 
its announcement on September 20, 2012.
    Operational safety can be enhanced by achieving substantive 
consistency in bridge operating procedures among commonly owned ships, 
for example by providing that bridge personnel who may rotate among 
such ships can be familiarized with a common set of procedures. The 
Harmonization of Bridge Procedures Policy requires that bridge 
operating procedures are to be harmonized as much as possible, both 
within individual companies and among brands within a commonly owned 
and operated fleet. Under this policy, each member operating multiple 
ships and each cruise line brand that is commonly owned and operated 
with another brand is to harmonize their respective procedures for 
bridge operations. This policy was announced on November 15, 2012 and 
its implementation has been completed.
    The Location of Lifejacket Stowage Policy complements the Excess 
Lifejackets policy under which oceangoing cruise ships carry additional 
adult lifejackets onboard far exceeding the number of persons actually 
onboard the ship. Under this new policy lifejackets equal to or greater 
than the number required by international regulations and the ship's 
flag State are to be stowed in close proximity to either muster 
stations or lifeboat embarkations points on newly-constructed ships. 
Consequently, lifejackets will be readily accessible by crewmembers for 
distribution to passengers in the event of an emergency. This policy 
further enhances shipboard safety as passengers will have even greater 
access to lifejackets in the event of an emergency. This policy was 
announced on November 15, 2012 and goes into effect with newly-
constructed cruise ships for which the building contract is placed on 
or after July 1, 2013.
    The Securing Heavy Objects policy requires that oceangoing members 
include procedures in their Safety Management Systems to secure heavy 
objects either permanently, when not in use, or during severe weather. 
This policy was announced on November 15, 2012 and its implementation 
is now complete.
    When I was Chairman of the National Transportation Safety Board, I 
closely monitored trends in safety across every sector of 
transportation. I've been able to apply my experiences and knowledge of 
transportation safety to the panel as we evaluated the suggested policy 
and best practice improvements. Each of the individual Panel members 
brings unique and in-depth strengths to the Panel as a whole; one of my 
greatest strengths is a broad view of transportation safety that 
includes but reaches far beyond the maritime sector.
    I can say unequivocally that the cruise industry has been very 
receptive to our input. I've also been impressed with the level of 
collaboration of this industry with its regulators and other key 
stakeholders to enhance safety practices and procedures. The cruise 
industry works continually with the IMO, other global maritime 
authorities, classification societies, and shipbuilders to implement 
and enhance what are already stringent safety standards. My involvement 
on this panel has given me confidence that the industry is engaged in 
proactive and responsible relationships with regulators across the 
globe.
    Along with the other members of the Panel of Experts, I've been 
extremely impressed with the speed with which the industry adopted the 
ten policies developed by the Review, all of which exceed current 
regulatory requirements. Further, I believe that CLIA's initiative to 
combine these ten policies related to the Review with an additional ten 
new and existing industry-wide policies is a very positive and 
aggressive step for a trade association to take. We specifically 
advised CLIA as they considered this initiative, including with 
relation to developing a comprehensive Compendium of Policies; their 
methods of CEO-level verification of policy implementation; and their 
use of Safety Management Systems to ensure the sixteen policies related 
to safety and environmental protection were subject to a regulatory 
internal and external auditing scheme. These are exactly the types of 
proactive and innovative actions that I, and my fellow Panel members, 
have encouraged this industry to take. As an avid cruiser, I also feel 
it is important that consumers understand that cruise vacations are 
extremely safe. This industry is highly regulated that is continuously 
subjected to tremendous oversight, wherever they operate.
    As members of the Panel of Experts, our work isn't done because the 
Operational Safety Review is completed. We continue to advise and 
assist the cruise industry in providing ideas, guidance and impartial 
analysis as it continues to review and seek improvements to shipboard 
operations and safety. We remain actively engaged by providing our 
advice through CLIA's Board of Directors, Executive Committee and other 
Advisory Committees. This has ensured that while the formal structure 
of the Operational Safety Review wound down, the cruise industry could 
still benefit from our active input and expertise.
    So thank you again for the opportunity to testify today and I look 
forward to your questions.
                                 ______
                                 
                       Appendix Table of Contents

MARITIME SAFETY COMMITTEE
90TH Session, Agenda Item 27
(MSC 90/27/1)

MARITIME SAFETY COMMITTEE
90TH Session, Agenda Item 27
(MSC 90/27/2)

MARITIME SAFETY COMMITTEE
90TH Session, Agenda Item 27
(MSC 90/27/11)

MARITIME SAFETY COMMITTEE
90TH Session, Agenda Item 27
(MSC 90/27/12)

MARITIME SAFETY COMMITTEE
90TH Session, Agenda Item 27
(MSC 91/7/1)

MARITIME SAFETY COMMITTEE
90TH Session, Agenda Item 27
(MSC 92/6/1)

MARITIME SAFETY COMMITTEE
90TH Session, Agenda Item 27
(MSC 92/6/9)

MARITIME SAFETY COMMITTEE
90TH Session, Agenda Item 27
(MSC 92/6/10)
                               __________

MARITIME SAFETY COMMITTEE                                                                            MSC/90/27/1
90TH Session                                                                                   February 29, 2012
Agenda Item 27                                                                                 Original: English
 

                         PASSENGER SHIP SAFETY
               Cruise Industry Operational Safety Review
       Submitted by Cruise Lines International Association (CLIA)


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                 SUMMARY
 
Executive summary:       This document describes the work undertaken
                          immediately following the Concordia incident,
                          under the leadership of the Cruise Lines
                          International Association, to address
                          operational safety. This work will continue
                          and recommendations will be provided to the
                          industry, IMO, and governments on an ongoing
                          basis.
 
Strategic direction:     5.1
 
High-level action:       5.1.1
 
Planned output:          None
 
Action to be taken:      Paragraph 16
 
Related document:        MSC 90/1/Rev.1; MSC 90/27
------------------------------------------------------------------------

Background
    1. In response to the Concordia incident, and as part of the 
industry's continuous efforts to review and improve safety measures, 
the Cruise Lines International Association (CLIA), speaking on behalf 
of the global cruise lines industry, announced the launch of a Cruise 
Industry Operational Safety Review on 27 January 2012, although it had 
begun prior to that date.
    2. As best practices are identified via this Review, they will be 
shared on an ongoing basis among CLIA members and any appropriate 
recommendations will be shared with the IMO.
Support for the Secretary-General's Efforts
    3. In expressing his condolences to the families of those lost in 
the Concordia incident, the Secretary-General stated his determination 
to work with others to ensure that such an accident could be prevented 
in the future and has pledged that the Organization will consider 
seriously the lessons to be learned and will take action, as 
appropriate, in the light of those findings.
    4. CLIA specifically supports the views expressed by the Secretary-
General in his 30 January 2012 press statement on this subject.
    5. The Secretary-General indicated in that statement that he had 
opened a channel of communication with passenger ship operators--
through the Cruise Lines International Association (CLIA)--and that he 
welcomed the response to his request to hold meetings with him to 
discuss the safety of cruise passenger ships in general and, in 
particular, any findings and recommendations from their own internal 
review of current--practices and safety procedures in the operation of 
passenger ships.
    6. This Review is intended to complement the efforts and goals of 
the Organization and to also be completely consistent with the 
Secretary-General's description of the on-going communications and 
operational safety initiatives of the global cruise industry.
Description of the Cruise Industry Operational Safety Review
    7. The Review will include a comprehensive assessment of the 
critical human factors and operational aspects of maritime safety.
    8. Key components of the Review include:

        .1 An internal review by CLIA members of their own operational 
        safety practices and procedures concerning issues of 
        navigation, evacuation, emergency training, and related 
        practices and procedures.

        .2 Consultation with independent external experts.

        .3 Identification and sharing of industry best practices and 
        policies, as well as possible recommendations to the IMO for 
        substantive regulatory changes to further improve the 
        industry's operational safety.

        .4 Collaboration with the IMO, governments and regulatory 
        bodies to implement any necessary regulatory changes.

    9. More specifically, an example of how one major cruise line 
intends to proceed with their internal review in three distinct phases 
might be useful for the Committee:

  <bullet> First Phase: Bridge operating procedures; Emergency response 
        procedures; and Abandon ship

  <bullet> Second Phase: Lessons learned; Communications shoreside and 
        with local authorities; Remote monitoring of voyages and status 
        of ship; and Newbuild implications

  <bullet> Third Phase: Emergency responses to fire, flooding, 
        collision, and grounding; Damage control equipment; Training; 
        Safety Management System; Audit procedures; and Corporate 
        emergency response

    10. Each cruise line will conduct their internal review in 
accordance with their own Safety Management System.
Outputs of the Cruise Industry Operational Safety Review
    11. The first output of the Review was the cruise industry's 
Passenger Muster Policy, announced on 9 February 2012 and made 
immediately effective, serves as an example of the type of best 
practices and procedures that may be expected as outputs from the 
Review.
    12. That Passenger Muster Policy is offered to this Committee for 
them to consider and reads as follows:

        ``Current legal requirements for conducting a muster of 
        passengers are found in the International Convention for the 
        Safety of Life at Sea (SOLAS) and mandate that a muster for 
        embarking passengers occur within 24 hours of their 
        embarkation. Notwithstanding the legal requirement, CLIA's 
        member cruise lines have identified a best practice effective 
        immediately that calls for conducting the mandatory muster for 
        embarking passengers prior to departure from port. On occasions 
        when guests arrive after the muster has been completed, CLIA's 
        policy is that they be promptly provided with individual or 
        group safety briefings that meet the requirements for musters 
        applicable under SOLAS. This practice exceeds existing legal 
        requirements and has been adopted by CLIA's membership as a 
        formal policy to help ensure that any mandatory musters or 
        briefings are conducted for the benefit of all newly embarked 
        passengers at the earliest practical opportunity.''

    13. Additional outputs from the Review will be provided as 
appropriate to the Organization via its relevant Committees and Sub-
committees.
Conclusion
    14. CLIA is fully committed to understanding the factors that 
contributed to the Concordia incident and is proactively responding to 
all maritime safety issues.
    15. The Cruise Industry Operational Safety Review will enable the 
industry to do so in a meaningful and expedited manner.
Action requested of the Committee
    16. The Committee is invited to consider the information provided 
in this submission and take action as appropriate.
                                 ______
                                 

MARITIME SAFETY COMMITTEE                                                                            MSC 90/27/2
90th session                                                                                       13 March 2012
Agenda item 27                                                                                 Original: ENGLISH
 

                         PASSENGER SHIP SAFETY
               Cruise Industry Operational Safety Review
     Submitted by the Cruise Lines International Association (CLIA)


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                 SUMMARY
 
Executive summary:       This document describes certain specific
                          initial outputs from the Cruise Industry
                          Operational Safety Review, which was
                          undertaken immediately following the Concordia
                          incident, under the leadership of the Cruise
                          Lines International Association, to address
                          operational safety. This work will continue
                          and recommendations will be provided to the
                          industry, IMO, and governments on an ongoing
                          basis.
 
Strategic direction:     5.1
 
High-level action:       5.1.1
 
Planned output:          None
 
Action to be taken:      Paragraph 9
 
Related document:        MSC 90/1/Rev.1; MSC 90/27; MSC 90/27/1; MSC-
                          MEPC.3/Circ.3; and Res. MSC255(84)
------------------------------------------------------------------------

Background
    1. In response to the Concordia incident, and as part of the 
industry's continuous efforts to review and improve safety measures, 
the Cruise Lines International Association (CLIA), speaking on behalf 
of the global cruise lines industry, announced the launch of a Cruise 
Industry Operational Safety Review on 27 January 2012, although it had 
begun prior to that date.
    2. As best practices are identified via this Review, they will be 
shared on an ongoing basis among CLIA members and any appropriate 
recommendations will be shared with the IMO.
    3. In CLIA's previous submission, MSC 90/27/1 we described the 
basic framework for the Review and reported on the first output, which 
was our Passenger Muster Policy.
Outputs of the Cruise Industry Operational Safety Review
    4. The first output of the Review was the cruise industry's 
Passenger Muster Policy, announced on 9 February 2012 and made 
immediately effective, serves as an example of the type of best 
practices and procedures that may be expected as outputs from the 
Review.
    5. In the interim, the cruise industry has developed three 
additional outputs which CLIA wishes to share with this Committee:

  i.   The cruise industry is of the view that we, along with the rest 
        of the maritime community, would benefit from increased 
        reliability and transparency with regard to marine casualty 
        information. Specifically, we believed the relevant information 
        contained in the IMO database would benefit from some 
        additional verification. Accordingly, CLIA recently undertook 
        an effort with the IMO Secretariat to harmonize the information 
        in Annex I of the GISIS Marine Casualties and Incidents module 
        to ensure that no recent and known ``very serious casualties,'' 
        alternatively referred to as ``very serious marine 
        casualties,'' involving one or more fatalities on a cruise 
        passenger ship were inadvertently omitted. This action resulted 
        in adding and verifying basic information on a total of fifteen 
        marine casualties in the database, but did not result in the 
        removal of any existing marine casualties or associated data.

  ii.   Consistent with the above actions regarding Annex I of the 
        GISIS Marine Casualties and Incidents module, CLIA is of the 
        view that a mandatory obligation to provide information on the 
        occurrence of very serious casualties is beneficial to Member 
        States, the maritime industry, and the public at large. As we 
        worked through reconciling existing IMO casualty data with the 
        best data presently available to our industry, we found 
        substantial inconsistency in reporting. Thus, to assist Member 
        States in their ongoing efforts to consider improvements to 
        maritime safety through examination of casualties, we 
        respectfully wish to draw attention to the existing provisions 
        in the mandatory IMO Casualty Investigation Code (Res. 
        MSC.255(84)) and those in MSC-MEPC.3/Circ.3.

  iii.  Thus, recognizing that it is not procedurally appropriate for 
        CLIA to propose an amendment to a mandatory instrument, we 
        request that Member States consider revising SOLAS Chapter XI-
        1, Regulation 6 to expressly and more clearly emphasize the 
        mandatory reporting requirements regarding ``very serious 
        casualties.'' We believe that Member States would find this to 
        improve the breadth and depth of reporting, providing them a 
        better foundation for prevention of future casualties.

    6. Additional outputs from the Review will be provided as 
appropriate to the Organization via its relevant Committees and Sub-
committees.
Conclusion
    7. CLIA is fully committed to understanding the factors that 
contributed to the Concordia incident and is proactively responding to 
all maritime safety issues.
    8. The Cruise Industry Operational Safety Review will enable the 
industry to do so in a meaningful and expedited manner.
Action requested of the Committee
    9. The Committee is invited to consider the information provided in 
this submission and take action as appropriate.
                                 ______
                                 

MARITIME SAFETY COMMITTEE                                                                           MSC 90/27/11
90th session                                                                                       10 April 2012
Agenda item 27                                                                                 Original: ENGLISH
 

                         PASSENGER SHIP SAFETY
               Cruise Industry Operational Safety Review
     Submitted by the Cruise Lines International Association (CLIA)


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                 SUMMARY
 
Executive summary:       This document describes a specific additional
                          output from the Cruise Industry Operational
                          Safety Review, which was undertaken
                          immediately following the Concordia incident,
                          under the leadership of the Cruise Lines
                          International Association, to address
                          operational safety. This particular output
                          relates to the subject of Carriage of
                          Additional Lifejackets onboard. This work will
                          continue and recommendations will be provided
                          to the industry, IMO, and governments on an
                          ongoing basis.
 
Strategic direction:     5.1
 
High-level action:       5.1.1
 
Planned output:          None
 
Action to be taken:      Paragraph 10
 
Related document:        MSC 90/1/Rev.1; MSC 90/27; MSC 90/27/1; MSC 90/
                          27/2; and MSC 90/27/12
------------------------------------------------------------------------

Background
    1. In response to the Concordia incident, and as part of the 
industry's continuous efforts to review and improve safety measures, 
the Cruise Lines International Association (CLIA), speaking on behalf 
of the global cruise lines industry, announced the launch of a Cruise 
Industry Operational Safety Review on 27 January 2012, although it had 
begun prior to that date.
    2. As best practices are identified via this Review, they will be 
shared on an on-going basis among CLIA members and any appropriate 
recommendations will be shared with the IMO.
    3. In the first of CLIA's previous submissions, MSC 90/27/1, we 
described the basic framework for the Review and reported on the first 
output, which was our Passenger Muster Policy.
    4. In MSC 90/27/2 and 90/27/XX, CLIA reported upon a series of 
additional outputs of the Review.
Outputs of the Cruise Industry Operational Safety Review
    5. The first outputs of the Review, as mentioned above, were 
reported in MSC 90/27/1, 90/27/2, and 90/27/12.
    6. The cruise industry has developed an additional output of the 
Review, applicable to all of the oceangoing ships we represent, which 
CLIA wishes to share with this Committee:

        Carriage of Additional Lifejackets Onboard:

        .1 The International Convention for the Safety of Life at Sea 
        (SOLAS), as well as flag State regulations, require that 
        passenger ships on international voyages carry an approved 
        lifejacket (Personal Flotation Device-PFD) for every person 
        onboard the ship.

        .2 SOLAS requires that lifejackets suitable for children must 
        also be carried in a number equal to 10 percent of the number 
        of passengers onboard, provided that the number of children's 
        lifejackets carried must not be less than the number of 
        children onboard.

        .3 Lifejackets must also be carried for the persons on watch 
        and must be stored on the bridge, in the engine control room 
        and at any other manned watch station.

        .4 An additional number of lifejackets equal to 5 percent of 
        the persons onboard must also be carried and stored in 
        conspicuous places on deck or at muster stations.

        .5 Under certain circumstances, additional lifejackets must 
        also be carried, and stored at muster stations or in public 
        spaces, when it is likely that persons may not be able to 
        return to their staterooms to retrieve the lifejacket stored 
        there.

        .6 Some flag states have similar requirements for domestic or 
        non-international voyages.

        .7 CLIA's members have adopted a policy of carrying additional 
        adult lifejackets onboard each cruise ship in excess of these 
        legal requirements.

        .8 Under this policy the number of additional adult lifejackets 
        to be provided must not be less than the total number of 
        persons berthed within the ship's most populated main vertical 
        fire zone.

        .9 Implementation of this policy ensures should result in spare 
        lifejackets being carried are far in excess of the number 
        required by SOLAS.

        .10 Some smaller cruise ships may be constructed with only one 
        main vertical fire zone that is utilized for accommodation 
        spaces.

        .11 For these vessels, CLIA's policy is that the maximum number 
        of excess lifejackets provided need not exceed fifty percent of 
        the total number of persons carried by the vessel.

        .12 Extra lifejackets for children in excess of legal 
        requirements, in a number equal to 10 percent of the number of 
        passengers berthed within the most populated main vertical 
        zone, must also be carried on international voyages under this 
        policy.

        .13 All of the additional lifejackets addressed in this policy 
        are to be stored in public spaces, at the muster stations, on 
        deck or in lifeboats, and in such a manner as to be readily 
        accessible to crewmembers for distribution as may be necessary 
        in the event of an emergency.

        .14 Lifejackets carried for persons on watch, and at remotely 
        located survival craft stations, are to be carried in 
        accordance with SOLAS and other applicable flag State 
        regulations.

    7. Additional outputs from the Review will be provided as 
appropriate to the Organization via its relevant Committees and Sub-
committees.
Conclusion
    8. CLIA is fully committed to understanding the factors that 
contributed to the Concordia incident and is proactively responding to 
all maritime safety issues.
    9. The Cruise Industry Operational Safety Review will enable the 
industry to do so in a meaningful and expedited manner.
Action requested of the Committee
    10. The Committee is invited to consider the information provided 
in this submission and take action as appropriate.
                                 ______
                                 

MARITIME SAFETY COMMITTEE                                                                           MSC 90/27/12
90th session                                                                                       10 April 2012
Agenda item 27                                                                                 Original: ENGLISH
 

                         PASSENGER SHIP SAFETY
               Cruise Industry Operational Safety Review
     Submitted by the Cruise Lines International Association (CLIA)


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                 SUMMARY
 
Executive summary:       This document describes certain specific
                          additional outputs from the Cruise Industry
                          Operational Safety Review, which was
                          undertaken immediately following the Concordia
                          incident, under the leadership of the Cruise
                          Lines International Association, to address
                          operational safety. These particular outputs
                          relate to the subjects of Passage Planning and
                          Personnel Access to the Bridge. This work will
                          continue and recommendations will be provided
                          to the industry, IMO, and governments on an
                          ongoing basis.
 
Strategic direction:     5.1
 
High-level action:       5.1.1
 
Planned output:          None
 
Action to be taken:      Paragraph 10
 
Related document:        MSC 90/1/Rev.1; MSC 90/27; MSC 90/27/1; and MSC
                          90/27/2
------------------------------------------------------------------------

Background
    1. In response to the Concordia incident, and as part of the 
industry's continuous efforts to review and improve safety measures, 
the Cruise Lines International Association (CLIA), speaking on behalf 
of the global cruise lines industry, announced the launch of a Cruise 
Industry Operational Safety Review on 27 January 2012, although it had 
begun prior to that date.
    2. As best practices are identified via this Review, they will be 
shared on an ongoing basis among CLIA members and any appropriate 
recommendations will be shared with the IMO.
    3. In the first of CLIA's previous submissions, MSC 90/27/1, we 
described the basic framework for the Review and reported on the first 
output, which was our Passenger Muster Policy.
    4. In MSC 90/27/2, CLIA reported upon a series of additional 
outputs of the Review, which were all related to reporting of marine 
casualties.
Outputs of the Cruise Industry Operational Safety Review
    5. The first outputs of the Review, as mentioned above, were 
reported in MSC 90/27/1 and 90/27/2.
    6. The cruise industry has developed two additional outputs of the 
Review, applicable to all of the oceangoing ships we represent, which 
CLIA wishes to share with this Committee:

        Passage Planning:

        .1 Since 1999, CLIA's member lines have been subject to 
        international guidance concerning passage planning in 
        accordance with IMO Resolution A.893(21), Guidelines for Voyage 
        Planning, adopted on 25 November 1999.

        .2 CLIA has adopted a policy that the guidance elements set 
        forth in this resolution are deemed to be the mandatory minimum 
        requirements in the development of passage plans by all member 
        lines.

        .3 In addition, CLIA's policy recognizes the Bridge Procedures 
        Guide published by the International Chamber of Shipping as a 
        compilation of best practices valuable resource that should are 
        to be utilized by all ship operators, either as a component of 
        their Safety Management Systems or Bridge Resource Management 
        procedures.

        .4 Under this policy each passage plan is to be thoroughly 
        briefed to all bridge team members who will be involved in 
        execution of the plan well in advance of its implementation.

        .5 The passage plan will be drafted by the designated officer 
        and approved by the master.

        .6 CLIA's policy is that all members are to take steps to help 
        ensure bridge team members are asked and encouraged to raise 
        any operational concerns without fear of retribution or 
        retaliation.

        Personnel Access to the Bridge:

        .7 To minimize unnecessary disruptions and distractions to 
        bridge team members in accomplishing their direct and indirect 
        duties during any period of restricted maneuvering, or while 
        maneuvering in conditions that the master or company bridge 
        procedures/policy deems to require increased vigilance (e.g., 
        arrival/departure from port, heavy traffic, poor visibility), 
        CLIA's members have adopted a policy that bridge access is to 
        be strictly limited to those with operational functions only 
        during these periods.

        .8 Further, member lines are to take steps to prevent 
        distractions to watchkeeping during these periods.

        .9 Any deviation from this policy requires prior approval of 
        senior management ashore.

    7. Additional outputs from the Review will be provided as 
appropriate to the Organization via its relevant Committees and Sub-
committees.
Conclusion
    8. CLIA is fully committed to understanding the factors that 
contributed to the Concordia incident and is proactively responding to 
all maritime safety issues.
    9. The Cruise Industry Operational Safety Review will enable the 
industry to do so in a meaningful and expedited manner.
Action requested of the Committee
    10. The Committee is invited to consider the information provided 
in this submission and take action as appropriate.
                                 ______
                                 

MARITIME SAFETY COMMITTEE                                                                             MSC 91/7/1
91st session                                                                                   24 September 2012
Agenda item 7                                                                                  Original: ENGLISH
 

                         PASSENGER SHIP SAFETY
               Cruise Industry Operational Safety Review
       Submitted by Cruise Lines International Association (CLIA)


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                 SUMMARY
 
Executive summary:       This document provides additional outputs from
                          the Cruise Industry Operational Safety Review
                          and proposes a revision to include these
                          additional outputs in the annex to MSC.1/
                          Circ.1446.
 
Strategic direction:     5.1
 
High-level action:       5.1.1
 
Planned output:          None.
 
Action to be taken:      Paragraph 14
 
Related documents:       MSC 90/27
------------------------------------------------------------------------

Background
    1  In response to the Concordia incident, and as part of the 
industry's ongoing efforts to review and improve safety measures, the 
Cruise Lines International Association (CLIA), speaking on behalf of 
the global cruise lines industry, announced the launch of a Cruise 
Industry Operational Safety Review (hereinafter ``Review'') on 27 
January 2012, although it had begun prior to that date. As best 
practices are identified via this Review, they will be shared on an on-
going basis among CLIA members and as appropriate to the Organization.
    2  In the first paper on this subject (MSC 90/27/1), CLIA provided 
the Committee with an overview of the basic framework of the Review and 
also reported on the first output, a CLIA policy on passenger muster 
prior to departure from port. Since then, we have provided the 
Committee with additional outputs, including:

        .1 The need for consistent reporting and additional verifying 
        of marine casualties and incidents, in particular very serious 
        casualties, with a concomitant recommendation that Member 
        States consider revising SOLAS regulation XI-1/6 to emphasize 
        the mandatory reporting requirements of very serious casualties 
        (MSC 90/27/2);

        .2 CLIA policies on passage planning and personnel access to 
        the bridge (MSC 90/27/12); and

        .3 CLIA policy on carriage of additional lifejackets on board 
        (MSC 90/27/11).

    3  The Committee, having considered the information provided in the 
Cruise Industry Operational Safety Review, invited Member Governments 
to recommend that passenger ship companies conduct a review of 
operational safety measures with the aim to enhance the safety of 
passenger ships, taking into consideration the recommended interim 
measures of an operational character listed in the Recommended interim 
measures for passenger ship companies to enhance the safety of 
passenger ships (MSC.1/Circ.1446), on ships flying their flag, on a 
voluntary basis and with all possible urgency and efficiency 
(Resolution MSC.336(90)).
Outputs of the Cruise Industry Operational Safety Review
    4  As part of the ongoing Review, the cruise industry has developed 
three additional outputs as laid out below in paragraphs 5-9.
Common Elements of Musters and Emergency Instructions
    5  Regulations 8 and 19 of SOLAS Chapter III require musters and 
emergency instructions to be provided for passengers. In addition to 
the legal requirements, CLIA oceangoing members have adopted a policy 
that musters and emergency instructions are to include the following 
common elements:

        .1 When and how to don a lifejacket.

        .2 Description of emergency signals and appropriate responses 
        in the event of an emergency.

        .3 Location of lifejackets.

        .4 Where to muster <SUP>*</SUP> when the emergency signal is 
        sounded.
---------------------------------------------------------------------------
    \*\ The terms ``muster'' and ``assembly'' are used interchangeably 
and therefore are synonymous for this purpose.

        .5 Method of accounting for passenger attendance at musters 
---------------------------------------------------------------------------
        both for training and in the event of an actual emergency.

        .6 How information will be provided in an emergency.

        .7 What to expect if the Master orders an evacuation of the 
        ship.

        .8 What additional safety information is available.

        .9 Instructions on whether passengers should return to cabins 
        prior to mustering, including specifics regarding medications, 
        clothing, and lifejackets.

        .10 Description of key safety systems and features.

        .11 Emergency routing systems and recognizing emergency exits.

        .12 Who to seek out for additional information.
Recording the Nationality of Passengers
    6  Regulation 27 of SOLAS Chapter III requires that all persons on 
board be counted prior to departure; details of those who have declared 
a need for special care or assistance in an emergency be recorded and 
communicated to the Master prior to departure; names and gender of all 
persons on board, distinguishing between adults, children and infants 
be recorded for search and rescue purposes; and that all of this 
information be kept ashore and made readily available to search and 
rescue services when needed.
    7  To further facilitate the effective and immediate availability 
of key information in the event of an emergency situation, CLIA 
oceangoing members have adopted a policy that, in addition to the 
information required by SOLAS, the nationality of each passenger 
onboard is also to be recorded, kept ashore and made readily available 
to search and rescue services when needed.
Life Boat Loading for Training Purposes
    8  To facilitate training for lifeboat operations, CLIA oceangoing 
members have adopted a policy that at least one lifeboat on each ship 
is to be filled with crewmembers equal in number to its certified 
number of occupants at least every six months. Under this policy:

        .1 for safety considerations, the loading of lifeboats for 
        training purposes is to be performed only while the boat is 
        waterborne and the boat should be lowered and raised with only 
        the lifeboat crew onboard;

        .2 lifejackets should be worn;

        .3 all lifeboat crew and embarkation/boarding station crew are 
        to be required to attend the lifeboat loading drill; and

        .4 if not placed inside the lifeboat, those crew members are to 
        observe the filling of the lifeboat to its certified number of 
        people.

    9  This policy applies to ships with crew sizes of three hundred or 
greater, with lifeboats installed. Ships with crew sizes of less than 
three hundred are to conduct similar and equivalent training 
evolutions, at appropriate intervals, that are consistent with 
operational and safety considerations.
Proposed revision to MSC.1/Circ.1446
    10  CLIA recommends the Committee consider revising MSC.1/Circ.1446 
such that these three additional outputs (paragraphs 5-9) would be 
included among the other recommended interim measures contained in the 
annex to that circular.
Conclusion
    11  CLIA is fully committed to understanding the factors that 
contributed to the Concordia incident and is proactively responding to 
all maritime safety issues. The Cruise Industry Operational Safety 
Review has enabled the industry to do so in a meaningful and expedited 
manner.
    12  Since the Review began, CLIA has provided the Committee with 
several outputs, including 7 new policies regarding passenger muster 
prior to departure from port; passage planning; personnel access to the 
bridge; carriage of additional lifejackets on board; common elements of 
musters and emergency instructions; recording the nationality of 
passengers; and life boat loading for training purposes. In addition, 
CLIA has provided the Committee with an output of the Review regarding 
marine casualty reporting.
    13  Additional outputs from the Review will be provided as 
appropriate to the Organization via relevant Committees and Sub-
Committees.
Action requested of the Committee
    14  The Committee is invited to:

        .1 consider the information provided in this document;

        .2 consider revising the annex to MSC.1/Circ.1446 (paragraph 
        10); and

        .3 take action as appropriate.
                                 ______
                                 

MARITIME SAFETY COMMITTEE                                                                             MSC 92/6/1
92nd session                                                                                    13 February 2013
Agenda item 6                                                                                  Original: ENGLISH
 

                         PASSENGER SHIP SAFETY
               Cruise Industry Operational Safety Review
       Submitted by Cruise Lines International Association (CLIA)


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                 SUMMARY
 
Executive summary:       This document provides additional outputs from
                          the Cruise Industry Operational Safety Review
                          and proposes a further revision to include
                          these additional outputs in the annex to MSC.1/
                          Circ.1446/Rev.1.
 
Strategic direction:     5.1
 
High-level action:       5.1.1
 
Planned output:          None.
 
Action to be taken:      Paragraph 17
 
Related documents:       None.
------------------------------------------------------------------------

Background
    15  In response to the Concordia incident, the global cruise 
industry launched a comprehensive Cruise Industry Operational Safety 
Review (hereinafter ``Review'') and identified a number of best 
practices, which have been shared among CLIA members and with the 
Organization.
    16  In the first paper on this subject (MSC 90/27/1), CLIA provided 
the Committee with an overview of the basic framework of the Review and 
also reported on the first output, a CLIA policy on passenger muster 
prior to departure from port. Since then, we have provided the 
Committee with additional outputs, including:

        .1 The need for consistent reporting and additional verifying 
        of marine casualties and incidents, in particular very serious 
        casualties, with a concomitant recommendation that Member 
        States consider revising SOLAS regulation XI-1/6 to emphasize 
        the mandatory reporting requirements of very serious casualties 
        (MSC 90/27/2);

        .2 CLIA policies on passage planning and personnel access to 
        the bridge (MSC 90/27/12);

        .3 CLIA policy on carriage of additional lifejackets on board 
        (MSC 90/27/11);

        .4 CLIA policies on musters and emergency instructions (MSC 91/
        7/1);

        .5 CLIA policy on recording the nationality of passengers (MSC 
        91/7/1); and

        .6 CLIA policy on life boat loading for training purposes (MSC 
        91/7/1).

    17  The Committee, having considered the information provided, 
invited Member Governments to recommend that passenger ship companies 
conduct a review of operational safety measures with the aim to enhance 
the safety of passenger ships, taking into consideration the 
recommended interim measures of an operational character listed in the 
Recommended interim measures for passenger ship companies to enhance 
the safety of passenger ships (MSC.1/Circ.1446/Rev.1), on ships flying 
their flag, on a voluntary basis and with all possible urgency and 
efficiency (Resolution MSC.[. . .](91)).
Outputs of the Cruise Industry Operational Safety Review
    18  As part of the Review, the cruise industry has developed three 
additional outputs as laid out below in paragraphs 5-13.
Securing Heavy Objects
    19  CLIA's oceangoing members have adopted a policy to incorporate 
procedures into their Safety Management Systems (SMS) to help ensure 
the securing of heavy objects either permanently, when not in use, or 
during heavy/severe weather, as appropriate. Under this policy, a 
person or persons are to oversee a deck by deck inspection to identify 
unsecured and potentially hazardous heavy objects. Integral to the 
procedures is a list of identified objects which have a significant 
potential to cause injury.
    20  Shipboard personnel should apply good seamanship in identifying 
additional items to be secured. Attention should be given to muster 
<SUP>*</SUP> stations, evacuation routes, and lifeboat embarkation 
stations as a ship emergency could give rise to conditions that differ 
from ship motions caused by heavy/severe weather.
---------------------------------------------------------------------------
    \*\ The terms ``muster'' and ``assembly'' are used interchangeably 
and therefore are synonymous for this purpose.
---------------------------------------------------------------------------
    21  Consideration should also be given to development of a guidance 
document to assist in the identification of heavy objects and the most 
adequate methods for securing them. An example of this guidance 
document is attached in the annex. This annex is only intended to 
provide an example for one method of implementing this policy.
    22  Practices and procedures for securing heavy objects should be 
monitored by each Head of Department and/or as otherwise specified by 
the ship's command structure, and during routine shipboard inspections 
and audits.
    23  Heavy/severe weather should be clearly defined under the 
company policy taking into account the size of the ship, operational 
profiles, and other information. In defining heavy/severe weather, 
appropriate deference should be given to the judgment of the Captain.
Harmonization of Bridge Procedures
    24  Operational safety can be enhanced by achieving substantive 
consistency in bridge operating procedures among commonly owned ships, 
for example by providing that bridge personnel who may rotate among 
such ships can be familiarized with a common set of procedures.
    25  CLIA's oceangoing members have adopted a policy that bridge 
operating procedures are to be harmonized as much as possible, both 
within individual companies and among brands within a commonly owned 
and operated fleet. Under this policy and best practice, each CLIA 
member operating multiple ships and each cruise line brand that is 
commonly owned and operated with another brand is to harmonize their 
respective procedures for bridge operations, taking into account any 
unique operating characteristics of specialty ships (e.g., expedition 
ships; sail powered ships; etc.) <SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ And giving due regard to any relevant flag State requirements.
---------------------------------------------------------------------------
Location of Lifejacket Stowage
    26  In addition to CLIA's policy on excess lifejackets (MSC 90/27/
11), CLIA's oceangoing members have adopted an additional policy to 
reflect best practices for the stowage of lifejackets onboard newly-
constructed cruise ships (e.g., cruise ships for which the building 
contract is placed on or after 1 July 2013). Under this policy, a 
number of lifejackets equal to or greater than the number required 
onboard under the relevant international and flag State regulations, 
are to be stowed in close proximity to either muster 
<SUP><dagger></SUP> stations or lifeboat embarkation points, and be 
readily available for use in case of emergency.
---------------------------------------------------------------------------
    \<dagger>\ The terms ``muster'' and ``assembly'' are used 
interchangeably and therefore are synonymous for this purpose.
---------------------------------------------------------------------------
    27  Implementation of this policy will continue to result in spare 
lifejackets being carried in excess of the number required by the 
International Convention for the Safety of Life at Sea (SOLAS).
Proposed revision to MSC.1/Circ.1446/Rev.1
    28  CLIA recommends the Committee consider revising MSC.1/
Circ.1446/Rev.1 such that these three additional outputs (paragraphs 5-
13, annex) would be included among the other recommended interim 
measures contained in the annex to that circular.
Conclusion
    29  Since the Review began, CLIA has provided the Committee with 
several outputs, including 10 new policies regarding various 
operational safety matters. In addition, CLIA has provided the 
Committee with an output of the Review regarding marine casualty 
reporting.
    30  CLIA is fully committed to understanding the factors that 
contributed to the Concordia incident. Ongoing innovation in safety has 
been a hallmark of our industry for decades and we are fully committed 
to continuous improvement of shipboard operations and safety. The 
global cruise industry continuously reviews operational safety and 
works closely with the Organization as well as flag States, Recognized 
Organizations and others to enhance maritime safety.
Action requested of the Committee
    31  The Committee is invited to:

        .1 consider the information provided in this document;

        .2 consider revising the annex to MSC.1/Circ.1446/Rev.1 
        (paragraph 14); and

        .3 take action as appropriate.
                                 ______
                                 
                                 ANNEX
                SAMPLE STRUCTURE OF A GUIDANCE DOCUMENT
            TO ASSIST IN THE IDENTIFICATION OF HEAVY OBJECTS
             AND THE MOST ADEQUATE METHOD FOR SECURING THEM
    Guidance document(s) should consider the following three elements, 
in addition to any other relevant information.
    1 Heavy Objects. The following list is an example of some heavy 
objects that may be identified and secured in accordance with company 
policy. In this sample listing, the objects are grouped by those that 
should be permanently secured, always secured when not in use, and 
those to be secured in heavy weather. Heavy objects that have been 
identified include, but are not limited to, the following:

        1.1 Heavy objects that should be permanently secured.

                1.1.1 Heavy plant pots, sculptures, TVs, cash machines, 
                laundromat equipment, slot machines, and game machines 
                such as in teen recreation areas.

                1.1.2 Display stands and racks.

                1.1.3 Treatment tables, heavy standalone product 
                displays, treadmills, exercise weight racks, and weight 
                lifting machines.

                1.1.4 Pianos, lounge speakers, and back-stage scenery 
                equipment.

        1.2 Heavy objects that should be secured at all times when not 
        in use.

                1.2.1 Trolleys and forklift trucks.

                1.2.2 Paint rafts, gangways, and deck trash containers.

                1.2.3 X-ray scanners.

                1.2.4 Cylinder heads, pistons, charge air coolers, 
                heavy chemical containers, and heavy fan impellers.

                1.2.5 Gas bottles (refrigerant, oxygen, acetylene, 
                CO<INF>2</INF>, etc.)

        1.3 Heavy objects not otherwise secured that should be secured 
        for heavy weather.

                1.3.1 Loose objects on display.

                1.3.2 Temporary decorations.

                1.3.3 Items brought aboard temporarily as part of 
                shows.

                1.3.4 Materials/equipment onboard as part of repairs/
                refurbishment.

    2 Securing Methods.

        2.1 Consideration should be given to the strength and 
        appropriateness of each point of attachment to which the heavy 
        objects are secured.

        2.2 Consideration should be given to the following list of 
        securing methods. Additional securing methods appropriate to 
        the objects to be secured should be identified and used as 
        necessary. Examples are as follows; however, additional methods 
        should be identified and included as appropriate.

                A--Latch type gate hook and eye bracket mounted on 
                bulkhead or vertical surface.

                B--Ratchet strap and eye brackets mounted on bulkhead 
                or vertical surface.

                C--Rope secured to object and adjacent suitable 
                securing surface.

                D--Contained in metal rack-type shelving system.

                E--Suction cup and bracket, ratchet strap, chain, etc.

                F--Permanent securing such as bolting to bulkhead or 
                deck.

    3 Various. A list of specific heavy objects that have been 
identified by the company during surveys and inspections and that 
require particular attention.
                                 ______
                                 

MARITIME SAFETY COMMITTEE                                                                             MSC 92/6/9
92nd session                                                                                         24 May 2013
Agenda item 6                                                                                  Original: ENGLISH
 

                         PASSENGER SHIP SAFETY
           Comments relating to the Costa Concordia incident:
 The importance of shoreside management to maintaining shipboard safety
       Submitted by Cruise Lines International Association (CLIA)


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                 SUMMARY
 
Executive summary:       This document provides comments relating to the
                          Costa Concordia incident.
 
Strategic direction:     5.1, 5.2, 5.4
 
High-level action:       5.1.1, 5.1.2, 5.1.3, 5.2.1, 5.2.2, 5.4.1
 
Planned output:          None
 
Action to be taken:      Paragraph 25
 
Related documents:       MSC 92/6/1; MSC 92/6/3; MSC 91/7/1; MSC 90/27/
                          1; MSC 90/27/2; MSC 90/27/11; MSC 90/27/12
------------------------------------------------------------------------

Background
    1  This document is submitted in accordance with paragraph 6.14 of 
the Guidelines on the organization and method of work of the Maritime 
Safety Committee and the Marine Environment Protection Committee and 
their subsidiary bodies (MSC-MEPC.1/Circ.4/Rev.2), and provides 
comments relating to the Concordia incident and in particular the 
importance of shoreside management to maintaining shipboard safety.
    2  Comments related to Italy's report on the safety technical 
investigation regarding the Concordia marine casualty investigation are 
in document MSC 92/6/10.
Discussion
    3  The role of shoreside management is critical to the proper 
development and function of an effective Safety Management System. An 
integrated approach is used by the cruise industry to maintain 
shipboard safety; one that recognizes an essential connection with 
senior shoreside officials.
    4  Notwithstanding substantive progress made to date, the cruise 
industry continues to establish and implement operational and 
management measures that are robust enough to minimize the potential 
for a recurrence of the type of navigational incident recounted in 
document MSC 92/6/3. For example, the cruise industry takes very 
seriously its responsibility to address issues surrounding the 
authority of the Master with regard to maneuvering a large cruise ship 
and the naturally related responsibility in management of the company 
to ensure safety. These efforts are ongoing and take the form of both 
industry-wide cooperation and company-specific actions.
    5  Some specific elements that have already been addressed and will 
continue to be evaluated on an ongoing basis via the cruise industry's 
efforts include:

        .1 senior management level of engagement in safety-related 
        matters;

        .2 senior management commitment to a company-wide culture of 
        safety;

        .3 integration of shoreside management responsibilities into 
        the company's Safety Management System; and

        .4 CEO-level direct engagement in CLIA's Member Policy 
        Verification Program.

    6  Recall the prior CLIA submissions to the Committee on various 
outputs from the Cruise Industry Operational Safety Review.\5\ As part 
of the cruise industry's ongoing efforts to continually improve 
operational safety, a wide range of additional items were also 
considered but have not to this point resulted in industry-wide 
policies. Instead, with regard to these items, information and best 
practices have been shared among our members and incorporated into 
their own relevant policies and procedures as appropriate.
---------------------------------------------------------------------------
    \5\ See MSC 92/6/1; MSC 91/7/1; MSC 90/27/1; MSC 90/27/2; MSC 90/
27/11; and MSC 90/27/12 (CLIA).
---------------------------------------------------------------------------
    7  Efforts to evaluate and improve in these areas remain ongoing 
within our standing committee structure and other appropriate 
mechanisms within our industry. Examples of areas, closely related to 
the role of shoreside management, that continue to be under 
consideration include:

        .1 discretion of the Master with regard to non-safety related 
        voyage modifications;

        .2 bridge procedures during maneuvering and shipboard 
        emergencies;

        .3 voyage plan change and general bridge procedure review 
        practices and policies;

        .4 hiring, evaluation, and training practices for Masters; and

        .5 expectations and policies on when a Master may personally 
        abandon their ship.

    8  It is the cruise industry's approach that these types of issues 
are very much the responsibility of shoreside management to develop and 
successfully implement via effective shipboard practices and 
procedures. For a Safety Management System to be genuinely effective 
and within the true spirit of the ISM Code, it must carefully integrate 
the roles carried out by both professional shipboard staff and the 
shoreside management that both lead and support them. The cruise 
industry continues to fully embrace such an approach and commits to 
continuous improvement in this regard.
Conclusion
    9  The cruise industry looks forward to working with all engaged 
stakeholders to identify and prioritize areas where additional 
improvements can be made and to develop any necessary standards that 
will further the shared goal of continuous improvement of maritime 
safety.
Action requested of the Committee
    10  The Committee is invited to consider the comments provided in 
this document and take action as appropriate.
                                 ______
                                 

MARITIME SAFETY COMMITTEE                                                                            MSC 92/6/10
92nd session                                                                                         24 May 2013
Agenda item 6                                                                                  Original: ENGLISH
 

                         PASSENGER SHIP SAFETY
           Comments relating to the Costa Concordia incident:
              Specific comments on Italy's recommendations
       Submitted by Cruise Lines International Association (CLIA)


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                 SUMMARY
 
Executive summary:       This document provides comments relating to the
                          Costa Concordia incident.
 
Strategic direction:     5.1, 5.2, 5.4
 
High-level action:       5.1.1, 5.1.2, 5.1.3, 5.2.1, 5.2.2, 5.4.1
 
Planned output:          None
 
Action to be taken:      Paragraph 25
 
Related documents:       MSC 92/6/1; MSC 92/6/3; MSC 91/7/1; MSC 90/27/
                          1; MSC 90/27/2; MSC 90/27/11; MSC 90/27/12
------------------------------------------------------------------------

Background
    1  This document is submitted in accordance with paragraph 6.14 of 
the Guidelines on the organization and method of work of the Maritime 
Safety Committee and the Marine Environment Protection Committee and 
their subsidiary bodies (MSC-MEPC.1/Circ.4/Rev.2), and provides 
comments relating to the Concordia incident and in particular Italy's 
Report on the safety technical investigation regarding the Concordia 
marine casualty investigation, as presented in the Marine Casualty and 
Incident Module of GISIS under Incident Reference No. C0008482 
(hereafter ``the Report'').
    2  Comments related to the importance of shoreside management to 
maintaining shipboard safety are in document MSC 92/6/9 (CLIA).
Discussion
    3  The Report contains 20 recommendations grouped into 6 functional 
areas covering stability; vital equipment & electrical distribution; 
emergency power generation; operational matters; evacuation analysis; 
and search and rescue. Seven are for new ships only, while 11 are for 
both new and existing ships. The two SAR recommendations, which are 
external to the ship, will not be discussed in this document. CLIA 
welcomes the opportunity to discuss the Report, consider the 
recommendations made by Italy, and develop a comprehensive way forward 
to further improve safety.
    4  Below is a summary of CLIA's preliminary comments regarding 
Italy's recommendations as contained in the Report.
Stability (Section 6.2.1.)
    5  Double skin. Future discussions regarding the need for double 
skin to protect compartments containing equipment vital for the 
propulsion and electrical propulsion should also take into 
consideration requirements and guidance relating to SOLAS Safe Return 
to Port and Probabilistic Damage Stability, as appropriate.
    6  Limiting down flooding points. If this recommendation is aimed 
at mitigating progressive flooding, CLIA is of the view that it may 
need to be clarified. CLIA notes that the Report indicates the water 
reached the bulkhead deck in the aft area after about 40 minutes 
following the incident.
    7  Computerized stability.

        .1 In the discussion of computerized stability support for the 
        master in case of flooding, it is important to distinguish 
        between systems having static inputs (manual, by crew) from 
        those having dynamic inputs (automated, in near real time).

        .2 Many cruise ships currently have computerized stability 
        support systems on board that are based primarily on static 
        inputs. Such systems require manual intervention and input by 
        ship's crew in order to display damage stability information.

        .3 Dynamic simulation would likely entail inter alia fitting 
        and interfacing of flooding sensors on existing ships. CLIA 
        believes that such a proposal needs an in-depth discussion 
        among subject matter experts. To our knowledge, such systems 
        are currently not available to handle dynamic inputs, in near 
        real time, displaying predictive dynamic damage simulation.

    8  Interface between flooding detection and stability computer. See 
paragraph 7.
Vital equipment and electrical distribution (Section 6.2.2.)
    9  Discontinuity between compartments. This recommendation relates 
to new ships. In addition, CLIA members have initiated a preparedness 
risk assessment to inter alia identify ways to preserve functional 
integrity of essential systems for existing ships.
    10  Bilge pumps. The recommendation regarding bilge pumps is far 
too vague e.g., ``huge quantities of water'' cannot be defined. Also, 
there may be additional aspects to consider when discussing this 
proposal such as power source and requirements to feed additional 
pumps.
    11  Relocation of main switchboard. CLIA notes that there are 
existing regulatory constraints regarding location of main switchboards 
in relation to other spaces/equipment. Such requirements may affect 
aspects of this recommendation regarding relocation of main 
switchboards. Any future development of new/revised requirements would 
need to be discussed by experts and carefully considered.
    12  Relocation of UHF radio switchboard. CLIA agrees in principle 
that the preservation adequate communications in an emergency is 
required. CLIA is of the view that the basis of the Italy proposal to 
relocate the UHF switchboard above the bulkhead deck is not clear. 
Therefore, CLIA believes that other more effective and efficient 
options may exist to accomplish the intended goal. A number of 
different solutions should be discussed and evaluated by experts.
Emergency power generation (Section 6.2.3.)
    13  Increasing EDG capacity. It should be clarified whether 
increasing EDG capacity would apply to existing certified emergency 
diesel generators or to the ``second emergency diesel generators'' 
mentioned in paragraph 14.
    14  Second EDG. CLIA agrees in principle with providing increased 
emergency power supply to support additional selected services. 
However, the recommendation regarding a second EDG is not clear whether 
the intent is to apply existing regulations (statutory EDG) to the 
second EDG or to allow for flexibility in the requirements applicable 
to the second EDG. When establishing new requirements for the ``second 
emergency diesel generator,'' this proposal should be carefully 
considered in relation to the multiple technical and operational 
aspects involved. Therefore, CLIA recommends that any further 
consideration of this item be made by the relevant technical sub-
committee(s).
    15  EDG functional tests. Italy proposes that both emergency diesel 
generators be tested weekly for at least two hours under a load of at 
least 50 percent. While generally in favor of enhancing functional 
testing aimed at improving reliability of EDGs during emergencies, the 
basis for Italy's proposal is not clear and therefore further 
consideration is needed in the relevant technical sub-committee(s), 
including input from engine manufacturer(s).
    16  Emergency light in cabins. Italy's proposal regarding emergency 
light in cabins suggests that these lights should be fed by both UPS 
and emergency power. Although cruise ships are provided with such 
emergency lights in cabins, CLIA would like to inform the Committee 
that not all of the lights are fed by the emergency source of power. In 
some installations, a light is powered by stand-alone battery. CLIA is 
of the view that as long as the goal is achieved (e.g., lighting the 
exit) and that a process is in place to ensure that lights work in an 
emergency, that a requirement for feeding from emergency power is not 
necessary.
Operational matters (Section 6.3.4.)
    17  Bridge management. CLIA supports consideration of development 
of training requirements that reflect established principles such as 
function-based bridge management and collective decision making. CLIA 
is looking forward to considering this matter, perhaps in the STW sub-
committee.
    18  Bridge team management certification. Italy's recommendation 
regarding bridge team management certification is unclear.
    19  Principles of minimum safety manning. CLIA notes there is a 
lack of details in Italy's recommendation. Nevertheless, CLIA agrees 
that the current principles of Minimum Safe Manning do not adequately 
reflect reality on passenger ships and therefore supports in principle 
the need for further consideration on this matter.
    20  Muster list. CLIA does not support the Italy proposal to show 
certification requirements in muster lists. CLIA notes that under the 
ISM Code, the Company is already required to ensure crewmembers are 
duly certified according to the duties and responsibilities assigned 
onboard. Cruise ships already have procedures/processes in place that 
ensure compliance with such requirements. In addition, robust systems 
are in place to ensure that those responsible for assigning emergency 
duties to the crew can easily verify the certifications required to 
cover such duties. CLIA believes that this proposal could result in the 
addition of unnecessary and redundant information to an already ``over-
populated'' document.
    21  Inclusion of inclinometer data in VDR. CLIA agrees in principle 
with the Italy proposal to include inclinometer data in the VDR.
Evacuation analysis (Section 6.3.4.)
    22  Evacuation analysis at early stage of project. CLIA notes that 
evacuation analysis is currently not on any sub-committee agenda, and 
that MSC 92 may consider whether to send a new work item to FP. CLIA 
looks forward to participating in the discussion at the relevant sub-
committee, should the Committee decide to place this on the work 
programme.
    23  Embarkation ladders. CLIA supports in principle consideration 
for additional embarkation ladders. However, CLIA believes that in this 
regard careful consideration should be given to a number of important 
aspects, such as:

        .1 the positioning of additional ladders that could impact 
        other LSA;

        .2 the difficulties for un-trained persons to utilize the 
        ladders in conditions other than Concordia high-side, etc.; and

        .3 ``blanket'' requirements may be difficult to meet.

    CLIA suggests that other individual means of evacuation should also 
be included in the discussion on how to achieve the goal, with the 
focus of identifying improvement in their design and functions, if 
needed.
Conclusion
    24  The cruise industry looks forward to working with all engaged 
stakeholders to identify and prioritize areas where additional 
improvements can be made and to develop any necessary standards that 
will further the shared goal of continuous improvement of maritime 
safety.
Action requested of the Committee
    25  The Committee is invited to consider the comments provided in 
this document and take action as appropriate.

    The Chairman. Thank you very much.
    And we will now turn to Gerald Cahill, who is the President 
and Chief Executive Officer of Carnival Cruise Lines.
    Welcome.

   STATEMENT OF GERALD CAHILL, PRESIDENT AND CHIEF EXECUTIVE 
                 OFFICER, CARNIVAL CRUISE LINES

    Mr. Cahill. Good afternoon, Chairman Rockefeller and 
Ranking Member Thune and members of the Committee.
    My name is Gerry Cahill, and I am President and Chief 
Executive Officer of Carnival Cruise Lines. I have been with 
Carnival Cruise Lines and its parent corporation, Carnival 
Corporation, in various roles for almost 19 years; the last 6 
years, I've been with Carnival Cruise Lines in my current 
capacity.
    I have submitted written testimony, for the record, which 
includes information on the various initiatives and investments 
that Carnival Cruise Lines has undertaken in the area of safety 
and passenger comfort. I will, therefore, keep my remarks today 
very brief.
    Carnival Cruise Lines has a fleet of 24 ships, and we 
operate approximately 1,500 cruises per year, carrying nearly 
four and a half million guests per year. Our business is built 
on offering a safe, comfortable, and affordable cruising 
experience to middle--to millions of middle-class American 
families each year. The safety and security of our guests is 
not only important to us, but our very success relies upon it.
    In our over forty-one history, we've provided over 60 
million vacations and maintained an excellent safety record. We 
are proud of our record of providing our guests with safe and 
memorable vacation experiences, and we appreciate the continued 
confidence that our guests have shown in us. We will continue 
to strive to exceed the regulatory requirements of our industry 
and ensure that our guests enjoy their cruise vacations.
    I welcome the opportunity to participate in this hearing, 
and I look forward to discussing with you ways in which we can 
further improve and deliver an even better experience to the 
millions of middle-class American families who sail with us 
each year.
    Thank you.
    [The prepared statement of Mr. Cahill follows:]

  Prepared Statement of Gerald Cahill, President and Chief Executive 
                     Officer, Carnival Cruise Lines
    Good afternoon Chairman Rockefeller, Ranking Member Thune, and 
Members of the Committee. I appreciate the opportunity to appear before 
the Committee to discuss Carnival Cruise Lines' (``Carnival'') 
commitment to the safety and security of our guests. It is Carnival's 
number one priority.
    Carnival operates 1500 cruises per year, carrying nearly 4.5 
million guests. Our parent company Carnival Corp & plc serves nearly 10 
million guests annually. Our business is built on being able to offer a 
safe, enjoyable, and affordable cruising experience to millions of 
middle-class American families each year. Safety, security, and guest 
satisfaction not only is important to us, but our success relies upon 
it.
    Over our forty-one year history, Carnival has an excellent safety 
record. We work hard to provide our guests with safe and memorable 
vacation experiences. Our goal is to exceed the regulatory requirements 
of our industry to ensure that our guests are confident that they will 
enjoy a fun cruise vacation. To that end, I will focus my testimony on 
some of the steps that we take with respect to safety and security.
Regulation of the Cruise Industry
    Because of the international nature of the cruise industry, there 
are several layers of oversight and regulation designed to insure the 
safe and reliable operation of cruise ships around the world. At the 
global level, the International Maritime Organization (IMO), which is 
part of the UN, is responsible for creating standards for all ships 
operating around the world.
    IMO has adopted several conventions that address and regulate 
various areas of vessel operations, which in turn, are ratified and 
enforced by Flag and Port States. These conventions address, among 
other things: all aspects of safety; ship design and equipment; fire 
protection, training and watch keeping; communications; search and 
rescue; navigation; and, environmental protection.
    The Flag State of each vessel is primarily responsible for 
enforcing international requirements, as well as additional regulations 
imposed by the Flag State. All Port States the vessel calls upon also 
ensure the vessel is in compliance, which further strengthens what the 
IMO and Flag State provide. Cruise ships, like other vessels, are 
subject to regular inspections and audits from both the Flag and Port 
States.
    In the U.S, the Coast Guard is both the primary regulator and the 
principal enforcement agency of the laws, regulations, and 
international treaties applicable to cruise ships. The U.S. is a party 
to IMO and has adopted the conventions described above. The Coast Guard 
conducts announced and unannounced inspections of cruise ships that 
operate out of U.S. ports in order to ensure compliance by ships 
operating in U.S. waters. Therefore, cruise ships operating in the U.S. 
are subject to numerous local, state, and Federal laws and regulations, 
including those related to safety.
Safety and Security
    Carnival takes our compliance with all laws and regulations very 
seriously. Carnival has safety management systems in place that meet or 
exceed all regulatory requirements. Further, our parent company in 2006 
established at the Board-level, a Health, Environmental, Safety & 
Security (``HESS'') Committee to assist the Board in fulfilling their 
responsibility to supervise and monitor HESS policies, programs, 
initiatives at sea and onshore, and compliance with HESS legal and 
regulatory requirements. In addition, the HESS Committee oversees 
audits of each of our ships annually to ensure compliance. Our HESS 
policy includes our commitments to:

  <bullet> Protecting the health, safety and security of our 
        passengers, guests, employees and all others working on behalf 
        of Carnival;

  <bullet> Protecting the environment, including the marine environment 
        in which our vessels sail and the communities in which we 
        operate;

  <bullet> Fully complying with or exceeding all legal and statutory 
        requirements related to health, environment, safety and 
        security throughout our business activities; and

  <bullet> Assigning health, environment, safety and security matters 
        the same priority as other critical business matters.

    Carnival engages in regular training to ensure compliance as well. 
As an example, all officers and crewmembers on Carnival's ships undergo 
regular safety and emergency training, which meets or exceeds all 
regulatory requirements. Carnival Corporation and Carnival plc also 
operate their own Center for Simulator Maritime Training (CSMART), in 
Almere, Netherlands, which features a broad portfolio of maritime 
training courses, including courses dedicated to bridge resource 
management, in which Carnival participates. The facility is one of the 
most advanced of its kind in the maritime industry and has been praised 
by the U.S. Coast Guard.
    Carnival has a professional Shoreside Security Department that 
provides training and support to shipboard security staff on each 
vessel. The Security Department consists of former law enforcement 
professionals. Training includes week-long annual shoreside training 
sessions for all shipboard Senior Security Officers, with curriculum 
based on the CVSSA model course 11-01 designed by the FBI and U.S. 
Coast Guard. Support includes pre-employment evaluation and incident 
response assistance and guidance. In addition, the Security Department 
serves as liaison to the FBI, U.S. Coast Guard, and local law 
enforcement agencies for reporting and investigation of incidents.
Global Operational Safety Review Implementation
    The cruise industry, through the Cruise Lines International 
Association (``CLIA''), initiated a comprehensive Global Operations 
Safety Review with the purpose of identifying additional practices that 
could strengthen the cruise industry's already exceptional safety 
record. CLIA received input and guidance from an independent panel of 
experts with extensive experience in the maritime, regulatory and 
accident investigation fields. As a result, ten new industry-wide 
policies that exceed current international regulatory requirements were 
developed. Carnival has approved and has implemented these policies, 
which have also been submitted to IMO for consideration.
    The new policy recommendations that exceed current international 
regulatory standards are:

  <bullet> Passenger Muster policy;

  <bullet> Passage Planning policy;

  <bullet> Personnel Access to the Bridge policy;

  <bullet> Excess Lifejackets policy

  <bullet> Recording the Nationality of Passengers policy;

  <bullet> Lifeboat Loading for Training Purposes policy;

  <bullet> Harmonization of Bridge Procedures policy;

  <bullet> Location of Lifejacket Stowage policy; and

  <bullet> Securing Heavy Objects policy.
Operating Reliability and Guest Comfort Enhancements
    Immediately after the Carnival Triumph incident, Carnival announced 
a comprehensive review of its entire fleet, which was overseen by our 
parent company. While no one was injured as a result of the incident, 
our guests clearly went through an uncomfortable experience. As part of 
that review, Carnival is implementing a $300 million program to 
significantly enhance emergency power capabilities, take advantage of 
new fire safety technology, and improve the level of operating 
redundancies across its entire fleet. Carnival's ships have been and 
are safe. The changes made as a result of the review are primarily to 
improve comfort and guest convenience.
    All of Carnival's ships have strong systems in place to respond to 
emergency situations. We meet or exceed all regulatory requirements. 
However, as we do on an on-going basis, we are applying lessons learned 
through our operational review after the Triumph fire, and by taking 
advantage of new technologies, we identified multiple areas for 
enhancement across our operations. These enhancements reinforce our 
commitment to safe and reliable operations and to provide an enjoyable 
cruise experience for the nearly 4.5 million guests who sail with us 
each year.
    The actions by Carnival will expand the availability of hotel 
services for the comfort of our guests in the rare instance of a 
shipboard event that involves the loss of main power. In addition, the 
plan will reinforce key shipboard operating systems to further prevent 
a potential loss of primary power.
Increased Emergency Generator Power
    The initial increase in emergency generator power across Carnival's 
fleet of 24 ships is projected to be completed by November. An 
additional emergency generator will be installed on each vessel to 
provide for 100 percent of stateroom and public toilets, fresh water 
and elevators in the unlikely event of a loss of main power. Upon 
completion of the initial phase, the line will install a second 
permanent back-up power system on each ship to provide an even greater 
level of hotel and guest services if main power is lost. These 
additional services will include expanded cooking facilities and cold 
food storage, as well as Internet and telephone communications.
Increased Fire Prevention, Detection and Suppression Systems
    The company will also make additional investments in the newest and 
most technically advanced fire prevention, detection and suppression 
systems. This includes upgrading the existing water mist fire 
suppression systems already in place on Carnival vessels to the newest 
generation. When triggered, this high-pressure water mist system 
instantly creates a larger and thicker blanket of water droplets than 
the present system. As the water droplets evaporate, the system also 
rapidly cools any hot areas to prevent the possibility of a fire 
restarting.
Enhanced Operating Redundancies
    All of Carnival's ships have two separate, redundant engine rooms. 
The company's operational review has identified modifications to 
further decrease the likelihood of losing propulsion or primary power, 
as happened on Carnival Triumph in February. The modifications will 
include a reconfiguration of certain engine-related electrical 
components to improve and enhance operational redundancies.
New Safety & Reliability Review Board
    Carnival also announced the formation of a Safety & Reliability 
Review Board comprised of outside experts with significant expertise in 
marine and occupational safety, reliability and maintenance, marine 
regulatory compliance and quality control/assurance. The company 
already receives oversight and input from outside regulatory 
authorities and industry experts, as well as the HESS Committee. The 
new Review Board will provide an additional, independent third-party 
perspective, drawing from deep experience across a number of relevant 
fields and organizations.
    Carnival's review board will include five external members with 
specific expertise in the areas of marine and occupational safety, 
reliability and maintenance, marine regulatory compliance and quality 
control/assurance. Four highly esteemed maritime and transportation 
industry experts, including two former U.S. Navy Flag Officers, already 
have been appointed. These experts will help us drive continuous 
improvement and further ensure the safe and reliable operation of our 
fleet.
Passenger Bill of Rights
    Carnival, along with 25 other CLIA North American member cruise 
lines, has formally adopted the Cruise Industry Passenger Bill of 
Rights, which details our industry's commitment to the safety, comfort 
and care of our guests. The voluntary implementation of the Bill of 
Rights formalizes many longstanding industry practices and is currently 
in effect for all U.S. passengers who purchase their cruise in North 
America, regardless of itinerary.
    We expect the impact of the Bill to be a positive one for Carnival 
because we have already taken great strides to deliver across all areas 
described in the Bill throughout our fleet. The Bill serves to 
underscore our already-existing commitment to our guests.
    The Bill covers the following set of passenger rights:

  <bullet> The right to disembark a docked ship if essential provisions 
        such as food, water, restroom facilities and access to medical 
        care cannot adequately be provided onboard, subject only to the 
        Master's concern for passenger safety and security and customs 
        and immigration requirements of the port.

  <bullet> The right to a full refund for a trip that is canceled due 
        to mechanical failures, or a partial refund for voyages that 
        are terminated early due to those failures.

  <bullet> The right to have available on board ships operating beyond 
        rivers or coastal waters full-time, professional emergency 
        medical attention, as needed until shore side medical care 
        becomes available.

  <bullet> The right to timely information updates as to any 
        adjustments in the itinerary of the ship in the event of a 
        mechanical failure or emergency, as well as timely updates of 
        the status of efforts to address mechanical failures.

  <bullet> The right to a ship crew that is properly trained in 
        emergency and evacuation procedures.

  <bullet> The right to an emergency power source in the case of a main 
        generator failure.

  <bullet> The right to transportation to the ship's scheduled port of 
        disembarkation or the passenger's home city in the event a 
        cruise is terminated early due to mechanical failures.

  <bullet> The right to lodging if disembarkation and an overnight stay 
        in an unscheduled port are required when a cruise is terminated 
        early due to mechanical failures.

  <bullet> The right to have included on each cruise line's website a 
        toll-free phone line that can be used for questions or 
        information concerning any aspect of shipboard operations.

  <bullet> The right to have this Cruise Line Passenger Bill of Rights 
        published on each line's website.
Conclusion
    Nothing is more important than the safety and comfort of our 
guests, and we will devote the full resources of our company to meet 
that commitment. As I have said, our continued success depends on our 
ability to offer a safe, comfortable, and affordable cruising 
experience to millions of middle-class American families each year. We 
strive every day to improve our performance in all areas so that our 
guests have confidence in their choice of Carnival, and we will 
continue to do so.

    The Chairman. All right, I thank you for that very brief 
statement.
    Mr. Adam Goldstein, President and Chief Executive Officer, 
Royal Caribbean International.
    Welcome to you, sir.

 STATEMENT OF ADAM M. GOLDSTEIN, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, ROYAL CARIBBEAN INTERNATIONAL

    Mr. Goldstein. Good afternoon, Mr. Chairman, Ranking Member 
Thune, distinguished members of the Committee.
    My name is Adam Goldstein, and I am President and Chief 
Executive Officer of Royal Caribbean International, which 
operates 21 cruise ships around the world, with four new ships 
on order. Royal Caribbean International is one of six brands 
owned by Royal Caribbean Cruises, Limited, the world's second-
largest cruise company. Our company operates a total of 41 
ships, globally. Last year, we carried nearly 5 million guests, 
visiting approximately 425 different destinations throughout 
the world.
    Last week, members of this committee's staff visited one of 
our ships, Grandeur of the Seas, for which I thank all of you 
who were there. The ship was docked in Baltimore, Maryland, 
while the staff toured the engine rooms, the bridge, the 
medical facility, and observed firsthand some of the important 
safety features, such as backup power generation and fire-
suppression systems. They were also briefed by the U.S. Coast 
Guard on the agency's role in inspecting cruise ships to 
further ensure the safety of all guests and crew.
    In addition, the staff were briefed on our extensive 
environmental programs and observed our advanced wastewater 
purification system, or AWP, in which we have invested about 
$150 million. As a result of the AWP systems, the wastewater 
that we discharge into the ocean is purified to a standard that 
exceeds leading municipal, Federal, and international 
standards.
    With regard to air emissions, Royal Caribbean began working 
with manufacturers several years ago to develop advanced 
emissions purification, or AEP, systems to clean or scrub the 
sulfur from fuel emissions before they are emitted from the 
ship. While we have had some success with the two scrubbers in 
which we have invested, we are now pleased to be expanding this 
research project to additional vendors and to additional ships 
within our fleet, including Grandeur of the Seas.
    A new initiative, which I'm sure we'll be discussing today, 
is the decision of Royal Caribbean, together with our industry 
colleagues from Carnival and Norwegian, to post on our websites 
a compilation of allegations of crime that occur onboard our 
ships around the world on all itineraries by all guests and 
crew.
    In 2010, Congress passed the Cruise Vessel Security and 
Safety Act, or CVSSA, which required the U.S. Coast Guard to 
maintain a public website disclosing the allegations of crime 
onboard U.S.-based cruises, provided those allegations were the 
subject of a closed FBI investigation. As this committee is 
aware, there are those who have taken issue with this 
limitation. So, in the spirit of transparency, the three 
largest cruise companies, making up over 85 percent of the 
cruise industry, have voluntarily agreed to expand that 
reporting by posting all allegations in each of the CVSSA 
categories on our websites, regardless of whether an 
investigation was opened or closed. We will have this reporting 
posted on our websites by August 1, and it will date back to 
the last quarter of 2010, when the CVSSA was passed.
    Mr. Chairman, as you know, there was a recent fire onboard 
Royal Caribbean's Grandeur of the Seas. Grandeur of the Seas 
set sail from Baltimore, Maryland, on Friday, May 24, for a 7-
night Bahamas cruise. Unfortunately, just before 3 o'clock in 
the morning on Monday, May 27, the ship experienced a fire, 
requiring us to cancel the remainder of the cruise as well as 
six subsequent sailings. The cause of that fire remains under 
investigation.
    This incident was the first to occur subsequent to the 
cruise industry's adoption of a Passenger Bill of Rights. As I 
believe the Committee knows, your colleague, Senator Charles 
Schumer, recommended that the industry adopt a 6-point Bill of 
Rights to protect those guests whose vacations are disrupted by 
mechanical issues on a cruise ship. Our industry trade 
association, CLIA, welcomed this recommendation, expanded the 
Bill of Rights to 10 points, and its member cruise lines 
adopted it within a number of weeks.
    In the wake of the fire aboard Grandeur of the Seas, Royal 
Caribbean exceeded our obligations under that Bill of Rights, 
in terms of both compensating and accommodating our guests.
    While compensating our guests for the stress and 
inconvenience caused by such a serious incident is important, 
clearly our immediate onboard response is of far greater 
importance. First and foremost, we must address and 
successfully resolve any immediate threat, such as the fire 
itself. As required by international regulations, our crew 
members conduct extensive training and drills to address 
emergency situations, and are well prepared to act quickly and 
decisively in the event of a real emergency. Once the threat is 
eliminated, crew members can and should ensure the comfort of 
the guests. In the case of Grandeur, fortunately, none of the 
guests or crew members were seriously injured, and the ship 
never lost power.
    In addition to the emergency response drills and 
predeparture muster drill, each ship in our fleet is equipped 
with emergency backup systems that activate in the event there 
is an interruption in the main power systems. Each ship in our 
fleet is equipped with multiple high-capacity pumps that are 
capable of removing large amounts of water that may enter the 
ship. Each ship in our fleet has two or more propellers, each 
operated by a separate propulsion motor. Each ship in our fleet 
has three or more generators, and each generator has its own 
separate power cable.
    At Royal Caribbean, we recognize that there is no such 
thing as perfect safety. But, there is perfect commitment to 
safety, and that is our goal every minute of every day.
    I appreciate the opportunity to testify before the 
Committee this afternoon, and look forward to working with you 
and your staff, now and in the future. I'm happy to respond to 
any questions you may have.
    [The prepared statement of Mr. Goldstein follows:]

Prepared Statement of Adam M. Goldstein, President and Chief Executive 
                 Officer, Royal Caribbean International
    Good Afternoon, Mr. Chairman, Senator Thune and Members of the 
Committee. My name is Adam Goldstein and I am President and Chief 
Executive Officer of Royal Caribbean International which operates 21 
cruise ships around the world with four new ships on order.
    Royal Caribbean International is one of six brands owned by Royal 
Caribbean Cruises Ltd., (``Royal Caribbean'') the world's second 
largest cruise company. Our company operates a total of 41 ships 
globally. Last year, our brands carried nearly 5 million guests, 
visiting approximately 425 different destinations throughout the world. 
Approximately 50 percent of our worldwide revenue is currently 
generated by cruises in and out of the United States--down from 76 
percent in 2006. We believe that this trend will continue as rapidly 
growing foreign markets offer significant growth and profitability.
    Last week, members of this Committee's staff visited one of our 
ships, Grandeur of the Seas, while she was docked in Baltimore, 
Maryland. The staff toured the engine rooms, the bridge, the medical 
facility, and observed firsthand some of the important safety features 
such as back-up power generation and fire suppression systems. At the 
Committee's request, the U.S. Coast Guard also participated in the ship 
tour and explained its role in inspecting cruise ships to further 
ensure the safety of all guests and crew.
    The Committee staff were also briefed on our extensive 
environmental programs and observed our Advanced Wastewater 
Purification, or AWP, system. Royal Caribbean has invested over $150 
million in our AWP systems. As a result, the wastewater that we 
discharge into the ocean is purified to a standard that exceeds leading 
municipal, Federal and international standards.
    With regard to air emissions, Royal Caribbean began working with 
manufacturers several years ago to develop Advanced Emissions 
Purification, or AEP, systems to clean or ``scrub'' the sulfur from 
fuel emissions before they are emitted from the ship. While we have had 
some success with the two scrubbers in which we have invested, we are 
now pleased to be expanding this research project to additional vendors 
and to additional ships within our fleet, including Grandeur of the 
Seas.
    With the extraordinary support and cooperation of the United States 
Environmental Protection Agency and the United States Coast Guard, as 
well as the Canadian Government, Royal Caribbean has been able to 
develop an approach designed to benefit the broader maritime industry. 
We anticipate that successful development of this AEP technology will 
allow marine engines to achieve sulfur reductions below that required 
by regulatory standards.
    Mr. Chairman, the cruise industry has been at the forefront of not 
only maritime wastewater treatment and emissions reduction technology, 
but other environmentally responsible initiatives. Royal Caribbean, and 
the cruise industry as a whole, has adopted practices and procedures 
that are substantially more protective of the environment than are 
required by regulation. On our website, we post our annual Stewardship 
Report which provides the public with updates on our performance in 
nine key areas of stewardship, including safety and security, energy 
and air emissions, water and wastewater, and medical operations.
    Also on our website--and on those of my colleagues from Carnival 
and Norwegian--the public will find a compilation of allegations of 
crime that occur onboard our ships around the world, on all 
itineraries, by all guests and crew. In 2010, Congress passed the 
Cruise Vessel Security and Safety Act, or CVSSA, which required the 
U.S. Coast Guard to maintain a public website disclosing the 
allegations of crime onboard U.S.-based cruises, provided those 
allegations were the subject of a closed FBI investigation.
    As you know, Mr. Chairman, there are those who have taken issue 
with this limitation so, in the spirit of transparency, the three 
largest cruise lines--making up over 85 percent of the cruise 
industry--voluntarily agreed to expand that reporting by posting all 
allegations in each of the CVSSA categories on our websites, regardless 
of whether an investigation was opened or closed. We will have this 
reporting posted on our websites by August 1st and it will date back to 
the last quarter of 2010 when the CVSSA was passed.
    We are proud of this initiative and believe that it addresses many 
of the concerns raised with the limited public reporting required by 
the CVSSA. By providing these statistics, as well as the land-based 
rates of crime, consumers will be able to see for themselves that 
cruise ships are among the safest venues when compared to any landside 
communities or destinations.
    At Royal Caribbean, we recognize that there is no such thing as 
perfect safety--but there is perfect commitment to safety and that is 
our goal every minute of every day. While we are proud of our safety 
record and of our high rate of guest satisfaction, we understand that 
incidents do happen, such as the recent fire onboard Royal Caribbean 
International's Grandeur of the Seas.
    Grandeur of the Seas set sail from Baltimore, Maryland on Friday, 
May 24 of this year for a 7-night Bahamas cruise. On Sunday morning, 
May 26, the ship made its scheduled port call in Port Canaveral, 
Florida then set sail again that evening, bound for the Bahamas. 
Unfortunately, just before 3 o'clock in the morning on Monday, May 27, 
the ship experienced a fire, requiring us to cancel the remainder of 
the cruise as well as six subsequent sailings. The cause of the fire 
remains under investigation.
    This incident was the first to occur subsequent to the cruise 
industry's adoption of a ``Passenger Bill of Rights.'' As the Committee 
may know, your colleague Senator Charles Schumer recommended that the 
industry adopt a 6-point Bill of Rights to protect those guests whose 
vacations are disrupted by mechanical issues on a cruise ship. Our 
industry trade association, the Cruise Lines International Association, 
or CLIA, welcomed this recommendation, expanded the Bill of Rights to 
10-points, and its member cruise lines adopted it within weeks. In the 
wake of the fire onboard Grandeur of the Seas, Royal Caribbean exceeded 
our obligations under the Bill of Rights in terms of compensating and 
accommodating our guests.
    While compensating our guests for the stress and inconvenience 
caused by such an incident is important, clearly, our immediate onboard 
response is of far greater importance. First and foremost, we must 
address and successfully resolve any immediate threat such as a fire. 
As required by international regulations, our crew members conduct 
extensive training and drills to address emergency situations and are 
well-prepared to act quickly and decisively in the event of a real 
emergency. Once the threat is eliminated, crew members can and should 
ensure the comfort of the guests. In the case of Grandeur, none of the 
guests or crew members were seriously injured and the ship never lost 
power. While I am certain the fire caused stress and fear among guests, 
I am pleased that many guests took the time to write to Royal Caribbean 
to commend the crew's response to both the fire and the comfort and 
care of the guests.
    In addition to the emergency response drills and the pre-departure 
muster drill, each ship in our fleet is equipped with emergency backup 
systems that activate in the event there is an interruption in the main 
power systems. Each ship in our fleet is equipped with multiple high 
capacity pumps that are capable of removing large amounts of water that 
may enter the ship. Each ship in our fleet has two or more propellers, 
each operated by a separate propulsion motor. Each ship in our fleet 
has three or more generators and each generator has its own separate 
power cable.
    I believe it is important to note that, in addition to what our 
individual companies are doing, many of these ``best practices'' have 
been set forth by the industry's trade association, CLIA, for adoption 
by its diverse and global membership. As the second largest cruise 
company, Royal Caribbean plays a significant role in CLIA and I would 
like to briefly advise the Committee of recent developments at CLIA.
    CLIA represents the interests of 26 cruise lines, as well as 16,000 
travel agencies, and hundreds of port authorities, destinations, and 
various industry business partners. Over the course of the past year, 
CLIA has successfully globalized its membership so that the policies 
developed for its members operating in North America will extend to 
CLIA members operating worldwide. CLIA now provides the single platform 
for a unified approach to industry policy and advocacy with 
representation in North America, South America, Europe, Asia, and 
Australia. Prior to December 2012, nine separate trade associations 
represented the global cruise industry.
    As a result of CLIA's aggressive efforts, our industry around the 
world is more focused on higher standards of safety and security than 
ever before. Last year, CLIA directed an industry-wide Operational 
Safety Review, a comprehensive assessment of the critical human factors 
and operational aspects of maritime safety. As a result of that review, 
the global cruise industry introduced ten new safety policies--each of 
which exceeded current international regulatory requirements upon their 
announcement and each of which have now been included in formal 
standards for Passenger Ship Safety promulgated by the International 
Maritime Organization, or IMO.
    For example, passenger ships were required to conduct muster drills 
within 24 hours of guests embarking on a ship; CLIA identified as a 
`best practice' conducting the muster drills prior to departure from 
port. CLIA's membership adopted this as a formal policy and IMO has now 
adopted it as an international regulation.
    Royal Caribbean is proud to play a leadership role in CLIA and has 
been supportive of its relentless efforts towards continuous 
improvement for the global industry. CLIA's commitment to Safety, 
Security, Environmental Stewardship, Medical Care, and Public Heath 
makes for a stronger, more consistent and more unified cruise industry 
in these critical areas of our operations. I am sure my colleagues from 
Carnival and from other member cruise lines will join me in saying that 
we are proud of all that CLIA has accomplished and we will continue to 
support its efforts to develop global policies, to address 
international issues, and to provide strategic communications for its 
worldwide audience.
    I appreciate the opportunity to testify before the Committee this 
afternoon and look forward to working with you and your staff in the 
future.
    I am happy to respond to any questions you may have.

    The Chairman. Thank you very much.
    I'll start off. And this would be to the Coast Guard 
Admiral Servidio.
    The Carnival Triumph is now a household name--probably 
doesn't welcome that--and not in a good way. The ship became 
famous in February, when it drifted for 4 days in the Gulf of 
Mexico after an engine knocked out the ship's power and 
propulsion. Four months later, the Coast Guard boarded the 
Triumph, in Galveston, Texas, to conduct a safety inspection, 
and found a number of problems. As a result, the Coast Guard 
detained the Triumph in port and prohibited passengers from 
boarding the ship.
    Admiral, the Coast Guard only uses its, quote, ``detention 
authority'' in serious cases. Can you please explain why the 
Coast Guard detained the Triumph in Galveston last month?
    Admiral Servidio. Yes, Mr. Chairman.
    We inspected the vessel. We look at the firefighting 
systems, we look at the lifesaving systems, and we examine the 
drills. Onboard the Triumph, there were problems with the 
drills, specifically with regard to the lifeboats, sir, and we 
also found problems with the fire detection system. Basically, 
just like you have in your house, there are fire detectors 
around the vessel. In some segments of the vessel, there were a 
number of the fire detectors that weren't working the way they 
should have been working. And there were also some problems 
with the fire sprinkler system in certain parts of the vessel. 
Again, it's the sprinkler system that's designed, if there is a 
fire, to automatically activate to put out that fire. Those are 
significant problems. And, as such, we detained the vessel 
until they were rectified. And they were rectified the next 
day, sir.
    The Chairman. And you found, as I understand it, 28 
deficiencies.
    Admiral Servidio. Yes, sir. The--there were a number of 
minor deficiencies, but those were the substantial 
deficiencies, sir, that caused us to take the actions to not 
allow the vessel to embark passengers until they were 
corrected.
    The Chairman. Understood.
    Mr. Cahill, after the Carnival Splendor engine room fire 
left the ship disabled and stranded, in November of 2010, you 
told the media that this was, ``a very surprising incident.'' 
You later said Carnival spent millions of dollars on, quote, 
``lessons learned from the Splendor fire.''
    After the Carnival Triumph engine-room fire left the ship 
disabled and stranded, in February 2013, you told the media 
that, ``Something like this is a very rare incident.'' Carnival 
also has said that it was spending millions of dollars on ships 
in the aftermath of the incident.
    And on June 12, 2013, while the Triumph was being detained 
by the Coast Guard in Galveston for failing a safety 
inspection, Carnival posted a video, claiming that the ship 
was--before it had been cleared, that--you said, in the video, 
the ship was repaired, enhanced, and back in service.
    Mr. Cahill, you've been--you have a speaking role, 
yourself, in this video, in which you say that Carnival has 
completed it--an operational review of the ship, and that it 
was ready to go.
    In light of this record, why should the American public now 
believe that Carnival has a meaningful commitment to promoting 
its ships? It's easy to say things happen infrequently, but, 
when they happen, they affect an awful lot of people, and 
they're happening, even to the extent that the public knows 
about it, more frequently than necessary. How would you answer, 
sir?
    Mr. Cahill. Mr. Chairman, first off, I take it very 
seriously, myself. After the Carnival Splendor fire, we did 
form a Safety--a Fire Safety Task Force, and that Fire Safety 
Task Force consisted of 15 people who came up with 25 
recommendations, at a very significant cost. They were all--I 
approved them all, they were all implemented. And, in fact, 
they were very helpful in extinguishing the fire on the 
Carnival Triumph. The Coast Guard noted that the crew performed 
very well in extinguish the fire, containing the fire, and 
putting it out quickly.
    What happened with respect to the Triumph was that the 
cabling that ran over the engine room was damaged, and we lost 
propulsion in the main--in the forward engine room. We were 
able to put the fire out. No one was injured. In either case, 
no one was injured. We were able to fulfill our obligation of 
keeping everyone safe.
    What we did do, very unfortunately, was, we really, 
seriously put our guests in an uncomfortable position. And that 
bothers us a great deal. And, as a result of that, we then 
performed an operational review. We announced, in--we consulted 
with the Coast Guard, actually, before we announced it. We came 
out and announced that we were going to invest over $300 
million across our fleet, concentrating first that--this 
problem, where we lost both engine rooms, which is not supposed 
to happen, to rewire the engine rooms so that that would not 
happen in the future. We're also investing in additional 
auxiliary diesel generators, so, in the rare case you do lose 
main propulsion power, we have backup power to provide better 
hotel facilities. And then, lastly, we are also investing in an 
upgraded fire safety and detection system, a higher-quality, 
more--I guess, more advanced technology has come out in recent 
years--water mist system.
    So, we take our obligations very seriously, Mr. Chairman, 
and we are working very hard. We've also just recently 
announced that we've formed an External Safety and Reliability 
Review Board. There are two former Navy admirals who are on 
that board, as well as people who are--one gentleman from the 
NTSB and another person who comes with a very significant 
airline maintenance background.
    So, we take all of these things--we consider them very 
important, and we are working to improve.
    The Chairman. I'm beyond my time, already, but I was 
fascinated by your opening statement. It couldn't have been 
more than a minute and a half to 2 minutes, and it had no 
content whatsoever. I don't ask you to answer that or pass 
judgment on it, but I was kind of stunned. Everybody else was 
talking substance, and you were kind of walking away from 
things, was my impression.
    Senator Thune.
    Senator Thune. I'd like to--oh, sorry--I'd like to direct 
this to Admiral Servidio. Could you explain to the Committee 
how the Coast Guard coordinates with industry and with 
enforcement agencies in other countries to enforce vessel 
safety regulations?
    Admiral Servidio. Yes, Ranking Member.
    Basically, the way the oversight of a foreign-flagged 
vessel works is that the crew, the owner, and the operator are 
responsible, primarily, for ensuring that the vessel complies 
with all the international requirements. That's sort of the 
first rung of the safety net.
    The next rung is the flag state, which is the flag that the 
vessel flies, be it Bahamas, Panama, Malta. And the flag state 
has a requirement to ensure that, again, vessels that fly their 
flag comply with this.
    The next rung in that safety net is the class societies, 
who perform an oversight function, for insurance purposes.
    And the last rung is the Coast Guard, which does port state 
control, sir. So, when a foreign-flagged vessel comes to the 
U.S., we enforce both U.S. laws and the international laws on 
that vessel.
    So, that's the way--there's an international set of 
requirements. Each flag has their own set of requirements, sir. 
Class society has rules that also need to be implemented. And 
then, here in the U.S., sir, when the vessel comes in, if it's 
foreign-flagged, we conduct oversight to ensure the vessel is 
in compliance.
    Senator Thune. So, just to be specific on that, it's 
accurate to say that, even if a vessel is foreign-flagged, it 
is responsible for complying with all relevant U.S. safety 
standards.
    Admiral Servidio. Yes, sir. The vessel is required to 
comply with the international standards; and, likewise, they're 
required to comply with the U.S. standards that are in addition 
on cruise ships that we have, sir.
    Senator Thune. OK.
    Mr. Cahill, as you know, the Coast Guard, last week, issued 
its final report on the 2010 Carnival Splendor incident 
involving the engine fire and the complete loss of power. 
You've talked about some of the steps that Carnival is taking--
it sounds like, sort of, proactively--to correspond with some 
of the recommendations made in that report. I'm wondering if 
there are recommendations that were made that Carnival 
disagrees with.
    Mr. Cahill. In thinking, no--no, Senator, I think we agree 
with their recommendations. Most of the recommendations that 
the Coast Guard came up with, we had already implemented. We 
had our own fire safety experts who came in. We had four or 
five independent experts that we hired who worked at the same 
time as the Coast Guard. They primarily noticed the same 
things. We went right ahead and implemented them. So----
    And, basically, as I mentioned before, those things were 
very helpful. They were effective in putting out the fire on 
the Carnival Triumph.
    Senator Thune. Mr. Rosenker, you serve on CLIA's Panel of 
Experts that makes safety recommendations to the cruise ship 
industry. Can you tell me what major recommendations you've 
made recently, and what the reaction has been of the cruise 
lines to those recommendations?
    Mr. Rosenker. Yes, sir.
    We took a look, after the operational safety review that 
was going on, at a number of recommendations that we believe 
would go a long way to raise the bar of safety within this 
industry. And what we did was make these recommendations back 
to the industry; and they questioned a few of them, but 
immediately said, ``This is the right thing to do.'' And I 
found, having had experience in making recommendations to 
industries beyond the cruise industry--the rail, aviation, 
highway, pipeline--that, many times when I made 
recommendations, it took a while for those industries either to 
act or to finally implement what we had asked. This one was 
done very quickly.
    The 10 policies, which I submitted in my testimony, 
ultimately were put forth to the IMO, and they, too, had been 
accepted for implementation.
    So, I was--and along with my colleagues at the Independent 
Panel of Experts--we were impressed with the expeditious manner 
in which the industry accepted our advice and adopted the 
policies.
    Senator Thune. We have other members who want to ask 
questions, Mr. Chairman, so I'd--my time's expired, so I'll 
pass and allow them to do so. Thanks.
    The Chairman. Well, you gave them an extra second.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairman, and thank you, Ranking 
Member.
    I have a question for the Admiral.
    First of all, thank you, Admiral, for appearing before the 
Committee. And let me say how grateful we all are, to you and 
your colleagues in the United States Coast Guard, for your 
service and providing a first-responder service to ensure that 
Americans at sea enjoy the same level of safety and security 
that they do on land.
    As we've heard today and in previous hearings, the Coast 
Guard plays a critical role in the safety and security of 
cruise ship passengers, from ensuring that cruise ships make--
that make a port of call in the United States are in compliance 
with safety and environmental regulations to responding to 
accidents at sea. And I know you have 11 statutory missions, 
and you're having to balance, as all Federal agencies are, all 
of those missions under the constraints of the sequester.
    So, my question is, Can you speak to the resource 
constraints that you have, in terms of your emergency response 
capability and also your inspection regime?
    Admiral Servidio. Thank you, Mr.--thank you, Senator.
    We believe--we conduct our marine safety missions, risk-
based; so, we put the most resources we have to those vessels 
that pose the greatest risk. We do believe we have the 
resources, at present, that we need to continue to conduct our 
oversight of what other flags are doing, what the class 
societies are doing, as part of our port state control, as well 
as with our U.S. vessels.
    Senator Schatz. Could you just divide your answer to the 
emergency response side, as well as the, sort of, inspection 
regime? You believe that you have the resources on, sort of, 
both sides of that equation?
    Admiral Servidio. Well, sir, I think the Commandant has 
gone on record as saying there is great concern with the age 
and the numbers of some of our fleet. So, I obviously agree 
with everything our Commandant has said, sir.
    [Laughter.]
    Senator Schatz. Of course you do.
    I have a question for Mr. Goldstein.
    We've heard, today, about the so-called Passengers Bill of 
Rights. I think it's an important first step. But, bills of 
rights are generally enforceable and there is an accountability 
mechanism. So, I'm wondering if you could articulate what kinds 
of metrics you're going to be putting forward to hold 
yourselves accountable to consumers and to the Committee, to 
the Coast Guard, to all of the various constituencies to which 
you are responsible. I think it's an important first step, to 
articulate what you want to accomplish on behalf of passengers, 
but we sort of need to know how you're going to measure your 
success and hold ourselves accountable, collectively.
    Mr. Goldstein. Thank you, Senator.
    The first thing I would say, because the question was 
raised about this earlier on in the comments, to the extent 
that there was a question as to, ``What is the relationship 
between the passenger ticket contract and the Passenger Bill of 
Rights?''--we would not, as an industry, have agreed to issue 
the Passenger Bill of Rights if we didn't expect that it would 
apply in all the relevant situations that the 10 points call 
for.
    We wanted to be fast in getting it out, and we didn't want 
to wait until however many cruise lines who choose to do this 
would go through whatever process they might need to go through 
to harmonize the passenger ticket contract with the Bill of 
Rights.
    I am aware that, for at least a good number of cruise 
lines, they're now in the process of trying to eliminate any 
perceived inconsistencies.
    The point is that it's supposed to apply. It creates a 
contractual right, between the customers and the cruise lines, 
on which they can take legal action if they feel they've been 
denied any of those rights.
    Senator Schatz. And, in plain language, and up front, in a 
sufficiently large font, in a----
    Mr. Goldstein. In----
    Senator Schatz. No, it's a serious question, because----
    Mr. Goldstein. Yes. In whatever font is required for the 
purpose. And in the case of all 26 cruise lines, on their 
websites, adjacent to the passenger ticket contract so that the 
two are there, side by side, to be viewed, the 10 rights are 
stated publicly at all times.
    And it's a good question about the metrics. This is very 
new. The main metric, I would say, is, Do the passengers 
actually have the right, and are they able to exercise the 
right, to take action? Are they actually able to receive the 
refunds that are meant to be automatically due to them under 
the Passenger Bill of Rights? Whereas, in the past, they would 
have only had the remedy of suing under the passenger ticket 
contract provisions. Are these things actually happening? Is 
there real relief involved as different incidents occur?
    As I mentioned, with respect to Grandeur of the Seas and 
the fire there, our goal was to go far enough beyond all of the 
relevant provisions of the Passenger Bill of Rights so that 
nobody would seek action.
    Senator Schatz. Mr. Cahill, anything to add? Mr. Cahill?
    Mr. Cahill. Yes, Senator?
    Senator Schatz. Do you have anything to add? I have 9 
seconds.
    [Laughter.]
    Senator Schatz. If not, I'll yield back.
    Thank you very much.
    Dr. Klein. May I make a comment to what he just said?
    The Chairman. Mr. Begich is not yet seated.
    I'm sorry?
    Dr. Klein. May I make a comment in relation to the last 
question?
    The Chairman. Of course.
    Dr. Klein. Just--I'll just make it very brief. I mean, I 
guess, in my written testimony, I go in detail with regard to 
either inconsistencies or problems, and I'm not going to take 
the time to do that, since you can read it. But, I do want to 
point out two things:
    The Bill of Rights says there's a right to a refund. The 
practice of the industry is, those refunds are onboard credits. 
I don't think an onboard credit is a refund. It doesn't say how 
refunds are--onboard credits are computed. There's no way in 
which that can be audited.
    Finally, the Passenger Bill of Rights is--states, is that 
it's obligatory on all members of CLIA, and if they don't do 
it, it's--they can't be members of CLIA. When I went through 
websites last week, preparing my testimony--I went to 26 cruise 
lines' websites--I found that 13 of them do not have obviously 
displayed anywhere on their website the Passenger of Rights. I 
could not find it. So, 50 percent of the members of CLIA are 
out of compliance in the Bill of Rights, which is obligatory 
for membership in the association.
    Thank you.
    The Chairman. Thank you.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. I 
apologize, I had to leave here for about a half hour. I was 
chairing a meeting upstairs with veterans folks.
    Let me--I want to follow that up to the industry folks, and 
maybe Mr. Goldstein, or whoever would like to answer this.
    What is the follow-up for members to ensure that they are 
adhering to the Bill of Rights? What--how do you process that? 
I don't know who would like to answer that, but----
    Either one.
    Mr. Goldstein. I'm sorry, Senator. By ``members''----
    Senator Begich. CLIA's members.
    Mr. Goldstein. OK.
    Senator Begich. Like, if you didn't----
    Mr. Goldstein. Yes.
    Senator Begich.--adhere to the Bill of Rights, what--how 
does that work?
    Mr. Goldstein. Right. So, every CEO of a member line needed 
to attest, in writing, to the fact that the Passenger Bill of 
Rights was in effect, that it was displayed on all 26 websites. 
And it is a condition of membership now. So, if we are found to 
be out of compliance with the Passenger Bill of Rights, we 
would have to relinquish our membership in the organization.
    Senator Begich. Let me--in your--the Bill of Rights you've 
put into place in the last 6 months, 8 months--is that a fair 
statement? Do you think, in order to really understand its 
effectiveness or its use by the different cruise lines--how 
much time do you think you need that--is--I mean, you've gone 
through it--from Alaska's perspective, you're in a season right 
now. But, I know, in Florida, the season starts later. I mean, 
everyone has a different season. So, how would you measure your 
success--or, when would you be able to measure your success, I 
guess is a better way to put it?
    Mr. Goldstein. Sure. So, while fully admitting that there 
have been more incidents in the cruise industry this year than 
any of us would like to have seen, they are rare, as a matter 
of historical record, and I would think it would take more 
than--it's actually been only 2 months----
    Senator Begich. Two months.
    Mr. Goldstein.--almost to the day----
    Senator Begich. Right.
    Mr. Goldstein.--since the Passenger Bill of Rights went 
into effect. So, it will take--I don't know; I'm making up a 
number--1 or 2 years, probably, to see exactly what that means, 
in practice.
    Senator Begich. OK.
    Mr. Goldstein. And, hopefully, it will show that the 
passengers are well protected.
    Senator Begich. How many--just so I know. From Alaska's 
perspective, we had 3.5-or-so-million passenger visits. 
Approximately 65 percent of our port-of-call cruise passengers 
visit U.S. ports. Direct expenditure, in our economy, is about 
a billion dollars and 22,000-plus employees. So, a lot of 
impact to our state. You know, not like--maybe Hawaii, to a 
certain extent, but--not, clearly, like Florida, but, you know, 
a lot.
    And tell me, in the overall industry of U.S. port touch, 
how many visits does the industry have--or, how many 
passengers, over a year, would they have? How big is it? And 
either one could answer this. I'm----
    Mr. Goldstein. Yes, I'll just start. With the worldwide 
industry, there will be about 21 million cruises taken this 
year. North Americans will take approximately 11- or 12 
million. The great majority of those, plus some taken by 
others, will occur in and out of U.S. ports. So, the number of 
cruises being taken in or out of the U.S. is somewhere in the 
10- to 12-million-person range.
    Senator Begich. OK.
    And, Mr. Chairman, I was quickly trying to grab the report 
and look through it. Like you, I'm having to my put glasses on, 
because I'm looking at the data points. But, I'm----
    If I read this right--this is the FBI report, and it 
talks--January 1, 2011, through December 31, 2011, Cruise Line 
Incident Reporting Statistics Incidents Report; it includes 
``Other,'' which some industry folks don't have to report it, 
but they do--a lot of them do. The number is 655.
    And I guess--and I don't know what the total incident 
numbers are, because there's, like, three or four different 
charts in there, so I didn't have time to go through it, but 
let me just put that aside for a second.
    We don't--and I'm sure you are of the same view--``no 
incidents'' is great. Right? That's the goal. Right? Is that a 
fair statement?
    Mr. Goldstein. That would be a fair statement.
    Senator Begich. In proportional to other industries, when I 
look at the millions of passengers and the incidents, then, 
compared to it--and ``no incident'' is a good incident--I mean, 
we don't want any incidences--but, in comparison, it's a small 
number. Am I missing that? And again, I know there are lots of 
other data points in here. I'm just quickly grabbing what I was 
able to pull out of this report, here. I don't know if you've 
seen the report at all.
    Mr. Goldstein. We haven't had a lot of time, but the 
Chairman wrote letters to three cruise lines, about two and a 
half months ago. We answered in late May and provided a good 
amount of data, as I'm sure the other two cruise companies did, 
as well. As we move forward and as we begin to report out, as 
of August 1 on our website, all allegations of crime, 
irrespective of whether----
    Senator Begich. Right.
    Mr. Goldstein.--cases have been opened or closed or some of 
the issues that have been prevalent up until now, we will be 
able to compare to the uniform crime reporting that applies 
nationally in the country----
    Senator Begich. For the FBI crime reporting statistics----
    Mr. Goldstein. Right.
    Senator Begich. Yup.
    Mr. Goldstein.--there will be, for the first time, the 
ability to compare, on an apples-to-apples basis, what the 
crime rates are for the principal CVSSA categories to what 
happens on land. And we are very confident that the comparative 
will be beneficial for the cruise industry, because crime is 
relatively rare on our ships.
    Senator Begich. Very good.
    I know my time's up, but I--just a quick answer from either 
one of you on regards to--I know, in Alaska, you guys are 
called on, off and on, by the Coast Guard to assist in 
situations. Is that just an Alaska incident type of situation, 
or--maybe both of you could respond to that.
    Mr. Cahill. Thanks, Senator.
    It's a time-honored tradition that, in the maritime 
industry, we all respond to help another vessel that's in need. 
And the Coast Guard will often call on us in the--since March, 
the Coast Guard called on Carnival ships at least three times 
to assist in distressed vessels. Two times, they were 
relatively small vessels, and the people--we actually took the 
people onboard our ships--that is, to assist the Coast Guard. 
And then, the last time was to assist--to stand by for another 
cruise ship that was in distress. So, we do appreciate Coast 
Guard helping so much, and we try to return the same thing.
    Senator Begich. Thank you very much.
    I'll end there with--I don't know if we'll have a second 
round, but I thank the Chairman for the opportunity.
    Dr. Klein. If we can--if I can offer just a couple of quick 
comments.
    I think one is that, in comparing the Cruise Vessel 
Security and Safety Act, when it was initially proposed and 
what was passed, there were two crime categories that were 
dropped off. And I think it's dangerous for them to be left 
off. That is: simple assaults and thefts below $10,000. As 
Judge Thomas Dickerson, in New York, said--suggested in what--
in a lecture he gave to a seminar of judges, that he felt the 
issue of thefts, dropping those off, was a serious problem, 
because it basically gives permission for those kinds of crimes 
to go on.
    I think the other issue--and I'm not too sure what the--
what's going to be reported, but--I don't want to get into 
rates. What I'd like to identify is----
    Senator Begich. Can I--I hate to interrupt you, and I----
    Dr. Klein. That's OK.
    Senator Begich.--my time is expired, but--you're saying, 
because it's not reported, that then says to everyone, ``Go and 
commit crimes under $10,000''?
    Dr. Klein. Well, the understanding that I have is, a crime 
of value of less than $10,000 is known that it will not be 
prosecuted, and it doesn't get reported. That--you know, and 
I'm not too sure how they're handled, but it doesn't go to the 
FBI. So, you know, the--I guess it's handled internally, if 
it's handled.
    Senator Begich. I don't know if the industry folks want to 
respond----
    Dr. Klein. Yes. Let me just make my other one comment. And 
that is, the data we--last comprehensive data we have was--
through a Freedom of Information Request, was dated for 2007-
2008. And what that data demonstrated, which is similar to data 
from discovery in legal cases between 2003 and 2005--this is in 
an appendix in my testimony--found that close to 18 percent of 
the victims of sexual assault on cruise ships are children.
    I don't want to get tied up in debates. I don't want to get 
tied up into the incidents. My concern is that, when people--
when families bring their children on a cruise, and they're 
told that it's a safe vacation, I think any number of children 
who are being victimized is unacceptable.
    We have two children, an 11-year-old girl and a 12-year-old 
girl, both of whom were--one was molested--or, one was sexually 
assaulted, the other was groped on cruise ships within the past 
4 to 6 weeks. To me, I don't care about the total numbers, I 
care about that those young children are going to live with 
that for the rest of their lives.
    Mr. Goldstein. Thank you, Senator.
    With respect to the latter comment, obviously none of us 
accept anything of that sort, and we all want to work together 
to prevent any allegations or crimes of that nature from taking 
place.
    With regard to crime reporting, since 1996 it has been a 
legal requirement for us in the United States to report all 
felonies. That remains in place, irrespective of the CVSSA 
categories or what have you. So, we report thefts, for example, 
of $1,000 or more, which are felonies, to the FBI. It doesn't 
matter that the CVSSA did not address that. So, in terms of 
categories of crime, we report much more to the FBI than the 
CVSSA required of us.
    Also, the CVSSA is written with respect to ships going in 
and out of the United States. On our websites, as of August 1, 
we will report all allegations of crime, wherever they may 
occur on any of our ships anywhere in the world, and to any 
citizen of any country, not restricted to U.S.
    Senator Begich. Thank you, Mr. Chairman, for your patience.
    The Chairman. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you. Thank you for this hearing, 
Mr. Chairman.
    Thank you, to the members of the panel who are here today. 
All of you have an expertise and knowledge in this area that's 
very valuable to this committee.
    And I want to thank, particularly, Mr. Cahill and Mr. 
Goldstein, for being here. I know that this is not one of the 
great treats or glamorous occasions of your professional lives, 
so----
    We have tough questions, which we have an obligation to 
ask, in my view, because the information coming to me--I think, 
to many of us--is that there is inadequate protection for 
travelers on cruise ships. The issues and problems may be more 
exceptional than the rule, but my impression is that consumers 
and travelers deserve to know better what the rights and 
protections are. And, in some cases, with many cruise ship 
lines, they are more illusory than real. And that's why I've 
become a cosponsor of Senator Rockefeller's bill, the Cruise 
Passenger Protection Act, which would address many of these 
concerns in the areas of enforceability and disclosure, 
transparency, accountability.
    For example, Professor Klein mentioned--and I think it's 
true--that the Bill of Rights that CLIA has issued are 
essentially unenforceable, as a matter of contractual law, 
unless I'm mistaken. Correct me if I'm wrong, Mr. Cahill and 
Mr. Goldstein. Are those guarantees, every one of them, that 
you regard as a contractual right of a cruise ship traveler?
    Mr. Cahill. Senator, yes, we do. We would never have 
published it on our website as a list of passenger rights 
unless we intended it to be enforceable. I have been advised by 
our counsel that it is, in fact, enforceable. Now we are in the 
process of going through and changing our contract so that it 
corresponds to the Passenger Bill of Rights. So, we----
    Senator Blumenthal. And clearly you would not contest 
jurisdiction in any United States District Court, or oppose 
provisions that would grant jurisdiction in District Courts of 
the passenger's choosing.
    Mr. Cahill. I'm not a lawyer, Senator, but we would not 
contest the Bill of Rights. In fact, for all----
    Senator Blumenthal. Well, I'm asking about the forum where 
it's enforced, because a right without a forum, without a 
court, without an enforcer, is illusory. So, they're not--you--
I would be more than happy to give you the benefit of 
consulting with your attorney before you ask. I'm not trying to 
put you on the spot, here. But, may I simply suggest--and you 
can answer at greater length in writing--that you can do 
consumers and travelers a great service by allowing them to 
take action as a matter of contract against you in the forum of 
their choosing. Would you agree to do so?
    Mr. Cahill. I think it's pretty normal practice for a 
company to specify the forum on which it can be sued. In our 
case, it's Miami courts.
    Senator Blumenthal. Well, it may be the normal practice in 
your industry, but not necessarily in all industries. And----
    Let's move on, because I have a number of other points to 
make about the reality of these rights. Let's talk, for 
example, about CLIA right number 3--talks about medical 
attention. In fact, it guarantees--and I'm quoting--``full-time 
professional emergency medical attention, as needed, until 
shoreside medical care becomes available.'' Do your lines 
charge for that medical care? Are passengers charged?
    Mr. Goldstein. Thank you, Senator.
    So, in the normal course, yes, there are charges for using 
the medical center, depending on what the situation is. And 
then there are incidents and accidents, depending on what the 
situation is, where we may waive charges.
    Senator Blumenthal. You may waive, but there are fees and 
charges, which----
    Mr. Goldstein. There are normally fees----
    Senator Blumenthal.--which are not indicated----
    Mr. Goldstein.--and charges--which are normally subjected 
to insurance.
    Senator Blumenthal. And with respect to your line, Mr. 
Cahill?
    Mr. Cahill. Senator, it would be the same.
    Senator Blumenthal. I might cite from Carnival's ticket 
language--and I'm quoting--``Carnival, in arranging for the 
services called for by the physician or nurse, does so only as 
a convenience for the guest. Guest agrees that Carnival assumes 
no responsibility, does not guarantee performance, and in no 
event shall be liable for any negligent or intentional acts of 
omissions, loss, damage, injury, or delay to guests. Guests use 
the services of all independent contractors as the guest's sole 
risk.''
    My time is rapidly coming to an end, but would you agree 
with me that, in effect, your cruise lines are disclaiming any 
and all legal responsibility for the quality of care that's 
provided?
    Mr. Cahill. Senator, we have an obligation to research and 
hire qualified physicians. We are not a hospital, but we are 
required to make sure that the physicians that we hire are 
properly accredited, properly trained. And we do that. So, we 
are legally liable to do that.
    Senator Blumenthal. Mr. Goldstein?
    Mr. Goldstein. Yes, we are in the same position.
    Senator Blumenthal. So, you would not dispute legal 
liability for medical malpractice by one of those doctors 
performing services during one of your trips.
    Mr. Goldstein. My understanding is that--to the point that 
Mr. Cahill was just making--if we make a poor choice, if we 
choose somebody who is unqualified to provide that medical 
service, we are liable and subject to a lawsuit for failure to 
do so.
    Senator Blumenthal. But, apart from the credentials----
    Mr. Goldstein. Apart from the----
    Senator Blumenthal.--you would disclaim any responsibility. 
Your--the limits----
    Mr. Goldstein. Yes.
    Senator Blumenthal.--of your acceptance of liability is--if 
there--if that person has a diploma or a credential, that's 
where your liability ends. Is that correct?
    Mr. Goldstein. The appropriate diploma or credential, yes.
    Senator Blumenthal. Same with you, Mr. Cahill?
    Mr. Cahill. Yes, sir.
    Senator Blumenthal. Thank you.
    My time has expired. I apologize for running over, and I'll 
follow up in second round of inquiry.
    Dr. Klein. One quick----
    The Chairman. Yes.
    Dr. Klein. Just want to mention, real quickly, that the--
this issue of liability was handled both by the Florida State 
Supreme Court and by the U.S. Supreme Court. It was the case 
Carnival Corporation versus Darce Carlisle. And that would have 
been in 2007. The legal opinion in that case with the--which 
the cruise industry argued for and was able to get--was that 
they are not liable for the behavior of a physician conducting 
malpractice on one of their cruise ships.
    The Chairman. I'll absorb that as best as I can.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    The Chairman. Did you want me to make a speech welcoming 
you once again to the Committee?
    [Laughter.]
    Senator Markey. I feel welcomed. And I'm glad that you've 
introduced legislation in this area. And I would like to, as 
one of the first things I do, is to ask to be added as a 
cosponsor to your legislation. So----
    The Chairman. With pleasure.
    Senator Markey. And I thank you. This hearing has been 
highly illuminating.
    May I ask you, Admiral Servidio--I know there has been some 
reference to this accident off the coast of Louisiana, and 
there is, right now, from the Coast Guard, an update saying 
that there is significant risk of losing the blowout preventer. 
Could you tell us what are the consequences of losing the 
blowout preventer in a situation like this? What would the 
impact be upon the Gulf of Mexico?
    Admiral Servidio. Thank you, Senator.
    From what I understand, the Hercules 265, which is the--an 
oil rig that was drilling--I believe it's about 40 miles off 
the Louisiana coast--suffered a well kickback; and, as such, 
gas came up, and there was an explosion last night. And, as a 
result of that explosion and the fire, the cantilever, which is 
pretty much the derrick--the floor of--on which the derrick was 
drilling, has collapsed. And, with that--I understand that the 
crew was interviewed before they evacuated; everyone evacuated 
safely from the mobile offshore drilling unit--that they said 
they actuated the blowout preventer, but, for whatever reason, 
it seems like it did not work. I don't know, at this point in 
time, sir, on why that might have happened or whether the rams 
actually, which are, basically, two hydraulic presses that 
squeeze together--I don't know whether they actually actuated 
or whether they didn't, sir.
    If there is no blowout preventer, then there might be a 
number of options that I know the Unified Command is looking 
at. I don't know whether capping, in a capping stack, would be 
a potential. The--due to the sand that might be in the 
formation, it might plug itself. There are a number of 
different things that could happen, sir. We're working with 
BSEE, the Bureau of Safety and Environmental Enforcement, and 
the Unified Command is looking at what those potential options 
are and what might be. I can't----
    Senator Markey. Is there----
    Admiral Servidio.--speculate, sir.
    Senator Markey. Is there a chance that the rig could sink 
if they cannot get close enough to fight the fire?
    Admiral Servidio. There is a chance, sir, that, if the--if 
we can't fight the fire and it continues to burn, that there 
will be metal fatigue, and that will infect the vessel, sir.
    Senator Markey. And what would that mean for the Coast 
Guard or for the industry, in terms of capping the well, if the 
rig actually sank?
    Admiral Servidio. Again, sir, I don't know specifically on 
what that would do. I think a lot would depend upon what 
happens with the rig and how it would end up--if it does have a 
failure, how it would end up failing. And I don't know the 
pressures of the formation or anything else, sir, so I really 
can't speculate, Senator.
    Senator Markey. But, it could take upwards of 20 or 25 days 
to have a relief well that is actually drilled, if this rig 
sinks, if there is an inability to deal with it.
    Admiral Servidio. Senator, I believe both the Coast Guard 
and BSEE issued, or are issuing, a joint order to start the 
process of drilling a relief well. I'm not sure whether there 
are other contingencies, but I think they're starting to get 
that process in place, should that happen.
    Senator Markey. Yes. You know, there was another event like 
this, just 2 weeks ago, where there was a loss of well control. 
And this is just a second incident in 2 weeks. So, again, it's 
just something that we have to learn, that when we don't put in 
the proper policies that ensure that these events are 
preventable, that they become inevitable, and they recur. And 
we're seeing it, now, twice in just 2 weeks.
    Admiral Servidio. As you're aware, Senator, the Coast Guard 
has responsibility for the safety systems onboard that mobile 
drilling unit. The Bureau of Safety and Environmental 
Enforcement looks at the drilling systems, the BOP and other 
types.
    Senator Markey. Thank you.
    Admiral Servidio. But, we share. We work together.
    Senator Markey. Thank you. Thank you, sir. Thank you for 
your service, and thank you for the Coast Guard's work in this 
instance.
    Mr. Chairman, for the past three Congresses, I have 
actually introduced the Travelers International Bill of Rights 
in the House of Representatives. And this relates to a similar, 
but not identical, issue, here, that we're talking about, which 
is a consumer who purchases international vacation travel 
online. My bill would require travel website operators to 
prominently post information regarding the health and safety 
conditions at overseas travel destinations, such as the 
availability of lifeguards, medical personnel, as well as 
information from the Department of State on crime statistics 
and travel warnings related to their destination. So, this 
would actually relate to passengers on ships that disembark 
when they go into these vacation destinations.
    So, I'll tell you why. Maureen Webster, she was a 
constituent of mine in Woburn, Massachusetts--she educated me 
about the potentially deadly consequences that can result from 
lower safety standards and medical response capabilities at 
some overseas travel destinations. Her son, Nolan, died at a 
resort in Mexico, when he did not receive the medical treatment 
that may have been able to safe his life.
    So, I'm planning on introducing that legislation in the 
Senate, as well, because, by having easy access to health and 
safety information, Americans can actually make more informed 
decisions about where to travel and where to stay when they are 
overseas.
    We've recently heard a number of serious incidents that 
compromised the safety of cruise ship passengers, including 
serious mechanical failures that left thousands of passengers 
stranded for days, navigational mistakes that led to passenger 
deaths, et cetera, violent crimes that were committed onboard. 
But, the same thing happens when passengers disembark in 
individual countries. And that information, in my opinion, as 
well, should be made available.
    So, Dr. Klein, what do you think about that, in terms of 
that next step in giving protection to consumers?
    Dr. Klein. Well, I very much agree with what you're saying 
and the need for that for international travelers, but also for 
cruise passengers. For example, there are cases--I mean, not 
frequent, but there are enough--of people going on shore 
excursions and being robbed, or going on shore excursions and 
dying. In my testimony, I give a list of the number of deaths 
onshore for people who have taken a cruise.
    And I think, as long as your legislation would extend to 
including what happens ashore to cruise passengers, not just 
people who have flown to stay in that location, I think it 
would be a wonderful and a very positive move.
    Senator Markey. Mr. Cahill, what would you think about 
that--giving that information to passengers on cruise ships or 
to anyone just going into a country, flying in, as well?
    Mr. Cahill. Senator, we actually try to do that now when we 
have concerns about a particular area. We have a security 
group. We review ports before we go. We have actually canceled 
calls in a number of ports--we've stopped going to ports--when 
we've had concerns about it. But, our security team reviews 
for--is there potential with terrorism in that particular part 
of the world? We look to see, Is there civil unrest? If there's 
civil unrest, we're probably going to pass on that port.
    But, we also look at local crime. We work with local 
authorities. And we will give notices to our guests. I mean, to 
some extent, it's common sense, just like when I'm home, there 
are certain parts of town you may not want to go to at night. 
We will tell the same things to our guests there. So, we try 
and do that, today, Senator.
    Senator Markey. But, would you support requirements that 
travel website operators who sell cruise vacations must 
prominently post this information for consumers shopping for a 
cruise so that they can understand what the dangers, what the 
health conditions might be in these individual ports? Would you 
support that being posted, as well, on the websites of the 
travel----
    Mr. Cahill. I think I have to look at it, first, Senator.
    Senator Markey. Mr. Goldstein, what would you think about 
that?
    Mr. Goldstein. That sounds like something that the industry 
would be definitely open to dialogue about. We want our guests 
to be informed. Both our companies and, I think, other cruise 
companies have very experienced people. In our case, our head 
of Security, Safety and Environment was a very senior long-term 
ranking official at the FBI. I believe Carnival's person had a 
long and distinguished career at the Coast Guard.
    So, we are constantly evaluating. And it seems like an 
eminently sensible idea. But, I just want to stress that things 
change all the time. So, for example, with the recent unrest in 
Turkey, cruise ships are obviously going in and out of Turkey, 
land-stay vacationers are going in and out of Turkey. We're 
monitoring that situation literally hour by hour to make sure 
that--it is still okay for the ships to go there, and so forth. 
So, it's a very important subject for us.
    Senator Markey. I appreciate that. But, it turns out that 
Maureen Webster, in talking to me about her son, basically 
learned, as I learned in helping her, that all of this 
information was knowable, that she learned so much about where 
her son was going after the fact that, if there had been a 
conversation beforehand, might have prevented him ever going 
there. So, that was a destination in Mexico, but it could have 
been in many other countries in the world. So, I would like to 
work with you on that, just so that information is made public.
    So, I thank you, Mr. Chairman.
    The Chairman. Senator Markey, thank you very much. That was 
a substantial input of 10 minutes and 13 seconds.
    [Laughter.]
    The Chairman. But, of course, very interesting.
    Senator Markey. I was playing under American League rules. 
I'm over here in the National League. So, I'm just learning the 
rules----
    [Laughter.]
    Senator Markey.--you know, designated hitter, you know----
    Senator Thune. Mr. Chairman----
    Senator Markey.--proxies, all different rules over here. 
So, I'm----
    [Laughter.]
    Senator Markey. Thank you, Mr.----
    Senator Thune. Having served with the Senator from 
Massachusetts in the House, I know there's a real pent-up 
demand to talk for long periods of time when you get to the 
Senate.
    [Laughter.]
    Senator Markey. When you move from a 1-minute rule----
    [Laughter.]
    Senator Markey.--right, it's liberating.
    Senator Blumenthal. And maybe in the Grapefruit League.
    [Laughter.]
    The Chairman. Let me make a comment and read something 
controversial.
    My impression of this hearing is that there's a bit of a 
Kabuki dance. I mean, my mind is not neutral on this. And I 
come from a state where we have a lot of coal mines. And 
although it may be very odd to compare coal mines to cruise 
ships, the psychology focused within the management of coal 
mines and what we're talking about here seems to be somewhat 
parallel.
    There is danger every day in the coal mines. People 
understand that. But, since coal mines, like cruise ships are 
located beyond the borders of 3 miles, nobody really knows 
what's going on. There's no 911 reporting system. And so, you 
have to depend on whatever the rules are of management on that 
cruise ship.
    In the coal mines, that can be very deadly. When we do have 
accidents, they sort of stop the world, at least the coal-
mining part of the world, and parts of the Congress. And 
Republicans and Democrats come together, and they pass mine 
safety legislation, because there's a shock factor, where, in 
fact, there should not have been a shock factor, because the 
elements leading up to that were there all the time for those 
of us who've dealt with coal mines and miners for years and 
years--and coal operators, in particular.
    I have a feeling that those who operate here are showing 
the good side, emphasizing how infrequent these matters are. I 
think I've heard it mentioned a couple of times, of passengers, 
but not very much. And I think there are some people who want 
to see good done. And that, after all, is the purpose of an 
oversight committee. We take that extremely seriously.
    So, Mr. Rosenker, I will just highlight in my statement, 
yes, you're the former chairman of the National Transportation 
Safety Board, and yes, you are also the CLIA-appointed Panel of 
Experts--you belong to that. But, you see, that doesn't make 
you a free actor. That makes you a part of the system. You can 
answer, at the proper time.
    Mr. Rosenker. Thank you, Chairman----
    The Chairman. I--at the proper time.
    Mr. Rosenker. Oh, I'm sorry.
    The Chairman. I want to read to you--a predecessor of 
yours, Jim Hall, who I've known for 30 years, and who had some 
part of, in fact, saving my life, at one point, in Tennessee, 
which doesn't bias me toward him, because this is a different 
subject. But, this is what he had to say. And I didn't see this 
until last night, until--we just got it last night. As you 
know, he was head of NTSB from 1994 to 2001. He recently made 
some comments about the cruise industry that I will share with 
you.
    He said that the IMO--in other words, the International 
Maritime Organization--and other cruise regulators are ``paper 
tigers''--his words--that haven't been able to get, quote, 
``bad actors out of the industry.'' He said that the maritime 
industry is, quote, ``a culture that has never been broken, as 
the aviation industry was''--and you see evidence of that in 
the Costa Concordia accident--by which I mean we had a lot of 
trouble with getting aviation to take seriously the problems of 
the amount of sleep that their pilots got, and the propeller 
people, who had to travel over the country and could get hardly 
any sleep, as opposed to those who flew international flights 
pretty much on automatic control and made a lot more money. And 
he even said that, though cruise ships may seem and feel 
American, they flag in countries like the Bahamas and operate 
outside of reasonable and safety standards.
    I think there was a discussion earlier which I felt I 
disagreed with, and that is that if it was--that, you know, 
safety standards applied, no matter where you were. I think 
that's not true. American standards of safety apply within the 
3 miles. Outside of that, it's your world, your ball game.
    And he said that people who book cruises should be aware of 
all of this, operating outside of reasonable safety standards. 
And he says that the industry is, and has been, an outlaw 
industry. Those are strong words from a moderate Southern 
person, who I greatly respect.
    Frankly, that introduces the kind of controversy that I 
want in this hearing. You, on the one hand; him, on the other 
hand. What they say, I expect. What you say, I don't expect, 
except as I understand not breaking the culture.
    So, what are your comments on Jim Hall's statement?
    Mr. Rosenker. Thank you, Mr. Chairman.
    And I, too, along with you, respect former Chairman Hall. 
He was an excellent head of this board that I had the privilege 
to chair for 6 and a half years.
    Let me put a little perspective in. And I think you will 
appreciate this, sir, because of being Chairman of--this 
oversight committee goes across all modes of transportation.
    When I served and got confirmed by this committee, in March 
of 2003, until I left, in August of 2009, 2000--and this is 
approximate--210,000 people died on our Nation's highways; 36 
million accidents, 18 million injuries. During that same 
period, 210 commercial airline accidents and incidents, 
resulting in 10 fatal accidents, for 138 fatalities. In the 
rail, without including the 180 people that committed suicide 
during that six and a half years, 317 people died in 
operational fatalities. In that same period, in the cruise ship 
area--and this is according to G.P. Wilde, who is the 
authoritative statistician that covers this industry--18 people 
died, three of which were passengers and 15 were crew.
    None of those are acceptable fatalities, but I'm just 
asking for a perspective to understand where we need to be 
really looking to raise the bar of safety, not just in our 
cruise ship area, but clearly in others, as well.
    The Chairman. Sir, you do this committee an injustice, and 
one which offends me, because we do that--you're unaware of it, 
but----
    Mr. Rosenker. Oh, no, sir, I'm quite aware of it.
    The Chairman.--we do it on a constant basis.
    Mr. Rosenker. I do--I know that----
    The Chairman. We do not accept----
    Mr. Rosenker.--and I applaud the work that you're--been 
doing. But----
    The Chairman.--in any----
    Mr. Rosenker.--I just wanted to put it----
    The Chairman.--in any way, shape----
    Mr. Rosenker.--in perspective.
    The Chairman.--or form----
    Mr. Rosenker. Yes, sir.
    The Chairman.--a comparison between the number of deaths in 
one industry, as compared to the number of deaths in another 
industry. In that case, the coal industry might look quite 
good. That's not my view, generally, of the coal industry. And, 
in fact, I even worked it out so that they had to pay--anytime 
they had to--an accident of any sort, they had to post it on 
the SEC website. And I did the same with--since we do some 
cybersecurity, with hacking. That now is law. If you're hacked 
into, you have to post it on the website. Now, that's aimed at 
the shareholder, not the passenger.
    But, I'm--I think I'm--I think we're talking past each 
other. I'm not sure what we're accomplishing here. I think it's 
helpful, in that it sort of sets up who's on what side of 
which, and therefore, ``How can you measure what they say?'' 
But, it has not been as successful, from my point of view, a 
hearing as I would like.
    And I will leave it there and turn to Senator Blumenthal.
    Dr. Klein. May I make a comment?
    The Chairman. Yes.
    Dr. Klein. If I may, just want to make a very quick 
comment.
    We had a variation of this conversation at the last 
hearing, 16 months ago. And I had asserted that I think one of 
the problems with the industry is an issue of--they listen to 
the insiders, but they don't listen to the outsiders. And 
anybody who's not part of the industry who has an opinion is, 
basically, ignored, somehow marginalized.
    And I recall--to Senator Rockefeller's comment--that the 
CEO of CLIA suggested that perhaps CLIA should have a 
conversation with me. Now, I don't take this personally. And 
the CEO turned to me and says, ``Oh, yes, we will be talking to 
him, because he may have some valuable insights.'' That's 16 
months ago, and I've received no call. Again, I'm not hurt. 
This is--it's not an ego. But, I think it reflects that, ``If 
you're not one of us, you have nothing to offer to us that can 
help us.''
    The Chairman. Point taken.
    Actually, Senator Begich----
    Senator Blumenthal. I'm--with apologies, Mr. Chairman, I 
will have to leave to preside----
    Senator Begich. Let him do that, then.
    Senator Blumenthal.--but----
    The Chairman. Can you put in one final question?
    Senator Begich. No, go ahead. I'll follow him. I'll follow 
him.
    Senator Blumenthal. Let me ask you----
    The Chairman. You mean to preside over the Senate? What a 
miserable task.
    [Laughter.]
    Senator Blumenthal. No comment.
    [Laughter.]
    Senator Blumenthal. Mr. Cahill and Mr. Goldstein, we were 
talking, a little bit earlier, about limits on liability, 
limits on where remedies can be enforced--with those limits, 
I've looked and read carefully at CLIA, and I don't see any 
indication of what those limits on liability are. Wouldn't you 
agree?
    Mr. Goldstein. I'm sorry, I didn't follow.
    Senator Blumenthal. Well, for example, the limits on what 
standards are enforced when the guarantee--and it's a 
guarantee, in CLIA, that medical care would be provided--
nowhere is there any indication that fees are going to be 
charged. That's correct?
    Mr. Goldstein. Right. As you noted, the Passenger Bill of 
Rights does not comment on that aspect of the requirement to 
provide the necessary medical care.
    Senator Blumenthal. And there's no indication as to the 
limits on what passengers can seek, by way of recourse, if 
there's negligence in the provision of medical care. You simply 
guarantee that a doctor has a diploma; you don't guarantee the 
doctor's going to provide adequate medical care. That's--is 
that correct?
    Mr. Goldstein. Yes. But, I will note----
    Senator Blumenthal. And there's no indication, in CLIA, of 
that limitation on your obligation. Is that correct?
    Mr. Goldstein. That is correct. But, I--if I may----
    Senator Blumenthal. Wouldn't it be clearer if--and more 
transparent--if, as to that right--and, by the way, many other 
rights--and I'm going to be following, with the Chairman's 
permission, with some more detailed questions in writing, not 
only about what your lines guarantee, but what others do, as 
well, because you may be the leaders in the industry; you may 
be the good guys. But, wouldn't it be preferable if more of 
those limits, more of the nontransparent restrictions or fees 
or charges were provided in CLIA instead of in the fine print 
of contractual disclaimers of obligations?
    Mr. Goldstein. It may be, Senator. I just would emphasize 
two things.
    First, we wanted to be able to issue a Passenger Bill of 
Rights faster rather than slower. And----
    Senator Blumenthal. But, a Passenger Bill of Rights can be 
misleading.
    Mr. Goldstein. Our intention was----
    Senator Blumenthal. To put it very bluntly, it can do more 
harm than good.
    Mr. Goldstein. It certainly----
    Senator Blumenthal. It would seem to a guarantee a right 
that, in fact, is illusory.
    Mr. Goldstein. OK. I can tell you that we do not believe, 
nor does our counsel, who has advised us, believe, that any of 
those rights are illusory. We believe that it has gone beyond 
the standard ticket contract, over time, in meaningful ways.
    And then, the second thing is that we're trying----
    Senator Blumenthal. Well, that may be part of the problem, 
that the standard ticket contract limits your obligations and 
CLIA seems to expand them, but, when the rubber meets the road, 
you go back to the contract and insist on what I'm calling 
``the fine print'' in the contract, that, in effect, narrowly 
constricts and limits the rights of the passenger.
    And when I say ``you,'' I'm not necessarily talking about 
your line; I'm talking----
    Mr. Goldstein. Yes.
    Senator Blumenthal.--about ``you,'' other lines, as well. 
I'm not here to sort of cross-examine you or put you on the 
spot. This is not about your line or Mr. Cahill's; it's really 
about the industry.
    Mr. Goldstein. No, I understand. I just want to emphasize--
I believe Mr. Cahill noted this, in passing, earlier--for at 
least a good number of cruise lines--I can't say for the whole 
industry, but for at least a good number of cruise lines right 
now--there is a process in place where the ticket contract is 
being modified and harmonized to accord with the intent of the 
Passenger Bill of Rights so that this potential dilemma doesn't 
exist.
    Senator Blumenthal. Well, that is a welcome development. I 
hope it will be accelerated and enhanced, and enlarged by 
proposed legislation like the Chairman's, which Senator Markey 
and I have joined, and that the good guys in the industry will 
join in educating us as to how the potential abuses can be 
reduced, and the whole industry made more transparent and 
accountable.
    And I apologize, Mr. Chairman, for taking more than 3 
minutes, here.
    And, to my colleague, Senator Begich, thank you for letting 
me have this additional time.
    And really appreciate all of you being here.
    The Chairman. Thank you, Senator.
    Senator Begich.
    Senator Begich. Thank you.
    And, Senator Blumenthal, it's okay, because you get to 
preside and I don't have to.
    [Laughter.]
    Senator Begich. So, that's a plus.
    Let me--you know, I was listening to the Chairman's 
comment. And, all due respect, I think it's important to know 
the data comparison--I think that's what you were trying to 
do--not to question the Committee's--because we have done a lot 
on airlines, I'll tell you that. And, you know, we've clamped 
down, based on some disasters. But, I'm going to give you a 
whole different data point that I want to make sure is part of 
the record, and I want to submit this for the record. It's 
crime-rate calculations for the three top cruise ship industry 
folks which accumulate 90 percent of the traffic, basically.
    [The information referred to is retained in Senator 
Begich's files.]
    Senator Begich. And when you take rates, like assaults with 
serious bodily injury, it's 3.8 per 100,000. But, when you 
compare it to cities--and I was a mayor, so I can legitimately 
say this--it's 27.1 per 100,000. It's nine times worse in a 
city.
    Now, again, we believe, as a mayor--former mayor--and, I'm 
sure, you also--zero is the goal. No one questions that. Am I 
correct on that? That is the target. But, when you look at 
others--and, you know, the horrendous crime of rape on cruise 
ships, so the 90 percent, the three top, is 5.9 per 100,000; 
but, when you compare it, again, around 27 percent per--for the 
cities. Sexual assaults, 8.7 per 100,000, 97.2 per 100,000 in 
cities. I just want to, you know--data is data. We can argue 
over data. But, it's data.
    But, here, I guess I have a question. Is there any data--
you know, I just took a ferry from the Cape over to Cape Cod--
or, over to Martha's Vineyard. I didn't get any Bill of Rights. 
I didn't get a ticket. I got a little piece of stub. It didn't 
tell me anything of my rights. And I can guarantee there have 
been incidences on ferries--theft, other incidences--crashes, 
disabled--I can go through the list. I don't use a lot of them, 
because, on the East Coast, they're more apparent, because of 
the way they move through the islands. We have some in the--
southeast Alaska, run by the State of Alaska. But, I'm not 
familiar with--when I went and paid my $8, that I got some long 
explanation of all the issues.
    The other thing I'll put on the record, because, I think, 
Mr. Chairman, you're right, there is some differences. You 
know, I come from a state that understands the cruise ship 
industry. We've hammered on you on certain areas around--
especially our environmental. We have folks that--Ocean Rangers 
that are on your ships, when you come into our waters, to make 
sure you provide the environmental safety standard we require. 
We have onshore requirements of waste disposal, for example, 
that is very unique to our state.
    But, at the same time, there's a balance. For example, I--
you know, Senator Markey, in all due respect, I'd be interested 
in his legislation, to look at it, but are we now going to do 
hotel packages, airline packages? I can tell you, on limited 
liability that Senator Blumenthal brought up, every federally-
funded healthcare clinic has limited liability set up by the 
Federal Government so the Federal Government doesn't have to--
responsible for those doctors. It's very interesting that we 
have tort reform for us, so we don't get sued--because these 
clinics are all out there, and we're not sure--but, they're 
contractors, and we assume, because they are diploma'd they've 
done internships, and other things, that they have the 
experience. I'm assuming that's the same way you do it. I may 
be wrong about that. But, I'm assuming you're not just getting 
a ``doc in a box'' with a certificate and hope to God they work 
out okay. I'm guessing that.
    And, you know, honestly, Dr. Klein, your comment that 
onshore crime occurs--is somehow the cruise ship's fault--now, 
you didn't say that, that exact way, but you implied it. Does 
that mean, when I fly to a community that I get mugged or my 
money is taken, the airline is at fault? No. Absolutely not.
    So, I'm all for--because you all remember last year on the 
Coast Guard reauthorization, that we worked, and I made sure 
some new rules were put in play on safety standards and other 
things that you were required to do. So, I'm all for it. 
Guaranteed. But, we have to be careful of how far we expand the 
government regulation component when we need to have safety on 
these ships--there's no question about it--and, you know, 
again, you remember the conversations we had last year, and 
continue to have these conversations. But, I want to be careful 
of the broad statements that are made, at times.
    And, Mr. Chairman, I have not looked at your bill, but I 
have one major concern, I will tell you. DOT is not--I 
understand the reason why, but DOT, to write standards and to 
manage an issue like this would make me very nervous. Consumer 
Protection, I think, is an important agency. DOT has a hard 
enough time figuring out which roads they're building, what 
bridges they should do, what airports they should manage. I get 
very nervous about DOT. I'm caught talking as a mayor who had 
to deal with DOT on a national and a local level. But, I think, 
if there is an agency--I don't know if the Consumer Protection 
Agency is the right one, but I just want to give my two bits.
    I have not reviewed your bill in detail, other than that 
piece of it, and I--I just know my headache with DOT is large, 
and increasing on an annual basis. I thought I'd ended when I 
was done being mayor, to be frank with you, but coming here and 
listening to the Federal DOT is even worse. But, I would give 
that cautionary note as a bill is being put together.
    But, I just--you know, in all due respect, I think it's 
important that we look at this and--the incidents that have 
occurred have been very visible. No question about it. And the 
families and individuals that have been harmed have had 
impact--not only to us in our policy decisions and discussion, 
but to them, personally, obviously. But, let's be careful and 
cautious of how we approach this.
    And I'll leave it on this one note. I didn't realize we 
were going to talk about oil and gas industry when Senator 
Markey was here, but let me give you an example. When we were 
drilling, this last--Arctic--last summer in the Arctic--Shell 
was drilling in the Arctic Ocean. But, their incident that 
occurred was not in the Arctic Ocean, it was 800 miles away, 
because of a transportation issue. We heard about it all over, 
everywhere. They never spilled a drop of oil, no incident and 
injury.
    Now, saying that, we've had a fishing vessel spewing oil 
out for some period, here. Most in this room have no idea that 
has occurred, because it didn't have an oil company name 
attached to it.
    We had a military ship run aground, probably 2 years ago--
you may remember this, as a Coast Guard--run aground because it 
was trying to help a village move because of a climate-change 
issue--ran aground, spilled tons of diesel. We never heard 
about that, because it didn't have the word, you know, X Oil 
Company on there.
    So, we've got to be careful, here. We--you know, if we're 
going to look at cruise ships, then we'd better add ferries in 
this, because they have more passenger movement, and some of 
those ferries are held together by duct tape. And I didn't--you 
know, I like getting on them, because they're fun, they're 
enjoyable. But, you know, I've got to question, sometimes, how 
they're operated, because they're usually operated by local 
governments or State governments that have no money to maintain 
them.
    The Chairman. Senator, is it your view, therefore, that we 
should not proceed in looking at the cruise line industry until 
we've properly done ferries?
    Senator Begich. No. I--what I'm saying is, as I did last 
year, in the Coast Guard reauthorization bill, we absolutely 
looked at them, and made some adjustments in there. But, at the 
same time, I would say, 2 months on the Bill of Rights--you 
know, we can barely--I mean, DOT--it will take them 2 years to 
write the regulations, and then they'll get stuck, as you know, 
on some OMB sanitation department.
    So, I would say that I think we have an obligation, as a 
committee, as whatever that seasons are done, that this 
industry do report to us on what is happening with their Bill 
of Rights, and are they employing them correctly? Is there 
penalties if someone does not respond to them?
    But, 2 months on a new rule that they jumped on--and I give 
them credit. Now, it's not perfect, and I think you guys have 
acknowledged that, and there's some more room, here. But, we 
should spend the time to allow some improvement to occur, 
rather than, 2 months after it, suddenly decide we have new 
rules. Because I guarantee you, DOT will take--it will take us 
a--it--you know, 3 years from now, we will have new rules, if 
we started today and had a bill, just based on the way this 
place operates and DOT operates, in the sense of regulation-
writing.
    So, I would say, Mr. Chairman, that I would aggressively 
work with them on these Bill of Rights, see how--and if there 
are some--like Mr. Blumenthal brought up, if there are some 
issues of disconnect between the rules that are on the ticket, 
the detail of it, and what they're claiming to give to the 
public, then we should help make those aligned, because we 
don't want false advertising; we want correct advertising. So, 
if someone sees this Bill of Rights, they know the detail is 
wherever it is. That's kind of my view on it.
    But, 2 months is not enough time, I will tell you that, 
just from my own experience. But, no, we should continue to 
work everywhere we can to increase safety, but I would include, 
you know--I'm just telling you, Mr. Chairman, I--after riding a 
couple of ferries, you know, we love duct tape in Alaska, but 
I'm not sure I'd wrap a boat in it. That's all.
    I'll end there. There was my question, which--you really 
had no question. More of a commentary.
    Dr. Klein. Can I respond to the----
    Senator Begich. I guess it was a question, then.
    [Laughter.]
    Dr. Klein. I just want to respond to two points.
    First of all, in terms of the issue of crime onshore, I 
would distinguish between general crime and crime when they 
occur on a shore excursion. And what I was referring to in the 
larger part is that, when one goes on a shore excursion and 
they are robbed, when there's an accident that results in 
physical injury or death, I think the cruise line does have 
responsibility. But, if you read the cruise contract, they have 
no liability for that, because those are independent 
contractors.
    So, I think there are two issues there. One is liability, 
one is--it is something that they are selling to passengers and 
endorsing as an activity.
    The other issue is--I can't argue with the statistics you 
gave. However, as an academic, when I give numbers, I've got to 
be transparent about the methodology. And my work has to be 
subject to peer review. So, without my knowing the methodology 
of where--what those numbers--how they're constructed, the data 
from which they're drawn, the definitions that are used for 
those categories, it's hard for me to make any comment, other 
than----
    Senator Begich. That's fair.
    Dr. Klein.--they're numbers. OK?
    So, it's just--you know, again, I'm not judging, I'm not 
asking----
    Senator Begich. Understood.
    Dr. Klein.--questioning the integrity; just that, without 
that information, without peer review, it's difficult to make 
any statement.
    Senator Begich. Fair.
    The Chairman. I want to--we're going to start voting in 
about 5 minutes--make a closing statement, here.
    One issue that we have not spent time talking about today, 
but we've spent a lot of time talking about it as a committee, 
or committee staff, is how the cruise industry uses a loophole 
in our tax code to avoid paying its fair share of corporate 
income taxes.
    Mr. Cahill and Mr. Goldstein, my staff reviewed your 10k 
financial reports for the past 7 years. They found that, in 
this period, your company--your two companies have made over 
$17 billion in profit, while managing to pay only $218 million 
in corporate income taxes. Your collective corporate income tax 
rate, therefore, comes to about 1.3 percent.
    I'm not asking for your comment, I'm just saying what I'm 
saying.
    Your companies are headquartered in the United States. Most 
of your passengers are U.S. citizens. You use our ports, our 
courts, and the services of the Coast Guard and many other 
government agencies, but, because you flag your ships in other 
countries and maintain the fiction that you earn most of your 
income outside of U.S. territory, you do not pay your fair 
share of taxes in this country.
    I would just like you to know that I'm working on 
legislation to close this loophole. My staff has been working 
with the Finance Committee and with the Joint Committee on 
Taxation to develop legislation that would require your 
industry to pay your fair share of taxes. I will be introducing 
this legislation later this week.
    I thank you all for your attendance, and I thank you for 
your patience.
    This hearing is adjourned.
    [Whereupon, at 4:35 p.m., the hearing was adjourned.]
                            A P P E N D I X

                            Worcester Polytechnic Institute
                                     Worcester, MA, August 19, 2013
Senator John D. Rockefeller IV,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation.

Dear Senator Rockefeller,

    I am writing to provide you and the Committee with my thoughts on 
the U.S. Coast Guard post-accident investigation report on the Carnival 
Splendor fire which occurred in the Pacific Ocean on November 8, 2010. 
I was asked to read this report and to provide my thoughts to the 
Committee on ``your insight on the incident, the quality of the 
investigative report, and how anything in your research could help add 
value to the report.'' I note here two important facts: Firstly, this 
was a short turn around request (2 days), therefore, my comments are at 
the 20,000 foot level and are based solely on reading the report, i.e., 
no further investigation was conducted and Secondly, the content of 
this letter represents my own professional opinion and has not been 
endorsed by WPI.
    I find the investigation and report on this incident to be very 
thorough, professional, and comprehensive. As a result of reading the 
full report, I have some thoughts on the incident and in this letter I 
point out some areas where further probing would be beneficial. I also 
suggest some additional recommendations that I deem of value. I have 
organized my thoughts and recommendations into six important areas: 
alarm culture; fireproofing and protection of cable trays; maintenance 
of the emergency diesel generator/system maintenance philosophy; an 
engineering cascade analysis of CO<INF>2</INF> systems, recommendations 
for more comprehensive and effective fire-fighter training, and 
important areas of fire research and development.
Probing of the Alarm Culture on the Ship
    Two of the major factors resulting in the negative outcomes of this 
incident were the significant delay in agent delivery caused by the 
manual alarm reset and the subsequent ignition of the cable trays. The 
report states that suppression agent delivery was delayed 15 minutes 
and that ``this delay was the result of a bridge watchstander resetting 
the fire alarm panel on the bridge.'' The report goes on to acknowledge 
that ``this was a critical error which allowed the fire to spread to 
the overhead cables and eventually caused the loss of power.'' What we 
don't know is why this alarm was reset. I recommend probing the alarm 
culture on the ship. What operational and maintenance issues may be 
uncovered that would explain why the operator's first reaction was to 
reset the alarm? How often do they have false alarms? What's causing 
these and what changes to the installation, operation, and maintenance 
of the fire alarms would result in less false alarms? While there is an 
alarm log given in the report, there is no analysis or further probing 
associated with it. Recommendation 1. Calls for the removal of the 40-
second time delay in the automatic activation sequence for the Hi-Fog 
system. This recommendation correctly notes that ``the seconds and 
minutes following the ignition of a fire are crucial to the 
firefighting response. As such, failure to take quick and prompt action 
to extinguish a fire can lead to major, negative downstream effects.'' 
I agree with this recommendation, however, I feel the delay caused by 
the alarm reset and the fact that alarms are reset is even more 
significant.
Fireproofing of Cable Trays
    To ensure safety and prevent casualties such as fire, loss of a 
prime system, etc, ship design focuses on both the hardening of 
critical systems and on providing redundancy in those systems. It 
appears that in this installation, the electrical cable trays represent 
a single-point failure mode, if the cables cannot deliver electricity, 
most major ships systems are rendered inoperable, yet there was neither 
redundancy nor hardening of the cable trays. I would recommend 
fireproofing and/or other modes of protection for these trays. The 
optimum way to provide this would need to be evaluated but may take the 
form of passive protection such as wrappings or coatings, or may take 
the form of active protection such as a suppression system. The 
potential to re-route the cable trays so they do not pass directly 
overhead of major hazard should also be evaluated. This is already 
common practice in very similar land-based facilities. Recommendation 
2f does call for addressing the susceptibility of all Dream class 
vessels to a complete loss of power; however, it falls short of making 
a recommendation for cable tray protection.
Maintenance philosophy and Maintenance of Emergency Generators 
    The emergency diesel generator (EDG) stopped running several times 
during this incident but we don't know why. I would probe both the 
maintenance philosophy for the ship and the actual maintenance logs for 
specific essential equipment. Maintenance philosophies range from 
fixing something when it breaks down to performing routine maintenance/
testing at scheduled intervals. There are also predictive maintenance 
philosophies and reliability-centered maintenance philosophies. What is 
the maintenance philosophy employed on this ship? How was maintenance 
for the EDG conducted? Was it tested under load? Was it periodically 
exercised?
Engineering cascade analysis of CO<INF>2</INF> systems
    The report recognizes that ``The CO<INF>2</INF> system is a crucial 
line of defense in extinguishing an engine room fire, and must be 
installed and maintained properly so that it operates when needed.'' I 
would suggest broadening this to a full engineering cascade analysis of 
the CO<INF>2</INF> system. A cascade analysis would start with system 
design. What standards were the system designed to? Is the design 
adequate? The CO<INF>2</INF> system on this ship exhibited multiple 
system failures and leaky valves. Thus, the cascade analysis should 
continue from design to installation, maintenance and testing.
Firefighting Procedures and Firefighter Training
    The report states that ``approximately five hours into the 
firefighting effort, the Captain evacuated the engine room and 
attempted to activate the installed CO<INF>2</INF> system.'' The report 
also states that it took approximately two hours to locate the fire in 
the cable runs. The math suggests that fire teams attempted to 
extinguish the fire with portable extinguishers for three hours. These 
point again to a need for reliable, location specific detection and 
better defined and practice firefighting tactics.
Fire Research and Development
    In any fire event, quick reliable detection and automatic 
suppression are key. A study of new detection and suppression options 
for cruise ships should be conducted. Two hours to locate the fire 
along the cable tray is not acceptable, and options beyond 
CO<INF>2</INF> should be evaluated.
            Respectfully submitted,

                          Kathy A. Notarianni, Ph.D., P.E.,
                   Head, Department of Fire Protection Engineering,
               Associate Professor, Fire Protection Engineering and
          Associate Professor, Mechanical Engineering and Chemical 
                                                       Engineering,
                                       Worcester Polytechnic Institute.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                    to Rear Admiral Joseph Servidio
    Question 1. During the week of July 15, 2013, the Coast Guard 
released its investigative report on the November 2010 engine room fire 
that disabled the Carnival Splendor. The report found that the Splendor 
fire-fighting crew did not appear to be familiar with the engine room, 
and the fire-fighting team made errors in decisions critical to 
preventing the spread of fire. Would you say it is important for 
firefighting crews on cruise ships to conduct drills in the engine room 
space so they can move quickly and effectively in the event of a real 
fire?
    Answer. Yes, this is important. As a result of this event, the 
Coast Guard published policy in July 2013, directing Coast Guard vessel 
inspectors to witness a fire drill in the engine room space on all 
foreign cruise ships at the next scheduled examination, and 
subsequently, at least once during a foreign cruise ship's annual 
examination cycle.

    Question 2. Admiral Servidio, the Coast Guard report recommends 
that Carnival address firefighting training deficiencies by revising 
its safety management system. Please explain why the report asks 
Carnival to implement this recommendation not just for the Splendor, 
but across the entire fleet.
    Answer. An effective means to ensure consistency within a fleet of 
vessels is through the company's Safety Management System (SMS) since 
an SMS applies to each vessel in the company's fleet, vice just to one 
vessel.
    For instance, changes made to Carnival Cruise Lines SMS, to improve 
firefighting training, would therefore apply to each Carnival Cruise 
Line vessel. This will ensure that ensure that fire fighting training 
improvements will be implemented company-wide, fleet-wide, and to all 
crew operating throughout the cruise line's fleet of vessels.

    Question 3. The Coast Guard report on the Splendor fire found that 
the ship's CO<INF>2</INF> firefighting equipment was not installed 
properly and had other flaws that prevented it from working properly 
during the fire. The report also said these flaws should have been 
spotted by multiple parties including the shipbuilder, Carnival, and 
the flag country of Panama, or the classification society operating on 
behalf of the flag country.
    Clearly there are multiple parties involved with review of ship 
equipment installation and inspection. But at the end of the day, 
doesn't the ship owner bear the primary responsibility for making sure 
equipment on the ship doesn't present safety risks?
    Answer. Ultimately, yes. The owner/operator of the vessel has 
primary responsibility for the operation of the vessel's equipment, 
while the Flag State, Class Societies and Port States verify compliance 
with established regulations and standards.

    Question 4. After the Carnival Triumph engine room fire left that 
ship disabled and stranded in February 2013, Mr. Cahill emphasized to 
the press that ``everyone was safe,'' and ``what we're talking about is 
the convenience of the guests.''
    I am concerned that such comments minimize the potential dangers of 
onboard fires and other cruise accidents.
    The Triumph was stranded in the Gulf of Mexico for four days before 
rescue was complete. If that event had occurred during hurricane 
season, could we have seen different results?
    Answer. It is difficult to speculate what could have happened had 
this event occurred during hurricane season. The wide range of possible 
outcomes would likely have been influenced by alternate actions/
decisions that could have been taken by the U.S. Government or the 
TRIUMPH's owner/operator, and any number of other variables which might 
arise had heavy weather threatened.
    That being said, the Coast Guard recognizes this incident's 
potential for much more catastrophic consequences, and as one that 
needs to be closely examined and learned from by all stakeholders so 
that risks of future occurrences can be reduced.

    Question 5. While no passengers were harmed by the recent fire 
aboard the Royal Caribbean's Grandeur of the Seas, if the fire occurred 
further out to sea and required passengers to be evacuated, could we 
have seen different results?
    Answer. The investigation into this casualty is ongoing. From 
publically available information, the vessel's structural fire 
protection appeared to ultimately largely contain the fire; this result 
would likely not have changed had the fire occurred further out to sea.
    A different scenario requiring an at-sea passenger evacuation or 
abandon ship would be complex but the Coast Guard cannot speculate on 
whether that would have occurred based on the vessel's distance out to 
sea.

    Question 6. As part of the lessons learned analysis, do you think 
it is important for cruise lines to examine potential risks highlighted 
by accidents in addition to reviewing what actually happened?
    Answer. Yes. It is important for any operator/owner of a vessel to 
examine risks identified as causal factors in marine casualties and 
where possible incorporate lessons learned as a part of their Safety 
Management System (SMS).

    Question 7. The Coast Guard has the authority to charge user fees 
for the inspection and other marine safety services it provides for 
vessels and mariners. As originally conceived in the 1980s, the user 
fees were expected to pay for the costs to the Coast Guard and the 
Federal Government of providing the services. Do the user fees the 
Coast Guard charges under section 2110 of title 46 pay the full cost of 
the services for which they are charged?
    Answer. No. The Coast Guard estimates that user fees currently 
cover only 40 percent of the cost of providing the services.

    Question 8. Almost two decades ago, Congress enacted the Coast 
Guard Authorization Act of 1996. That law removed language that 
prevented the Coast Guard from charging user fees for safety 
examination services provided to foreign cruise ships in U.S. ports. 
Does the Coast Guard charge user fees for the examinations it performs 
on foreign cruise ships in U.S. ports? If not, are there any plans to 
do so?
    Answer. The Coast Guard does not currently charge user fees for 
examinations conducted on foreign cruise ships in U.S. ports. The Coast 
Guard is studying the feasibility of updating all user fees and as part 
of that effort, a user fee for foreign cruise ships is being 
considered.

    Question 9. Does the U.S. Coast Guard inspect Passenger Ferry 
Vessels, including state run ferries?
    Answer. All ferries, including state run ferries, carrying more 
than six passengers on a navigable waterway in the U.S. are inspected 
by the Coast Guard. Specifically, in 2006, the Coast Guard and Maritime 
Transportation Act of 2006 amended Title 46 United States Code Chapters 
21 and 33 by defining ``ferry,'' ``passenger,'' and ``small passenger 
vessel'' such that some previously uninspected ferry vessels, including 
state owned ferries that did not carry `passengers for hire', became 
subject to Coast Guard Inspection for Certification.
    Prior to this legislation, ferry vessels were not subject to 
Inspection for Certification if they did not carry passengers for hire 
(charged a fee for carriage). The new definitions of ``passenger'' and 
``small passenger vessel'' include ferries that carry at least one 
passenger for a vessel of 100 gross tons and over and that carry more 
than six passengers for vessels of less than 100 gross tons, regardless 
if a fee is paid by the passenger.
    If a vessel meets the definition of ``ferry,'' the fee is no longer 
a determining factor in the application of marine inspection laws and 
regulations.
    The total number of ferry vessels affected by this change was 
estimated to be 71, which brought the total number of Coast Guard 
inspected ferry vessels up from approximately 384 to 455.

    Question 10. What is the scope of the Coast Guard's inspection for 
a Passenger Ferry Vessel and how often are these inspections/exams 
required?
    Answer. Ferry Vessel inspections are regulated by 46 CFR 
Subchapters T & K for vessels less than 100 gross tons; and regulated 
under 46 CFR Subchapter H for vessels over 100 gross tons. Inspections 
are required at least annually on vessels inspected under Subchapters T 
& K, and annually with periodic re-inspections for vessels inspected 
under Subchapter H.
    The scope of an inspection includes but is not limited to the Hull, 
Firefighting, Electrical, Pollution Prevention, Lifesaving, Navigation, 
and Machinery equipment. Additionally, inspections include witnessing 
drills and assessing crew proficiency in handling shipboard 
emergencies, as well as witnessing the operation of a vessel's 
machinery and other equipment including underway tests such as man-
overboard drills. Ferry Vessels are also required to undergo periodic 
dry-dock examinations
    Of the 455 ferries inspected by the Coast Guard:

        109 are over 100 gross tons and are inspected under 46 CFR 
        Subchapter H.

        The remaining 346 are less than 100 GRT, and inspected under 46 
        CFR Subchapter T (235) and 46 CFR Subchapter K (111).
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                      Rear Admiral Joseph Servidio
    Question 1. The International Convention for Safety of Life at Sea 
(SOLAS) currently requires muster drills to be performed within 24 
hours of a cruise ship's departure. However, last month the 
International Maritime Organization's (IMO's) Maritime Safety Committee 
adopted an amendment to SOLAS that would require muster drills to 
happen ``prior to or immediately upon departure.'' These rules will go 
into effect in January 2015. Can you please clarify the phrase 
``immediately upon departure?''
    Answer. Additional guidance has not been developed at IMO on the 
text updates, including ``immediately upon departure,'' related to 
amendments to regulation 19.2.2 of chapter III of the SOLAS Annex. The 
Coast Guard will work as necessary to provide clarification of this 
language prior to implementation.
    In February 2012, the Coast Guard published policy to its field 
units that requires inspectors to observe completion of passenger 
muster drills aboard cruise ships during the course of required cruise 
ship examinations in U.S. ports where passengers have embarked the 
vessel. Under this policy, passenger muster drills must occur before 
the Coast Guard will consider the examination complete.
    In the course of these examinations, the expectation is and the 
Coast Guard's experience has been that passenger muster drills are 
overwhelmingly conducted prior to vessel's departure. Additionally, the 
industries voluntarily adopted standard outlines that a cruise ship's 
passenger muster drill should occur prior to vessel's departure after 
embarking passengers.

    Question 2. While much of the cruise industry changed its policies 
in February 2012 to require muster drills upon departure, I understand 
that the IMO rule will not go into effect until January 2015. Why is 
the effective date of the policy January 2015, which is nearly a year 
and a half from now?
    Answer. While it may seem a very slow process, in fact this new 
mandatory requirement for muster drills ``prior to or immediately upon 
departure'' will formally enter into force as quickly as can 
practicably be done under the amendment process timelines specified in 
Article VIII of the SOLAS Convention. The Contracting Governments to 
SOLAS adopted the amendments at IMO by means of Resolution MSC.350 (92) 
on June 21, 2013. After adoption, Article VIII provides that the 
amendment must be accepted by Contracting Governments, which is 
facilitated through a process whereby acceptance is deemed to occur on 
a certain date if a critical mass of Contracting Governments has not 
objected by that time. This acceptance period, two years by default, 
was reduced to essentially the minimum of one year permitted by Article 
VIII (until July 1, 2014). Finally, as specified in Article VIII, the 
amendments enter into force six months after they are deemed to have 
been accepted, which would mean entry into force on January 1, 2015. In 
the interim, the recommendatory guidance developed at IMO and 
promulgated in MSC.1/Circ. 1446 (as revised) remains in effect.
    Although the new IMO requirements for passenger musters will not 
formally enter into force until January 2015, the Coast Guard is 
already witnessing passenger musters as part of its foreign cruise ship 
examination program. The Coast Guard began doing this as a matter of 
policy beginning in February 2012.

    Question 3. What is the Coast Guard's timeline for adopting the new 
muster drill standard? Will the Coast Guard wait until 2015 to adopt 
these new standards, despite the fact that the Cruise Line Industry 
Association has already adopted such standards? If the Coast Guard 
plans to wait until 2015, why?
    Answer. The Coast Guard has not waited to adopt this standard. 
Prior to the action at IMO action with respect to passenger musters, 
the Coast Guard adopted this muster drill standard as a matter of a 
policy change that was promulgated in February 2012. Coast Guard field 
personnel are already witnessing this muster during cruise vessel 
examinations conducted in U.S. ports where passengers have embarked the 
vessel.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                            to Gerald Cahill
Fire Safety
    Question 1. Based on your company's review of the Splendor 
incident, what explains the failure of multiple inspections to uncover 
CO<INF>2</INF> System flaws?
    Answer. Before any ships are delivered, the CO<INF>2 </INF>system 
is inspected, tested and approved by the shipyard and the ship's 
classification society. RINA, the classification society responsible 
during shipbuilding, conducted the initial testing and approved the 
CO<INF>2 </INF>system prior to the Splendor's delivery.
    Ship engineers do not have the specialized training and experience 
needed to properly maintain or uncover defects in these critical 
systems, so vessel operators hire industry specialists to service and 
maintain CO<INF>2</INF> systems. Carnival hired Wilhelmsen Ship Service 
to perform the annual inspection and testing of the CO<INF>2</INF> 
system, and all system maintenance as the service provider approved by 
both the Flag state and Classification Society. Since Wilhelmsen had 
more than 40 years of experience in the provision of inspection, 
reporting, maintenance and repair for fire and safety systems and 
equipment for the maritime industry, Carnival relied on Wilhelmsen to 
have the expertise to perform this service properly.
    After the Splendor incident, Carnival's investigation revealed 
problems with the CO<INF>2 </INF>system that should have been 
identified by specialists earlier, including a significant design fault 
in the CO<INF>2</INF> system release sequence that increased the 
likelihood that a valve might not operate properly. Carnival remedied 
that flaw with a major redesign of the CO<INF>2</INF> systems on 
several ships to change the sequence and achieve improved system 
reliability. Carnival has revised the test procedure to ensure that 
system operation is tested at full pressure. We have also replaced our 
service provider.
    While Carnival will need to continue to rely on the expertise of 
the maintenance service providers, these changes to the system 
operation sequence will enhance reliability and full pressure testing 
should identify any future defects in the system.

    Question 2. Can you explain why Splendor fire-fighting crews did 
not train in the engine room?
    Answer. Carnival conducts firefighting training in the engineering 
spaces, which includes the engine rooms, incinerator room, and other 
spaces. Fire drills were conducted in various locations around the 
ship, including similar machinery areas to the engine room where fires 
might occur. Although we kept records of the fire drills, we did not 
keep specific records of the locations of the fire drills.
    While more emphasis will be placed on training to fight engine room 
fires, including secondary fires that spread to the overhead cable 
runs, we do not agree with the U.S. Coast Guard's conclusion that a 
lack of familiarization with the engine room itself hampered efforts to 
locate and extinguish the fire, or allowed for further spread of fire 
and smoke. (U.S. Coast Guard Report at p. 44). The Splendor's 
firefighting crews were fully familiar with the engine room layout and 
equipment. The firefighting timeline included in the U.S. Coast Guard 
report reveals that the engine crew, who are intimately familiar with 
the engine room, were either part of, or accompanied the fire teams 
during firefighting operations. For instance, the Staff Chief Engineer 
and the Second Engineer accompanied Fire Team Charlie into the engine 
room and helped identify the location of the secondary fire in the 
cables above DG5.
    It was not a lack of familiarity with the engine room layout, but 
rather the nature of the secondary fire in the overhead cable runs, 
that made firefighting difficult on the Splendor. For most of the time, 
no flames were visible in the hot, smoke-filled engine room without any 
lighting or power. The smoldering cable runs were located high above 
the firefighters. Even the ship's engineers were challenged by these 
difficult circumstances.
Crime Reporting
    Question 3. While the Chairman understands some alleged crimes 
might not be prosecuted, do you support publicly reporting the number 
of all crimes on cruise ships that are reported to the FBI?
    Answer. To our knowledge, no land-based vacation options have any 
duty to report crimes to law enforcement, let alone to publicly report 
crime allegations as statistics. At the same time the incidents of 
alleged crimes in the cruise industry are far below those which are 
reported on land in the general population. Furthermore, it is 
difficult to prevent the media from publishing this information out of 
context, which becomes even more misleading to the consumer and 
unfairly damaging to the cruise industry. Consequently, we do not 
support publicly reporting the number of all alleged crimes on cruise 
ships--nonetheless, Carnival has voluntarily posted on its website a 
listing of all the alleged crimes reported to the FBI for our North 
American lines (Carnival Cruise Lines, Princess Cruises, Holland 
America Line and Seabourn).

    Question 4. Given that many parents and children take vacations on 
your cruise ships, do you support publicly reporting the number of 
alleged crimes that occur against minors?
    Answer. We believe the numbers show that cruising is a very safe 
vacation alternative especially when compared to the crin1e statistics 
on land. Those land statistics are reported in the Uniform Crime 
Reporting system (``UCR'') published by the FBI. The statistics do not 
separately categorize or track alleged crimes against minors. 
Therefore, the UCR will not offer any context or perspective to a 
consumer who is provided cruise lines statistics regarding alleged 
crimes against minors. We believe providing information on alleged 
crimes without such context would be misleading and will merely confuse 
the consumer. The information would also be skewed by the fact that 
different companies have different passenger demographics and 
correlations would therefore be unfair.

    Question 5. The crime data appears to be compiled by the 
overarching Carnival parent company rather than by individual line. 
What is the rationale for posting the crime data in this manner? Please 
provide the Committee with this information broken down by individual 
line in the same format that you posted the information on your 
website.
    Answer. Carnival believes that the statistics viewed as presented 
provide more insight into cruise safety than when the data is broken 
out into individual lines. Specifically, one can compare the total 
number of passengers and crew we carry to the number of crimes which 
occur for that population and then compare it to the land based 
statistics in the UCR. This comparison clearly and easily shows that 
crime statistics on cruise ships are much lower than on land for 
similar size populations.
    Furthermore, even if all the incidents were allocated to just one 
of our lines, the number would still be below UCR crime reporting for 
similar populations on land. We feel strongly that providing data at a 
brand level would encourage meaningless and misleading comparisons, 
providing the potential for users to take the information out of 
context. The fact is that our incidents of crime are very low.

    Question 6. Many crimes that occur on cruise ships are classified 
as ``other'' meaning they don't meet the threshold categories required 
under current law. What types of crimes are included in the ``other'' 
category?
    Answer. The ``other'' category includes alleged unlawful acts that 
are not designated in the CVSSA but are otherwise reported, such as 
thefts under $10,000.00 and crimes against our passengers which take 
place in countries outside the U.S. or for crimes not covered by the 
CVSSA.

    Question 7. Current law requires that only thefts greater than 
$10,000 be reported publicly. How many thefts of $1,000-$10,000 were 
reported for each of the last three years?
    Answer. During the relevant period, the North American lines 
carried approximately 25,876,189 guests and the following thefts of 
$1,000-$10,000 were alleged:

 
 
 
July-December 2010:                                                 58
2011:                                                               82
2012:                                                               91
January-May 2013:                                                   52
 

    Question 8. The posted crime data details the number of missing 
U.S. nationals. How many additional non-US nationals went missing for 
each of the last three years? Please indicate whether they were 
passengers or crew.
    Answer. The total number of non-US nationals missing from the North 
American lines is:

 
 
 
2011:             1 (non-US crewmember)
2013:             2 (passengers onboard the Carnival Spirit while in
                   Australia)
 

Bill of Rights
    Question 9. According to Professor Klein's written testimony, 
cruise line contracts include ``extreme limits'' on the company's 
liability, including requirements about where a passenger must file a 
suit and how quickly they must bring the suit. Explain to me why this 
makes sense for a consumer. Does this seem fair to you?
    Answer. Our cruise ships call on thousands of destinations, as well 
as carry passengers from all fifty states and from countries all over 
the world. Without the contract provisions that specify where, when and 
how a passenger should bring an action, cruise lines would be forced to 
defend litigation all over the country and the world and possibly many 
years after a cruise when evidence and witnesses are no longer 
available. The courts have agreed that cruise lines, like a myriad of 
other businesses, should have some measure of predictability regarding 
the forum, the timing of claims, and exposure to damages. This 
predictability is achieved through the ticket contract provisions 
governing the forum and manner of claims (including forum selection, 
choice of law, time limitations, arbitration and class action waiver 
provisions). Such ticket provisions have been found to be legal if 
reasonably communicated to the passengers and these provisions do not 
limit the substantive rights afforded under the passenger ticket 
contract or the Bill of Rights in any way.
    Arbitration provisions, class action waivers and forum selection 
clauses are common in not only other transportation industries but 
other consumer industries (Disney World, Water-Zoo Indoor Water Park, 
Hilton HHonors loyalty programs, Starwood Preferred Guest Programs, 
AT&T service agreements, Four Seasons Private Jet Tours and Southwest 
Airlines). We believe the fact that these provisions have been 
routinely adopted by other industries and supported by the courts, 
evidences the fair balancing by these provisions of the interests of 
businesses and consumers.

    Question 10. What recourse does the Bill of Rights provide to 
passengers when one of these rights is violated? Please provide 
specific examples of how a passenger could enforce the rights.
    Answer. The Bill of Rights is a legally enforceable promise and 
thus a contractual obligation which forms part of the agreement between 
cruise lines and their guests who now have a private right of action to 
enforce the rights. The contractual recourse to enforce the passenger 
rights is in addition to remedies available under state consumer 
protection laws available in virtually every port state where cruise 
lines base their businesses or ships, including Florida, California, 
Hawaii, New York, Texas, Alaska and Washington. These laws typically 
provide for recovery of damages, injunctive relief, attorneys' fees, 
and in some cases, double or treble damages for misleading or false 
advertising.
    Well established law protects the right of passengers to assert 
legal claims against cruise lines arising out of the maritime contract 
of passage, such as the Bill of Rights. For example, a cruise line is 
prohibited from abrogating the right to a trial in court for any claims 
involving injury or death or providing less than one year to commence 
suit based on such claims. The general maritime law of the U.S. will 
typically apply although state law can sometimes supplement the 
remedies afforded under U.S. maritime law where not inconsistent. Many 
claims arising out of the Bill of Rights  (e.g., over costs of 
transportation, lodging, and reimbursement), will qualify for small 
claims court jurisdiction which provides the passenger with a cost 
effective method to enforce their rights without having to hire an 
attorney.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Barbara Boxer to 
                             Gerald Cahill
    Question. A recent report was issued by the U.S. Coast Guard 
regarding the Carnival Splendor incident in November 2010. The report 
made a series of recommendations to Carnival to improve safety in the 
future. What specific steps has Carnival taken to address the concerns 
and recommendations in the U.S. Coast Guard's report?
    Answer. We have implemented actions to address and improve in the 
areas of maintenance log management, additional firefighting training, 
as well as increased fire prevention, detection and suppression 
systems. We have implemented new procedures for logging of technical 
parameters, checking the condition of the plant, precautionary measures 
before startup of engines, and new robust engine watch handover 
policies.
    Additionally, we have taken steps to strengthen the depth and 
frequency of all critical system inspections and formed a new 
Department of Marine Safety staffed with technical experts in the areas 
of fire prevention, detection, and suppression.
    During the last two years the shoreside technical management has 
been expanded and strengthened with dedicated diesel engine and 
maintenance and repair experts. This team includes more than 140 
members and has grown significantly in the past couple of years as we 
continue to invest in talent across our company.
    Following the Splendor fire, several new operational management 
personnel have been hired at Carnival including a new SVP of Marine 
Operations. Earlier this month Carnival announced the first 4 members 
of its new Safety & Reliability Review Board including Rear Admiral 
Mark H. Buzby, Rear Admiral Joseph F. Campbell, Ray Valeika and Dr. 
John K. Lauber who have collectively very deep experience in the marine 
and air transportation and maintenance fields.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Gerald Cahill
Natural Gas Vessels
    Question 1. As I'm sure you're aware, advances in technology, 
reduced emissions, and high oil prices have led the transportation 
industry to look to natural gas as an alternative source of fuel. 
Natural gas trucking has increased in current years, and the Energy 
Information Agency (EIA) recently projected that for the heavy-duty 
industry ``Natural gas, as compressed natural gas (CNG) and liquefied 
natural gas (LNG), is the fastest-growing fuel in the transportation 
sector, with an average annual growth rate of 11.9 percent from 2011 to 
2040.'' And a company based in my home state has ordered the LNG 
conversion of two diesel ships currently in use for Alaska trade, as 
well as the construction of two new first-of-their-kind LNG-powered 
containerships for use on the Puerto Rico-Florida trade route. The fuel 
is also being evaluated for use on our public Washington State Ferry 
system.
    Do you believe natural gas-fueled vessels have a future within the 
cruise ship industry? To that end, to what extent has your company 
evaluated using natural gas as a fuel source for either converted/
renovated or new vessels?
    Answer. Carnival has three projects related to LNG use on cruise 
ships.

        a. Carnival is installing a dual fuel engine on one ship 
        currently under construction, so that LNG can be used in port 
        as well as conventional liquid fuel.

        b. Carnival is developing a power barge supplied with LNG that 
        could connect directly to a ship in port, substituting LNG-
        generated electricity for utility shorepower (Cold-Ironing).

        c. Carnival is examining the feasibility of installing limited 
        LNG tank capacity on one ship that would supply one dual-fuel 
        engine that could operate on LNG while the vessel is at sea or 
        in port, as an alternative to shorepower.

    Question 1a. What challenges or barriers exist to deploying natural 
gas technology safely within the cruise ship industry? Do you believe 
that any of the challenges or barriers is unique to your industry?
    Answer. LNG is not available in numerous ports in which our ships 
currently bunker fuel, even where a natural gas supply is available 
near the pier. Infrastructure for storage and delivery of LNG would 
need to be developed to ensure reliable supply. Storage of LNG onboard 
requires greater tank capacity than liquid fuel. This is not a 
significant challenge for some cargo ships, with ample space both above 
and below deck. Cruise ships have very little available space either 
above deck or in engine spaces below deck.
    Safety issues related to switching from liquid fuel oil to LNG are 
a consideration, but can be managed. U.S. Coast Guard policy guidance 
for refueling passenger ships with LNG is being developed now and the 
resultant controls and operational restrictions could have a major 
impact on the potential future use by the cruise industry.
    Also, in the past public perception in North America has often been 
that LNG is not as safe as liquid fuel or natural gas. This is not 
scientifically valid, but it has been a significant issue with 
development of LNG facilities in many ports and coastal areas. Today, 
the environmental advantages of LNG may override such concerns, but 
cruising is a discretionary leisure activity and concern over the 
safety of LNG-powered cruise ships may need to be addressed.

    Question 1b. Can you speak to your company's long-term strategy 
with regards to natural gas vessels?
    Answer. LNG may be an option over the mid to long term if the 
challenges described above can be resolved. This could be accomplished 
by adding limited LNG tank capacity, or by supplying LNG to the ship 
while at berth from trucks or a barge.
Cold-Ironing
    Question 2. As you know, Cold-Ironing is the practice of providing 
cruise, container, and other vessels with shore-side electrical power 
for the operation of equipment while in port, thereby allowing main and 
auxiliary engines to be shut down. This can reduce or eliminate many 
airborne emissions and improve nearby air quality. How many of your 
vessels are equipped to use Cold-Ironing infrastructure/equipment while 
in port?
    Answer. Carnival Corporation has 24 ships that are equipped to 
connect in seven West Coast Ports, including Juneau, AK; Vancouver, BC; 
Seattle, WA; San Francisco, CA; Los Angeles, CA; Long Beach, CA; and 
San Diego, CA. East Coast Ports pending development in include Brooklyn 
Red Hook, NY, Halifax, NS, and Quebec City.
    Ships currently equipped to connect to shorepower by Operating 
Company are:

 
 
 
Princess Cruises           14
Holland America Line       6 (plus 2 partially converted)
Carnival Cruise Lines      3
Cunard Line                1
 

    Question 2a. Does Cold-Ironing have any negative impacts on cruise 
ship operation?
    Answer. There is no negative impact on the technical operations of 
the ship, if the shoreside system is properly installed, and if the 
supply of electricity is adequate and reliable. Shorepower 
installations have been very well received in port communities.

    Question 2b. What are the barriers to further deployment of Cold-
Ironing infrastructure/equipment on your vessels? Are certain ports 
more/less feasible for Cold-Ironing?
    Answer. The primary barriers are the cost to the utility company to 
make the necessary improvements to deploy Cold-Ironing, the cost to the 
cruise industry to convert its ships to tie into the electricity and 
the availability of electricity. Some utilities do not have excess 
capacity, or rates for interruptible service. As a result, ports with 
limited cruise ship activity may not be able to economically justify 
the investment in shoreside infrastructure.

    Question 2c. Please describe your company's long-term strategy with 
regards to Cold-Ironing.
    Answer. Shorepower will be part of the mix of technology to address 
air emissions from cruise ships. This will include use of scrubbers or 
other technology, low sulfur fuel, now required in all U.S. Ports under 
the Emission Control Area regulations of IMO MARPOL Annex VI and 
potential use of LNG in Ports.
    Carnival has been the leader in developing shorepower for the 
cruise industry and plans to utilize shorepower for a significant 
number of vessels calling regularly in Ports on the Pacific Coast of 
North America, as well as select Ports in the North Atlantic.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Adam M. Goldstein
Crime Reporting
    Question 1. At the hearing, Chairman Rockefeller entered into the 
record a Commerce Committee staff report showing that the number of 
crimes onboard cruise ships reported to the FBI is much higher than the 
number that is publicly reported. It also shows that in a significant 
percentage of sexual assaults reported to the FBI, children are the 
alleged victims.
    The Chairman also introduced legislation that would require public 
reporting of all alleged crimes on cruise ships, including those 
against children.
    While the Chairman understands some alleged crimes might not be 
prosecuted, do you support publicly reporting the number of all crimes 
on cruise ships that are reported to the FBI?
    Answer. As the Committee is aware, just over three years ago, 
Congress passed the Cruise Vessel Security and Safety Act (CVSSA) of 
2010. In that legislation, Congress set forth the categories of serious 
crimes that cruise lines were required to report to the FBI. The 
legislation also required the U.S. Coast Guard to maintain a public 
website that lists, by cruise line, a quarterly accounting of every 
crime and missing person case that has been reported to law enforcement 
in any of the listed CVSSA categories where the matter is ``no longer 
under investigation by the FBI.''
    While we had long been reporting all crime allegations to Federal 
authorities, this legislation was the first of its kind to single out a 
commercial industry and require public disclosure of its allegations of 
crime. Although crime statistics on land are published under the FBI's 
longstanding Uniform Crime Reporting (UCR) system for states, cities 
and municipalities, they are not aggregated by type of venue (hotels, 
resorts, theme parks), let alone by individual company.
    Even so, we supported the legislation as we believed that publicly 
reporting crime allegations would enable consumers to see for 
themselves that cruise ships are among the safest venues when compared 
to any landside community or destination. We were unaware until the 
legislation was passed that Congress was limiting the public disclosure 
of the crime data to only those allegations ``no longer under 
investigation by the FBI.''
    Because of this provision in the new law, the numbers provided to 
the public by the Federal Government did not reflect the actual number 
of allegations we were reporting to the FBI. Royal Caribbean, and our 
colleagues at Carnival Corporation and Norwegian Cruise Lines, took it 
upon ourselves--well in advance of any announced Congressional 
hearing--to rectify the limitation imposed by Congress by agreeing to 
voluntarily disclose on our websites all allegations of crime in the 
CVSSA categories, on all itineraries worldwide, committed by passengers 
or crew members, regardless of whether an FBI investigation had been 
opened or closed.
    We believe that the current reporting protocol--providing the 
number of all allegations in each of the CVSSA categories--allows the 
consumer to compare the minimal number of allegations of serious crimes 
onboard cruise ships with those reported for land-based communities and 
make informed vacation decisions. We do not believe that any further 
expansion of this reporting is warranted or reasonable.

    Question 2. Given that many parents and children take vacations on 
your cruise ships, do you support publicly reporting the number of 
alleged crimes that occur against children?
    Answer. As explained above, we believe the value of publicly 
reporting allegations of crimes is in providing consumers with an 
opportunity to compare/contrast crime on land with crime at sea. Crime 
against minors is not a category reported by the UCR for land-based 
communities and, thus, such disclosures by the cruise lines would not 
allow consumers to draw meaningful comparisons.

    Question 3. Royal Caribbean, along with the other major cruise 
lines, agreed to voluntarily post crime data on its website.
    The crime data appears to be compiled by the overarching Royal 
Caribbean parent company rather than by individual line. What is the 
rational for posting the crime data in this manner? Please provide the 
Committee with this information broken down by individual line in the 
same format that you posted the information on your website.
    Answer. The premise of this question is incorrect. As of August 1, 
2013, Royal Caribbean posted its crime data by individual cruise line, 
not by parent company. The data may be found here:

        For Royal Caribbean International:
        http://www.royalcaribbean.com/
        contentPage.do?pagename=royal_caribbean_
        cruise_ship_crime_allegation_statistics

        For Celebrity Cruises:
        http://celebritycruises.com/
        genericHtmlTemplate.do?icid=spe_bt_twdybr_
        1306_dtbe_lk_921032&pagename=celebrity_crime_allegation_statisti
        cs

        For Azamara Club Cruises:
        http://www.azamaraclubcruises.com/azamara-club-cruises-crime-
        allegation-statistics

    Question 4. Many crimes that occur on cruise ships are classified 
as ``other'' meaning they don't meet the threshold categories required 
under current law. What types of crimes are included in the ``other'' 
category?
    Answer. The CVSSA identified eight categories of serious crimes 
that cruise lines are required to report to the FBI. The ``other'' 
category is used to capture allegations not designated by the CVSSA, 
such as thefts between $1,000 and $10,000.

    Question 5. Current law requires that only thefts greater than 
$10,000 be reported publicly. How many thefts of $1,000-$10,000 were 
reported for each of the last three years?
    Answer. For the three-year period, 2010 through 2012, Royal 
Caribbean International, Celebrity Cruises and Azamara Club Cruises 
carried more than 13 million guests. During this time period, the 
reports of alleged property thefts valued between $1,000 and $10,000 
were as follows:

                2010--84 reports

                2011--103 reports

                2012--116 reports

    Additionally, during this three-year period, RCL received a total 
of 97 reports alleging the theft of property valued between $1,000 and 
$10,000 from luggage. These alleged thefts from luggage, however, may 
have occurred prior to the luggage arriving at the ship (e.g., airline, 
hotel, taxi, bus).

    Question 6. The posted crime data details the number of missing 
U.S. nationals. How many additional non-U.S. nationals went missing for 
each of the last three years? Please indicate whether they were 
passengers or crew.
    Answer. For the three-year period, 2010 through 2012, the reports 
of missing non-US nationals were as follows:

                2010--3 missing non-US nationals (all crew members)

                2011--4 missing non-US nationals (all crew members)

                2012--4 missing non-US nationals (1 guest, 3 crew 
                members)
Bill of Rights
    Question 7. According to Professor Klein's written testimony, 
cruise line contracts include ``extreme limits'' on the company's 
liability, including requirements about where a passenger must file a 
suit and how quickly they must bring the suit. Explain to me why this 
makes sense for a consumer. Does this seem fair to you?
    Answer. With regard to virtually every sailing of ships operated by 
cruise lines based in the U.S.--regardless of itinerary and regardless 
of whether it embarks or debarks in the U.S.--passengers have access to 
a U.S. forum if they wish to file a claim.
    Because the travel industry accommodates customers from around the 
world, forum selection clauses are commonly used across many sectors of 
the industry. These clauses allow hotels, resorts, cruise lines and 
countless other sellers of goods and services to have some level of 
legal predictability while providing guests with the opportunity to 
have their claims heard.
    In fact, the U.S. Supreme Court, in a 1991 opinion, found that 
forum selection clauses benefit passengers in two important ways: (1) 
the clauses eliminate confusion about where claims can be filed, saving 
litigants the time and expense of determining the correct forum; and 
(2) the passengers benefit from lower fares that travel providers can 
offer as a result of the legal certainty established by forum selection 
clauses.
    With regard to the time period for filing claims, Title 46 U.S.C. 
Sec. 30508, specifically permits a time limit of no less than one year 
for suits involving claims of personal injury (including emotional 
distress) or death. Courts have routinely enforced a six-month deadline 
for contract claims. These limits are not considered ``extreme.'' To 
the contrary, for any cruise that even touches a U.S. port, Sec. 30509 
specifically prohibits it from including any provision in a passage 
contract that either limits ``the liability of the owner, master, or 
agent for personal injury or death caused by the negligence or fault of 
the owner or the owner's employees or agents; or [. . .] the right of a 
claimant for personal injury or death to a trial by court of competent 
jurisdiction.''

    Question 8. What recourse does the Bill of Rights provide to 
passengers when one of these rights is violated? Please provide 
specific examples of how a passenger could enforce the rights.
    Answer. The Bill of Rights is a legally enforceable contract. It 
forms part of the contract between cruise lines and our guests who now 
have a private right of action to enforce the rights.
    In addition, state consumer protection laws available in virtually 
every port state where cruise lines base their businesses or ships, 
including Florida, California, Hawaii, New York, Texas, Alaska and 
Washington, still apply. Thus, the contractual recourse to enforce the 
passenger Bill of Rights is in addition to these state laws which 
typically provide for recovery of damages, injunctive relief, 
attorneys' fees, and in some cases, double or treble damages for 
misleading or false advertising.
    Passengers can generally bring a legal action against cruise lines 
for any claims arising out of the maritime contract of passage, such as 
the Bill of Rights. The general maritime law of the U.S. will typically 
apply although state law can sometimes supplement the remedies afforded 
under U.S. maritime law where not inconsistent.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Adam M. Goldstein
Natural Gas Vessels
    As I'm sure you're aware, advances in technology, reduced 
emissions, and high oil prices have led the transportation industry to 
look to natural gas as an alternative source of fuel. Natural gas 
trucking has increased in current years, and the Energy Information 
Agency (EIA) recently projected that for the heavy-duty industry 
``Natural gas, as compressed natural gas (CNG) and liquefied natural 
gas (LNG), is the fastest-growing fuel in the transportation sector, 
with an average annual growth rate of 11.9 percent from 2011 to 2040.'' 
And a company based in my home state has ordered the LNG conversion of 
two diesel ships currently in use for Alaska trade, as well as the 
construction of two new first-of-their-kind LNG-powered containerships 
for use on the Puerto Rico-Florida trade route. The fuel is also being 
evaluated for use on our public Washington State Ferry system.

    Question 1. Do you believe natural gas-fueled vessels have a future 
within the cruise ship industry? To that end, to what extent has your 
company evaluated using natural gas as a fuel source for either 
converted/renovated or new vessels?
    Answer. We believe there is a future for LNG as a major marine 
fuel, although there are a number of challenges that will need to be 
addressed, as outlined below. We have done extensive studies into the 
current and future feasibility from a technical, operational/safety, 
and supply availability perspective. We have involved engine 
manufacturers, shipyards, existing LNG suppliers, and maritime 
classification societies in these reviews.
    We do not believe that CNG will ever be a realistic option given 
the very low energy density of CNG (i.e., we could not carry enough 
fuel to get the ship to port).

    Question 1a. What challenges or barriers exist to deploying natural 
gas technology safely within the cruise ship industry? Do you believe 
that any of the challenges or barriers is unique to your industry?
    Answer. There are a number of technical and operational issues with 
LNG compared to traditional fuels, all of which stem from the physical 
properties of LNG, including:

  <bullet> We would have to carry twice as much volume of LNG to 
        achieve the equivalent amount of energy of traditional fuels

  <bullet> LNG must be maintained at cryogenic temperatures (i.e., -160 
        degrees F)

    Because of these physical properties, LNG requires specialized 
storage tanks, piping systems, safety systems and design limitations, 
loading systems, and engine modifications. We do not think there is a 
high likelihood that existing cruise ships could be retrofitted with 
significant LNG capacity, but believe it is more feasible in the 
context of newbuilds.
    Another major obstacle is the minimal supply infrastructure 
available. Because of the physical properties of LNG, it is very 
expensive and time consuming to develop and build the necessary supply 
infrastructure. While this issue exists for all ships, it is a much 
larger issue for cruise ships given the amount of LNG required and the 
time frame in which it would have to be loaded (e.g., 25 to 50 truck 
loads per week). The other ``unique'' issue is that cruise ships tend 
to travel around the world, so a single point supply solution is not 
sufficient; our vessels would need access to reliable supplies around 
the world.

    Question 1b. Can you speak to your company's long-term strategy 
with regards to natural gas vessels?
    Answer. Our long term strategy is to continue monitoring the 
regional and global supply development to determine if and when it 
would be prudent to commit to an LNG fueled vessel. We routinely re-
evaluate our position when committing to newbuild orders.
Cold Ironing
    Question 2. As you know, cold ironing is the practice of providing 
cruise, container, and other vessels with shore-side electrical power 
for the operation of equipment while in port, thereby allowing main and 
auxiliary engines to be shut down. This can reduce or eliminate many 
airborne emissions and improve nearby air quality. How many of your 
vessels are equipped to use cold-ironing infrastructure/equipment while 
in port?
    Answer. We have seven vessels in our fleet that have reserved space 
in the electrical switchboards for equipment to connect to shore power 
and all future newbuilds will have the space reservation as well. We 
are also in the process of equipping one vessel with shore power 
capability in order that it may make frequent calls on California 
ports.

    Question 2a. Does cold ironing have any negative impacts on cruise 
ship operations?
    Answer. There are always challenges when introducing a new 
technology to marine operations and, of course, we always take handling 
extremely high voltage equipment and connections seriously. The biggest 
challenges relate to handling the switch over from ship power to shore 
power and back again.

    Question 2b. What are the barriers to further deployment of cold-
ironing infrastructure/equipment on your vessels? Are certain ports 
more/less feasible for cold ironing?
    Answer. Cold-ironing is very much a port-by-port evaluation; 
furthermore, it is a day-by-day issue within an existing port. We have 
found that the availability of cold-ironing infrastructure varies by 
port and even by berths within a port. In addition, the ability of 
local utilities to scale up to meet one or more large ship's power 
demand is also an important factor. Of course, the reliability, cost, 
and environmental benefits of shore power vary by port as well.

    Question 2c. Please describe your company's long-term strategy with 
regards to coldironing.
    Answer. Although the majority of our energy consumption occurs when 
we are not in port, we continue to evaluate cold-ironing as a component 
of our energy/environmental strategies.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Ross A. Klein, Ph.D.
Crime
    When a crime happens on a cruise ship, passengers can be in for a 
rude awakening--they can't just call 911 to get the police to come 
investigate the crime, they can't go to a U.S. hospital for treatment, 
and they can't always just get off the ship. To make things more 
difficult, U.S. laws may not govern if the crime occurs in 
international waters or at a foreign port.

    Question 1. Given the stark differences in the level of support 
available to crime victims on land versus on cruises, how important is 
it that passengers have an understanding of the number and types of 
alleged crimes that occur on cruise ships?
    Answer. The cruise industry promotes itself as ``the safest mode of 
commercial transportation''--a claim based on a 1996 study done by the 
U.S. Coast Guard.\1\ But this study only considered three issues of 
safety: fatalities, injuries requiring treatment beyond first aid, and 
accidents such as trips and falls. Based on these criteria, a cruise 
ship is safer than U.S. air carriers and motor vehicles; however, the 
study did not look at simple assaults, thefts, sexual assaults or at 
disappearances under mysterious circumstances. The claim by the cruise 
industry to be the safest mode of transportation misleads consumers 
into a false sense of security.
---------------------------------------------------------------------------
    \1\ The claim to be the safest mode of commercial transportation 
has long appeared at the website of Cruise Lines International 
Association, and before that at the International Council of Cruise 
Lines website. It was recently removed because of intense lobbying by 
the International Cruise Victims Association (ICV), which called on the 
Coast Guard and members of Congress to force the cruise industry to 
remove the misleading claim. The study to which the industry refers was 
secured by ICV through a freedom of information request; the data was 
based on National Transportation Statistics 1995.
---------------------------------------------------------------------------
    In the face of this claim, and in the frequency of certain types of 
crime, it is important that cruise passengers have access to 
independently-verified and reliable crime statistics for cruise lines 
and for cruise ships. Particularly relevant are sex-related crimes 
(sexual assaults and forcible rapes), which on some cruise ships/cruise 
lines may be higher than on land, but also property crimes (i.e., 
thefts), crimes against persons (simple assaults and assault with 
serious bodily injury), and persons overboard.
    The importance and value of by-ship data is demonstrated in TABLE 
1: RCI ``Reported Sex Related Incidents'' 2003-2005 Number of Reported 
Incidents and Annualized Rate per 100,000 by Ship of my testimony 
before the Before the Subcommittee on Surface Transportation and 
Merchant Marine Infrastructure, Safety, and Security, Senate Committee 
on Commerce, Science, and Transportation, Hearings on ``Cruise Ship 
Safety: Examining Potential Steps for Keeping Americans Safe at Sea,'' 
Thursday, June 19, 2008. As seen in that table the rate of sexual 
harassment/sexual assault when viewed by ship ranged from 10.75 per 
100,000 to 208.33 per 100,000 across a fleet of 19; the fleet average 
was 111.97 per 100,000. This level of detailed information is helpful 
to passengers--both in gaining awareness that there are certain 
problems or risks on cruise ships (as there are on land), and that 
choices can apparently be made that minimize risk. The transparency may 
also benefit cruise ships and cruise lines in that it will ideally 
motivate a higher degree of vigilance in preventing and effectively 
dealing with onboard crime in order to avoid being ``the worst.''
    Having valid and reliable rates of crime is important for the 
purpose of comparison: comparison between cruise lines/ships and 
comparison of crime at sea versus crime on land. There is a simple 
illustration that makes this point. Disney Cruise Line reports on its 
website 6 sexual assaults in 2012. This sounds like a small number. 
However, when converted to a standardized rate it is 32.6 per 100,000--
almost four times higher than claimed for the industry as a whole in 
its written testimony before the U.S. Senate Commerce Committee. It is 
tempting to interpret this as indicating that Disney Cruise Line is 
worse than the rest, but the more likely interpretation is that Disney 
Cruise Line is being more transparent than the others. After all, the 
numbers reported by Royal Caribbean and Carnival for 2010-2013 are so 
different than what are independently confirmed as numbers for 2007-08, 
that it makes suspect the more recent reports (see 
www.cruisejunkie.com/crimedat.pdf).
Crime Data
    Royal Caribbean, Carnival, Norwegian, and Disney recently posted 
cruise crime data on their websites. Some questions have been raised 
about what data is included and whether it paints a clear picture of 
the crime onboard vessels.

    Question 2. Professor Klein, what did your review of the crime data 
show?
    Answer. On surface, the crime statistics appear to be a positive 
step, however upon reflection one has to wonder precisely what are 
being provided:

  1.  What ``crimes'' are included in the category ``other''? There is 
        a significant number that can undoubtedly be categorized and 
        reported (e.g., inappropriate touch, sexual harassment, simple 
        assault, thefts of less than $10,000).

  2.  What incidents are included as ``sexual assaults'' and ``rape'' 
        and who decides that an incidents falls into one or another (or 
        neither) category. If it is the cruise line, is it in an 
        objective position from which to judge the nature of the 
        incident and crime? When considering the category ``other,'' 
        what is the number and types of sex-related incidents that do 
        not fall under sexual assault and rape.

    Aside from the problem of data kept invisible through the category 
``other,'' and confusion caused by lack of clarity on who makes the 
determination of a category of crime (e.g., simple assault, assault 
with serious bodily injury, sexual assault and rape), the data 
displayed at the Carnival and Royal Caribbean websites are misleading. 
Both companies combine cruise lines, which dilutes the rate of crime on 
Carnival Cruise Lines'. For example, Carnival combines four cruise 
lines in its report--Carnival Cruise Lines, Holland America Line, 
Princess Cruises, Seabourn Cruises--and then computes the crime rate. 
This produces misleading statistics. Carnival Cruise Lines accounts for 
46 percent of the passenger population on ships belonging to these four 
brands, however in 2007-08 Carnival Cruise Lines accounted for 87 
percent of the sexual assaults and 96 percent of the thefts. The rate 
of crime is significantly lower on the other cruise lines than on 
Carnival Cruise Lines; by averaging across the lines it gives the 
appearance that Carnival is safer than it actually is. The same is the 
case with Royal Caribbean International, Celebrity Cruises, and Azamara 
Cruises.
    Review of the data also raised some direct questions. The FBI told 
the Commerce Committee that it had received 40 reports of sexual 
assault on Carnival ships, but Carnival reports on its website a total 
of 17 for the same period. Similarly, data presented by NCL on its 
website and to the FBI is numerically different than data provided in 
the discovery phase of a lawsuit.
    So, while the idea of publishing the data is excellent, the 
underlying problem is the reliability and integrity of the data being 
presented. By being done in-house, with no independent oversight 
produces numbers that aren't particularly informative. The public needs 
to be protected from erroneous claims.

    Question 3. How will the provisions in the Cruise Passenger 
Protection Act help ensure that all crime data is being reported 
publicly?
    Answer. The CPPA will improve the reporting of crime data by 
requiring reporting of all reported crimes, however it doesn't go as 
far as I'd like it to go. There are crimes that will not be reported 
(thefts less than $10K, simple assault), and crime reports will be 
amalgamated by cruise line (maybe by cruise corporation?), which allows 
problem ships/lines to remain invisible.
    In an ideal world, all reports to security on a cruise ship would 
be sent to the FBI. The FBI would filter out cases it wishes to pursue, 
though all cases would go to an independent third party for entry into 
a crime database (including properly assigning complaints to a crime 
category). This database, showing crime by cruise ship and cruise line, 
would then be available online.

    Question 4. In your written testimony, you highlighted that 
additional crime beyond what's required by law should be reported 
publicly. What type of crimes are these and how will making this 
information public help passengers?
    When consumers have complaints about cruise ships--whether it's 
unexpected fees, lost baggage, or conditions on the vessel--what 
recourse do they currently have beyond lodging a complaint with the 
company?
    Answer. This question is actually two questions. The types of 
crimes that should be included in reporting include simple assault and 
theft less than $10,000. There might also be consideration to include 
under sex-related incidents cases involving ``inappropriate touch'' and 
``sexual harassment''. These categories were well populated in reports 
in 2003-2005. That data, when combined with data for sexual assaults 
and forcible rapes, is illuminating.
    My view is that passengers have a right to know what crimes are 
being committed on different cruise ships belonging to different cruise 
lines. They should be equipped to make informed shopping decisions when 
buying a cruise. And they should approach a cruise taking the usual 
precautions families take when traveling to a ``strange'' or new city.
    The second question relates to complaints when something goes 
wrong. Aside from attempting to persuade the cruise line that they owe 
you something, a passenger has very little recourse. They can file a 
complaint with the Maritime Administration, but that is unlikely to 
have any impact. Alternatively, a passenger might be able to file a 
claim in a small claims court--this may or may not survive a forum 
selection clause challenge, or in the odd case hire an admiralty lawyer 
in Miami. In the United Kingdom, where there is stronger consumer 
rights legislation, legal cases have a higher chance for success on 
cases that would be non-starters in the U.S. There are cases in both 
the U.S. and U.K. (more so the latter) where passengers have 
successfully used the Internet and/or social media to extract 
settlements for complaints against a cruise line, but these are 
relatively infrequent.
Consumer Complaints
    When consumers have complaints about cruise ships--whether it's 
unexpected fees, lost baggage, or conditions on the vessel--what 
recourse do they currently have beyond lodging a complaint with the 
company?

    Question 5. How would giving a Federal agency, such as the 
Department of Transportation authority to investigate passenger 
complaints, as it does for the aviation, auto, and other industries, 
help passengers when something goes wrong?
    Answer. I think the issue is one of oversight. The cruise industry 
operates out of U.S. ports, serving largely U.S. passengers, yet unlike 
the aviation or other transportation industries, has no active 
oversight by the U.S. Government. There is some oversight relating to 
cruise ship safety (U.S. Coast Guard) and sanitary conditions (Centers 
for Disease Control), however there is absolutely no oversight with 
regard to consumer rights and proper treatment of passengers (not to 
mention proper treatment of workers). An aggrieved passenger lacks a 
venue (other than a lawsuit) for dealing with a serious complaint 
against a cruise line (other than the cruise line itself). As well, 
because there is no central agency where passengers can file reports, 
there is no knowledge base about complaints common on cruise ships 
(even specific cruise ships or cruise lines). Such an agency would also 
be a venue for a passenger to express a safety concern that was ignored 
while onboard a ship.
    Given the size of the cruise industry, and its reliance on 
passengers in and from the U.S., it makes infinite sense to treat the 
cruise industry like other modes of commercial transportation 
(airlines, trains, buses) and for this oversight to rest in the 
Department of Transportation. At present the industry is largely self-
regulating. With market domination of three corporations (comprising 
more than 90 percent of the North American market), self-regulation is 
not in the best interests of the consumer.
Bill of Rights
    The cruise industry has actively promoted their Cruise Passenger 
Bill of Rights, which includes the right to professional emergency 
medical attention, the right to properly trained crew, the right to 
timely updates for itinerary changes, etc.

    Question 6. Professor Klein, you reviewed the Bill of Rights in 
your written testimony, what new rights were passengers provided?
    Answer. In my opinion, the CLIA Cruise Passenger Bill of Rights 
does not provide anything that the cruise industry wouldn't argue was 
already being done before the bill of rights. What is different is that 
there is now, they would say, a binding pledge that these things will 
absolutely be done. However CLIA Cruise Passenger Bill of Rights does 
not say what a passenger is due when a right is not fulfilled (e.g., 
having a trained crew, receiving timely information).
    The Bill of Rights is a restatement of industry practices and is 
used largely as a marketing scheme at a time that the industry was 
attempting to repair its image.

    Question 7. Were there any major areas that were not addressed?
    Answer. There are a number of things not covered in CLIA Cruise 
Passenger Bill of Rights:

  (1)  What rights does a passenger have when essential provisions such 
        as food, water, restroom facilities, etc cannot be provided and 
        the ship is not docked? What rights does a passenger have when 
        a ship is ``dead in the water?''

  (2)  A passenger's right to have refunded by the cruise line the cost 
        of airfare to get to a cruise when a cruise is canceled because 
        of mechanical or other failure.

    And the following copied from my written testimony:

  <bullet> There is no mention of the recourse a passenger has if one 
        of the Rights is not fulfilled or realized.

  <bullet> There is no indication of how a partial refund will be 
        computed and whether that refund is provided in cash or, as 
        common in the industry, as a discount on a future cruise or an 
        onboard credit.

  <bullet> There is no mention of whether the cruise line is 
        responsible for ancillary costs when a cruise is cancelled, 
        including change fees for airline tickets and for the costs of 
        the tickets themselves, the cost of lodging required in travel 
        to the passenger's home city, and support for food and 
        incidentals associated with delays in getting from the ship to 
        the passenger's home city.

  <bullet> There is no mention of what rights a passenger has when a 
        port of call is canceled. Some cruise lines refund ``port fees 
        and taxes,'' however these are given as an onboard credit 
        rather than as a cash refund. As well, there is no transparency 
        with regard to the amount refunded. Some cruise lines average 
        the cost of port fees and taxes so a refund for one port is the 
        same as the other even though actual fees can vary widely from 
        one port to another. Also, it isn't transparent whether costs 
        other than port taxes and fees that are not paid by the cruise 
        line because of the canceled port call are also refunded to the 
        passenger. There is considerable need for greater clarity and 
        transparency around passenger rights when a port call is 
        canceled.

  <bullet> There is no mention of what rights a passenger has when a 
        cruise itinerary is changed, such as a cruise sailing the 
        Eastern Caribbean instead of the Western Caribbean because of 
        propulsion problems, or a cruise going to Canada instead of the 
        Caribbean because of weather. The Passenger Cruise Contract is 
        clear that the cruise line has no obligation or responsibility 
        to provide compensation in these situations. This absence of 
        rights should be clearly articulated in the Passenger Bill of 
        Rights.

  <bullet> There is no mention of the rights a passenger has when 
        embarkation is delayed. Does a passenger have a Right to meal 
        vouchers or compensation for meals purchased (as is common in 
        airline travel)? Also, after how many hours of waiting in a 
        cruise terminal is the cruise line obligated to provide either 
        lodging or a comfortable setting to wait? A comprehensive 
        Passenger Bill of Rights would address these situations given 
        the frequency of delayed embarkations.

  <bullet> There is no mention of a passenger's rights when a cruise 
        arrives late in its port of disembarkation, causing the 
        passenger to miss transportation arrangements for their trip to 
        their home city.

    In addition there are some rights that should be directly 
addressed.
    CLIA Cruise Passenger Bill of Rights should clearly articulate the 
rights of a passenger who is ``bumped'' from a cruise because of 
overbooking or other issues. The most recent cases involve Carnival 
Sunshine, which bumped passengers on its June 7, 2013, cruise because a 
number of cabins were needed for contractors completing work that was 
not completed while the ship was in dry dock. Similarly, passengers in 
78 cabins on Grandeur of the Seas were bumped from the July 12, 2013 
(and perhaps the July 19th), sailing because cabins were needed for 
workers who were still making repairs following the fire earlier in the 
year. Some of these bumped passengers had their cruise canceled because 
the ship had been out of service for repairs, and here they were bumped 
from their replacement cruise.\2\
---------------------------------------------------------------------------
    \2\ It is worth mention that Royal Caribbean Cruises Limited, in 
anticipation of these hearings and concern that the facts might paint 
an unkind picture, sent an e-mail to all employees asking them to write 
their Senator with the following text: Dear Senator, As one of your 
constituents and an employee of ______________________, one of the 
major cruise lines serving North America, I am contacting you today out 
of concern regarding the July 24 Senate Commerce Committee hearing 
regarding the cruise industry. As an individual who is intimately 
familiar with cruising, it is apparent to me that there has been a 
great deal of misinformation and distortion regarding the industry in 
recent months. As one of your constituents, I am concerned that the 
industry will be unfairly portrayed at this hearing. As someone that 
works in the cruise line industry, I know firsthand that cruising is 
extremely safe and well regulated at the national level, by the U.S. 
Coast Guard, and by international authorities. Additionally, the cruise 
industry directly benefits businesses in all 50 states, generating over 
355,000 jobs and over $42 billion in economic impact. It provides $17.4 
billion in wages to American workers each year. I would greatly 
appreciate your support to ensure that the cruise industry receives a 
fair and balanced hearing. Thank you for your time and attention to 
this matter and your service to our Nation. Sincerely, Your Name
---------------------------------------------------------------------------
    Similarly, the CLIA Cruise Passenger Bill of Rights should discuss 
a passenger's rights when they are expelled from a cruise ship, often 
for questionable reasons and the result is loss of cruise fare and 
their having responsibility for transportation from the port where they 
are left. Between January 2009 and June 30, 2013, there are eight cases 
list on my website where a passenger has been evicted or expelled 
(these are only ones reported in the media). These passengers have no 
right to appeal or recourse. The cruise line Cruise Passenger Contract 
gives them this unilateral, uncontestable Right to evict or expel, 
without liability.
    The CLIA Cruise Passenger Bill of Rights does not address a 
passenger's rights when they miss the ship because of flight delays or 
because of weather conditions (such as Hurricane Sandy in the fall of 
2013 when passengers lost their cruise fare because they couldn't get 
to the ship). The cruise lines generally take the position that this 
type of situation is not their problem. A passenger without trip 
insurance is responsible for lost cruise fares and/or additional travel 
costs to join the ship at a later point. Further, it there are reports 
that some benefits under trip insurance policies offered by the cruise 
line are more restrictive in the benefits they provide than insurance 
policies offered independent of the cruise line.
    The CLIA Cruise Passenger Bill of Rights does not address a 
passenger's rights to have safety concerns taken seriously. Though not 
the first time I have received this sort of information, on June 21, 
2013, I received the following from a cruise passenger:

        We have just disembarked after a 7-day Alaskan cruise aboard 
        Celebrity Solstice. We frequented the quasar dance club each 
        night. On night two I noticed at 2300 (11pm), when the club 
        only allows 18 and over, a crew member used a small rope to tie 
        the handles of one of the two exits closed to prevent access. 
        Not must looped but tied in a fashion that untying would be 
        impossible is a smoke filled environment or panic. This room is 
        required to have two emergency exits and this exit was clearly 
        marked '' emergency exit''. This happened three nights in a 
        row. I brought my concerns to the attention of guest services 
        requesting to speak to the ships Safety Officer. I was told 
        that another passenger had requested to speak with him also but 
        he stated that he was ``too busy with paperwork to speak to 
        anyone''. The guest services person apologized and drafted an 
        e-mail to him explaining my concerns and that I am a 28 year 
        firefighter. That night in quasar the doors were once again 
        tied closed. As of this writing no staff or crew has contacted 
        me. I would encourage that all passengers be aware of their 
        surroundings. It appears Celebrity is not concerned with safety 
        and if this blatant example of reckless disregard for its 
        passengers and crew in a public space is allowed to exist, then 
        I am wondering what other safety issues exist that we did not 
        see.

    It would seem this passenger's expectations were realistic, but 
they were ignored. Did he have any rights? And what rights were 
available for this disregard of concern for fire safety?
    Finally, the CLIA Cruise Passenger Bill of Rights does not address 
the Right to be free of sexual assault by crewmembers or cruise ship 
employees, or the Right to be free of other types of crime. This type 
of assurance seems only natural given the rate of sexual assault on 
cruise ships, but it is obviously one that would be difficult to 
fulfill (although no less difficult than some of the other rights 
included in the Passenger Bill of Rights). In this line of thought, the 
Passenger Bill of Rights should also contain a Right to contact the FBI 
directly from the ship when a victim of a crime. This Right is accorded 
by the CVSSA, so it should be provided, however most victims will be 
unaware of what is available to them without it explicitly being stated 
in something like a Passenger Bill of Rights. Alternatively, a cruise 
ship may be required to provide a crime victim with an information 
sheet outlining the rights and the options available to them, including 
the telephone numbers for relevant law enforcement agencies, and 
agencies that provide direct services or referral to services that are 
likely to be needed by the victim.

    Question 8. What recourse does the Bill of Rights provide to 
passengers have when one of these rights is violated?
    Answer. A common theme across all elements in the Passenger Bill of 
Rights is how a passenger deals with a Right that has not been 
fulfilled or has been directly violated. Are these rights ultimately 
governed by the cruise passenger contract that sets clear terms about 
when and how complaints and legal action must be filed, and where law 
suits must be filed? Forum selection clauses effectively limit a 
passenger's rights under the Passenger Bill of Rights given the 
requirement that legal action can only be taken in a court located in 
the state where the cruise line's corporate headquarters is located 
(most frequently Florida). The cruise passenger contract also includes 
a ``class action waiver,'' prohibiting a passenger from taking any 
legal action as a member of a class or as a participant in a class 
action. For many passengers these are impediments to taking any action 
and they often resign to accepting whatever the cruise line offers, if 
anything.
    The cruise industry's representatives claimed at the hearings that 
the CLIA Passenger Bill of Rights is not superseded by the passenger 
contract, however what this actually means remains unclear. It is 
unclear what recourse a passenger has when a right has not been 
fulfilled, and it is unclear through what forum this recourse is 
sought. Cruise passenger contracts have not yet changed.
Contract Limitations
    According to your written testimony, cruise line contracts include 
``extreme limits'' on the company's liability, including requirements 
about where a passenger must file a suit and how quickly they must 
bring the suit.

    Question 9. These ticket contracts generally require that all law 
suits be filed in Florida. Does this mean that even though a passenger 
might buy a ticket in West Virginia and leave from a port in Maryland, 
they have to go all the way to Florida to pursue a lawsuit?
    Answer. Based on the forum selection clause in the passenger cruise 
contract any lawsuit must be filed in the court where the cruise line 
is headquartered--for Princess Cruises it is Los Angeles, for Holland 
America Line Seattle, and for many others Miami. This is a huge 
disadvantage, if not impediment, to a passenger from out of state of 
the cruise line's headquarters (e.g., West Virginia, Arizona, Vermont). 
Many will initially contract with a local attorney who needs in turn to 
be represented by an attorney in Florida. Alternatively, the passenger 
may contract directly with a Florida-based attorney, but there is a 
challenge locating and getting to know one. In any case, access to 
court of law is quite difficult (if not costly) for the average cruise 
ship passenger.

    Question 10. What impact do these provisions have on a passenger's 
ability to pursue legal recourse?
    Answer. This lack of recourse means that many problems, complaints, 
and justified claims against cruise lines are never pursued. If legal 
recourse were more readily available, then cruise passengers feeling 
wronged may feel like their concerns can be heard. Another option 
(perhaps complimentary) is for an agency within the Department of 
Transportation to deal with consumer complaints regarding the cruise 
industry.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
